<html>
<title> - USE AND MISUSE OF SOCIAL SECURITY NUMBERS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
               USE AND MISUSE OF SOCIAL SECURITY NUMBERS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           MAY 9 AND 11, 2000

                               __________

                             Serial 106-108

                               __________

         Printed for the use of the Committee on Ways and Means






                     U.S. GOVERNMENT PRINTING OFFICE
68-072 DTP                   WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402






                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                  E. CLAY SHAW, Jr., Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 SANDER M. LEVIN, Michigan
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               BENJAMIN L. CARDIN, Maryland
KENNY HULSHOF, Missouri
JIM McCRERY, Louisiana


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              MAY 9, 2000

                                                                   Page

Advisory of May 2, 2000 announcing the hearing...................     2

                               WITNESSES

U.S. General Accounting Office, Barbara D. Bovbjerg, Associate 
  Director, Education, Workforce and Income Security Issues, 
  Health, Education, and Human Services Division.................    24
Social Security Administration, Hon. James G. Huse, Jr., 
  Inspector General, Office of the Inspector General.............    37

                                 ______

Stevens, John T., Jr., and Mary Elizabeth H., Upper Marlboro, 
  Maryland.......................................................     7

                              MAY 11, 2000

                               WITNESSES

American Association of Motor Vehicle Administrators, Katherine 
  Burke Moore....................................................    95
American Council of Life Insurers, Roberta Meyer.................   104
Associated Credit Bureaus, Inc., Stuart K. Pratt.................    83
Electronic Privacy Information Center, and Georgetown University 
  Law Center, Marc Rotenberg.....................................    99
Hostettler, Hon. John N., a Representative in Congress from the 
  State of Indiana...............................................    70
Kleczka, Hon. Gerald D., a Representative in Congress from the 
  State of Wisconsin.............................................    62
Markey, Hon. Edward J., a Representative in Congress from the 
  State of Massachusetts.........................................    67
McDermott, Hon. Jim, a Representative in Congress from the State 
  of Washington..................................................    60
Paul, Hon. Ron, a Representative in Congress from the State of 
  Texas..........................................................    73
United States Public Interest Research Group, Edmund Mierzwinski.    90

                       SUBMISSIONS FOR THE RECORD

American Target Advertising, Inc., Manassas, VA, Mark J. 
  Fitzgibbons, letter and attachments............................   136
Anderson, Robert J., Mineral, VA, statement and attachment.......   138
Home School Legal Defense Association, Purcellville, VA, 
  Christopher J. Klicka, statement...............................   139
Hyatt, Gil, Las Vegas, NV, statement and attachment..............   144
Liberty Study Committee, Falls Church, VA, Kent Snyder, statement   150


               USE AND MISUSE OF SOCIAL SECURITY NUMBERS

                              ----------                              


                          TUESDAY, MAY 9, 2000

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 1100, Longworth House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY
FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

FOR IMMEDIATE RELEASE

May 2, 2000

No. SS-17

                       Shaw Announces Hearing on

               Use and Misuse of Social Security Numbers

    Congressman E. Clay Shaw, Jr., (R09FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing to examine the increasing use 
and misuse of Social Security numbers (SSNs). The hearing will begin on 
Tuesday, May 9, 2000, in the main Committee hearing room, 1100 
Longworth House Office Building, beginning at 10:00 a.m. The hearing 
will be continued on Thursday, May 11, 2000, also in 1100 Longworth 
House Office Building, beginning at 2:00 p.m. The first day of the 
hearing will provide an overview of the issue and discuss current laws 
and proposals to protect SSNs from misuse. The second day will focus on 
the advantages and disadvantages of restricting the use of SSNs.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives of the U.S. General Accounting 
Office, the Social Security Administration's Office of Inspector 
General, watchdog groups promoting privacy concerns, and affected 
industries. However, any individual or organization not scheduled for 
an oral appearance may submit a written statement for consideration by 
the Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The SSN was created in 1936 solely for the purpose of tracking 
workers' Social Security earnings records. Today, approximately 277 
million individuals have SSNs. Because of its near universal coverage 
as a unique identifier of individuals in the Social Security system, 
the SSN is commonly used as a personal identifier in other settings. 
For example, use of the SSN is required, by law, for the administration 
of several Federal programs, such as the income tax, Food Stamp 
program, and Medicaid. SSNs are also commonly used in the private 
sector for record-keeping and data exchange systems. Consequently, use 
of the SSN has expanded significantly beyond its original purpose. 
According to the Social Security Administration (SSA), the SSN is the 
single-most widely used personal identifier in the public and private 
sectors.
      
    Some believe that the expanded use of the SSN benefits the public 
by improving access to financial and credit services in a timely 
manner, reducing administrative costs, and improving record-keeping so 
consumers can be contacted and identified accurately. Others argue that 
the pervasive use of SSNs makes them a primary target for fraud and 
misuse. Allegations of fraudulent SSN use increased from 10,915 in 
fiscal year 1998 to 30,115 in fiscal year 1999--a 175 percent increase. 
SSA and its Office of Inspector General have increased efforts to 
combat fraudulent use of SSNs through jointly-developed ``zero 
tolerance for fraud'' initiatives. In addition to concerns about SSN 
misuse, privacy concerns have also been raised as companies 
increasingly share and sell personal information without the customer's 
knowledge or consent.
      
    There are two primary laws aimed at protecting privacy and reducing 
SSN misuse. The Privacy Act of 1974 prohibits Federal agencies from 
disclosing personal information, including the SSN, without the 
individual's consent. The Identity Theft Act, enacted in 1998, makes it 
a Federal crime to assume another person's means of identification. 
However, no Federal law regulates the overall use of SSNs and Federal 
laws neither require nor prohibit other public and private uses of the 
SSN. As a result, several legislative proposals have been introduced 
that would restrict SSN use. These proposals are aimed at protecting 
consumer privacy and curbing fraudulent use of SSNs. Some believe that 
proposals to restrict the use of SSNs would negatively impact many 
businesses and State and local governments which rely on SSNs to 
administer transactions and provide services.
      
    In announcing the hearing, Chairman Shaw stated: ``This hearing 
will explore how Social Security numbers are used and sometimes 
misused. We will consider ways to better protect Americans' privacy and 
security, and what ramifications--both positive and negative--such 
changes may have. Given the importance of this issue and how interwoven 
SSNs have become in the fabric of our information society, it is 
critical that changes are assessed with great care.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the widespread use of SSNs in the public 
and private sectors. The growing misuse of SSNs and associated costs 
will also be discussed. The hearing will examine current laws which 
restrict or regulate SSNs and the adequacy of these laws. The hearing 
will also examine legislative proposals aimed at combating SSN misuse 
and protecting privacy. The ramification of these proposals on 
businesses, governments, and consumers will also be examined.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Thursday, 
May 25, 2000, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Social Security office, room B09316 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect or 
MS Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``waysandmeans.house.gov''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 20209225091721 or 20209226093411 TTD/TTY in advance of the event 
(four business days notice is requested). Questions with regard to 
special accommodation needs in general (including availability of 
Committee materials in alternative formats) may be directed to the 
Committee as noted above.

                                <F-dash>


    Chairman Shaw. Good morning. I apologize for being about 
ten minutes late starting this morning.
    Welcome to the first day of our two-day hearing about a 
topic that is on many people's minds today. That is privacy and 
security of their personal information, starting with their 
Social Security number.
    Just about everyone's privacy and financial security depend 
upon seeing these numbers used as originally intended, that is, 
to track our earnings so Social Security knows whether we 
qualify for benefits and what we should get.
    Today, our interests go well beyond that. Social Security 
numbers have evolved into every corner of our lives from 
qualifying for other government benefits to collecting child 
support to obtaining instant credit. We value these expanded 
uses when we want to buy and drive home a car on the same day, 
on a Saturday afternoon. Yet many have started to wonder about 
the proliferating uses of Social Security numbers and the 
privacy and security implications of all of this.
    Most telling are the rapidly rising allegations of fraud 
involving Social Security numbers. That is cause for great 
alarm. That is why we are holding these extended hearings. We 
need to carefully consider the causes and consequences of the 
expanded use and increasing misuse of Social Security numbers.
    While we are committed to finding better ways to combat 
fraud, we need to carefully consider the consequences of any 
actions on this complicated issue.
    With us today are two people who know too much about Social 
Security number fraud. John T. and Mary Elizabeth Stevens will 
tell us how their lives were turned upside down by someone who 
stole their Social Security numbers. They lost their credit 
rating, were refused loans, incurred large legal bills and 
spent three years fighting to get their good names back and 
their battle still isn't over.
    Next, the General Accounting Office will provide an 
overview of the effect of limiting the use of these numbers for 
government and private businesses.
    Then Social Security's Inspector General will provide 
specific recommendations for improving systems designed to 
protect the privacy and security of Social Security numbers.
    Later this week, we will hear from privacy experts, 
consumer advocates and representatives of industries that use 
Social Security numbers in the course of their business. We 
will also consider legislative recommendations of outside 
groups as well as members of Congress. Clearly, we won't suffer 
from the lack of ideas to better protect everyone who has a 
Social Security number.
    To be sure, better protecting Social Security numbers is 
only one piece in the puzzle of combating identity theft. No 
one proposal will constitute a total solution. Since Social 
Security numbers often represent the entry point for ripoff 
artists and identity thieves, there is no better place that we 
should start. We will find that each proposal we consider comes 
with tradeoffs, often balancing privacy and security against 
commerce and efficiency.
    Just because this is complicated and difficult doesn't mean 
we should not act. Indeed, we should. In the coming weeks, with 
the support of the Administration and our colleagues on this 
panel, we can approve legislation to better protect Social 
Security numbers from misuse. In my view, such legislation 
should increase fines and penalties for identity theft, give 
the Inspector General new powers to catch thieves and better 
protect the privacy and integrity of Social Security numbers.
    As I mentioned, that will not solve all problems of 
identity theft, many of which stretch far beyond our 
subcommittee's reach. If we can take some common sense and 
bipartisan steps in the right direction, indeed we should.
    I look forward to working with all of our witnesses and all 
of our members to do the right thing.
    At this time, I yield to Mr. Matsui for any remarks he 
might want to make.
    Mr. Matsui. Thank you very much, Chairman Shaw.
    I appreciate the fact you are holding these hearings. I 
think they are extremely important. Last year my staff advised 
me there were 19,000 reported cases of Social Security fraud 
and abuse and we suspect there were many more. With the 
increased use of the Internet, I suspect unless the Congress 
gets involved in this issue in a very substantive way, we will 
probably see more and more fraud and abuse. Certainly with both 
the Social Security number and a driver's license, a criminal 
can do almost anything he or she wants in terms of getting 
private information from our citizens.
    I look forward to hearing from Colonel and Mrs. Stevens, 
the GAO and the Inspector General of the Social Security 
Administration.
    I want to thank you, Chairman Shaw, for your leadership on 
this issue and certainly I look forward to working with you in 
a bipartisan fashion.
    Thank you.
    [The opening statement of Mr. Matsui follows:]

Opening Statement of Hon. Robert T. Matsui, a Representative in 
Congress from the State of California

    I would like to thank the Chairman for holding this 
hearing. Our topic today is extremely important as it affects 
every American, young and old, whether or not they currently 
collect Social Security.
     The Social Security number is almost as old as the program 
itself. Created in 1936 to keep track of workers' earning 
records, the uses of the Social Security number have extended 
far beyond its original intent, to the point where it is now 
commonly used as a personal identifier.
    These days, it is quite common to give out one's Social 
Security number--for record keeping, on health forms, to obtain 
a drivers license or to sign up for a government program such 
as Medicaid.
    Unfortunately, there is some risk associated with the 
expanded use of the Social Security number. Since the Social 
Security number can be linked with confidential information, 
there is the possibility that if it falls into the wrong hands, 
an individual's Social Security number and information could be 
mis-used as Lt. Col. John T. Stevens will testify to this 
morning.
    Common areas for fraud and abuse of the Social Security 
number include counterfeiting Social Security cards for 
citizenship and fraudulently collecting government benefits. 
And it seems that the problem is growing worse. From FY 1998 to 
FY 1999, there was an increase of 19,200 allegations of 
fraudulent Social Security number use. That is a startling 
number.
    Because of this potential, many people are concerned about 
their ability to protect their privacy. On Thursday we will be 
hearing from Members of Congress who will talk about their 
legislation to increase privacy protections and combat the mis-
use of the Social Security number.
    Today we will hear from Barbara Bovbjerg, Associate 
Director of the General Accounting Office, and James Huse, 
Inspector General of the Social Security Administration. Both 
of these witnesses will discuss their agencies' findings on the 
use and abuse of the Social Security number.
    We will also hear from Lt. Colonel John Stevens and his 
wife Mary who had the unfortunate experience of discovering 
firsthand the horrors of having their lives turned upside down 
from identity theft.
    I want to welcome all of our witnesses. I look forward to 
hearing your testimony and to working with my Republican 
colleagues to address this growing problem.
    Thank you. 
      

                                <F-dash>


    Chairman Shaw. Thank you.
    Should any other member have an opening statement, we will 
make that a part of the record.
    [This opening statement of Mr. Portman follows:]

 Statement of Hon. Rob Portman, a Representative in Congress from the 
State of Ohio

     Thank you, Mr. Chairman, for holding this hearing today on 
a critical issue.
     As we're learning, one of the negative consequences of the 
digital economy is that what most of us consider to be private 
personal information is becoming neither private nor personal.
     The Social Security Number is a perfect case in point. 
While there are some laws and regulations that require and 
restrict use of the Social Security Number within certain 
federal programs, these could be improved. I have real concerns 
about the lack of restrictions on the use and privacy 
protections on Social Security Numbers by state and local 
governments and the private sector.
     Mr. Chairman, Americans are increasingly concerned that 
the benefits of the information age are coming at the expense 
of their personal privacy. I hope this hearing will help shed 
some additional light on this problem -and I hope that this 
Congress will consider taking appropriate action to protect the 
taxpayers of this country against unauthorized, unnecessary or 
fraudulent use of their Social Security Numbers.

                                <F-dash>


    At this time, I would like to recognize our first panel 
whom I mentioned in my opening statement, Lieutenant Colonel 
Stevens and Mrs. Stevens. You may proceed as you wish.
    We have the text of your full statement and you may 
summarize as you see fit.

STATEMENT OF LIEUTENANT COLONEL (RETIRED) JOHN T. STEVENS, JR., 
                    UPPER MARLBORO, MARYLAND

    Colonel Stevens. I have summarized the full statement and 
this is what I will present today.
    My wife and I are encouraged that this subcommittee is 
looking into the widespread use and misuse of the Social 
Security number. We have experienced this misuse for over three 
years now. We hope by testifying here today, we can alert 
others to the danger of this crime and the toll it takes on 
your life to fight it.
    This horrible nightmare started in March 1997 with a phone 
call from Nations Bank, demanding payment on a 1997 Jeep 
Cherokee, which of course I don't have. We immediately 
requested our credit reports from the three major credit 
reporting agencies. The total damage was 33 fraud accounts with 
a value of $113,000.
    We wrote letters to the credit reporting agencies listing 
the fraud accounts and requesting their removal. When this 
approach failed, we hired an attorney to write to them. This 
did not work either. I then used the Internet to locate the 
fraud accounts, identify a point of contact and have our 
attorney send them a sworn affidavit.
    We cleared most of the fraud accounts and data in about a 
year. There were some creditors, however, who refused to accept 
our affidavits. The nightmare continues.
    When some creditors delete an account, it is transferred to 
a third party collection agency. This returns the account to 
our credit report under their name and with the same account 
number. So far, we have had to deal with over 14 third party 
collection agencies. They are nasty people to deal with.
    When we refused to pay even a reduced amount to close the 
account, it is transferred to another collection agency. My 
wife has had one account recycled six times to different 
collection agencies. I have had one recycled four times within 
the same collection agency. They are all from accounts that 
have been previously cleared.
    We have received some copies of the applications that 
opened these accounts. Usually only a first and last name is 
listed. Sometimes a wrong middle initial is given, various 
spellings of the last name, different places of employment, 
birthdays, home addresses all are listed. Usually the only 
correct item is a Social Security number. The creditor approves 
these applications after the information is verified by the 
credit reporting agency. Although we have lived in Maryland for 
over 35 years, neither the creditor not the credit reporting 
agency, questioned a home address in Texas, the opening of 
numerous accounts in different States or any other significant 
changes to our personal data.
    My wife currently has a default judgement against her in 
Texas. This is for furniture bought and delivered to an address 
there. It was repossessed from the same address when the loan 
defaulted. The furniture company obtained a default judgment 
against the name listed on the application. This is not my 
wife's name. The credit reporting agency then listed it in my 
wife's credit report.
    Our attorney wrote to the furniture company to have the 
judgment vacated. The furniture company stated in a letter back 
to him, that they had used the items in the application to 
check our credit file with the Credit Bureau of North Texas. It 
was approved even though the Social Security number was the 
only correct item in the application. The judge never 
responded.
    The Social Security number is the primary and sometimes the 
only means of identification required to open an account. Any 
variation of a name, address and place of employment, age or 
spouse name is acceptable. When the account goes bad, the 
correct address is located and the harassment begins.
    When you challenge a fraud account, a 30-day investigation 
is initiated. This investigation is usually a farce. The usual 
finding is that the information being recorded is correct. As 
long as there continues to be a lack of responsibility and 
accountability by the creditors and the credit reporting 
agencies and the Social Security number is considered a 
national personal identification number or PIN, we will have a 
problem of identity theft.
    Our Social Security numbers are available on the network of 
DOD computers and through DEERS. We have to put our Social 
Security number, home address, telephone number and rank on a 
check to pay for purchases in the base exchange or the 
commissary on any military base. The Andrews Federal Credit 
Union uses a Social Security number for an account number. The 
last four digits in your Social Security number must be 
provided to have clothes cleaned or altered at Andrews Air 
Force Base. Civilian medical facilities, which we are now 
forced to use, demand our Social Security number and our 
driver's license number. Merchants ask for a Social Security 
number and a drivers' license number to write on your check or 
charge slip. Our greatest vulnerability to fraud, however, is 
on a military base where the Social Security number is openly 
used and not fully protected from unauthorized disclosure.
    I believe that the creditors who accept fraudulent 
information from an imposter and the credit reporting agencies 
that ignore these obvious changes should be held equally 
responsible for the mental, physical and monetary damage caused 
by their negligence. They are just as guilty of fraud as the 
imposter who opens the account.
    We do not want to spend the rest of our lives correcting 
the fraud accounts and false data that so easily becomes a part 
of our credit reports. We are prevented from buying a home, 
establishing a credit account, making purchases and leading a 
normal life. We are tired of the harassing phone calls and the 
threatening letters.
    I am now 72 years old and my wife is three years younger 
than me. We have been married for over 45 years. We hope some 
day soon that we can get our lives back and begin to enjoy our 
retirement in the time we have left to be together in this 
world.
    We do not consider ourselves victims. It doesn't fit. I 
prefer the designation targets. A target can take evasive 
action, Activate counter measures and fight back. Our warrior 
instinct drives us to keep going until we win this battle. We 
intend to fight this crime with every resource we can muster. 
We have been assisted by many people and we wish to express our 
thanks for their help and encouragement.
    I would also like to thank this subcommittee for 
recognizing that there is a very severe identity theft problem 
in this country caused by the free access and widespread use of 
the Social Security number as a primary and sometimes the only 
means used to identify a person. I hope that with your 
continued concern and support this national problem will be 
contained and solved. My wife and I thank all of you.
    [The prepared statement follows:]

Statement of Lieutenant Colonel (Retired) John T. Stevens, Jr., and 
Mary Elizabeth H. Stevens, Upper Marlboro, Maryland

    My wife and I are encouraged that this subcommittee is 
looking into the widespread use and misuse of the social 
security number. We have experienced its misuse now for over 
three years. We are sure that very few people realize the 
problems that this little 9-digit number can create. It has 
reached the point that names and other personal data don't 
matter anymore. This 9-digit number is the only correct 
identification you need to initiate major credit transactions 
and other purchases. We hope that by testifying here today, we 
can alert others of the danger of this crime and the toll it 
takes on your life to fight it.
    Since March 1997 my wife and I have been going through 
hell. We have received harassing phone calls, been yelled at, 
insulted, humiliated and accused of not paying our bills and 
defaulting on loans. We have been denied credit and been forced 
to pay cash for major items that would normally be financed. 
Our Maryland home has been under surveillance and my 1990 Ford 
Bronco was almost towed by Nations Bank (now Bank of America) 
attempting to repossess a 1997 Jeep Cherokee.
    I am a retired Air Force officer. While on active duty, a 
breach in fiscal responsibility or personal integrity would 
have ended my career. After an automobile accident forced me to 
retire in 1972, I was employed as a physicist at The Johns 
Hopkins University Applied Physics Laboratory. I was trusted by 
both government and industry to have the integrity, experience 
and knowledge to analyze, test and evaluate advanced and 
complex weapon systems. Any breech of fiscal or personal 
responsibility would have affected my security clearance and my 
employment. My wife and I had always paid our bills on time and 
never defaulted on any obligation. Since retiring from The 
Johns Hopkins University, we have been looking forward to 
moving to South Carolina to be with my 96-year-old mother and 
enjoy being closer to our grandchildren. All these plans ended 
very quickly when we discovered that our social security 
numbers and names had been used to open 33 fraud accounts with 
a total value of $113,000. Our credit had been destroyed.
    We did not know this was happening until March 1997. I 
received a phone call from Nations Bank, demanding payment on a 
Jeep Cherokee purchased in Texas. This was our first 
realization that something was wrong. When we requested credit 
reports from the major credit-reporting agencies, we were 
shocked to learn the extent of the damage done to our credit 
and our lives. Our attempts to clear these accounts through the 
credit-reporting agencies failed. They would initiate a 30-day 
investigation and then tell us that the information being 
reported is correct. We hired an attorney to contact them. He 
was also ignored. I was forced to locate the address and phone 
numbers of these fraud accounts by using the Internet, as the 
credit reports did not provide this information at that time. 
After we verified the location of a fraud account by calling 
them and establishing a point of contact, our attorney would 
send them a sworn affidavit stating that we are not the persons 
who opened this account. It is ironic that we were being 
required to prove a negative. We have since learned to make the 
creditor prove their assumption that we opened an account with 
them by insisting that they send us a copy of the application, 
the delivery tickets, or charge receipts.
    In less than a year we cleared the initial reports of the 
fraud data, and all of the fraud accounts we could identify and 
locate. When a fraud account is established, the new address, 
birthday, place of employment and other personal data, 
submitted in the application, all become a part of that credit 
record. We have had to continuously write or call the credit-
reporting agencies to remove the same fraud data that keeps 
reappearing in our credit reports. This information should be 
used to identify or flag an application as being legitimate or 
false. For instance, the date of birth submitted on the 
applications that I have received indicated that the social 
security number was issued before the applicant was born. 
Although we have lived in Maryland for over 35 years, 
applications were readily approved for an address in Texas. The 
social security number was the only consistent item in the 
copies of the applications that we have received. It was the 
primary identification factor required by the creditors and the 
credit-reporting agencies.
    Some of the creditors clear the fraud accounts at the 
credit-reporting agency and then assign them to a third party 
collection agency. The delinquent or charged off fraud accounts 
then reappears on our credit reports with a different name and 
the process starts over. We have cleared our reports of all 
identifiable fraud data at least three times. These accounts 
seem to reappear on the credit report about every three to six 
months. Some collection agencies recycle the account within 
themselves or pass it over to another collection agency. This 
has occurred even after they have sent us a letter clearing the 
account or they have verbally cleared it through a telephone 
call. Dealing with credit-reporting agencies that keep 
reinserting fraud data and accounts in your report and 
collection agencies that keep recycling cleared fraud accounts 
is like the trick candle that keeps re-lighting itself every 
time you blow it out. To partially quote Forrest Gump, `` 
Getting a credit report is like opening a box of chocolates, 
you never know what you are going to get.''
    Third party collection agencies are rude, nasty, and mean 
to deal with. We have dealt with more than 14 of them. We have 
dealt with one agency four times on the same account. One of 
the worst and meanest companies to deal with was Household Bank 
Credit Services. Their representative was demanding, nasty and 
rude to both my attorney and me. He refused to accept the sworn 
affidavit that we had previously sent to clear the account. He 
would only accept their forms. When we refused to resubmit in 
their format, the account was transferred to Gulf State Credit 
in Atlanta, Ga. So far Gulf States has recycled it four times 
since initially clearing it in July 1997. This account is for 
an Oreck vacuum cleaner bought over the phone and delivered to 
an address in Texas. It is still on my latest credit report. 
Norwest Bank in Lubbock, Texas closed a fraud account opened in 
their Wichita Falls branch after an affidavit was sent to them 
on May 29, 1997. The same account showed up again with Mountain 
States Adjustment in Golden, CO. Again the social security 
number was the primary means of identification used in opening 
these accounts and in locating and harassing us. It did not 
matter to them that we have never lived in Texas.
    My wife has a cell phone charge that has been recycled 
through four different third party collection agencies. This 
account has had a resurfacing period of four to six months. It 
should reappear at any time now, as it has been dormant for six 
months. There is also a jewelry purchase of over $2000 that 
keeps showing up in her records. The initial purchase was made 
in Texas and has cycled through six different third party 
collection agencies. Even though it has been verbally cleared 
it just resurfaced again on April 10, 2000.
    There is a new fraud account listed on my latest Trans 
Union report. It is charged off as a bad debt. The name is GECS 
CARE CR with an account number. There is no address or phone 
number. By using the account number listed I traced this 
account back to a fraud account with a company called Lew 
Magram Credit located in Tulsa, OK. They were sent a letter and 
affidavit in May 1997. The account was deleted from my credit 
report on July 7,1997. This account has now resurfaced through 
this third party collection agency and is now appearing on my 
credit report. Again my social security number was used to open 
the account and to reinstall it in my credit report. We have 
never lived in Oklahoma or opened any accounts there.
    My wife currently has a default judgment against her in 
Texas. Greens Furniture Company opened an account using her 
social security number, her first and last name with a 
different middle initial. The application was not completely 
filled in. A desk was delivered to the address shown on the 
application in Wichita Falls, Texas. It was later picked up 
from the same address when the loan defaulted. A default 
judgment was issued when no one showed up in court. This 
judgment is now on my wife's credit report listing our address 
in Maryland. Our attorney called the store and the Judge to get 
the judgment vacated. Neither the Judge nor the furniture 
company has bothered to correct their error or notify us of any 
action taken. The furniture company stated, in a letter, that 
they had no reason to doubt the person's identity, as the 
social security number and other information was checked by the 
Credit Bureau of North Texas.
    It is frustrating to know that a social security number is 
the primary identification required in opening an account. Any 
variation of a name, address, place of employment, age, or 
spouse name will be accepted without a challenge. When the 
account goes sour, the address and owner of the social security 
number is suddenly discovered and that person is now held 
responsible for the debt. When a fraud account is opened 
through the negligence and lack of attention of the creditor 
and the credit-reporting agency, there is little concern shown 
about correcting the damage done to the person whose name and 
the social security number was used. Their 30-day investigation 
is a farce, as it usually shows that the information provided 
(by the creditor) is correct. Even when the account is cleared, 
it may be assigned to a third party collection agency. Only one 
person in all of the 33-fraud accounts bothered to apologize to 
us. She was a loan officer at Nations Bank in Wichita Falls, 
Texas. She stated that she met and talked with John and Mary 
Stevens when they applied for a loan. When she described the 
couple as being in their late 30's, I pointed out to her that 
this meant my social security number had been issued before 
they were born. As long as there continues to be a lack of 
responsibility and accountability by creditors and credit-
reporting agencies and the social security number is considered 
as a National Personal Identification Number (PIN), we will be 
faced with this problem of identity theft. Who would provide 
his or her ATM PIN to anyone requesting it?
    When asked if I had filed a police report, I answered no. 
Identity theft was not a crime in the state of Maryland and in 
many other states when this started in 1997. Also, the 
creditors are considered the victims of fraud, not the person 
whose identity was stolen. Some states, including Maryland, 
have now passed laws making identity theft a crime. Since the 
Maryland bill amended so many other statutes, I have never seen 
a clean copy of the law so I am really not sure what it covers. 
Maryland just passed another law, to be signed this month, that 
limits the use of the social security number on identification 
cards or putting it on a driver's license. South Carolina is 
considering a bill that is one of the toughest in the nation. 
It includes the unauthorized sharing of personal information 
for business or promotional purposes without their written 
approval. Prince George's County in Maryland just recently 
passed a law making it a misdemeanor to assume someone's 
identity. The federal law, recently passed, may provide some 
help if it is properly funded. Since we had spent over $6000 in 
attorney fees plus other expenses such as long distance 
telephone calls, I requested help from my USAA homeowner's 
insurance policy under their credit card theft coverage. Their 
reply was `` There has been no direct physical loss to personal 
property; and, no apparent actual credit card forgery on 
accounts established by you, or issued to you. Having your 
credit record questioned is not a loss that would be covered in 
our policy contract, even under the Additional Coverage 
provision of your policy.'' They weasel-worded themselves out 
of that one. Having your identity stolen is not an insurance 
covered crime.
    My wife first had to use her own social security number on 
her Air Force dependents ID card in 1996. Social security 
numbers are available on the network of DOD computers and 
through DEERS. In addition, your social security number, home 
address, telephone number and rank must be placed on your check 
to make purchases in a Commissary or Base Exchange on any 
military base. The Andrews Federal Credit Union uses it as an 
account number. Even to have clothes altered or cleaned on a 
base requires the last four digits of your social security 
number. Civilian medical facilities, which we are now forced to 
use, want both your social security number and your driver's 
license number. Our Medicare number is the social security 
number with a letter suffix. Merchants ask for a social 
security number and driver's license number to write on your 
check or charge card slip. My wife and I have resisted giving 
them this information. We would state that they might look at 
any identification we have, but they do not have our permission 
to write down any numbers. If they insisted, we walk away and 
leave our intended purchases at the checkout counter. Our 
greatest vulnerability to fraud is on a military base where a 
social security number is openly used and not fully protected 
from unauthorized disclosure.
    Treating a social security number with the same respect and 
handling as a classified document would alleviate some of the 
problems now being experienced. To receive a classified 
document, the recipient must have the proper clearance and a 
valid need-to-know for that information. It must be properly 
stored, protected and accounted for. Any loss or improper use 
is subject to severe penalties.
    The creditors who accept the fraudulent information from an 
imposter and the credit-reporting agencies who do not recognize 
or warn of the obvious changes in names, addresses, age, and 
other personal data that might indicate fraud should be held 
equally responsible for the mental, physical and monetary 
damages caused by their negligence. They are just as guilty of 
fraud as the imposter who opens the account. A representative 
of a credit-reporting agency told me that all the information 
they collect on a person is their property to distribute and 
sell to their clients. If they accept and distribute false and 
damaging data about a person, it seems that the damaged person 
should be allowed to sue them for liable, defamation of 
character and mental stress as well as recover the expenses 
incurred in repairing the damage they caused. After all, they 
said they own the data.
    We do not want to spend the rest of our lives correcting 
the false data and fraud accounts that are accepted into our 
credit reports. We are prevented from establishing credit 
accounts, making required purchases and leading a normal life. 
We are tired of the harassing phone calls and the threatening 
letters. I am now 72 years old and my wife is 3 years younger. 
We have been married for over 45 years. We hope someday soon 
that we can get our lives back and begin to enjoy our 
retirement and the time we have left to be together in this 
world.
    I have cited just a few of the many problems and some of 
the numerous frustrations that we have encountered in trying to 
restore our lives from the wreckage that this crime causes. We 
do not consider ourselves victims. It doesn't fit. I prefer the 
designation ``TARGETS.'' A target can take evasive action, 
activate countermeasures and fight back. Our warrior instinct 
drives us to keep going until we win this battle. We intend to 
fight this crime with every resource we can muster. We could 
not have made it this far without the help, advice and 
encouragement of people like Beth Givens, Ed Mierswinsky, Mari 
Frank and Cynthia Lamb. Without them we might still be fighting 
33-(or more) fraud accounts, waiting on the credit-reporting 
agencies to complete their 30-day investigation, stating that 
the information being reported is correct, and being insulted 
and harassed by third party collection agencies. We want to 
thank them for helping us through some very rough times. They 
gave us the encouragement, the knowledge and the courage to 
keep fighting and in knocking down those stonewalls that keep 
getting in our way. I would also like to thank this 
subcommittee for recognizing that there is a very severe 
identity theft problem in this country, caused by the free 
access and wide spread use of the social security number as the 
primary and sometimes the only means to identify a person. I 
hope, that with your continued concern and support, this 
national problem will be contained and solved. My wife and I 
thank all of you.

                                <F-dash>


    Chairman Shaw. Mrs. Stevens, do you have a statement?

    STATEMENT OF MARY ELIZABETH H. STEVENS, UPPER MARLBORO, 
                            MARYLAND

    Mrs. Stevens. I just wanted to say that we really do 
appreciate being able to share our what I would call ``Stevens 
Soap Opera'' at this point. It is not a very pleasant one.
    We would like to see that others, as many as we can 
prevent, from going through this kind of nightmare by working 
together and with your help. We do appreciate you going into 
this problem.--I think we can ace it.
    It has really been an interesting experience and one we 
could have done without.
    May I leave you with a quick quotation. There is the 
saying, ``A diamond is not polished without friction, nor man 
without adversity.'' My husband seems to think, and I do, too 
that we have had enough polishing, but I guess it is going to 
go on for a while longer until we can solve it.
    Thank you so much, all of you, for your help.
    Chairman Shaw. Thank you, both.
    Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    It is a pleasure to have you all with us.
    Do you feel there is any connection between the military 
and your problems, the Social Security number in particular?
    Colonel Stevens. All I know is when my wife first had to 
put her Social Security on her own dependent's ID card, the 
fraud seemed to increase, it seemed to start at that point. We 
have no proof that was what did it or if it was just a 
coincidence.
    Also, our Social Security numbers are listed in all the DOD 
computers which you can access at any base, anywhere they are 
located. We also used to come under the medical facility, 
DEERS, until they kicked us out. Our numbers were available 
there too.
    Mr. Johnson. But those numbers are the military 
identification number as well. What do you want them to do?
    You were probably in the service at the same time I was, I 
remember when we had different numbers. They went to the Social 
Security number because it was easier to collate. It is listed 
on your ID card just as a number; it doesn't say it is a Social 
Security number.
    Colonel Stevens. It is so easily identifiable, it is only a 
nine digit number. It is on everything we have to do. You 
cannot even get clothes drycleaned without leaving your last 
four. Whenever you make a purchase and use a check, you have to 
put all that information on it.
    They may protect it themselves, say in the base exchange 
system, but it has to go through a lot of people before it gets 
back to you as a canceled check. Anyone along the way can pick 
off this information and use it, as we suspect probably 
happened.
    Mr. Johnson. My experience has been that you don't have to 
put that number on a check.
    Colonel Stevens. No, sir. We just gave something an article 
that was in the Air Force Times that says it must be on your 
check and that there is a law that requires that.
    Mr. Johnson. Wait a minute. I don't think there is any law 
that requires that.
    Colonel Stevens. On a military base, to use any of their 
facilities like a base exchange or a commissary, you have to 
put your Social Security number, home address, phone number, 
rank and all the other information on your check before they 
will cash it.
    Mr. Johnson. It is called a military ID number too. I 
understand what you are saying but I don't think there is any 
Federal law that requires that.
    Colonel Stevens. This article is in the Air Force Times.
    Mr. Johnson. It is probably a military regulation and they 
have done that to protect themselves at those stores.
    Can you tell me if you believe there is any other reason 
other than Social Security number that your credit people got 
involved the way they did?
    Colonel Stevens. If you look at some of the applications, 
sir, you will see that the only correct item on many of them 
was the Social Security number. Different addresses, different 
spellings of our first and last names, different places of 
employment. In other words, it was so obvious it was not us 
that we wondered why it got through the credit reporting 
agency. The Social Security number has been the consistent 
piece of identification that has been used to identify us in 
all the fraud accounts.
    Mr. Johnson. When you asked the credit companies for your 
credit rating and listing, they are supposed to give you that 
information. Do they do that?
    Colonel Stevens. Oh, yes, they will give it to you. In 
fact, in Maryland, thank goodness you can get them free but in 
other States they charge you. If you have been denied credit or 
have a problem, you can request them and they will send you one 
free.
    Mr. Johnson. They are supposed to give you one free in any 
State. They do in Texas because I have done it.
    Colonel Stevens. That was not my understanding, sir, but it 
is only Maryland and several other States they don't charge you 
five or seven dollars for them.
    Mr. Johnson. When you pursue it, do they then clear your 
records because my experience has been that they clear your 
records and your testimony indicates they did not?
    Colonel Stevens. Absolutely not. We would submit letters. I 
wrote stacks of letters to them listing all the fraud accounts. 
Some of them would be cleared but the majority of them would 
not. They had to go through a 30-day investigation period which 
I believe all they do is go back to the person who opened the 
account in the first place, the creditor, and say is this 
information correct. Of course it comes back that it is. We 
would get a reply that the information is correct as listed. I 
finally gave up on that approach.
    Mr. Johnson. Let me ask you one more if I may. Do you feel 
we should investigate the military process of requiring Social 
Security numbers on all their documents?
    Colonel Stevens. I don't know whether investigate is the 
correct term but due to the fact that it is required everywhere 
and everyone wants it, is what makes us very vulnerable. The 
fact that the Social Security number can be used in other 
civilian aspects such as opening accounts rather than 
identifying you as a legitimate military person.
    Mr. Johnson. Thank you so much.
    Colonel Stevens. I had a five-digit serial number before as 
a regular office and that was much more convenient.
    Mr. Johnson. Yes, I did too.
    Thank you for your testimony.
    Chairman Shaw. When they say they want your name, rank and 
serial number, that means name, rank and Social Security 
number?
    Colonel Stevens. Yes. I guess that is what the enemy asks 
you for now.
    Chairman Shaw. Mr. Matsui?
    Mr. Matsui. Thank you for your testimony, Colonel and Mrs. 
Stevens.
    Do you know whether there as more than one person involved 
in this $113,000 consumer fraud?
    Colonel Stevens. It is fairly widespread, it could be more 
than one person. It seems to be consistently located around 
Sheppard Air Force Base at Wichita Falls, Texas. We really 
don't have any proof other than just looking at the 
applications that come back to us and the various information 
that shows up on our credit reports.
    Mr. Matsui. It is somewhat frightening, what you have 
testified because apparently this person purchased a 1997 Jeep 
Cherokee, right?
    Colonel Stevens. Yes, sir.
    Mr. Matsui. Do you know if whoever that person was had any 
other credit information on you or they used the Social 
Security number to get other information and then basically 
identified themselves as you?
    Colonel Stevens. The other information would generally be 
that was available through the fact that I am retired military 
but I have no proof of that.
    Mr. Matsui. Have they apprehended this individual?
    Colonel Stevens. The applications are there. If the people 
who granted them the credit wanted to, they could go after the 
people listed in the application but they don't do that, they 
come after us.
    Mr. Matsui. Obviously you have been to the law enforcement 
agencies and I am assuming they have opened a file. Have they 
at least identified the individual who has been using your good 
name?
    Colonel Stevens. Let me give you an example, sir. An 
account that was opened at Nations Bank in Wichita Falls. We 
got a call from the person who opened the account, the loan 
officer, and she said she had talked to John and Mary Stevens. 
They had come in and she had met them personally while they 
were opening an account. She called to apologize to us for the 
problems.
    I asked her what was the age of these people. She said they 
were in their mid-to late-30s. Then I pointed out to her, it 
was so obvious but it wasn't obvious to her, I understand that, 
but what it amounted to is that my Social Security number was 
issued before they were born. A simple check like that would 
have eliminated quite a lot of problems.
    Mr. Matsui. To your knowledge--and I would not expect you 
to have this information but I would imagine you have done some 
research on this or maybe not, and there would not be any 
reason for you to have done any research on it--you don't know 
how this person actually made the transaction and what 
information the individual using your name used in order to 
drive out with a $30,000 automobile?
    Colonel Stevens. We don't know where they got it, if I am 
hearing you correctly, sir. All we know is they had the first 
and last name, Social Security number and in the same case as 
my wife, they just generally used her first and last name, plus 
her Social Security number.
    Mr. Matsui. You have no knowledge at this time about 
whether the individual that has used your name has been 
apprehended?
    Colonel Stevens. I don't know that they have been 
apprehended, however, they could have been. It seemed to me 
that the person who opened the account has enough information 
to go and get them. We are not considered the person 
experiencing the loss.
    Mr. Matsui. The bank is, I guess?
    Colonel Stevens. The banks are the ones who have the loss 
and they are the ones that really can bring the charges. Up 
until recently, there was no law against this, especially since 
we live in Maryland and they were in Texas.
    Mr. Matsui. If I can ask you this question, have finally 
the credit collection agencies stopped and has your record been 
cleared?
    Colonel Stevens. No.
    Mr. Matsui. Not at all?
    Colonel Stevens. I just got a recent report where they 
recycled another account for the fourth time, even though I 
have a letter clearing me of that account from that same third 
party collection agency. This was on an account that had been 
previously cleared back in 1997 with an affidavit. They just 
keep recycling these things.
    My wife has one on a $2,000 diamond that she can tell you 
about.
    Mrs. Stevens. As of April 10th, this account seems to come 
around every four to six months. I explain to them that I am 
not the individual. Well, give us your last four and we will 
determine if you are the right individual. I will say, by what 
authority or what law are you asking for this information. All 
through the past up, to the time the Federal law that has now 
been passed I would get no help. They would say, All right, we 
will delete it.
    Before they would agree to delete it, they would let it 
rest for a little while and in about two or three weeks or a 
month I would get a letter stating that, if you will pay this 
amount, maybe $800 or something, we will clear this for you. Of 
course I wouldn't pay them a dime. So, we would start around 
again. They give it back to the credit bureaus. It is deleted 
and later on it comes around again.
    I have, in my briefcase, three sets right now and there are 
more. I travel with about ten boxes in my little station wagon 
up and down the coastline visiting grandchildren. I am always 
prepared to explain this issue.
    It is really devastating because there seems to be no end 
to the recycling by the third parties. There now seems to be a 
new approach. In the past month, my husband has had two phone 
calls come in. The phone will ring and they leave an 800 number 
that we are to call back on a business call--My husband can 
explain more about this.
    Colonel Stevens. You call back on an 800 number and then 
they tell you about this account you owe money on and you can 
make arrangements to pay it. So it just continues. It is a 
neverending story. It is like when you blow out this trick 
candle and it keeps relighting itself.
    Mr. Matsui. Thank you for sharing your very sad story with 
us. We appreciate it very much.
    Chairman Shaw. Mr. Portman?
    Mr. Portman. Colonel and Mrs. Stevens, thank you for being 
willing to stand up for the rights of others. As Mrs. Stevens 
said, you are here in part to tell us your story but what you 
are doing is helping others avoid what you went through.
    When I looked at your testimony and hear what you had to 
say today, you spent the last three years living in a horror 
story.
    Mrs. Stevens. Absolutely.
    Mr. Portman. I am sorry for that. I wish that we had the 
power to wave a magic wand and make your problems go away and 
be able to keep others from having to go through that because I 
know how frustrating it is. I have not been through what you 
have but all of us have been through some of these issues with 
credit card companies and collection agencies and so on with 
misinformation and it is so frustrating to get through the 
bureaucracy.
    I am concerned because my wife was born in Wichita Falls, 
Texas at an Air Force base and maybe I will get linked to that 
same source of your problem. Is it Sheppard Air Force Base?
    Colonel Stevens. Sheppard Air Force Base. It seems to 
center around that area.
    Mr. Portman. You talked about what creditor reporting 
agencies could do better and what creditors could do better. I 
cannot believe the spelling of your names wasn't even correct, 
and yet, based on the Social Security number, they went ahead 
and processed things and did not even look at the application. 
That clearly is a major problem.
    I do not know enough about the rules and regulations. I 
know this committee does not have jurisdiction over all that 
but it seems to me that is one area where we could do more. Do 
you agree? Shouldn't the reporting agencies, at the least, be 
responsible for looking at the application and have some 
liability if they go ahead and process something where the 
names are not spelled right?
    Colonel Stevens. Absolutely. The things are so obvious that 
it is a wonder they don't do it. One of the things I have run 
into is that one of the representatives of the credit reporting 
agency said they could not be concerned with changes of address 
because at least 15 percent of the people move every year and 
they would be inconvenienced when they applied for credit.
    My answer to that was that means 85 percent of the people 
do not move, therefore why are you subjecting them to all this 
harassment based on trying not to inconvenience the 15 percent.
    Mr. Portman. What did they say with regard to not looking 
at the spelling of the name?
    Colonel Stevens. They really had no answer. That is one of 
the things we have to continuously do when we get our credit 
reports. We have to correct the misinformation that keeps 
recycling into it--the wrong address, the wrong employment, the 
wrong spelling of the name.
    What infuriates my wife is when they use only her first 
name because that is now her fraud name. She likes to go by 
both of her names. The reports will come in and list my wife's 
name as Mary. Of course I have to sit there and listen to the 
explosion.
    Mrs. Stevens. Quickly, on this line of thought. I was just 
remembering, how much I had to use the Social Security number, 
during the first time frame my husband did the letter writing 
and I stayed on the phone with the credit bureaus for about 
three months every day giving my Social Security number to 
total strangers. In that process, I found I could cross 
reference numbers and identify the accounts.
    They would then send us a new report. They even co-mingled 
our Social Security number at one point. In other words, they 
had part of my number and part of his number. Then another 
report came in from one of the bureaus with totally brand new 
number--000, 000, 000, a string of zeros and then a one. I 
could not figure that one out and the credit bureaus had no 
answer, it was just a mistake.
    The one that really got to me was, I read a report and at 
the very end, it said, according to this Social Security number 
this individual has been deceased for 22 years. They are 
addressing this letter to me.
    Mr. Portman. That makes you feel kind of bad, doesn't it?
    Mrs. Stevens. My husband said he knew something was wrong.
    Mr. Portman. We do have jurisdiction over the Social 
Security Administration and that is something this subcommittee 
takes very seriously. We do a lot of oversight.
    Have you contacted SSA and have they been helpful to you? 
Have you sought a new Social Security number, for instance, and 
have they responded to that? What could the Social Security 
Administration do to help in these kind of problems?
    Colonel Stevens. We have not contacted them. Getting a new 
Social Security number, I don't think would be a good idea 
since it is my retired Air Force service number.
    Mr. Portman. It could lead to other problems.
    Colonel Stevens. It would really complicate things to 
change that because the VA would have to come into it and 
everything else since I am a disabled veteran.
    The only thing I haven't run into is they don't seem to be 
using my Social Security number for employment because I have 
received no information that additional contributions have been 
made.
    Mr. Portman. That is where you want it to be used.
    Colonel Stevens. That would help offset some of the 
expenses we have gone through.
    Mr. Portman. Thank you.
    Chairman Shaw. Mr. Weller?
    Mr. Weller. Thank you, Mr. Chairman. This is a very 
interesting hearing.
    I very much want to thank Colonel and Mrs. Stevens for 
stepping forward and being a part of this. Reading your 
testimony and listening today, it is frightening what can 
happen to individuals.
    In Congress we have some issues before us that are 
concerned with personal security and here is a case where your 
personal security was violated. I remember when I was in 
college we often joked that the only number we needed to 
remember was our Social Security number. People used to put it 
on the back of their T-shirts and jerseys as a joke because 
that was a number that identified us everywhere we went. Here 
is a case where someone took yours.
    Also, with the advent of technology, particularly 
information technology and the Internet, we were looking at how 
we can protect the privacy of individuals. In this case, your 
privacy was violated as well as your personal security when 
someone absconded with your Social Security number.
    When you discovered that someone was using your Social 
Security number, did you contact law enforcement?
    Colonel Stevens. No, sir, because at that time, it wasn't 
against the law. Again, we are not considered the victims so to 
speak, it is the credit card company or the bank, so making a 
police report would have been useless. We didn't try.
    Mr. Weller. So you did not even contact law enforcement in 
any way?
    Colonel Stevens. No because as I said, we are not 
considered the ones experiencing a loss--in other words, there 
was no law against it.
    Mrs. Stevens. The attorney was not even aware there was no 
Federal law. We weren't aware either. This began March 27, 
1997. Until up recently, with the new law we weren't covered.
    Mr. Weller. Over what period of time did it take when you 
discovered someone was using your Social Security number before 
everything was cleared up and cleaned up, the mess that was 
created as it impacted you personally?
    Colonel Stevens. This candle keeps relighting itself. We 
actually cleared our records within a year. Then they started 
the recycling of the third party collection agencies. The fraud 
data kept recycling and we would fight to clear that. Then it 
would lie dormant for maybe three to six months and then show 
up again. As I said, we have some that have been recycled six 
times. In my case, one collection agency has recycled the same 
account within their own organization four times for an account 
that was cleared.
    Mr. Weller. What do you feel was the biggest obstacle you 
faced as an individual when you tried to resolve this issue?
    Colonel Stevens. Getting people to believe that you are not 
the one that opened the account. We have been yelled and 
screamed at, cursed at, everything else, especially by 
collection agencies. There was one that was very, very nasty to 
us. They don't believe you. You have to prove a negative, you 
have to prove I am not the person that opened that account. We 
finally wised up on that one. We go after the creditor and say 
prove to us that we are the ones that opened the account, send 
us a copy of the application, send us a delivery slip, send us 
a charge card slip. A lot of them are reluctant to do that but 
that is the approach we have now taken.
    Mr. Weller. When you were looking for help in solving this, 
what was your best source of assistance? Who did you turn to 
that actually was helpful in solving your problem?
    Colonel Stevens. There were several people--Beth Givens, 
Privacy Rights; Ed Mierswinsky, USPIRG.
    Mrs. Stevens. One of our children found the address of the 
Privacy Rights Clearinghouse, Beth Givens, Director. I 
contacted her, I guess, over a year ago and that is how we 
became involved with this and then through her U.S. PIRG and 
Maryland PIRG. I was not aware of Mary PIRG at the time. 
Through them we met Mari Frank and obtained her material that 
we were using. She had suffered the same kind of crime as an 
attorney.
    Colonel Stevens. In the Federal Trade Commission, there was 
Cynthia Lamb who was most helpful.
    Mr. Weller. They can all serve as resources as we look for 
ways to help prevent this from happening.
    If there was one suggestion you could make as individuals 
having suffered the consequences of identity theft through 
someone else using your Social Security number, what suggestion 
would you have for the Congress and how we could prevent this 
from happening to someone else?
    Colonel Stevens. The fact that the Social Security number 
is used as the primary means of identification that importance 
should somehow be diluted. People should not give out this 
information. The problem stems from the fact that everyone 
accepts this one nine-digit number as you, no matter who is 
bearing it or who is handing it out, that number is you. 
Nothing else matters. So, if you could degrade the importance 
of that number being used for identification it would help.
    My original Social Security card had on the front of it 
``Not to be used for identification.'' They don't put that on 
there anymore, but if you could reduce the importance of it and 
have some other means of identification, that would help.
    Chairman Shaw. Colonel Stevens, I want to go back to some 
of the questioning for a moment and then I will recognize Mr. 
Tanner--the colloquy you had back and forth with Mr. Johnson 
regarding the commissary and how they require that, and your 
thought this was some type of Federal regulation.
    As I understand, most if not all of these commissaries are 
private-owned or privately-run under contract with the 
Government. If I go into Safeway or Winn-Dixie back home and in 
the checkout line I want to give them a check, they don't 
require my Social Security number, so why should a commissary, 
which actually has a more select clientele than any store on 
the outside has in which you probably had to show an ID to get 
in the door, why should they require your Social Security 
number for you to give them a check?
    I think we had better look into what the contracts are with 
these commissaries because to me, I would doubt that is a 
military regulation. I am pretty sure it is not statutory. In 
any event, it is something the Congress should look into.
    Mrs. Stevens, you have a comment on that?
    Mrs. Stevens. Just last night, I discovered in the Air 
Force Times of May 15, 2000, ``Is Social Security number still 
a must when you write a check?`` I made a batch of copies of 
this last night because I was looking for some copies I have of 
December 17, 1999, Capital Flyer newspaper from Andrews Air 
Force Base. I happened to pick up a copy that particular 
afternoon--it comes out on Friday--and the story was there, 
that a military fraud ring had been discovered in Trenton, New 
Jersey. I did not get that copy together but I can secure that 
documentation for you. My husband can explain that better than 
I can.
    Colonel Stevens. When the major promotion list was approved 
by Congress, it listed all the ones that were promoted with 
their Social Security number in the Congressional Record. A 
ring around McGuire Air Force Base used that to open fraud 
accounts.
    Chairman Shaw. Interestingly enough, I think many members 
of Congress don't realize on our congressional ID card is our 
Social Security number just as it is on your identification 
card.
    Colonel Stevens. It is a national PIN.
    Chairman Shaw. I have a copy of the article you referred to 
and while Mr. Tanner is inquiring, I will read through it.
    [The information follows:] 
    [GRAPHIC] [TIFF OMITTED] T8072.002
    
      

                                <F-dash>


    Mr. Tanner. I too am impressed by your statement and the 
severity of what can happen to innocent people who have their 
identity stolen in the way that has happened to you. Is it 
still ongoing?
    Mrs. Stevens. Yes.
    Mr. Tanner. With the use of your number, are there new 
charges being placed?
    Colonel Stevens. We have not seen any new accounts. 
However, our latest credit report listed, one in my wife and 
one for me in each of our credit reports, an inquiry that was 
made, one to buy a car, and the other was for I don't know 
what, but it was to establish credit Someone had applied and 
was getting information, obviously, to open an account.
    We immediately wrote letters to both of these organizations 
and told them that we had not made any application whatsoever. 
That is why I say it is probably still more attempts to 
continue opening these accounts but the primary thing we are 
concerned with now is the recycling of the ones we have closed 
and cleared.
    Mr. Tanner. Which brings me to the question I really want 
to know. I was reading through your statement and your attorney 
has notified these people that you are not the ones who opened 
those accounts. Has he advised you that it seems to me after 
one is notified that this account is a fraud, it is not yours, 
you don't owe it, properly notified, if they continue to 
recycle it looks to me like there might be a legal remedy 
called defamation of character lawsuit or something against 
these credit card companies that refuse to accept and 
acknowledge the fact that it is not your account but yet keep 
recycling it. I think you described it as a candle that keeps 
reigniting itself. Could you enlighten me on where you are 
there? I don't know that is a possibility but your attorney I 
am sure would.
    Colonel Stevens. We have not explored that possibility. Our 
main focus was to just get our lives back and get rid of these 
things.
    Mr. Tanner. I don't mean to suggest but I just say that 
once I know something is false and I continue to publish it, 
then it seems to me I have some responsibility there. You 
spent, I think you said in your statement, over $6,000 just on 
telephone calls and letters. Somebody owes you for that if they 
continue, it seems to me, to publish untrue, and they know it 
is untrue, allegations with respect to your credit and your 
payment performance. I hope you will explore that with your 
attorney because oftentimes market forces have a much more, may 
I say, dramatic effect in commerce than anything we might do 
here immediately. So I hope you will explore that, particularly 
when they know and continue to republish what they know to be 
false information is not, in my judgment, something the law 
will tolerate, civil law.
    Colonel Stevens. I agree, sir. We would like to pursue 
that. As I said, our main focus has been not to recoup as much 
as to clear.
    Mr. Tanner. But if it is ongoing, how does one ever. You 
want relief.
    Colonel Stevens. It has kept us from moving. When I 
retired, I intended to move back to South Carolina because my 
96-year-old mother is there as well as a lot of our 
grandchildren. We couldn't qualify for a loan to buy house. We 
would get the higher interest rates, being a high risk because 
we have all these things on our credit record. This has delayed 
us in moving. That is why our main focus so far as been to 
clear it the point where we could really retire and start to do 
some of the things we have been putting off for so many years.
    Mrs. Stevens. I think your idea of going this route of 
getting help is great. The situation has been that not too many 
lawyers know how to fight this crime. As we are learning more 
about it, the legal profession, I think is coming forward.
    In reading the material from Mari Frank, an attorney that 
was a victim, she suggested that an individual keep perfect 
documentation so if it comes to a point, that one can go into 
the legal aspect of trying to correct all this, we would have 
something to go on. I think that is possibly the avenue we will 
have to go which will be burdensome.
    Mr. Tanner. Of course libel and slander laws have been 
around for a long time and this seems to me to be something 
that would be libelous to publish known false information about 
one's credit. I hope you will pursue that. I would like to 
know.
    Thank you for being here. This has been enlightening.
    Chairman Shaw. I have looked at this article and we are 
running it down, particularly the paragraph that says, ``Store 
officials said their Social Security number requirement is 
founded in law.'' I think that is a misstatement and prior to 
the end of this hearing today, we will have the answer to that. 
If it is in law, Mr. Johnson and I intend to try to take it out 
of law. In any event, there has to be some clarification. I 
can't conceive of that particular requirement. We will have the 
answer and take the corrective action if corrective action is 
necessary.
    Mr. McCrery?
    Mr. McCrery. I don't have any further questions but I 
appreciate the Stevens coming forward today and sharing with us 
your story which really brings to light some of the problems 
that undoubtedly many across our Nation are having because of 
the widespread use these days of the Social Security number.
    Thank you very much.
    Chairman Shaw. Mr. Collins?
    Mr. Collins. I don't know about South Carolina but in 
Georgia, and Mr. Portman and I were discussing Ohio, it is an 
option in each of our States as to whether or not you use your 
Social Security number for your driver's license number because 
when we go into a store in Georgia, the driver's license is 
what they ask for to verify the photo and that you are who you 
say you are, and they write down the driver's license number. 
Some States do have that option but according to this article, 
South Carolina does not. I encourage you to move to Georgia, it 
is not far from Columbia.
    Mrs. Stevens. We have grandchildren there, a great State.
    Mr. Collins. Move to Augusta and play the Augusta National 
and commute up there to Columbia to see your mother.
    Thank you very much for being here.
    Chairman Shaw. I am looking at my Social Security card 
which was issued many years ago. In fact, I still have the 
original. I was just advised I should not be carrying it. I am 
looking at one of our younger staffer's card and his does not 
say anything about identification. My says, ``For Social 
Security purposes, not for identification.'' Why that was taken 
off the card, I don't have any idea but I think we ought to 
look into that too because I think that should probably be 
reinstated on the card itself.
    I, too, want to thank you for being here and being a part 
of this hearing. It is quite important to us that you would 
share your really bizarre tragedy with us. We certainly hope 
you can work out of it.
    I see that C-Span is carrying this hearing so you might 
want to get a copy of it so that the next time you have a 
creditor who gives you problems, you can send them a tape of 
your appearance here before the subcommittee. You have done a 
real service and I can tell you that it concerns me greatly 
that name, rank and serial number has now been changed to name, 
rank and Social Security number. That is not a good thing and 
we need to take a close look at that. The fact that you have to 
constantly give your Social Security number as your employment 
identification is a real problem and I can certainly recognize 
that. We will look further into that.
    Thank you both.
    Chairman Shaw. The next witness we have from the United 
States General Accounting Office is Barbara Bovbjerg, Associate 
Director, Education, Workforce and Income Security Issues, 
Health, Education and Human Services Division. Welcome back to 
this subcommittee and we look forward to your testimony. We 
have placed your full testimony in the record and you may 
summarize as you see fit.

     STATEMENT OF BARBARA D. BOVBJERG, ASSOCIATE DIRECTOR, 
   EDUCATION, WORKFORCE AND INCOME SECURITY ISSUES, HEALTH, 
EDUCATION, AND HUMAN SERVICES DIVISION, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Ms. Bovbjerg. Mr. Chairman, members of the subcommittee, I 
am pleased to be here today to discuss the uses of the Social 
Security number.
    Almost 277 million Americans have been assigned an SSN and 
because each is unique to the individual, the SSN is frequently 
used for a variety of purposes. Privacy concerns, coupled with 
mounting instances of identity theft, have raised public 
sensitivity to this issue.
    I would like to focus my remarks on three aspects of this 
topic: Federal laws directing SSN use, the purposes for which 
the SSN is used and, finally, the possible impact of 
restricting its use. My testimony is based on a report we 
prepared for this subcommittee in 1998.
    First, laws directing use. No single Federal law regulates 
the overall use of the SSN, but several require its use to help 
enforce the law, determine benefit eligibility, or both. For 
example, the Internal Revenue Code requires that the SSN serve 
as the taxpayer identification number. This means that the 
taxpayers must report their SSNs when they pay taxes and their 
SSNs must also be known to their employers and financial 
institutions from whom they receive income.
    Federal law also requires individuals to provide their SSN 
when they apply for a means tested benefit such as Medicaid or 
food stamps. The numbers are used not only for recordkeeping 
but also to verify income that individuals report. States are 
also required to use SSNs in their child support enforcement 
programs and on a variety of documents such as marriage 
licenses and death certificates.
    Federal law generally does not restrict SSN use except in a 
few instances. The Privacy Act of 1974 restricts Federal 
agencies in collecting and disclosing personal information 
including SSNs without the individual's consent. The Driver's 
Protection Policy Act, a more recent law, restricts State 
governments from disseminating the SSN with driver's license 
databases.
    I would like to turn now to how the SSNs are actually used. 
In our work, we focused on those users who reached the largest 
number of people: State governments and, for the private 
sector, businesses that offer health services, financial 
services or personal information.
    State officials say they use SSNs in both administering 
programs and enforcing the law. For example, State tax 
administrators routinely use the SSN as a primary identifier in 
their State tax systems and to cross-check taxpayer income. 
State driver licensing agencies must typically use SSNs to 
check an individual's driving record in other States. Law 
enforcement agencies use SSNs to check criminal records.
    In the private sector, the health care industry generally 
uses SSNs as backup identifiers. Other numbers serve as primary 
identifiers for patient medical records but SSNs are needed to 
trace patients' medical care across providers or to integrate 
patient records when providers merge.
    Credit bureaus also use SSNs. Such organizations build 
databases of consumer payments and credit transactions. Credit 
bureaus use the SSN as a principal identifier for retrieving 
credit histories on demand. Most customers--insurance 
companies, collection agencies, credit grantors--provide an SSN 
when requesting a credit history and can deny credit to 
individuals who refuse to provide them.
    In contrast to these administrative uses, businesses that 
sell personal information collect SSNs for the sole purpose of 
selling them in a linkage with other information. Generally, 
these databases use SSNs to facilitate records searches when 
they are sold to customers like lawyers, debt collectors, 
employers or anyone who might want to carry out some form of 
background check on an individual.
    Finally, I would like to summarize the possible effects of 
restricting use of the SSN. Users told us that without the SSN 
as the unique identifier, data exchanges would be at risk. Tax 
enforcement would be hampered by not being able to verify 
income reported, States could not readily identify drivers 
concealing out-of-state traffic violations, consumer credit 
histories could not be quickly updated and accurately 
retrieved.
    Some users have voluntarily taken measures to restrict the 
disclosure of some personal information, including SSNs. Many 
of the businesses in the personal information industry have 
signed an agreement restricting SSN disclosure to only a 
limited range of customers such as law enforcement agencies.
    In conclusion, the wide use of the SSN is permissible but 
its presence in databases creates privacy concerns and fosters 
the growing problem of identity theft. Restricting the use of 
SSNs in law could reduce dissemination of personal information 
but could also restrict commercial and public sector 
activities. Such effects could be only temporary, however, 
until users devise a new means of identifying personal records.
    In an increasingly electronic world, protecting privacy 
will continue to be a public policy challenge.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you may have.
    [The prepared statement follows:]

Statement of Barbara D. Bovbjerg, Associate Director, Education, 
Workforce and Income Security Issues, Health, Education, and Human 
Services Division, U.S. General Accounting Office

Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting me here today to discuss usage of 
the Social Security number (SSN) for purposes not related to 
Social Security. The SSN was created in 1936 as a means of 
tracking workers' earnings and eligibility for Social Security 
benefits. Today over 277 million individuals have a unique SSN. 
For this reason it is used for myriad purposes not related to 
Social Security. Both private businesses and government 
agencies frequently ask individuals for their SSNs because in 
certain instances they are required to or because SSNs provide 
a convenient means to track and exchange information.
    Perceived widespread sharing of personal information and 
occurrences of identity theft have raised public concern. To 
provide information about how the SSN is currently used, in my 
remarks today I will describe (1) federal laws and regulations 
directing the number's use, (2) the nonfederal purposes for 
which the number is used, and (3) what businesses and state 
governments believe the effect would be if federal laws 
limiting the use of SSNs were passed. My testimony is based on 
findings from a study \1\ we conducted for this Subcommittee 
during 1998 and recent work conducted to update our 
information.
---------------------------------------------------------------------------
    \1\ Social Security: Government and Commercial Use of the Social 
Security Number Is Widespread (GAO/HEHS09990928, Feb. 16, 1999).
---------------------------------------------------------------------------
    In summary, the federal government, states and local 
governments, and private businesses all widely use SSNs. In the 
case of the federal government, a number of laws and 
regulations require the use of SSNs for various programs, but 
they generally also impose limitations on how these SSNs may be 
used. However, no federal law imposes broad restrictions on 
businesses' and state and local governments' use of SSNs when 
that use is unrelated to a specific federal requirement. 
Currently, governments and businesses frequently use SSNs to 
identify and organize individuals' records. Some may also use 
SSNs to exchange information with other organizations to verify 
information on file, to coordinate benefits or services, or to 
ensure compliance with certain federal laws. For example, by 
sharing information about applicants for the Supplemental 
Security Income (SSI) program, the Social Security 
Administration (SSA) can identify individuals whose benefits 
should be reduced, such as those in prison. In addition, some 
information brokers use SSNs to retrieve the large amount of 
personal information on individuals that they collect and sell. 
Public concern over the availability of personal information 
has encouraged some to consider ways to limit using SSNs to 
disclose such information. However, officials from both private 
businesses and state governments have stated that if the 
federal government passed laws that limited their use of SSNs, 
their ability to reliably identify individuals' records would 
be limited, as would their subsequent ability to administer 
programs and conduct data exchanges with others. Nonetheless, 
some state agencies and businesses have voluntarily taken steps 
to limit their disclosure of SSNs.

   Federal Laws and Regulations Require and Restrict Certain SSN Uses

    Although SSA originally intended SSNs as a means to 
identify workers' earnings and eligibility for Social Security 
benefits, a number of federal laws and regulations now require 
the use of the SSN to track participation in a variety of 
federal programs. Use of SSNs facilitates automated exchanges 
that help administrators enforce compliance with federal laws, 
determine eligibility for benefits, or both. The Internal 
Revenue Code and regulations that govern the administration of 
the federal personal income tax program require that 
individuals' SSNs serve as taxpayer identification numbers. 
Employers and others making payments to individuals must 
include the individual's SSN in reporting to the Internal 
Revenue Service (IRS) many of these payments. In addition, the 
Code and regulations require that individuals filing personal 
income tax returns include their SSN and those of any 
dependents or former spouses to whom they pay alimony. 
Similarly, the Social Security Act requires individuals to 
provide their SSNs in order to receive benefits under the SSI, 
food stamp, Temporary Assistance for Needy Families (TANF), and 
Medicaid programs--programs that provide benefits to people 
with limited income. Applicants give program administrators 
information about their income and resources, and program 
administrators use applicants' SSNs to match records with those 
of other organizations to verify the information. For example, 
we have recommended in previous reports that SSA match its 
records with other state and federal program records to reduce 
SSI payments to individuals whom agencies find residing in 
nursing homes and prisons. Similarly, the Commercial Motor 
Vehicle Safety Act of 1986 requires states to use individuals' 
SSNs to determine if an individual holds a commercial license 
issued by another state. Also, federal law requires that states 
use SSNs to maintain records of individuals who owe state-
ordered child support or are owed child support and to collect 
from employers reports of new hires identified by SSN. States 
then transmit this information to the Federal Parent Locator 
Service, an automated database searchable by SSNs. The use of 
SSNs in these instances ensures compliance with federal tax 
laws, enhances program payment controls, reduces the 
possibility of inappropriately licensing applicants, and 
facilitates enforcement of child support payments.
    Federal laws that require the use of an SSN generally limit 
its use to the statutory purposes described in each of the 
laws. For example, the Internal Revenue Code, which requires 
the use of SSNs for tax purposes, also declares tax return 
information, including SSNs, to be confidential and prescribes 
both civil and criminal penalties for unauthorized disclosure. 
Similarly, the Social Security Act, which requires the use of 
SSNs for disbursement of benefits, declares that SSNs obtained 
or maintained by authorized individuals on or after October 1, 
1990, are confidential and prohibits their disclosure. Finally, 
the Personal Responsibility and Work Opportunity Act, which 
expanded the Federal Parent Locator Service, explicitly 
restricts the use of SSNs to purposes set out in the act, such 
as locating absentee parents to enforce child support payments.
    In addition to the restrictions contained in laws that 
require the use of SSNs, the Privacy Act of 1974 also restricts 
federal agencies in collecting and disclosing personal 
information, which includes SSNs. The act requires federal 
agencies that collect information from individuals to inform 
the individuals of the agencies' authority for requesting the 
information, whether providing the information is optional or 
mandatory, and how the agencies plan to use the information. 
The act, which also prohibits federal agencies from disclosing 
information without individuals' consent, does not apply to 
other levels of government or to private businesses.
    Except as discussed above, federal law does not regulate 
the use of SSNs. Thus, nonfederal agencies and legitimate 
businesses have uses of SSNs not covered by federal law, which 
I will now discuss.

            Governments and Businesses Use SSNs Extensively

    Because there are so many users of the SSN, I will focus on 
organizations that routinely use SSNs for activities that 
affect a large number of people. These include state government 
agencies as well as private businesses that sell health 
services, financial services, and personal information. In 
general, organizations may record SSNs in their databases for 
two purposes: to locate records for routine internal 
activities, such as maintaining and updating account 
information and, more frequently, to facilitate information 
exchanges with other organizations. Governments, health care 
organizations, and financial services businesses use SSNs, at 
least in part, to perform services for the person who owns the 
number. Information brokers, however, collect information that 
may include SSNs for the sole purpose of selling it.

State Agencies

    States use SSNs to support state government operations and 
offer services to residents. The Social Security Act allows 
states to use SSNs to identify individuals who pay taxes, 
receive general public assistance, own a vehicle, or drive. My 
comments today will focus on two examples of how states use 
SSNs to administer programs: states' personal income tax 
programs and licensing of drivers.
    All states that have personal income tax use SSNs to 
administer their programs, according to an official at an 
organization representing state tax administrators. States use 
SSNs as primary identifiers in their programs and for auditing 
purposes. Tax administrators from Maryland and Virginia told us 
that their states require individuals to provide their SSNs on 
state tax returns and that those who do not risk being 
considered nonfilers if tax administrators cannot otherwise 
identify them. In order to monitor taxpayer income reporting, 
states rely on SSNs to match data with IRS and state tax 
agencies. In addition, tax administrators said they use SSNs to 
cross-reference owners' or officers' business income tax 
returns with their personal income tax returns so that an audit 
of one triggers an audit of the other. They also use SSNs to 
identify residents who received income or tax credits in other 
states. Finally, when they assess liens against a taxpayer, tax 
administrators may also use SSNs to gather information from 
credit bureaus and information brokers about a taxpayer's 
assets.
    State driver licensing agencies are more likely to use SSNs 
to exchange data with other organizations than to support 
internal activities. Information from the American Association 
of Motor Vehicle Administration (AAMVA) and other sources 
suggests that many states request, but may not require, 
applicants for noncommercial driver licenses to provide their 
SSNs. Most state driver licensing agencies that request SSNs 
include SSNs in driver records as a secondary identifier and 
devise their own license numbers. To monitor drivers' 
compliance with state laws, state officials said they use SSNs 
during the licensing process to search national databases 
maintained by AAMVA. This allows states to identify driver 
licenses an applicant may hold in other states and to determine 
whether the applicant has had a license suspended or revoked in 
another state. Licensing officials told us that courts and law 
enforcement agencies may request driver records by SSN when 
they do not know the driver's license number. In the past, some 
states have sold personal information collected from drivers 
and automobile owners, including SSNs, to individuals and 
businesses. However, the federal Drivers' Privacy Protection 
Act now prohibits states from disclosing this personal 
information for purposes such as surveys, marketing, and 
solicitation without the express consent of the individual.\2\
---------------------------------------------------------------------------
    \2\ Until a 1999 amendment to the act, states were permitted to 
disclose this information if they provided drivers with the opportunity 
to prohibit disclosure and the driver opted not to do so.
---------------------------------------------------------------------------
    Having discussed how state governments use SSNs, I would 
like now to focus on how private businesses use these numbers. 
Specifically, I will discuss use of SSNs by health care service 
organizations, financial services businesses, and businesses 
that sell information.

Health Care Services Organizations

    Officials representing hospitals, a health maintenance 
organization (HMO), and a health insurance trade association 
told us that their organizations always ask for an SSN, but 
they do not deny services if a patient refuses to provide the 
number.
    Officials from a hospital and an HMO told us that although 
they ask patients for their SSNs, they assign patients other 
identifying numbers, which they use internally as the primary 
identifiers for patient medical records. If a patient either 
forgets or does not know the patient number he or she was 
assigned then the hospital or HMO uses SSNs as a backup to 
identify records. These officials also told us that hospitals 
and HMOs use SSNs to track patients' medical care across 
multiple providers because doing so helps establish a patient's 
medical history and avoid duplicate tests. Similarly, health 
care providers use SSNs to integrate patients' records when 
providers merge, a trend that is growing.
    We also spoke with a representative from a health insurance 
trade association to understand how insurers use SSNs. He told 
us that some health insurers use the SSN or a variation of the 
number as the customer's insurance number. We were told that 
the BlueCross BlueShield health insurance plans and the 
Medicare program frequently use this method. This 
representative also said that insurers and providers frequently 
match records among themselves, using SSNs to determine whether 
individuals have other insurance. This allows insurers to 
coordinate payment of insurance benefits.
    Officials in the health care industry expect their use of 
SSNs to increase. Because health care services are generally 
delivered through a coordinated system that includes health 
care providers and insurers, it is important for health care 
providers to be able to accurately identify information about 
patients. However, health care providers may also use SSNs to 
gather information that is not directly relevant to a patient's 
health care. For example, one hospital official said that her 
hospital plans to use SSNs during the admission process to 
obtain on-line verification of patients' addresses.

Financial Services Businesses

    Three national credit bureaus serve as clearinghouses for 
consumer credit reports and receive information about 
consumers' credit card transactions and payments from 
businesses that grant consumer credit. Officials from a bank 
and a credit card company told us that banks and credit card 
companies voluntarily report customers' payments and credit 
card transactions, accompanied by SSNs, to credit bureaus. They 
do so because ensuring that credit bureaus have up-to-date 
consumer payment histories serves the interest of companies, 
like themselves, that provide credit. An official for a credit 
bureau trade association estimated that each national credit 
bureau has more than 180 million credit records. SSNs are one 
of the principal identifiers credit bureaus use to update 
individuals' credit records with the monthly reports of credit 
and payment activity creditors send them. In addition, credit 
bureaus use SSNs that are provided by customers to retrieve 
credit reports on individuals. Credit bureau officials told us 
that customers are not required to provide SSNs when requesting 
reports, but requests without SSNs need to include enough 
information to identify the individual.
    Businesses such as insurance companies, collection 
agencies, and credit grantors use SSNs to request information 
about customers from credit bureaus. Banks and credit card 
companies in particular want information on customers' 
histories of repaying debts and whether customers have filed 
for bankruptcy or have monetary judgments against them, such as 
tax liens. Officials representing credit grantors said most 
banks and credit card companies ask applicants to provide their 
SSNs, and these credit grantors may choose to deny services to 
individuals who refuse. These officials said that their 
organizations generally do not use SSNs as internal identifiers 
but instead assign an account number as a customer's primary 
identifier.

Businesses That Sell Personal Information

    Continuing advances in computer technology and the ready 
availability of computerized data have spurred the growth of 
information brokers who amass and sell vast amounts of personal 
information, including SSNs, about members of the public. One 
official from a firm that sells information told us that his 
organization has more than 12,000 discrete databases with 
information about individuals. Federal law does not prohibit 
these businesses from disclosing SSNs.
    Brokers buy and sell information from and to a variety of 
public and nonpublic sources. Examples of the information they 
buy include public records of bankruptcy, tax liens, civil 
judgments, real estate ownership, driving histories, voter 
registration, and professional licenses. The information 
broker's purchase may include SSNs. Some brokers sell 
information only to businesses that establish accounts with 
them; others sell it to anyone. Law firms, law enforcement 
agencies, research organizations, and individuals are among 
those who use brokers' services. For example, lawyers, debt 
collectors, and private investigators may request information 
about an individual's bank accounts and real estate holdings 
for use in divorce or other civil proceedings; automobile 
insurers may want information about whether insurance 
applicants have been involved in accidents or have been issued 
traffic citations; employers may want background checks on new 
hires; pension plan administrators may want information to 
locate pension beneficiaries; and individuals may ask for 
information to help locate their birth parents.
    To meet the needs of the parties to whom they sell 
information, information brokers have databases that can be 
searched by identifiers that may include SSNs; brokers may also 
include SSNs along with the other information they provide to 
customers. When possible, information brokers retrieve data by 
SSN because it is more likely than other identifiers to produce 
records for a specific individual.

 Business and State Officials Believe Federal Laws Restricting Uses of 
   SSNs Would Have a Negative Effect on Their Activities and Programs

    Officials from the businesses and agencies we contacted 
told us that federal restrictions on using SSNs could hamper 
their ability to conduct routine internal activities and their 
ability to exchange data. For each of these entities, correctly 
matching a specific individual to a corresponding record of 
information is an important concern. Consequently, these 
officials told us, federal limits on the use of SSNs could 
adversely affect their activities and programs. They told us 
that limits on the use of SSNs, for example, would lessen the 
certainty with which credit information could be matched to 
specific individuals and hinder health care service providers' 
ability to track patients' medical histories over time and 
among multiple providers. They also told us that such action 
could impede state tax agencies' ability to identify those who 
file taxes, make it difficult to associate tax return 
information received from other tax agencies with tax 
information reported by residents, and make it more difficult 
for states to link driver license applicants to traffic 
violations they may have acquired under other state licenses. 
Finally, officials from state agencies that license drivers 
told us that if they could not use SSNs to query their 
databases, it would increase the likelihood that government and 
law enforcement agencies would receive the records of multiple 
people with the same name when they requested information about 
a particular individual.
    Because of privacy concerns raised by the disclosure of 
personal information, some businesses and states have 
voluntarily restricted their disclosure of such information, 
including SSNs. In December 1997, 14 of the self-identified 
industry leaders of those businesses that sell personal 
information voluntarily agreed to make the SSNs they obtain 
from nonpublic sources available only to a limited range of 
customers. They identified such customers as those having 
appropriate uses for this information, such as law enforcement. 
Although these brokers agreed to limit their disclosure of SSNs 
obtained from nonpublic sources, it should be noted that most 
of the SSNs they acquire come from public sources, according to 
an official from an information brokerage company. As part of 
their agreement regarding disclosure of SSNs, the 14 
organizations also agreed to annual compliance reviews by 
independent contractors. If an organization fails to comply 
with the agreement, the Federal Trade Commission can cite the 
organization for unfair and deceptive business practices. The 
agreement became effective on December 31, 1998. Recent reports 
indicate that the first round of compliance reviews is complete 
and all of the companies have generally complied with the 
agreement.\3\
---------------------------------------------------------------------------
    \3\ One company no longer offers products that fall within the 
scope of the agreement.
---------------------------------------------------------------------------
    In addition to the voluntary efforts of businesses, some 
states are discontinuing practices that result in routine 
disclosure of SSNs. For example, since July 1, 1997, Georgia no 
longer automatically prints SSNs on licenses but rather assigns 
its own numbers for driver licenses and uses the SSN as a 
license number only if requested by the license holder to do 
so. Ohio, which before July 29, 1998, routinely printed SSNs 
along with state-assigned numbers on driver licenses, now 
allows drivers the option of not having SSNs printed on their 
licenses. Also, AAMVA officials believe most states in which 
driver records are public now exclude SSNs when responding to 
requests for driver records.
    Finally, SSA has stated that the expanded use and misuse of 
SSNs poses an administrative burden for the agency. According 
to agency officials, widespread use of SSNs as identifiers 
requires SSA to meet more requests for SSN verification from 
employers and government agencies. In addition, the disclosure 
of SSNs increases those instances in which the agency must 
issue individuals new SSNs when theirs are being misused by 
another party.

                        Concluding Observations

    In conclusion, the widespread use of the SSN is permissible 
under existing laws and regulations, but because it provides a 
means to build and share databases of personal information, it 
creates privacy concerns and enables the growing problem of 
identity theft. Although restricting the use of SSNs may slow 
or reduce wide dissemination of personal information, such an 
action could also restrict commercial and public sector 
activities. However, such effects could be only temporary, 
until a new means of identifying unique personal records was 
devised. In our increasingly electronic world, protecting 
privacy will continue to be a public policy challenge.
    Mr. Chairman, this concludes my prepared statement. At this 
time, I will be happy to answer any questions you or other 
Members of the Subcommittee may have.

                 GAO Contact and Staff Acknowledgments

    For information regarding this testimony, please contact 
Barbara Bovbjerg at (202) 512097215. Individuals who made key 
contributions to this testimony include Kay Brown, Jacquelyn 
Stewart, Roger Thomas, and Patrick di Battista.
      

                                <F-dash>


    Chairman Shaw. Mr. Johnson?
    Mr. Johnson. None.
    Chairman Shaw. Mr. Tanner?
    Mr. Tanner. We just ironically or interestingly enough got 
a call last week from a constituent in Tennessee whose home had 
been broken into, lockbox violated and stolen from that were 
the birth certificates and Social Security numbers of herself 
and her children.
    My question is, what should she do to alert whomever to the 
possible misuse of the Social Security number and the birth 
certificate?
    Ms. Bovbjerg. With the cautionary note that I am not a law 
enforcement officer, I would tell her to contact legal 
authorities. One of the things I was thinking when I was 
listening to the Stevens family's very troubling story is that 
in work we did a couple of years ago for this subcommittee on 
identity theft, we were struck that no single Federal agency 
has law enforcement power in this area. It is difficult, partly 
for this reason, to get a sense of frequency and magnitude of 
identity theft crimes. It is difficult to know how much money 
is involved, what the costs are, it becomes difficult to know 
who exactly to talk to when something like this happens.
    The Federal Trade Commission has been given more authority 
to provide public information, to work with the personal 
information industry on this voluntary disclosure agreement, I 
believe they have to contact appropriate enforcement officials 
to actually find the offender and carry out penalties.
    Mr. Tanner. Is your answer the Federal Trade Commission 
then at the moment? Would that be a good place to start?
    Ms. Bovbjerg. That would be a good place to start.
    Mr. Tanner. In your analysis of this, you said there is no 
single agency where identity theft crimes are housed. Do you 
have a suggestion for the Congress on how we should address 
this area and if there is any legislation you think 
appropriate?
    Ms. Bovbjerg. I don't have a suggestion for you. I am 
sorry. I think it is such an emerging area that all Federal 
agencies are struggling with this. You will hear from the 
Social Security Inspector General later some of the things they 
are doing to deal with identity theft but much of what SSA does 
will focus on the issuance of cards and making sure that only 
the appropriate people are receiving Social Security numbers. 
They cannot always make changes on the back end, they cannot 
always go after people once they have stolen someone's number.
    I really think this is something that needs more Federal 
attention, more policy attention. It is worth considering how 
best the Federal Government can respond to it.
    Mr. Tanner. I really appreciate you having this hearing, 
Mr. Chairman. This is more potentially disastrous and 
widespread than many had thought. I want to commend you for 
having this. It is something I think we have some room to do 
some good work on.
    Thank you.
    Chairman Shaw. I think you are right, John. I think what we 
are seeing is just a new and growing theft industry that we 
have to nip in the bud.
    Mr. Portman?
    Mr. Portman. A couple of things. First, I appreciate your 
testimony and following the comment of my colleague from 
Tennessee, I really appreciate, Mr. Chairman, your having the 
hearing and taking some time on this, and your personal 
commitment to it.
    I understand you walked into a video store somewhere down 
in Florida and they asked for your Social Security number and 
you walked out without the video. That is a frustration.
    I have a couple of things I would like to raise with GAO. 
First, with regard to driver's license, I notice on page seven 
of your testimony you talk about how since 1998 Ohio no longer 
prints Social Security numbers along State-assigned numbers on 
the driver's license. It is optional. I notice it is on mine 
and I am not going to try to get it off, but it does say 
optional now. It didn't use to be that way. In fact, it was the 
identifier. Mr. Collins mentioned that is true with Georgia as 
well. You can move to Ohio instead of Georgia for those who 
heard his earlier comments.
    I think this is a very important step in the direction to 
help ensure an individual's privacy not to require these 
numbers on driver's licenses. I would like to put into the 
record if I could a letter I got from the Registrar of the 
Bureau of Motor Vehicles of Ohio with further comment on the 
situation in Ohio. I think it would be helpful with regard to 
this discussion and perhaps help other States move in this 
direction as well.
    Chairman Shaw. Without objection.
    [The information follows:]

                                   Bureau of Motor Vehicles
                                         Columbus, OH 43266
                                                        May 9, 2000
The Honorable Rob Portman
United States Representatives
House Office Building
Washington, DC 20515

Dear Congressman Portman:

    Thank you for the opportunity to further comment on Ohio's use of 
SSN relative to our motor vehicle records. For purposes of 
clarification, motor vehicle records includes driver license records, 
state identification cards, motor vehicle title records and motor 
vehicle registration records (license plates).
    Since the early 1990's, the Ohio Bureau of Motor Vehicles (Ohio 
BMV) has not released SSN information from our records unless the 
requestor provides that information as part of their record request. 
For instance, if an automobile insurance company requests a copy of a 
driver record, we will only provide the SSN as part of the record 
report if the SSN was originally provided to us as an identifier.
    Since July, 1998, the Ohio BMV has provided an option to 
individuals to request the SSN be removed from the face of their 
license. While the Ohio BMV permits an individual to request the SSN 
not be printed on their license, we still require verification of the 
SSN to determine eligibility to obtain a driver's license. Like most 
states, Ohio verifies driving status. This is done for all classes of 
motor vehicles. Federal standards specifically require states verify 
eligibility of drivers applying for a commercial driver license. The 
primary purpose of this procedure to avoid instances where drivers, 
with suspended or revoked driving privileges, apply for a license in 
another state.
    Law enforcement agencies and courts are able to receive SSN 
information from the Ohio Bureau of Motor Vehicles.
    To date, SSN remains the most common and relied upon identifier, to 
match the various records of courts and law enforcement agencies with 
our own records. Names are unreliable because of common names and 
variations in spelling and usage.
    The use of motor vehicle records, by government agencies, has also 
been expanded beyond the traditional motor vehicle related activities. 
For instance, Ohio has a law that permits the revocation of driving 
privileges of a person who is in arrears for child support; children 
with excessive truancy can loose their driving privileges or ability to 
apply for a license; etc.
    In order to tie all of these different activities together, a 
reliable form of identification is required. Presently, SSN is that 
identifier for most government agencies.
    The Ohio BMV recommends that the opinion of the American 
Association of Motor Vehicle Administrators (AAMVA) be considered in 
determining an appropriate policy. AAMVA has spent considerable time 
and effort in determining an appropriate policy on behalf of its 
members.

            Sincerely,
                                      Franklin R. Caltrider
                                                          Registrar
      

                                <F-dash>


    Mr. Portman. My question to GAO would be, do you have any 
feedback on how this is working, either in Ohio or other 
States?
    Ms. Bovbjerg. It is really an emerging area. It is 
permissible for States to put Social Security numbers on a 
driver's license, but they may allow people an option not to 
have it on there. In the meantime, there is a recent court 
decision that upheld the law saying States may not sell that 
information without the express permission of the individual. 
There has been a lot of turmoil in the States on driver's 
license information, and we haven't been able to determine to 
what extent things are working or not working at the State 
level.
    Chairman Shaw. Would the gentleman yield on that?
    Mr. Portman. Absolutely.
    Chairman Shaw. It is my understanding, and I could be 
wrong, but in the State of Virginia that they use the Social 
Security number as the driver's license number. Is that 
correct, do you know? I see a head bobbing yes.
    Ms. Bovbjerg. I am not a Virginia driver so I cannot say 
from personal experience, but they can. It is permissible for a 
State to do that. I think more States are following the Ohio 
and Georgia lead though of retaining the Social Security number 
in their records because they need it to determine if somebody 
has been a scofflaw in another jurisdiction. Also, they need it 
to demonstrate that person has not been a scofflaw in their 
jurisdiction when someone else asks from another State, but 
they can no longer sell that information without individual 
permission.
    Chairman Shaw. I have just been handed a Virginia driver's 
license and the gentleman's Social Security number appears 
prominently on it and it is identified as ``customer number.'' 
There is no other number on the license, so I think it is clear 
the State of Virginia is using Social Security numbers as the 
driver's license number which is something we ought to look 
into.
    Mr. Portman. I guess one of the issues that we might want 
to look at is penalties at the Federal level. What are the 
penalties now for Social Security number fraud or for misuse 
under the Identified Theft Act?
    Ms. Bovbjerg. I don't know the answer to that question. 
Perhaps the Social Security IG will know better. I know that 
the penalties have stepped up. I am looking in my notes to see 
which law it is. It is the Identity Theft Assumption and 
Deterrence Act that made identity theft a Federal crime. This 
was in 1998. The penalties became substantial criminal 
penalties. I don't know exactly what those are but I know the 
penalties have expanded in response to that law.
    Mr. Portman. That would be helpful for the subcommittee to 
have that research. Perhaps the IG can provide it today. If 
not, if GAO could provide that?
    Ms. Bovbjerg. I will contact your office with that 
information.
    Mr. Portman. Thank you. One final question, which is a 
general one.
    Let us say someone refuses to disclose their Social 
Security number to a private business. Again, I reference the 
Chairman had to watch TV rather than a video. Can that 
business, by law, decline to provide the service?
    Ms. Bovbjerg. We are not aware of any law that requires a 
business to serve you if you don't provide information. It is 
also common in a place like Radio Shack. I had a similar 
experience to the Chairman's where they asked for my phone 
number and my Social Security number to buy a CD player. I said 
no, and they said, oh, okay, and I still got the CD player.
    In some cases, credit agencies, credit bureaus, lenders, 
will deny credit without the number.
    Mr. Portman. And a bank deny a loan if you refuse to 
provide your Social Security number. I assume a bank can at 
this point deny a loan if you do not provide your Social 
Security number?
    Ms. Bovbjerg. Yes, they can.
    Mr. Portman. Thank you, Mr. Chairman.
    Chairman Shaw. Mr. Collins, your State was mentioned in the 
gentleman from Ohio's questioning. Would you like to respond?
    Mr. Collins. We have a lot of residents of Georgia who were 
former residents of Ohio and we are pleased to have them. We 
expect more. [Laughter.]
    Mr. Collins. In your review of the misuse of Social 
Security numbers as it pertains to commercial or the 
marketplace, in any sort of way did you find the same misuse of 
Social Security numbers or identity in earned income tax credit 
areas?
    Ms. Bovbjerg. In our work, we did not look at misuse of 
Social Security numbers. We focused entirely on what legally 
was permissible, what was legally restricted, how different 
entities were using the numbers, but we did not investigate 
misuse.
    Mr. Collins. The same could be true then for those who 
would misuse a Social Security number in application for the 
refundable income tax credit.
    Thank you, Mr. Chairman.
    Chairman Shaw. Thank you for your testimony. We appreciate 
it. It helps round out our knowledge.
    With regard to the comment that there is no restriction on 
asking but they don't have to continue to do it to give you the 
service, this goes back to the check cashing and the military 
bases which we are still researching.
    Thank you. It is always nice to have you back before this 
committee.
    Ms. Bovbjerg. Thank you, sir.
    [Questions submitted by Chairman Shaw, and Ms. Bovbjerg's 
responses follow:]

                                  General Accounting Office
                                       Washington, DC 20548
                                                       July 7, 2000
The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives

Subject: Social Security Numbers: Subcommittee Questions Concerning the 
Use of the Number for Purposes Not Related to Social Security

Dear Mr. Chairman:

    This letter responds to your request that we provide answers to 
questions relating to our May 9, 2000 testimony.\1\ In that testimony 
we discussed the usage of the Social Security number (SSN) for purposes 
not related to social security and the implication of restricting such 
usage. Your questions, along with our responses, follow.
---------------------------------------------------------------------------
    \1\ Social Security: Use of the Social Security Number is 
Widespread (GAO/T09HEHS090009111, May 9, 2000).

1. The term ``national identifier'' has a very bad connotation to many 
people. In your opinion, has the Social Security number become a 
---------------------------------------------------------------------------
national identifier?

    The SSN is widely used by governments and businesses to maintain 
and exchange information. The Office of the Inspector General of the 
Social Security Administration (SSA) has noted that, over time, the SSN 
has become a ``de facto'' identifier used by federal and state 
governments. Banks, credit bureaus, insurance companies, and health 
care providers also use the SSN for identification purposes. This 
widespread use of the SSN beyond its original purpose has raised 
privacy concerns. While privacy concerns should not be discounted, it 
is important to note that the use of SSNs to link individuals to 
information about them enhances the administration of federal and state 
programs, makes credit more accessible to consumers, and allows medical 
care to be integrated across providers and insurers.

2. In your testimony, you indicated that there is no federal law that 
regulates the overall use of SSNs. In your view, is such a law needed? 
Is it feasible to enact, administer, and enforce such a law?

    Whether a law regulating the overall use of SSNs is needed depends 
on a number of factors. The first of these is the extent to which such 
a law could effectively curb identity theft and address privacy 
concerns. Secondly, these potential benefits would have to be weighed 
against how additional restrictions on the use of SSNs might hamper 
government and businesses' ability to conduct routine business. The 
feasibility of administering and enforcing such a law would depend on 
how restrictive it was and its scope--whether it was intended to change 
existing practices or limit uses of the SSN beyond those currently 
practiced. In addition, it would be necessary to decide what agency or 
agencies would be responsible for administration and enforcement and 
the resources those agencies would have to carry out those duties.

3. As you pointed out in your testimony, the Social Security number was 
created as a means of tracking workers' earnings and eligibility for 
Social Security benefits. It was never intended to serve as a personal 
identification document. Only certain information is maintained by SSA 
as a part of its Social Security number database. What information is 
available? What proof is required to obtain a Social Security number? 
How have the proof requirements changed over time?

    SSA collects only certain information about applicants for SSNs, 
and the documentation required as proof of this information has changed 
over time. Originally, SSA assigned an SSN to applicants based solely 
on individuals' unverified statements regarding age, identity, and 
place of birth. However, since 1978, applicants for new SSNs must 
provide proof of age, identity, and U.S. citizenship or proof that they 
are lawfully residing in the U.S. In addition, applicants must provide 
other information such as their place of birth, mother's maiden name, 
and father's name. Those applicants who are not U.S. citizens must also 
provide Immigration and Naturalization Service documentation showing 
whether they are allowed to work or provide a valid non-work reason for 
needing an SSN.

4. Despite public concerns about sharing personal information in 
today's electronic world, does the public benefit from the widespread 
use of SSNs and the sharing of personal information? Can you provide 
some examples?

    When consumers want to be uniquely identified, particularly in the 
health care and consumer credit service industries, the use of SSNs to 
share personal information accomplishes this purpose with one uniform 
number. Using SSNs to link individuals to their medical records allows 
doctors, hospitals, and HMO's to coordinate a person's health care 
among health providers and with insurers. Similarly, because up-to-date 
consumer payment histories linked to SSNs are available through 
national credit bureaus, the use of SSNs helps individuals instantly 
demonstrate their credit worthiness anywhere in the country when 
requesting credit.

5. If someone refused to disclose his or her SSN to a private business, 
can the business, by law, decline to provide the service? For example, 
if someone refuses to provide his or her SSN on a loan application, can 
the bank deny the loan?

    No federal law imposes broad restrictions on businesses' use of 
SSNs; consequently, businesses that request SSNs as a condition for 
receiving services may deny such services to individuals who refuse. 
However, practices vary by industry. Health care providers generally 
request patients' SSNs, but we were told that they do not require them 
as a condition for treatment. In contrast, most credit card companies 
request clients' SSNs as a condition for extending credit and may 
refuse service to those who do not comply. States vary in whether they 
require an SSN as part of the application for non-commercial driver 
licenses. Some require it for inclusion in a database, some do not, and 
in some states it is optional.

6. What are the possible effects on businesses of restricting their use 
of SSNs?

    Federal restrictions on using SSNs could hamper businesses' ability 
to conduct routine internal activities and their ability to exchange 
data. Correctly matching a specific individual to a corresponding 
record of information is an important concern for health care 
providers, information brokers, and credit agencies. Limits on the use 
of SSNs could make it harder for health care service providers to track 
patients' medical histories, make it less easy for employers to do 
background checks, and lessen the certainty with which credit 
information could be matched to specific individuals.

7. You mentioned in your testimony that many businesses and agencies 
are voluntarily restricting the use of SSNs to help protect their 
customers' privacy and reduce SSN misuse. Can you please elaborate on 
some of these self-regulatory policies?

    In 1997, 13 of the self-identified leaders in the information 
brokerage industry agreed to limit their disclosure of the SSNs they 
obtain from nonpublic sources to those customers who have legitimate 
uses for this information, such as law enforcement officials. In 
addition, they agreed to annual compliance reviews by an independent 
contractor. The Federal Trade Commission can cite them for unfair and 
deceptive business practices if they do not do as they have agreed. 
While recent reports indicate that the companies have generally 
complied with the agreement to limit their sale of SSNs that they 
obtain from nonpublic sources, it should be noted that the SSNs 
contained in the records they acquire are more likely to come from 
public sources, according to an information broker.
    Some states have taken steps to protect individuals' privacy by 
changing whether they display SSNs on driver licenses. For example, 
according to driver license officials in Georgia and Massachusetts, 
these states no longer automatically use SSNs as driver license 
numbers. They give drivers the option of using a state generated 
license number, instead of their SSN. Similarly, driver license 
officials in Ohio told us that the state previously printed SSNs along 
with state-assigned numbers on driver licenses, but now allows drivers 
the option of not having SSNs printed on their licenses. According to 
an American Association of Motor Vehicle Administrators official, only 
Hawaii still requires that SSNs be used as a driver's license number, 
but the state plans to discontinue this requirement next year.

8. One area not discussed in your written testimony is e-commerce. How 
has the high-tech economy affected SSN use? In general, can people 
conduct business on the Internet without providing their SSNs? How 
would restricting the use of SSNs affect e-commerce?

    Our work to date has not included assessing the uses of SSNs within 
the high-tech economy or the effects of their restricted usage on e-
commerce. However, in visits to two of the existing e-commerce sites, 
we found that certain consumer purchases can currently be made via the 
Internet without requiring the use of an SSN. Instead, these sites 
typically required new and repeat customers to register for on-line 
services by providing an identifier such as the user's name, and by 
selecting a password. Additionally, they require a credit card number 
to cover purchases of goods or services. Certain other e-commerce sites 
that we observed, however, such as those that sell securities or 
insurance policies, did require SSNs for tax or identification 
purposes.

9. You indicated that ``information brokers'' collect SSNs for the sole 
purpose of selling them. What exactly is an information broker? How are 
consumers served by this industry? What is the downside of limiting 
their activities? Why do information brokers need people's SSNs?

    Information brokers buy personal information, amass it in 
databases, and then resell it to clients. Brokers buy some of this 
information from private sources. However, some of the information they 
buy is already available to the public. Brokers offer customers 
convenient one-stop shopping for information that might otherwise by 
widely dispersed. For example, an employer can obtain information about 
a person's driving history and criminal history from an information 
broker, rather than attempt to locate and access public records 
containing the same information. Information brokers serve a variety of 
clients--a lawyer may request information needed for a civil 
proceeding; a pension plan administrator may request information to 
locate pension beneficiaries; or an individual may ask for information 
to help locate a birth parent. Information brokers may use SSNs to 
search databases. Limiting information brokers' use of SSNs might make 
it more difficult for them to conduct searches that produce records 
unique to a given individual.

10. According to your testimony, the Social Security Act declares that 
SSNs obtained by authorized individuals after October 1, 1990 are 
confidential and cannot be disclosed. If the Social Security Act 
prohibits the disclosure of SSNs why is their use so widespread and why 
are businesses allowed to ask for the SSN?

    The Social Security Act provision to which you refer, section 
205(c), protects against unauthorized disclosure of SSNs, but does not 
restrict the many legally authorized uses of the SSN. Businesses are 
allowed to ask for and use SSNs because section 205(c) generally only 
applies to governmental use of SSNs.
    Section 205(c) generally does not apply to business transactions. 
It prohibits disclosure by ``authorized persons,'' and it defines that 
term in part to mean those who gain access to SSNs ``pursuant to any 
provision of law.. . .'' Someone who comes into possession of an SSN as 
part of a business relationship--for example, the bank that requires it 
as part of a credit card application--has not gained access to it 
pursuant to a provision of law, and is therefore not subject to the 
section 205(c) restriction on disclosure.

11. If the use of the SSN were restricted by federal law, is it likely 
that another personal identifier would take its place?

    Although privacy concerns should not be discounted, exchanges of 
computerized data are important to the functioning of governments and 
businesses, and these exchanges can benefit the public. Given the large 
amount of such data available, in general, accuracy in linking the 
correct individual with information about him or her is desirable in 
the administration of some programs and in cases where people want to 
be uniquely identified. The SSN provides a convenient and effective 
method for doing this. If the SSN were not available for this purpose, 
in all likelihood, some other mechanism for doing the same would 
eventually take its place.
    We are sending copies of this letter to other interested parties. 
If you have any questions on matters discussed in this letter, please 
contact Kay Brown or me on 512097215. Key contributors to this 
assignment were Jacquelyn Stewart, Patrick di Battista, Valerie Melvin 
and Roger Thomas.

            Sincerely,
                                           Barbara Bovbjerg
                                     Associate Director, Education,
                              Workforce, and Income Security Issues
      

                                <F-dash>


    Chairman Shaw. Our final witness this morning is from the 
Social Security Administration, the Honorable James Huse, 
Inspector General, Office of the Inspector General.
    Mr. Huse, welcome back to the subcommittee. You may proceed 
as you wish. We have your full statement which will be made a 
part of the record.

STATEMENT OF HON. JAMES G. HUSE, JR., INSPECTOR GENERAL, OFFICE 
    OF THE INSPECTOR GENERAL, SOCIAL SECURITY ADMINISTRATION

    Mr. Huse. Good morning, Mr. Chairman and subcommittee 
members.
    Thank you for the opportunity to testify on this critical 
issue which impacts greatly on the lives of American citizens. 
In my full statement for the record, I outline for you the ways 
in which the SSN has been transformed from a simple agency 
recordkeeping tool into a cornerstone of modern commerce. 
Although the SSN was never intended to be a national 
identifier, it has rapidly evolved into the de facto 
identifier, especially with the introduction of electronic 
commerce.
    Our office is acutely aware that SSN misuse is on the rise 
because of the large number of SSN misuse allegation we receive 
and by the increasing number of requests for constituent 
assistance. In fiscal year 1999, our fraud hotline processed 
over 75,000 allegations, 80 percent of which involved the 
misuse of an SSN, with about 32,000 of these having an impact 
on Social Security's trust funds.
    Our work has revealed that certain misuse occurs because of 
vulnerabilities in SSA's processes such as cases where 
individuals apply for benefits under erroneous or counterfeit 
SSNs or where individuals sell legitimate SSNs for hundreds of 
dollars. We have also seen examples where Social Security's 
vulnerabilities in its enumeration business process adds to the 
pool of SSNs available for criminal, fictitious identities.
    Once an improperly issued Social Security number enters the 
stream of commerce, there is scant hope for preventing 
subsequent damage. In our audit work, we have made several 
recommendations to Social Security to improve its business 
processes which I have outlined in my full statement for the 
record.
    Through our audit work, we have also determined that there 
is a direct correlation between Social Security number misuse 
and Social Security's responsibility to maintain accurate 
earnings records for individuals. When Social Security cannot 
reconcile Social Security numbers and identifying information 
provided by employers, Social Security sends notices to wage 
earners requesting pertinent information to resolve these 
discrepancies. Most of the responses are returned 
``undeliverable, address unknown.''
    Ideally, we would like to pursue the thousands of potential 
Social Security number misuse and identity theft referrals that 
we receive each month. However, we are presently lacking the 
investigative capacity to handle the entire volume. As a 
result, we are forced to focus on major cases that directly 
impact on Social Security's operations.
    One of our toughest challenges is to find realistic 
strategies to fight this battle in an effective and efficient 
manner while remaining focused on Social Security's programs. 
Our current approach to Social Security number misuse only 
provides protection for what is Social Security's current area 
of responsibility. It will be little consolation to the 
thousands of identity theft victims and private industry whose 
cases are the responsibility of an array of Federal, State and 
local law enforcement agencies.
    We have several suggestions for Social Security and 
Congress to consider in addition to our formal audit 
recommendations, including, first, regulating the sale of 
Social Security numbers; second prohibiting businesses from 
refusing services for nondisclosure of a Social Security number 
when not relevant to the services being provided; third, 
requiring photo identification when conducting business with 
Social Security Administration; fourth, urging the 
implementation of new technologies and databases to help 
employers, government and private industry verify that names 
and/or Social Security numbers are correct to improve the 
identification process; fifth, legislating statutory law 
enforcement authority for our OIG investigators and sixth, 
broadening our civil monetary penalty authority for the sale or 
misuse of a Social Security number.
    When SSN misuse compromises Social Security's business 
processes, and the Social Security Trust Funds, our involvement 
is necessary and vigorous. To focus on our mission, we make 
tough choices to ensure that we bring the most benefit to the 
Social Security Administration. Yet, we often become the court 
of last resort for victims of identity theft. Therefore, I 
would appreciate your views on how to fulfill that role that 
the public seems to expect from SSA and our OIG.
    Thank you for the opportunity to speak this morning and I 
would be glad to answer your questions.
    [The prepared statement follows:]

Statement of the Hon. James G. Huse, Jr., Inspector General, Office of 
the Inspector General, Social Security Administration

Mr. Chairman and Members of the Subcommittee:

    Good morning Mr. Chairman and members of the Subcommittee. 
I want to thank the Subcommittee for holding this hearing on 
Social Security number (SSN) misuse. Your interest in this 
critical issue, which impacts on the lives of American 
citizens, is heartening.
    Today, I would like to provide you with a brief overview of 
how the SSN has been transformed, from a simple Agency record-
keeping tool into a cornerstone of modern commerce and what 
this transformation means for the Social Security 
Administration (SSA), this Office of the Inspector General 
(OIG), and the American public. I would also like to provide 
you with an overview of our efforts in this area. Finally, I 
offer several options for preventing SSN misuse from the 
perspective of what I believe to be the responsibility of SSA 
and by extension, this OIG. The more extensive problem of 
identity theft requires far more Government action than SSA and 
this office can provide. I would like to inform you about that, 
and elicit your views as our oversight committee.

                          Evolution of the SSN

    With the enactment of the Social Security Act in 1935, a 
system was developed to track the annual earnings of employed 
individuals. This system required a specific, unique identifier 
that could accurately maintain earnings records for decades to 
come. Thus, the SSN was born. The SSN was never intended to be 
a ``national identifier,'' but over the years, the SSN became 
the ``de facto'' identifier for Federal and State Governments. 
For example, in 1967 the Department of Defense adopted the SSN 
in lieu of the military service number for identifying Armed 
Forces personnel. An SSN was required to enroll in schools, 
receive financial assistance, and to apply for State drivers' 
licenses. Over time, the SSN has also become a critical 
identifier for banks, credit bureaus, insurance companies, 
medical care providers, and innumerable other industries.
    Not surprisingly, the introduction of the SSN into the 
stream of electronic commerce has been accompanied by a 
dramatic rise in SSN misuse. There is no end to the creativity 
and ingenuity employed by those with fraudulent intent. Our 
office is acutely aware of this problem due to the large number 
of SSN misuse allegations received by our Fraud Hotline and by 
the increasing number of requests for constituent assistance 
that we receive from Congressional offices. In FY 1999, our 
Fraud Hotline processed over 75,000 allegations. Over 80 
percent of the allegations and referrals made to our office 
involve the misuse of an SSN. Specifically, 32,000 had SSN 
misuse implications involving SSA programs and an additional 
30,000 represented SSN misuse allegations with no direct 
program implication. In the future, we expect this number to 
escalate as we begin to process investigative referrals from 
the Federal Trade Commission (FTC), which was designated as the 
Federal clearinghouse for identity theft complaints in the 
Identity Theft and Assumption Deterrence Act of 1998 (Identity 
Theft Act). Once the public is fully aware of the FTC's new 
role, we expect a considerable increase in the number of 
referrals of SSN misuse each month. These daunting numbers will 
seriously challenge our already strained resources.
    As such, I would now like to describe how SSN misuse 
impacts SSA's programs and operations, the public, and offer 
some possible solutions.

              SSN Misuse and SSA's Programs and Operations

    Our work has revealed that certain misuse occurs because of 
vulnerabilities in SSA's processes. In many instances, SSN 
misuse strikes at the core of SSA's programs and operations and 
we have dedicated substantial resources to this area. For 
example, our office has investigated numerous cases where 
individuals apply for benefits under erroneous SSNs. 
Additionally, we have uncovered situations where individuals 
counterfeit SSN cards for sale on America's streets. From time 
to time, we have even encountered SSA employees who sell 
legitimate SSNs for hundreds of dollars. Finally, we have seen 
examples where SSA's vulnerabilities in its enumeration 
business process adds to the pool of SSNs available for 
criminal fictitious identities. Each of these scenarios has a 
direct and material impact on the integrity of SSA's programs 
and operations.
    To that end, we have conducted numerous undercover 
operations regarding trafficking in SSA cards and numbers. We 
have prioritized SSN misuse cases where there is a material 
impact on the SSA's Trust Funds, such as benefit application 
cases. And we have been unyielding in our commitment to root 
out employee fraud and abuse in the SSN arena. I am pleased to 
report that SSA employee fraud cases in this area have been few 
and far between.
    Preventing SSN misuse will provide the greatest cost 
benefit to the Agency. To this end, we have dedicated 
substantial audit resources to study SSA's business processes, 
as it relates to the issuance of SSNs. Once an improperly 
issued SSN enters the stream of commerce, there is scant hope 
for preventing subsequent damage. As such, we would like to 
share some of our suggested preventative measures with this 
Subcommittee.
    In May 1999, we issued a Management Advisory Report 
entitled Using Social Security Numbers to Commit Fraud. This 
report detailed cases in which the Agency issued SSNs based on 
fraudulent documentation. Thereafter, the improperly issued 
SSNs were used to commit identity crimes. For example, one 
individual and his associates obtained 1,120 SSNs for 
nonexistent children using fraudulent birth certificates. 
During our investigation, we learned a number of the SSNs were 
linked to a larger criminal network being investigated by a 
Secret Service task force where credit card companies were 
defrauded out of approximately $30 million. We recommended that 
SSA incorporate preventative controls in its Modernized 
Enumeration System and as a result, SSA is developing automated 
edits within the system to identify transactions that have the 
greatest potential for fraud. This systems upgrade will alert 
employees to suspicious SSN applications, which they can then 
refer to the OIG for investigation. The efforts of SSA's work 
in this area will potentially result in thousands of cases 
being referred to our office for investigation over and above 
what we currently receive.
    This month, we released a follow-up report that further 
examined SSA's procedures for examining evidentiary documents. 
This draft audit report, entitled Review of the Social Security 
Administration's Procedures for Verifying Evidentiary Documents 
Submitted with Original Social Security Number Applications, 
traced the SSN issuance process for over 3,000 SSNs. We 
selected a judgmental sample of original SSN issuances from a 
universe of transactions where SSA sent 10 or more SSN cards to 
a single address within a six-month period. While our small 
sample was not statistically selected, making extrapolations to 
the entire SSN universe inappropriate, it was quite instructive 
in identifying specific vulnerabilities in the SSN issuance 
process. In our sample, 28 percent of the original SSNs 
reviewed, or 999 SSNs, were based on invalid evidentiary 
documents. While a substantial portion of these improperly 
issued numbers were used to obtain employment, the majority of 
these numbers were not. It is not implausible to believe that 
these SSNs were obtained for identity-related crimes. Our draft 
audit also uncovered the following instances where false 
identification documents were used to acquire SSNs:
    <bullet> SSA sent 43 SSN cards to three post office boxes 
in a small southern town. At our request, Immigration and 
Naturalization Service (INS) reviewed the application documents 
and determined that 98 percent of the documents presented were 
invalid.
    <bullet> SSA sent 56 SSNs to nonexistent children at seven 
different addresses. In support of their SSN applications, the 
``parents'' or ``guardians'' of these purported children had 
presented invalid birth certificates.
    Our draft report concludes that SSA needs stronger 
procedures and better tools to verify evidentiary documents. 
Specifically, we will be recommending that SSA employees obtain 
independent verification of alien evidentiary documents, prior 
to issuing SSNs. We are also recommending that SSA accelerate 
negotiations with INS and the State Department to implement an 
``Enumeration at Entry'' program; that SSA not mail new SSNs to 
a post office box; and that SSA employees receive work credit 
and recognition for fraud detection and development. Without 
such recognition, we see little hope for long-term 
improvements.
    We have also determined that there is a direct correlation 
between SSN misuse and SSA's responsibility to maintain 
accurate earnings records for individuals. When SSA cannot 
reconcile SSNs and identifying information provided by 
employers, SSA sends notices to wage earners requesting 
pertinent information to resolve the discrepancy. Most of the 
responses are returned ``undeliverable--addressee unknown'' to 
SSA. Some individuals provide the necessary information so that 
the earnings records can be reconciled while others reply that 
they do not have a legal SSN.
    Our office performed an audit in 1999, entitled Patterns of 
Reporting Errors and Irregularities by 100 Employers with the 
Most Suspended Wage Items, to determine which major employers 
had the most suspended wage items, and to examine why this was 
occurring. Ninety-six of the 100 employers reported over 
109,000 SSNs that had never been assigned by SSA. Over 3,000 of 
these numbers were entirely comprised of zeroes. As for the 
others, employers admitted that many workers provide incorrect 
names and SSNs because they do not want to be identified. One 
of our recommendations to SSA was to develop and implement a 
corrective action plan for these 100 employers and continue its 
efforts to contact those employers who are responsible for 
large numbers of suspended wage items. It is important to take 
this action because it only costs SSA 50 cents to post a wage 
item when originally submitted, as compared to $300 to correct 
it later.

                SSN Misuse and Its Impact on the Public

    SSN theft also has a substantial impact on the lives of 
private citizens, as well as private industry. Theft of SSNs is 
also becoming more and more prevalent as a result of today's 
electronic environment, which has facilitated easy access to 
individuals' SSNs and other personal identifying information. 
This point was highlighted in great detail at the 
Administration's Identity Theft Summit in March of this year, 
where several victims explained how the theft of their SSN 
turned their lives upside down.

    Since the passage of the Identity Theft Act, which provided 
the OIG with additional tools to fight SSN theft, the OIG has 
been in the forefront of the Federal Government's efforts to 
fight identity theft crimes. The OIG, in conjunction with the 
U.S. Attorneys' Office in Milwaukee, Wisconsin, was responsible 
for one of the first criminal prosecutions under this new law. 
This case exemplifies the extent to which SSN theft has an 
impact on both SSA's operations and the public.
    In Milwaukee, Waverly Burns, a Supplemental Security Income 
recipient, had commandeered another person's SSN. This stolen 
SSN was used to secure employment as a cleaning crew 
supervisor. While on the job, Mr. Burns stole over $80,000 in 
computer equipment from the offices of the Wisconsin Supreme 
Court. The stolen SSN was used to obtain a State of Wisconsin 
identity card, to open bank accounts in the victim's name, and 
to file fraudulent tax returns. Meanwhile, Mr. Burns continued 
to falsely represent to SSA that he was disabled and 
unemployed; indeed no earnings had appeared under his true SSN. 
On May 5, 1999, OIG special agents arrested Mr. Burns after 
tracking him to Chicago. Ultimately, Mr. Burns was sentenced to 
21 months in prison and ordered to pay over $62,000 in 
restitution.
    We would like to pursue the thousands of potential identity 
theft cases that we receive each month. With less than 300 
investigators nationwide, however, we lack the investigative 
capacity to handle the entire volume of identity theft 
referrals. As a result, we are forced to focus on major cases 
that directly impact on SSA's operations such as the Wisconsin 
case. Or, we work collectively through task forces with other 
law enforcement agencies to make the most efficient use of our 
resources. One of our toughest challenges is to find realistic 
strategies to fight this battle in an effective and efficient 
manner, while remaining focused on SSA's programs.
    To that end, our Office of Investigations launched an SSN 
misuse pilot operation in five major American cities last 
summer. We partnered with Federal and State law enforcement 
agencies to target identity crimes and SSN misuse. This allowed 
us to ``bundle'' smaller SSN cases for prosecutions -cases that 
would not typically be prosecuted if presented independently. 
In less than one year, we have opened 125 investigations which 
have resulted in 30 convictions to date. U.S. Attorneys' 
Offices and outside law enforcement entities have 
enthusiastically welcomed such pilots and have thanked our 
office for taking the investigative lead.
    To prepare for the future, we are developing for our fiscal 
year 2002 budget submission, an integrated model that combines 
the talents of our auditors, investigators, and attorneys. If 
authorized, this group will focus its efforts on developing 
patterns and trends to better target our audit work, refer 
cases for investigation, and liaison with other relevant public 
and private sector entities. This appears to be the most 
effective way of using our resources.
    Without any change to our current priorities, I believe we 
have a responsibility to focus our resources on the SSN's 
integrity as it relates to SSA core business practices. In 
particular, we need to focus our audit and investigative 
attention where there is:
    1. an apparent failure of SSA's business processes for 
issuing SSNs;
    2. an apparent failure in SSA's wage and reporting systems;
    3. a suspicion that SSN cards are being counterfeited;
    4. concealment of work activity using false identifications 
to obtain or maintain eligibility for Federal benefits.
    However, this approach will only provide protection for 
what is SSA's area of responsibility. It will be little 
consolation to the thousands of identity theft victims, 
including private industry, whose cases are the responsibility 
of an array of Federal, State, and local law enforcement. We 
have a responsibility to participate in this effort as a major 
partner to whatever extent we are able.

                           Possible Solutions

    We have several suggestions for SSA and Congress to 
consider, in addition to our formal audit recommendations that 
I have discussed previously:
    1. Regulating the sale of SSNs;
    2. Prohibiting businesses from refusing services for 
nondisclosure of an SSN when not relevant to the services being 
provided;
    3. Requiring photo identification when conducting business 
with SSA;
    4. Urging the implementation of new technologies and data 
bases to help employers, Government, and private industry 
verify that names and/or SSNs are correct to improve the 
identification process;
    5. Legislating statutory law enforcement authority for our 
investigators; and
    6. Broadening civil monetary penalty authority for the sale 
or misuse of an SSN.
    As I close, I hope I have informed this Subcommittee that 
we presently cannot investigate every instance of identity 
theft, while fulfilling our mission to protect SSA's programs 
from fraud, waste, and abuse. When SSN misuse compromises SSA 
business processes and the Social Security Trust Funds, our 
involvement is necessary and vigorous. Even in this context, 
the magnitude of SSN misuse is vast, and our resources are 
limited. To focus on our mission, we make tough choices to 
ensure that we bring the most benefit to SSA. Yet, we often 
become the court of last resort for victims of identity theft. 
Therefore, I would appreciate your views on how to fulfill the 
role that the public seems to expect from SSA and this OIG.
    Thank you for the opportunity to appear today to discuss 
this most important issue. I would be happy to answer any 
further questions from the Subcommittee.
      

                                <F-dash>


    Chairman Shaw. Thank you, Mr. Huse.
    I have one question and then I will yield to Mr. Johnson.
    In your six-point solution, you referred to regulating the 
sale of Social Security numbers. Can you think of any good 
reason that we should even allow the sale of Social Security 
numbers?
    Mr. Huse. Mr. Chairman, as the previous witness spoke, 
there is a great deal of commerce--
    Chairman Shaw. I am talking about the sale of it; I am not 
talking about passing it on. I mean actually getting paid for a 
list of people with Social Security numbers. To me, there is 
nothing but mischief involved in such actions.
    Mr. Huse. It is kind of hard to divide between those two 
uses but I agree with you, the flat sale of our identities to 
me is deeply troubling, but it does go on. Much of the 
information we leave on the record as we transact our own 
personal commerce migrates to these databases that are 
maintained by businesses and it is a big business.
    Chairman Shaw. Yes, sir, but my question is a very pointed 
one. If you would just answer yes or no and elaborate as you 
see fit--can you think of any legitimate reason why somebody 
would be engaged in the purchase and sale of Social Security 
numbers?
    Mr. Huse. No, there is no reason.
    Chairman Shaw. Thank you. That is a good answer and I agree 
with you.
    Mr. Johnson?
    Mr. Johnson. I agree with that too. I think it is 
atrocious.
    I wonder if you could tell us, the Federal laws mandate 
Social Security numbers in food stamp, Medicaid, those kind of 
programs, what would happen if we said you cannot use them 
anymore?
    Mr. Huse. It would be very difficult for us to sort out the 
identity of our recipient and beneficiary population. By 
default, over time, beginning with when our serial numbers were 
changed in the military in the 1960s and I was one of those who 
had a serial number changed over in Vietnam, the Social 
Security number has migrated to a variety of uses in 
government. It is not only at the Federal level, it is at the 
State level, and at local government level too. It is really 
what sorts us out one from each other.
    Mr. Johnson. But it was pointed out by the gentleman from 
Georgia to the gentleman from Ohio that in Texas as well, we 
use the driver's license number for ID. What is wrong with 
using that as opposed to the Social Security number?
    Mr. Huse. Nothing whatsoever. I think those are choices 
that businesses and government can make, but it represents some 
business cost. There is a convenience issue here that is also 
attached to this. Perhaps in the future, with new technology, 
there will be better ways to sort us out one from each other 
and to identify us as a unique person but we are kind of locked 
into this by habituation, I think.
    Mr. Johnson. When you talk about fraud and abuse, with the 
advent of the Internet and fast communication, do you 
anticipate more abuse of the Social Security number and the way 
it is used? Have you seen any of that?
    Mr. Huse. Yes, we have. It is growing--I hesitate to use 
the word ``exponentially'' but it is increasing by significant 
numbers each year. Some of that may be caused by the fact that 
we are a new agency, only five years old, and our capacity to 
take these reports gets better each year but the fact of the 
matter is the numbers have increased. They have gone up in the 
tens of thousands each year, each of the five years we have 
been in existence.
    Mr. Johnson. You do not submit any solutions for our 
consideration in that arena.
    Mr. Huse. In terms of asking for resources?
    Mr. Johnson. No, trying to fix the problem. How do we slow 
it down, without saying you cannot use the Social Security 
number for any identification?
    Mr. Huse. I think the solutions that I can recommend, there 
are some huge choices here. No one readily says that the Social 
Security number is the national identifier. We all are very 
careful that we do not say that, but in effect, it is. It has 
become that.
    Until something replaces that and facilitates all the 
rights and freedoms and ability to trade that we have, I don't 
know that you can suggest anything else responsibly. I don't 
know that I can. I agree with you, there needs to be some focus 
on regulating the use of the Social Security number.
    There also needs to be some aggressive deterrence. We need 
to make examples of the people. We have good laws, the Identity 
Theft and Assumption Deterrence Act of 1998 is a good law. 
Before that, we had other good laws that Congress passed in the 
area of identity fraud, but it is seeing that those laws are 
enforced that are critical. All of this falls on law 
enforcement agencies which are already manifestly committed to 
many things. We need to make this a priority. I think there is 
an answer in that. I really believe that is the most effective 
answer, if you make it costly for people to do this.
    Mr. Johnson. Federal attorneys would probably tell you this 
is pretty low on the totem pole and they are not going to spend 
time with it, isn't that true?
    Mr. Huse. It is true because it is hard to get to the 
bottom of what things of value are lost here. We heard Colonel 
Stevens and his wife tell us that their reputation has been 
lost. How do we put a dollar value on someone's reputation?
    We receive hundreds of constituent letters from all of the 
members of Congress with individual stories very much like the 
Stevens. We have become a court of last resort because they 
have tried local, State and Federal law and they have been 
turned aside because their cases did not reach thresholds for 
prosecution. Yet horrific things happen to these folks. I think 
that is an area we need to fix too, but again we need some 
teeth in that. That is why we have asked for the civil money 
penalties.
    Maybe there isn't a case there for a criminal prosecution 
but we certainly can sanction the people that are causing some 
of the trouble for these folks.
    Mr. Johnson. Thank you for your comments. I appreciate 
them.
    Chairman Shaw. Mr. Huse, is there any case law or statutory 
law to the effect that the numbers issued are the property of 
the Federal Government? You can supply that to the record.
    Mr. Huse. We may have to check that for the record. I don't 
know of my own accord.
    Chairman Shaw. That is a line of questioning that we have 
that I think is important to this hearing.
    Mr. Huse. It is regulated in statute but it doesn't say 
that it is the property of the United States Government.
    Chairman Shaw. When somebody dies is their number recycled?
    Mr. Huse. No.
    Chairman Shaw. Why aren't you out of numbers?
    Mr. Huse. Again, I would have to ask my actuarial expert. I 
think there is an infinite possibility still in the issuance of 
numbers.
    Chairman Shaw. Pardon me?
    Mr. Huse. We still have several hundred million to issue 
yet, so we are not at the point where they need to recycle.
    Chairman Shaw. I guess then you will go to using the 
alphabet or something of that nature.
    Mr. Tanner?
    Mr. Tanner. Thank you for being here, Mr. Huse.
    Did you hear my comment to the lady that testified before 
you? How does your office interact with the FTC when the FTC 
gets a complaint or notice that there is a possible identity 
theft in progress?
    Mr. Huse. We have a great relationship with the FTC. When 
the Identity Theft and Assumption Deterrence Act was passed 
making the FTC the clearinghouse for victims reports, we 
established a very close relationship with FTC and they refer 
to us those cases they receive that fall under our general 
jurisdiction.
    There are other Federal law enforcement agencies in this 
also, the Postal Inspection Service, the Secret Service, the 
FBI, but I would say our relationship with the FTC is probably 
the closest because we both get into a lot of victim reporting. 
Sometimes the victim reporting comes to us in our fraud hotline 
and then we refer that to the FTC. These are relatively new 
processes, so I hope over time they become more vigorous and 
abiding.
    Mr. Tanner. What happens then to stop it? Where do you go? 
What happens? Do you go to the FBI, do you go to the State 
police? How do you try to stop it?
    Mr. Huse. We have our own investigative arm of the Office 
of the Inspector General, albeit small, they are still Federal 
agents just like all the others. We actively investigate and 
bring cases to the Justice Department for prosecution just like 
other Federal law enforcement agencies.
    Mr. Tanner. So you are an investigative, law enforcement 
agency yourself to go and try to find the perpetrator of an 
identity theft in progress?
    Mr. Huse. We focus our efforts on those portions that deal 
with where Social Security's programs are being defrauded or 
other government benefit programs, or an area where the 
activity, like sale of SSNs, has an impact on Social Security's 
business processes, perhaps trying to corrupt the integrity of 
one of our employees to get these numbers or something. That 
keeps us pretty busy.
    Mr. Tanner. In your unit, you investigate and refer for 
prosecution individual instances of this?
    Mr. Huse. We do. Also, we do participate in task forces. We 
have established a number of these as pilot projects around the 
country with our Federal, State partners, and local partners to 
try and aggregate the impact that we can have in this area. 
This is a new attempt too.
    Mr. Tanner. I understand your administration hopes to 
process 97 percent of all Social Security number applications 
within five days. Do you have the manpower to do that with some 
level of degree of certainty as it relates to the fact that the 
person you are actually giving a Social Security number exists 
and two, it is not somebody else. I mean, 97 percent in five 
days is a laudable goal but it seems to me if we are going to 
really research the accuracy of this event in our lives, that 
is a pretty tall order. Do you have the resources to do that?
    Mr. Huse. In our recent audit work on this issue of the 
customer service goal Social Security has to issue numbers 
within five days, we have suggested and recommended in our 
audit work to SSA that this process is probably too fast. With 
today's technology and the ability to counterfeit almost 
anything so that it looks real, we need to slow down this 
process to verify the actual breeder documents that go behind 
Social Security numbers, birth certificates or other 
documentation.
    Mr. Tanner. That was the purpose of my question. Most 
people now getting Social Security numbers, I would guess are 
infants. It seems to me waiting 10, 15 even a month to give an 
infant a Social Security number because you are going to check 
in some manner that is going to give you a reasonable degree of 
certainty that this person exists and is the one you want, it 
seems to me that is not an unreasonable imposition on an infant 
that is two months old. If I am wrong in that, I stand 
corrected.
    You heard what Colonel Stevens and his wife testified, I 
assume?
    Mr. Huse. I did.
    Mr. Tanner. Do you have any suggestions for us to tell 
them? I was horrified. This man and his wife's life has 
literally been ruined through no fault of their own in terms of 
their plans for their children, grandchildren and so forth. 
This to me is an outrageous abuse of the system and the system, 
I think, ought to respond in some manner more than just saying 
we are really sorry about this, we are going to look into it.
    I suggested to him that the people who continue to 
circulate knowingly false credit reports may be liable if they 
know and continue to recycle these, the candle being relit all 
the time I believe is the way he put it.
    Do you have any suggestions for people in their 
circumstance? I would sure like to help them.
    Mr. Huse. It is my understanding that as the Federal Trade 
Commission's ability to take in these victims' reports, they 
then would have the civil authority to sanction these entities 
that improperly recycle bogus credit histories. I think that 
same power probably should be applied to some of our 
investigative agencies perhaps in the civil monetary penalty 
area at least where victims have no other recourse, there needs 
to be a way to make people pay for recirculating what basically 
is data garbage.
    Mr. Tanner. Does the FTC have that authority, in your 
opinion, now?
    Mr. Huse. I don't know that for a fact. They regulate but 
they don't have any enforcement authority, civil enforcement 
authority.
    Mr. Tanner. If they were going to be civilly fined for 
recirculating this, who would do that?
    Mr. Huse. I am suggesting perhaps in the civil monetary 
penalty area that we could do that.
    Mr. Tanner. Do you have that authority now?
    Mr. Huse. We have some civil monetary penalty authority in 
some areas, but we are asking for that to be expanded to add 
that dimension to our array of tools that we could use to help 
victims.
    Mr. Tanner. Have you submitted a suggestion along that line 
formally to the Chairman and the committee?
    Mr. Huse. I have forwarded it to the Chairman, yes.
    Mr. Tanner. I apologize for taking so much time but this is 
important.
    Thank you.
    Chairman Shaw. Don't apologize, this is important.
    Mr. Portman?
    Mr. Portman. If I might follow up on some of the 
recommendations you made in your testimony today and see if we 
can get at the next level as to how we would approach this. 
This story we heard at the beginning from Colonel and Mrs. 
Stevens has to focus everybody's attention. They are not the 
only ones, of course. There are people out there all over the 
place unfortunately having their Social Security numbers stolen 
and then end up in a living hell which is what they are going 
through right now.
    One of the things you just responded to in Mr. Tanner's 
questioning was something you testified to, broadening civil 
monetary penalty authority for the misuse of a Social Security 
number or the sale of a Social Security number. You said you 
thought the Social Security Administration might be the place 
to expand on existing authority. Can you elaborate on that and 
perhaps provide some more information to the committee 
regarding that possibility?
    Mr. Huse. I would be glad to do that. I think perhaps it 
would be better if I refine that a little better in writing and 
I would be glad to do that.
    Mr. Portman. Why don't we do that. I would be interested in 
it personally but I am sure the subcommittee would like to hear 
what specifically you would recommend in that regard. Clearly 
there is not adequate recourse right now for people like the 
Stevens.
    Another recommendation you had is to legislate statutory 
authority law enforcement authority for your investigators. How 
would this help to combat Social Security fraud? Is this a 
Social Security fraud issue or some other issue?
    Mr. Huse. It is Social Security fraud that is the driver 
for us but Social Security fraud as it rushes into what becomes 
identity fraud.
    Mr. Portman. It is a Social Security number issue?
    Mr. Huse. We have a responsibility as part of this array of 
Federal, State and local law enforcement because we are at the 
front end of most of this process, to be a cooperative piece of 
whatever they do and our ability to task force, to cross 
deputize local and State law enforcement to participate with us 
in different investigative endeavors to tackle some of these 
things and some of them are very complex conspiracies. We can't 
do that under the existing authorities that we have now. We are 
deputized United States Marshals; that is the way IG 
investigators are upholding to the Federal law enforcement 
family under current rules.
    If we had our free-standing statutory authority, as some 
inspector, general do in the Department of Agriculture and the 
Department of Defense, we would then have the ability to 
deputize other sworn law enforcement to help us in these 
projects. That is the key reason we need it.
    Mr. Portman. That is the authority you are looking for?
    Mr. Huse. Yes.
    Mr. Portman. Let me go to your other recommendations. One 
is that people show a photo ID when they are conducting 
business with the Social Security Administration. This seems 
like a useful suggestion but I wonder what portion of the 
population doesn't have a photo ID? Is this a practical 
solution?
    Mr. Huse. I am not aware of many that don't but I do know 
it is not a common business practice in Social Security's field 
operations today.
    Mr. Portman. They do not require a photo ID?
    Mr. Huse. They don't. We had evidence a week or so ago 
before this committee where a woman obtained the ability to 
become a representative payee without ever showing any 
identification. She did it over the telephone. These practices 
in today's world, you can't take people on faith anymore. It is 
unfortunate but you really need to have more vetting of your 
identity in a lot of transactions today.
    Mr. Portman. This could cut down on fraud in a lot of areas 
of Social Security, not just in terms of the number. I think it 
is a useful suggestion.
    I also note that Social Security is rightly so doing much 
more on-line now and you are looking to expand that, like 
applications for retirement benefits. At least with existing 
technology, require a photo ID in the context of an on-line 
service is going to be difficult. How do you reconcile this 
trend toward more on-line services with a photo ID requirement?
    Mr. Huse. I agree, until we get to the actual visual 
biometrics that may come in the future, and I think they will. 
I think our commerce will drive that, for electronic service we 
are going to need some aspects of public key infrastructure 
technology to enable us to do business over the Internet or 
transact business electronically.
    Mr. Portman. Both for privacy and fraud reasons?
    Mr. Huse. For both reasons. I think this, of necessity, 
will limit then the potential of electronic commerce because 
not everybody is going to be able to have their piece of the 
public key tradeoff in order to be able to identify themselves. 
You would have to have some way to do that.
    We are going to end up with both tiers of service for a 
long, long time, person to person and electronic but the 
electronic will have to be public key infrastructure.
    Mr. Portman. I appreciate what you are doing with regard to 
fraud and also with regard to ensuring people's privacy which 
in our digital economy is an increasingly troublesome issue to 
a lot of us and something in the area of Social Security we can 
make an impact.
    Chairman Shaw. Mr. Cardin?
    Mr. Cardin. I very much appreciate your testimony.
    I want to concentrate on some of your recommendations. You 
have recommended that we regulate the sale of SSNs and I hope 
you are aware of H.R. 1450 by Representative Kleczka. I see 
that you are, that he has introduced legislation that would 
prohibit the sale or purchase of any information that includes 
one's Social Security number less there is a written consent 
from the individual.
    You have also recommended prohibiting business from 
recusing services for nondisclosure of SSN numbers when not 
relevant to the services being provided. That provision is 
included in Congressman Kleczka's bill along with prohibiting 
merchants from requiring a Social Security number on a check 
that is used for the purchase of an entity or utility company 
from asking for SSN numbers on service applications.
    You also have suggested broadening the civil monetary 
penalty authority for the sale or misuse of SSN numbers.
    Have you had a chance to review Congressman Kleczka's 
legislation and do you have a view as to whether what is 
included in that legislation would help carry out the 
recommendations you are making to the committee?
    Mr. Huse. The very short answer is we have seen Congressman 
Kleczka's bill. I believe it is a good start. I think it pretty 
much addresses the issues I suggest in my recommendations.
    Mr. Cardin. I understand we will have a subsequent hearing 
and Congressman Kleczka will have a chance to present his bill 
to our committee. I think your views on pending legislation is 
very helpful to us. We appreciate the information you made 
available to us as we try to give the right tools to protect 
our constituents.
    Thank you.
    Chairman Shaw. Very quickly, in your testimony you mention 
85 percent of the cases you did--if my math is correct, that is 
60,000--in 1999 involved the misuse of Social Security numbers. 
Is that a growing problem and what would be your guess as to 
the percentage of misuse that ever gets to your attention?
    Mr. Huse. I didn't hear the last.
    Chairman Shaw. My question is twofold. One, is this an 
increasing problem, is 99 more than 98 and the second part of 
that is what percentage of the cases would you estimate are 
brought to your attention?
    Mr. Huse. That is a very good question. We have one of the 
largest hotlines in government and yet we don't really get the 
whole universe of calls that come to us every day. Each year we 
have had this capacity increase on the hotline, we have gotten 
more and more allegations.
    The constant, in terms of from the allegations we get, the 
pieces that involve SSN misuse--
    Chairman Shaw. How would someone know to get to you? Has 
Colonel Stevens come to you or do you know? How would anybody 
really think to get in touch with your office on this?
    Mr. Huse. We have made the number public. A lot of 
newspapers have published it.
    Chairman Shaw. If I were to call the Social Security 
Administration and say, someone is using my number, would they 
refer me to you?
    Mr. Huse. They would gate you over to the hotline.
    Chairman Shaw. So that is how you get most of your 
referrals?
    Mr. Huse. We get a lot of it that way. Others, people just 
call the 800 number directly.
    To answer your question, it is growing. What I cannot 
answer for you is what the universe is.
    Chairman Shaw. Perhaps for the record, you could let us 
know what the first four or five months of this year, how that 
curve is looking. If you could supply that for the record, I 
think it is important we measure that.
    Mr. Huse. We will do that.
    Chairman Shaw. This has been a very good hearing. We have 
called the Pentagon to try to find out the answer to the 
question I asked to Colonel Stevens. You don't know the answer 
to that, do you?
    Mr. Huse. We don't know if it is a military regulation but 
there is no Federal law that requires the use of the Social 
Security number in the transaction.
    Chairman Shaw. I think some people are making some 
misstatements in that regard and I think we need to let the 
Congress weigh in on that.
    Mr. Huse. I also wanted to say another piece of the Stevens 
testimony where they were told there were no Federal laws that 
applied to the situation in 1997, in effect, there were. We 
have always had good statutes. What Senator Kyl's bill did was 
even make it better.
    The criminal teeth are there; it is really in the 
implementation and the coordination of that implementation that 
we are getting lost.
    Chairman Shaw. I would say your staff would be swamped by 
the numbers you have now so you do not have the personnel to 
adequately investigate all these cases. That is my guess. I 
think I am right on that.
    Mr. Huse. You are. We have 300 special agents across the 
United States. That is far too small a number.
    Chairman Shaw. They do more than just this?
    Mr. Huse. Their principal mission is the program fraud that 
Social Security faces.
    Chairman Shaw. So the 60,000 complaints really are not--you 
don't have the personnel to adequately investigate them all?
    Mr. Huse. We do not.
    Chairman Shaw. We will have the response to my question 
from the Pentagon at the hearing on Thursday which will be a 
continuation of this hearing. I think this has been very 
helpful.
    I appreciate your testimony Mr. Huse, and all of the 
witnesses we have had throughout the morning. Thank you.
    [Questions submitted by Chairman Shaw, and Mr. Huse's 
reponses, follow:]

 Office of the Inspector General Response to Social Security Number Use 
and Misuse

1. You mention that a good deal of SSN misuse creates a cost to 
the Social Security program because people fraudulently apply 
for benefits. Has anyone estimated the cost of SSN misuse to 
the Social Security Trust Funds? Has anyone estimated the cost 
of SSN misuse to private-sector businesses?

    To our knowledge, no one has estimated the total cost of 
SSN misuse to the Social Security Trust Funds (Trust Funds). 
Additionally, we are not aware of any reliable estimates that 
reflect the total cost of SSN misuse to private sector 
businesses.
    In its May 1998 report entitled Identity Fraud: Information 
on Prevalence, Cost, and Internet Impact is Limited, the U.S. 
General Accounting Office (GAO) concluded that identity fraud 
is very difficult to track. One of the reasons for this 
difficulty is that identity fraud cuts across many of the 
statistical categories tracked by law enforcement authorities. 
We echo GAO's conclusion. Additionally, even though over 80 
percent of the allegations and referrals made to our office 
involve the misuse of an SSN, our limited resources only allow 
us to investigate a small percentage of these cases. Therefore, 
our data only illustrates the impact to the Trust Funds and/or 
private sector entities of those cases we investigated, not the 
universe of such occurrences.
    Since the issuance of GAO's report and the passage of the 
Identity Theft and Assumption Deterrence Act of 1998 (Identity 
Theft Act), we have started to redesign our systems to capture 
SSN misuse referrals in a more defined structure that will 
delineate SSN misuse by type. Also in response to the Identity 
Theft Act, other Federal Agencies, such as the Federal Trade 
Commission, have initiated system enhancements that will 
capture SSN misuse data. Therefore, we would anticipate more 
thorough statistics in the near future.

2. What are the key vulnerabilities in SSA's business processes 
relating to the issuance of SSNs? What recommendations have you 
made and how has the agency responded?

    Based on our audit and investigative work, we believe the 
key vulnerability in SSA's enumeration business process is the 
Agency's procedures for verifying evidentiary documents 
submitted with SSN applications. Testimony given at the May 19, 
2000, Hearing on the Sale of False Identification Documents via 
the Internet before the Senate Committee on Governmental 
Affairs, Permanent Subcommittee on Investigations, provided 
evidence of how easily official documents can be counterfeited 
with today's computer technology. Unfortunately, SSA employees 
are faced with determining the legitimacy of such expertly 
counterfeited documents every day. Certainly, we acknowledge 
that the preponderance of SSN applicants are law-abiding 
individuals who present valid documents in support of their SSN 
applications. Nevertheless, we believe this vulnerability is 
significant because (1) obtaining an SSN is often the first 
step in committing other identity fraud crimes and (2) once an 
SSN is issued, SSA has little ability to prevent the misuse of 
that SSN. As such, we believe it is essential that SSA 
incorporate more front-end controls in its enumeration process 
that would help identify counterfeit documents and prevent the 
improper issuance of SSNs.
    Based on our audits and investigations, we identified the 
following reasons that fraudulent documents are ``slipping 
through the system.''
    <bullet> SSA employees do not have adequate tools (for 
example, real-time on-line verification mechanisms) to verify 
the validity of evidentiary documents.
    <bullet> SSA's emphasis on customer service discourages 
personnel from employing security measures that might detect 
fraudulent documents.
    SSA has implemented and is planning several initiatives 
designed to address the use of fraudulent documents in 
obtaining SSNs. For example, SSA is negotiating the Enumeration 
at Entry program with the U.S. Immigration and Naturalization 
Service (INS) and the U.S. Department of State. Under this 
program, INS and the State Department will collect enumeration 
data from aliens entering the United States. Additionally, SSA 
is attempting to negotiate with State Bureaus of Vital 
Statistics to gain on-line access to verify birth and death 
records. We applaud these initiatives, however, we believe that 
they will take several more years to implement.
    As such, we recommended that SSA make both policy and 
procedural changes to ensure the integrity of the enumeration 
function. We recognize that the recommendations may affect the 
amount of time necessary to process original SSN applications. 
However, we believe that if SSA intends to fully address the 
issues of fraudulent SSN attainment and use, we believe these 
are investments the Agency should make. Our specific 
recommendations to SSA include the following:
    <bullet> Obtain independent verification from the issuing 
agency for all alien evidentiary documents before approving the 
respective SSN applications, until the Enumeration at Entry 
program is implemented.
    <bullet> Accelerate negotiations with INS and the State 
Department to implement the Enumeration at Entry program. Once 
implemented, all non-citizens should be required to obtain 
their SSNs by applying at one of these Agencies.
    <bullet> Give credit for fraud detection and development in 
measuring the performance of field offices and their employees.
    <bullet> Continue efforts and establish an implementation 
date for planned system controls that will interrupt SSN 
assignment in certain suspect circumstances.
    <bullet> Propose legislation that disqualifies individuals 
who improperly attain SSNs from receiving work credits for 
periods that they were not authorized to work or reside in the 
United States.
    In its recent response to our recommendations, SSA agreed 
to accelerate negotiations with INS and the State Department to 
implement the Enumeration at Entry program. On June 16, 2000, 
SSA, INS, and the Office of Management and Budget met to 
resolve any remaining concerns INS has so that implementation 
may occur. In its response, SSA also agreed to continue efforts 
and establish an implementation date for planned system 
improvements that interrupt SSN assignment in certain suspect 
circumstances. Due to the extensive systems improvements that 
will be required, SSA expects to have these controls in place 
by April 2002.
    Although we are certainly encouraged by these planned 
actions, we regret to report that SSA disagreed with our 
remaining recommendations, both of which we believe are very 
important in preventing SSN fraud. SSA declined to obtain 
independent verification from the issuing Agency for all alien 
evidentiary documents before approving the respective SSN 
applications. SSA stated that the Agency already verifies with 
INS all documents for noncitizens applying for SSNs, except 
documents for those who have been in the country less than 30 
days. The Agency also responded that, while it is committed to 
reducing fraud, SSA also has an obligation to provide SSNs to 
newly-arrived noncitizens who have legal authority to work. SSA 
believes that delaying approval of their SSN applications for 1 
to 2 months until INS can verify their applications would 
result in a grave disservice to these individuals. Instead, SSA 
stated that the Agency would continue to work with INS to 
shorten the lag time needed to update the latter Agency's 
systems and to have INS collect enumeration data.
    SSA also disagreed with our recommendation to propose 
legislation that disqualifies individuals who improperly attain 
SSNs from receiving work credits for periods that they were not 
authorized to work or reside in the United States. SSA stated 
that the legislative proposal we recommended would be extremely 
difficult to administer because SSA cannot on its own determine 
when or if an individual's immigration or work status has 
changed. SSA believed that these determinations could only be 
made by INS or a court.
    Although we acknowledge SSA's concerns with these 
recommendations, we do not agree with the Agency's position. We 
continue to believe that the vulnerability within SSA's 
enumeration process regarding the possible acceptance of 
counterfeit alien documents is significant enough to warrant 
the verification of such documents. Additionally, we believe a 
delay in the receipt of SSNs for many noncitizens will be 
inevitable under the Enumeration at Entry program, unless INS 
makes extensive changes in its processes. We also disagree that 
the implementation of our legislative proposal would be 
extremely difficult to administer. It is our contention that it 
would be the responsibility of the number holder to amend the 
SSN record if he or she subsequently became eligible to reside 
and/or work in the United States. In summary, we believe that 
if the holder of a fraudulently attained SSN applies for SSA 
benefits, he or she should be required to prove that they have 
sufficient work credits as a legal worker in the United States 
before those benefits are approved.
    We will continue to work with SSA to resolve these two 
issues.

3. GAO testified before you that there is no federal law that 
regulates the overall use of SSNs. Is such a law needed? Is it 
feasible to enact, administer, and enforce such a law?

    There is no doubt that such a law is needed. The abuse of 
SSNs is possible only when the number is made available to 
those who would misuse it, and existing law fosters misuse. The 
most potent tool we have to combat misuse of an SSN at the 
criminal level is Section 208(a)(8) of the Social Security Act, 
42 U.S.C. 408(a)(8), but that statute only prohibits misuse of 
an SSN in violation of the laws of the United States. In other 
words, misuse of the SSN becomes a crime only if another crime 
is committed in the process (i.e., bank fraud).
    I am sympathetic, however, to the second half of your 
question with respect to feasibility. The use of SSNs, 
legitimate and illegitimate, is so prevalent at this point that 
regulation would almost certainly bring a hue and cry from many 
honest industries. However, both the legislative and regulatory 
processes permit the public to be heard. Indeed, in this 
instance, their voices would be critical to the process. The 
use of SSNs is not likely to decrease--as it increases, so will 
instances of misuse. Only by making the difficult 
determinations of which uses will be permitted and which will 
not, can we can cull out those uses which facilitate misuse and 
criminality.
    Certainly before we may outlaw improper uses of the SSN on 
a significant scale, appropriate uses would have to be 
identified and regulated. In this respect, the Federal Trade 
Commission and the Social Security Administration would have to 
work in concert. Once these difficult determinations are made, 
and proper SSN uses regulated by one or both of those agencies, 
it would become a relatively simple matter to provide clear and 
enforceable criminal, civil, and administrative sanctions 
against those who misuse the SSN either by putting it to uses 
that are outside the scope of that regulatory scheme, or by 
violating that scheme. Any such legislative amendments to the 
Social Security Act would bring violators within the 
jurisdiction of this office and the Department of Justice.
    While this is by no means an easy task, it becomes more and 
more daunting with each passing day and each new use (or 
misuse) to which SSNs are subjected. Therefore, immediate 
action as contemplated above is critical.

4. GAO testified that many private-sector businesses and 
government agencies have adopted voluntary policies aimed at 
protecting privacy and reducing SSN misuse. Can self-regulation 
be an effective way to reduce SSN misuse?

    Although we applaud private-sector businesses and 
governments that have been instrumental in facilitating the 
recent reform effort of information privacy issues, we do not 
believe self-regulation should be considered the definitive 
solution in reducing SSN misuse. Our concerns rest with the 
inability of self-regulated entities to ensure uniform 
implementation of privacy measures and subsequent compliance. 
Additionally, we believe it is unlikely that self-regulation by 
reputable companies or government organizations that already 
have a fiduciary responsibility to protect the public's 
interest will significantly curb the current identity fraud 
crisis.

5. You note that your office issues a list of the 100 employers 
with the most suspended wage items (i.e., wages that do not 
match up to an SSN.) What are the reasons why these reported 
wages don't match up to an SSN? One of your recommendations to 
the Social Security Administration was to implement a 
correction action plan for these employers. Has SSA acted on 
this recommendation?

    Our office issued an audit report in which we discussed 
patterns of reporting errors and irregularities by 100 
employers with the most suspended wage items. During this 
audit, we found that about 55 percent of the wage items in 
SSA's suspense file either don't have (1) a name; (2) a SSN; 
(3) a name and SSN; or (4) a valid SSN. About 41 percent have 
valid SSNs but the names show no relationship to the names on 
SSA's master file of issued SSNs. Three industries, bars and 
restaurants, services, and agriculture account for 47 percent 
of the suspense file. These industries rely on a low skilled, 
low wage, and highly transient workforce. Nine states account 
for 70 percent of the suspended items. California alone 
contributes 31 percent.
    Many of the suspense items occur at the earliest point of 
the wage reporting process, the time of hiring. Some of the 
reasons for these occurrences are as follows:
    <bullet> Employers cannot require new hires to show their 
Social Security cards as a condition of employment. Under 
present Immigration and Naturalization guidelines, new hires 
can choose from a total of 27 documents to prove their identity 
and work eligibility. Presently, SSA can only encourage 
employers to ask for the Social Security card.
    <bullet> Many employees whose wages are suspended may be 
aliens who do not have work authorization from INS and may be 
providing fraudulent documents to employers. With 27 documents 
for the employee to choose from, it is virtually impossible for 
the employer to detect all counterfeit documents.
    <bullet> Employers are not required by either INS or SSA to 
verify the validity of documents provided by new hires. 
Presently, INS and SSA can only encourage employers to enter 
joint SSA/INS pilot programs and SSA verification programs.
    <bullet> Employers have no incentive to follow-up with 
employees to ascertain the correct name/SSN, after SSA has 
rejected their wage reports. In fact, in many cases it may be 
impossible to locate the employees because they are no longer 
employed and have left no forwarding address.
    <bullet> SSA does not have authority to sanction employers 
who repeatedly submit incorrect wage reports. Only IRS has this 
authorization and, to date, the Agency has used this authority 
only on an extremely rare basis.
    In response to our report, SSA agreed to develop a 
corrective action plan for the top 100 employers contributing 
to the suspense file. As a part of this plan, SSA has taken or 
is in the process of implementing the following actions:
    <bullet> Negotiating with IRS so that 50 of the 100 
employers on the OIG list will now be included in IRS' large 
case audit program and subject to potential incorrect filing 
penalties.
    <bullet> Continuing its efforts, now in its third year, of 
contacting employers with large numbers of suspended wage 
reports (100 or more items).
    <bullet> Sent notices to employers in February 2000 for tax 
year 1999 that included a section informing them about their 
responsibilities and employee rights.

6. You mention that it costs SSA 50 cents to post a wage item 
when it is originally submitted compared to $300 to correct it 
later. Why are the costs to correct wage items so high?

    Correcting wage items is a labor-intensive and therefore, 
expensive process. For example, about 20 million individual 
wage records initially cannot be matched to SSA's name and SSN 
records. To resolve these discrepancies, the Agency uses about 
27 editing routines in an attempt to properly record wages to 
the Master Earnings File (MEF), prevent wage items from ending 
up in the Earnings Suspense File (ESF) and reinstate wage items 
from the ESF to the MEF.
    The Agency uses both manual and electronic validation 
routines that manipulate wage earners' Social Security numbers 
(SSN) and/or names in efforts to find record matches. When 
matches are questionable, researchers use additional wage 
earners' records to identify possible matches. Some annual 
routines review the current reporting year and specific tax 
years. Other routines use the latest system improvements and 
validation rules to periodically review the entire ESF dating 
back to 1937. These routines find correct matches from 
incorrectly reported SSNs or names (or both) when it meets 
SSA's validation rules.
    It is also costly to notify employees and employers of 
discrepancies. When wage items reach the ESF, the system 
generates letters, known as Decentralized Correspondence 
(DECOR.) The main purpose of DECOR is to query individuals in 
an attempt to resolve SSN and/or name discrepancies. SSA must 
review responses to these letters to remove items from the ESF 
for posting to the individual's MEF record. DECOR annually 
generates and mails about 6.5 million letters.
    SSA receives about a 20 percent response rate to these 
letters and is able to use the information to reinstate 
suspended wages in about 40 percent of those cases (that is, 
about 8 percent of the overall DECOR mailing). Another 20 
percent are returned to SSA unopened as undeliverable mail. For 
the remaining 60 percent, there is no recorded response 
although some may result from telephone calls or visits to SSA 
field offices.
    In addition, SSA employees annually have thousands of 
contacts with employers to help them report wages correctly. 
For example, the Agency estimates it received over 200,000 
calls from employers in FY 1999.
    Despite the Agency's efforts, approximately 5 million wage 
items cannot be posted to individuals' earnings records for any 
given year.

7. You mention the Identity Theft Act in your testimony. Are 
there any other laws aimed at protecting privacy and preventing 
fraud? In your opinion, are existing laws enforced effectively 
or do we need new laws to help prevent identity theft and other 
types of SSN misuses?

    Existing laws, and the Identity Theft Act in particular, 
provide some measure of protection. As a whole, however, SSN 
misuse represents a significant legislative gap. With some 
limited exceptions, the criminal and administrative authority 
in the Social Security Act is aimed at protecting against SSN 
misuse in terms of misusing the SSN against SSA programs, 
rather than misuse in a more global context. To that extent, 
legislation has not kept up with the criminal universe. 
Certainly in the past, one could argue that SSN misuse was 
primarily a crime against SSA programs; that is no longer the 
case. The misuse of the SSN in ways never contemplated has 
created a situation in which the greater threat is not to SSA 
programs, but to private citizens and to commerce. The crimes 
against them being committed through misuse of an SSN have 
become crimes in which SSA is an unwitting accomplice, in which 
the integrity of the SSN is systematically violated for 
criminal purposes. And, even when the SSN misuse is not aimed 
directly as SSA programs, the misuse still costs SSA in terms 
of erroneous record-keeping (such as wage reporting) and 
improperly-paid benefits, as well as by corrupting the SSN 
itself.
    As stated above, it is critical that a universe of 
appropriate SSN uses be identified and regulated, and that 
legislation providing criminal, civil, and administrative 
sanctions for misuse be put in place.

8. Can you please elaborate about the Federal Trade 
Commission's specific role in SSN misuse?

    The Identity Theft and Assumption Deterrence Act of 1998 
designated the Federal Trade Commission (FTC) as the 
clearinghouse for identity theft complaints. In this capacity, 
FTC indirectly assists identity theft victims by managing 
information sharing among public and private entities. The 
specific goals of the FTC's information clearinghouse are to 
(1) support criminal law enforcement efforts by collecting data 
in one central database and making referrals as appropriate; 
(2) provide consumers with information to help them prevent or 
minimize their risk of identity theft; (3) streamline the 
resolution of credit and financial difficulties consumers may 
have when they become victims of identity theft; and (4) enable 
analysis of the extent of, and factors contributing to, 
identity theft in order to enrich policy discussion.
    To meet these goals, FTC developed a plan that centers on 
three principal components:
    <bullet> A toll-free telephone number that consumers can 
call to report incidents of identity theft. Hotline counselors 
enter information regarding the consumers' complaints into a 
centralized database--the Identity Theft Data Clearinghouse. In 
operation since November 1, 1999, the hotline has averaged over 
400 calls per week. This information is used to guard against 
or resolve problems caused by identity theft, and to assist in 
streamlining the process for the consumer wherever possible.
    <bullet> The Identity Theft Complaint Database is designed 
to become a comprehensive, government-wide repository of 
information collected from victims of identity theft. It will 
also incorporate complaints received by other government 
agencies, such as SSA. Consumers can also enter their own 
complaint information via the public user complaint form at 
www.consumer.gov/idtheft. The clearinghouse will be available 
to law enforcement agencies at the Federal, State, and local 
level through a secure, web-based interface allowing them to 
more effectively track down identity thieves and assist 
consumers.
    <bullet> Consumer education is provided through both print 
publications and a website located at www.consumer.gov/idtheft.

9. One of your recommendations to combat SSN fraud is to 
regulate the sale of SSN's. How can this be done? What 
exceptions would the law have to include? Would there be any 
downside for consumers?

    Again, regulation of the sale of SSN's is one part of the 
scheme envisioned above, wherein appropriate uses (whether 
sale, recordkeeping, banking, etc.) are identified and 
regulated. It is not for this office to determine what uses (or 
what sales) of an SSN will be appropriate--that is a matter 
best left to the expertise of the Social Security 
Administration, the Federal Trade Commission, and the 
legislative and rulemaking processes. While there may be a 
downside for consumers, if the process is conducted properly, I 
am confident that any downside would be vastly outweighed by 
the greater degree of protection and security that such 
legislation would provide to the American public.

10. The widespread use of the SSN creates a lot of 
administrative headaches for SSA, such as reissuing SSNs for 
people who have been the victims of identity theft. To your 
knowledge, has SSA ever developed a proposal that addresses 
this issue, especially one that seeks to limit how the SSN is 
used by other government agencies and the private sector?

    We are not aware of any SSA proposal that would limit how 
other government agencies and the private sector use the SSN.

11. One of your recommendations for reducing fraud is that 
people should show photo ID when conducting business with SSA. 
That seems like a useful suggestion. Still, are there any 
arguments that some might make against it? Do you know what 
portion of the population do not have a photo ID? Wouldn't this 
cut down on fraud in other areas of SSA programs as well?

    In proposing this recommendation, we did not intend to 
infer that photo identification would be feasible in every 
circumstance. In fact, we acknowledge that a number of 
exceptions would need to be allowed if SSA adopted this policy. 
Specifically, although we are unsure what portion of the 
population does not have picture identification, the numbers 
could be significant. Those without picture identification may 
include children, homeless individuals, and refugees. Opponents 
of this proposal might also argue that counterfeit photo 
identification is very easily attained and therefore provides 
little deterrent value. Nevertheless, where available, we 
believe providing photo identification may prevent some forms 
of identity fraud.

12. At the same time, SSA is studying conducting certain 
services online, such as applications for retirement benefits. 
Obviously, at least for now, showing a picture ID won't work in 
that setting. How can the trend toward online applications be 
reconciled with your suggestion of showing a photo ID to 
receive services?

    As stated previously, we do not believe that photo 
identification is feasible in every situation. Additionally, we 
do not believe this measure will be a cure-all for identity 
fraud issues. Certainly, as SSA shifts more of its services 
online, other identification technologies must be explored. In 
the interim, however, we believe requiring photo identification 
when available is a small step towards addressing SSN misuse in 
SSA programs.

13. One of your recommendations is to legislate statutory law 
enforcement authority for your investigators. How would this 
authority for your investigators assist in combating SSN fraud?

    My office is, first and foremost, a law enforcement 
organization. Unfortunately, our authority is not commensurate 
with our responsibilities. With no independent law enforcement 
authority, we are limited to the terms of a revocable agreement 
with the Department of Justice--as a result, many of our 
policies and practices are less than they could be. For 
example, we are frequently unable to make the most of limited 
resources through cross-designation of other law enforcement 
personnel, because we have no such authority. We are similarly 
hindered in our cooperative enforcement efforts at the State 
level because of restrictions in the aforementioned agreement. 
Statutory law enforcement authority would enable us to maximize 
our resources to combat SSN misuse.

14. You also suggest broadening civil monetary penalty 
authority for the sale or misuse of an SSN. Would you provide 
more details about this recommendation?

    The civil monetary penalty authorities provided by Sections 
1129 and 1140 of the Social Security Act have proven invaluable 
tools for both deterring and punishing fraud. We are hopeful to 
expand that authority beyond false statements and misuse of SSA 
words and symbols into several additional areas, including the 
sale or misuse of an SSN. As you know, United States Attorneys 
are limited in the number of cases they can accept for either 
criminal prosecution or civil action. Frequently, in the 
context of Social Security crimes, such decisions are made on 
the basis of monetary loss to the government. The sale or 
misuse of an SSN often results in little or no monetary loss to 
the government, but it is certainly not a victimless crime, as 
it wreaks havoc with individuals' credit histories and 
financial well-being, affects commerce, and causes enormous 
financial losses in the private sector.
    With civil monetary penalty authority, my office would have 
the ability to pursue those offenders that the Department of 
Justice does not have the resources to pursue and impose fines 
that would punish those who sell or misuse SSNs, deter similar 
conduct by others, and at the same time, replenish the Social 
Security trust fund to compensate for any monetary losses that 
do affect SSA. By delivering a clear message that the sale or 
misuse of SSNs is not a crime that goes unpunished, the civil 
monetary penalty authority would play a critical role in a 
coordinated assault on SSN misuse.

15. You recommend that new technologies and databases be 
fostered to help employers, government, and private industry 
verify that names and/or SSNs are correct to improve the 
identification process. From a practical standpoint, how would 
this work? Would opening such a database to employers and 
private industry create new opportunities for misuse of this 
information? Who would monitor this process?

    SSA currently has a voluntary program, the Enumeration 
Verification System (EVS) that offers employers a mechanism to 
match employee names and SSNs with SSA's records. However, 
employers can only submit a request to SSA on magnetic media, 
paper, or by telephone. Furthermore, depending on the number of 
requests, it can take SSA up to 30 days to verify name and SSN 
requests from employers. Only about 3,000 of about 6.5 million 
employers nationwide have registered to use EVS and only 
between 200 and 500 use it in any given year.
    To better assist employers in verifying employee names and 
SSNs, SSA plans to begin a pilot project in July 2000 to 
provide employers with an on-line employee verification service 
(OEVS). This service would give employers two options to assist 
them in verifying employees' names and SSNs through the 
internet: (1) key in verification requests for an instant 
response, and (2) transmit a file and receive it from SSA the 
next business day. SSA believes OEVS will provide employers 
with quicker name and SSN verification in a more cost-effective 
manner.
    We do not believe that the current EVS or the planned OEVS 
creates new opportunities for misuse of names and SSNs. SSA 
currently monitors the process and has various security 
features, such as PIN and password features, to prevent misuse 
of the data.
    We would also propose expanding the use of EVS or OEVS to 
permit access to Federal, State, and local law enforcement 
agencies. Under current law, such agencies cannot verify the 
names and SSNs of individuals under investigation for a crime 
except in certain narrow circumstances. We are currently 
negotiating with SSA to permit to some extent the ability of 
law enforcement to verify names and SSNs, but even this 
expanded ability will fall well short of what is permitted by 
the Privacy Act (5 U.S.C. 552a). Given the prevalence of SSN 
misuse as a factor in so many different crimes, we would 
support legislation that would require SSA to comply with the 
Privacy Act and provide this limited information upon request 
to law enforcement agencies.

16. For the record, please provide a breakdown of the 
statistics from the SSA/OIG Hotline for the first six months of 
this fiscal year. I would like the total number of allegations 
received by the Hotline; the total number of these allegations 
related to SSN misuse (of this figure, please break this down 
further into the number the related to the programs and 
operations of SSA and the number not so related.)

    In the first six months of this fiscal year, the SSA/OIG 
Hotline received a total of 44,944 allegations. Of these, 
37,008 (approximately 82%) involved SSN misuse as the primary 
or secondary allegation. In 22,408 of these 37,000 cases, SSN 
misuse was the sole basis of the allegation. The remaining 
14,600 cases were program fraud allegations involving SSN 
misuse.
      

                                <F-dash>


    The hearing is adjourned.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]


               USE AND MISUSE OF SOCIAL SECURITY NUMBERS

                              ----------                              


                         THURSDAY, MAY 11, 2000

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to recess, at 2:09 p.m. in 
room 1100, Longworth House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    Chairman Shaw. Good afternoon, and welcome to the second 
day of our two days of hearings about the use and the misuse of 
Social Security numbers.
    Just about everyone's privacy and financial security 
depends on seeing these numbers used as intended and not 
misused. As we learned on Tuesday, the Social Security number 
misuse is rising fast, with often devastating consequences for 
families like the Stevens, who testified before us on Tuesday. 
They have spent years trying to get their identities and good 
names back. Since Tuesday, people have been calling us from 
every corner of the country with similar stories about how 
their Social Security numbers were compromised.
    Today, we will learn more about the pluses and minuses of 
restricting the use of Social Security numbers. First, we will 
hear from several Members who have proposals, themselves, that 
go to various lengths to restrict the use of Social Security 
numbers. After that, we will hear from groups interested in 
protecting personal privacy, as well as representatives of 
industry and government agencies that regularly use Social 
Security numbers in conducting their business.
    As I mentioned on Tuesday at our hearing, with the support 
of the Administration and our colleagues on this panel, we can 
approve legislation to better protect Social Security numbers 
from misuse.
    Social Security's Inspector General has already made 
several recommendations. Today we will learn more about these 
ideas and several others. But we also need to carefully 
consider the consequences of any actions on this complicated 
issue. As we look for ways to better protect privacy and 
security, we must be on the lookout for unintended 
consequences, which abound in this complex field.
    Given the passion on all sides of this issue and the 
excellent testimony we will hear today, I trust that we will 
have lots of good advice on how to proceed.
    We want to be extraordinarily careful that we do not 
overreact, but it seems to be very clear, from our hearing of 
Tuesday, that definitely something has got to be done. Mr. 
Kleczka's points that were in his bill were referred to by one 
of our witnesses on Tuesday. It was the Inspector General who 
set out several points that I think are in Mr. Kleczka's bill.
    We will be very interested in hearing what you gentlemen 
have to say today.
    Without objection, all Members will have the privilege of 
putting opening statements into the record, and at this time we 
will proceed as they appear on the agenda, with a member of 
this committee, Mr. McDermott of Washington.

 STATEMENT OF HON. JIM MCDERMOTT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. McDermott. Thank you, Mr. Chairman.
    I would ask unanimous consent to have my statement put in 
the record.
    Chairman Shaw. Without objection.
    Mr. McDermott. My interest in this started in 1995, when I 
read an article in the ``New York Times'' about a man whose son 
had a medical genetic disease called ``Marie-Charcot Tooth 
Disease.'' It is a weakness of the upper limbs. The youngster 
was examined and the family was tested genetically.
    Shortly thereafter, after all the medical things had been 
done, the father lost his auto insurance. No moving violations. 
No accidents. No nothing. And when he asked, they said, ``Well, 
you have this disease, Marie-Charcot Disease.'' And he did not 
have it, but it had been gotten through, somehow, the system.
    I began working on that and dropped in a privacy bill in 
1995. I think that, as we progress down the way toward the 
human genome being completed and access to everybody's genetic 
information will be on the record, you will have enormous 
potential for abuse in terms of insurance and employment and a 
whole variety of other things, and the whole issue of privacy 
is going to come to a head as the human genome project actually 
gets out into the medical field.
    Now, there is a second strand to my concern, and that is in 
1996 I went to the democratic convention, and when it was over 
I came back, and my Secretary said to me, ``How are you going 
to pay for this limousine that you used in Chicago?'' And I 
said, ``I did not rent any limousine.'' Somebody was 
impersonating me, had rented a limousine, had done all kinds of 
things all over the city using my name, and they had tried to 
get into my credit records. They had done all sorts of things.
    The fact is that our information is very much open to the 
public if they want to look.
    There was an article recently in the ``New York Times'' of 
a meeting that occurred in Seattle, and I would like to report 
on that in my remaining minutes. It was a meeting of a group 
called the ``Agora.'' It was convened by a man who is the 
security person for Regions Blue Shield, which is the insurance 
company, the Blue Shield plan in Seattle. It includes all the 
security officers from all the insurance companies, from the 
police department, from the sheriff's department, from the 
Federal Government. It was a room of probably 75 people.
    Two months before, he had challenged them. He said, 
``Here's my name and my birth date. Do anything you can legally 
and find out everything you can between now and the next 
meeting.''
    Well, what happened was they demonstrated everything from 
the fact that he was in second grade in a particular school, 
and they showed a picture. They showed the fact that he owed 
$7.19 to the gas company. They showed his whole driving record. 
They showed his divorce decree. They showed some scrapes he had 
had as an adolescent with the law. All of this simply by giving 
the name and the birth date.
    Now, how did they do that? Well, they sent somebody in to 
pick up a birth certificate. They sent somebody for a credit 
record. They sent something, and they gradually accumulated it 
all by using legal methods.
    The common thread to most of it was getting his Social 
Security number. Once they had his Social Security number, they 
could tie into his bank account, they could tie into the gas 
company, they could tie into his automobile insurance, they 
could tie into everything.
    The importance of this issue I think is not well understood 
by the average American. I think that the committee is right to 
be thinking about this issue. Mr. Kleczka has a bill 
specifically on that issue. My bill has more to do with medical 
privacy, which I think is an issue that needs to be dealt with.
    I think that this whole question of use of Social Security 
numbers is central to what we do. My bill on medical privacy 
would have prevented the use by any medical establishment of 
your Social Security number as your identifier, so when you go 
into the hospital, when you go in to apply for your insurance 
coverage, or whatever, if you give your Social Security number 
you have opened up your whole life. Anybody who has that number 
can get into all the places. As the newspaper reported this 
morning, the voting card that we have from the House of 
Representatives has at the bottom of it our Social Security 
number. I mean, it never was intended to be an identification 
number, but there it is.
    I think that whole issue is something that this committee 
ought to take within its purview, and I commend you for having 
these hearings. I hope that we can, on a bipartisan basis--
because this is not a republican issue or a democratic issue. 
Everybody has a Social Security number.
    Chairman Shaw. You are quite correct.
    [The prepared statement follows:]

Statement of Hon. Jim McDermott, a Representative in Congress from the 
State of Washington

    Chairman Shaw, Mr. Matsui, and members of the subcommittee 
thank you for allowing me to testify today on a topic that has 
long concerned me, the confidentiality of personal identifying 
information.
    As a practicing psychiatrist for more than 20 years, I can 
tell you firsthand that a person's confidence that what he or 
she says will remain private is a crucial component of ensuring 
he or she fully discloses personal information.
    The need to protect the confidentiality of personal 
information has become even more important given the many new 
technological advances, particularly in the medical and 
financial industries. Computers have revolutionized the way 
information is collected, stored, and disseminated. Without 
adequate, enforceable controls, this information can easily be 
used to breach confidentiality and to allow discrimination.
    With the passage of legislation like the Health Insurance 
Portability Act and the Financial Modernization Act the public 
has become increasingly worried that private businesses are 
building databases of personal information. Many businesses 
require customers to provide their Social Security number as a 
condition of doing business. Yet, congress has only imposed 
superficial walls around our most personal information with no 
more assurance of confidentiality than to say ``trust us.'' I 
believe people are right to worry.
    Over five years ago I began writing legislation to address 
the lack of strong national standards for confidentiality of 
medical records. One of the first issues I worked through is 
how to identify and de-identify patient information. It was 
clear that the Social Security number was not confidential. 
And, that using the Social Security number as an identifier was 
almost the same as using one's name. I concluded that a Social 
Security number, or a derivative of a Social Security account 
number, must not be used for any purpose relating to personal 
health information or the use or disclosure of such 
information.
    As you know, Congress has grappled for years with when and 
how the Social Security number should be used. When Congress 
passed the Privacy Act of 1974 it first attempted to limit the 
disclosure and use of the Social Security number. 
Unfortunately, Congress' attempts have been largely 
unsuccessful.
    We have all heard harrowing tales of the misuse of 
sensitive medial and financial information. The more we hear 
news reports about confidential personal information getting 
into the wrong hands the more people will lose confidence in 
the security of their personal information. This loss of 
confidence is causing people to think closely about the type 
and amount of information they disclose as well as how the 
information will be used.
    I'm sure that you remember your constituents' uproar when 
Health and Human Services Secretary Shalala proposed using a 
unique health identifier to identify patients. This 
unsuccessful effort raised awareness of the issue unlike any 
other recent event. Yet, it was not enough to affect change.
    Many states, without notification, list the Social Security 
number on drivers' licenses. Thus the information from a single 
piece of identification provides a criminal with the name, 
address, date of birth, and Social Security number of an 
individual. This information can easily be used to ``steal'' an 
individuals' identity.
    Some of you may know, shortly after I visited Chicago for 
the Democratic Convention in 1996 a individual in Illinois 
began impersonating me. This individual left a trail of bad 
checks, scams, and attempts to obtain my credit card 
information.
    I was informed in 1997 only because one of his victims 
recognized my name. Even though this individual did not obtain 
my credit information, it took me months to sort out. Luckily, 
my schedule is regimented so I had documentation of where I was 
and what I was doing on the days in question.
    Place yourself in the shoes of your constituents. How would 
they learn someone was impersonating them? Most likely, when 
they are turned down for credit, contacted by a collection 
agency or the authorities. By which time months, if not years, 
had passed. Proving who they are, where they were, and what 
they bought to retailers, financial institutions, and credit 
bureaus would be an enormous undertaking.
    The genie is out of the bottle, it is now our job to 
mitigate the damage. Clearly, at this point it is impossible to 
maintain the confidentiality of Social Security numbers. What 
Congress must do is pass strong laws to protect the 
confidentiality of medical and financial records.
            Thank you.
      

                                <F-dash>


    Chairman Shaw. Mr. Kleczka?

   STATEMENT OF HON. GERALD D. KLECZKA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Kleczka. Thank you, Mr. Chairman.
    Let me thank you for your interest in this subject matter, 
for having the hearing, and for permitting me to come before 
your subcommittee to share a few comments.
    The committee, in yesterday's testimony, heard from the 
Stevens family and how their identification was stolen. Someone 
ran up a whole bunch of credit. I had a similar situation with 
a woman in my District.
    The problem that occurs after that fact is the person has 
to clear their name, themselves. They have to, through whatever 
means, prove that the purchases on the card were not theirs, 
and this takes literally hours and years to clean up so finally 
their record is clear so they can again apply for credit.
    What is the key to identity fraud? Well, as you have been 
told probably yesterday and by Mr. McDermott, the key to 
establishing fraud or identity in your name is, number one, 
your Social Security number. That flings open the door to do 
whatever the unsavory person wants to do.
    The second bit of information, if he or she has it, is your 
mother's maiden name. At that point, not only the door is 
thrown open, but the windows are thrown open.
    Mr. Chairman, I think that part of the problem in our 
society today is that people ask for this number, our Social 
Security number, by habit. It has been pointed out that our 
voting card has a Social Security number on it. For what 
reason, we do not know. But I discovered, along with my friend, 
Ron Paul, this was on the card one of the first days of 
session, so we wrote a letter to the chief clerk and said, 
``Wait a minute. Why are you putting our Social Security number 
on our voting card? The voting machine is not going to read 
it.''
    Well, his initial answer was, ``You gave your okay when you 
signed up for the card.'' I said, ``Well, I do not recall 
that.'' And so then he rechecked, and there was no box to 
check. It was put on there just by habit.
    Checking out some toys--not for myself, but for my nieces 
and nephews--a Christmas or two ago, I was at the counter and I 
was giving a check, and the clerk insisted I give my Social 
Security number. For what reason? It links with nothing that 
she has at hand to verify that I am the person whose name is on 
the check. But, Mr. Chairman, this, I think, is being done by 
habit.
    I went to a new dentist to have some dental work done. On 
the application, ``Give us your Social Security number.'' Well, 
what I did at Toys 'R Us, I thought of the first ten numbers 
that came to mind, put it on the check. She smiled. I walked 
out with a purchase. I did not fill it in for the dentist. I 
still got the work done and a $2,400 bill.
    Something has to be done. People will say, ``The horse is 
out of the barn, Gerry. What are you going to do about it?'' 
Well, Mr. Chairman, walking over here, talking with you, I 
think we agree that it has to start somewhere, and maybe, yes, 
these lists are out there, but we have to stop the 
dissemination and the abuse of these lists being sold, given 
away, or whatever reason.
    For the last couple sessions, I have introduced the 
Personal Privacy Information Act, PPI Act, H.R. 1450, and it 
does a few things that I would ask the committee to look at 
when you draft your response to this problem.
    Number one, credit bureaus sell header information in their 
files. Header information is the information that is most 
important to you and I. It is our name, our address, phone 
number--listed or otherwise--mother's maiden name, Social 
Security number. And so firms come to the credit union and say, 
``Okay, I need all the people in California who buy Nike shoes, 
or who have a very good credit rating and a ZIP code,'' and 
they will sell that header information.
    My bill prohibits selling that header information in its 
current form. Yes, if you want to sell a person's name, 
address, and listed phone number only, but the rest of the 
things that you have in your file on this person should not and 
cannot be sold without the authorized explicit consent of the 
person who is named.
    The bill next goes to talk about the use of Social Security 
numbers for commercial purposes. It prohibits the sale of any 
list which contains your Social Security number. And the bill 
further goes on to talk specifically about motor vehicle 
departments, but they are the biggest abuser. Insurance firms, 
rating firms, all sorts of other commercial firms can purchase 
the motor vehicle list from your State motor vehicle 
department, and on there will be your Social Security number.
    The bill I have introduced disallows that bit of 
information being on there. If they want to sell the name and 
address, fine, but not the Social Security number.
    One of the other things the bill does, which I think is 
relatively important, if a person refuses to do business with 
an individual who refuses to give their Social Security number, 
that is against the law. That would be made a civil crime. 
Because I do not give Toys 'R Us my Social Security number or 
the dentist or whoever else, I should not be refused service.
    Another good example of that is a constituent who called me 
saying she is applying for cable service in the city of 
Milwaukee, and on there was a request for the Social Security 
number. She refused. They denied cable service. Why does a 
cable company need your Social Security number?
    So, Mr. Chairman, the time has come where, especially with 
the Internet and disseminating information much quicker, that 
Congress, I think, has a duty and a responsibility to look at 
that Social Security number again, restate what the purpose is, 
and start some legislation to stop the willy-nilly 
dissemination of our Social Security numbers.
    Again, Mr. Chairman, thank you.
    Chairman Shaw. I look forward to working with you.
    [The prepared statement follows:]

Statement of the Hon. Gerald D. Kleczka, a Representative in Congress 
from the State of Wisconsin

    <bullet> Amends the Fair Credit Reporting Act to prevent 
credit bureaus from giving out identifying information like 
Social Security numbers, unlisted phone numbers, past 
addresses, and mothers' maiden names.
    <bullet> Prohibits the commercial use of a Social Security 
number without the owner's written consent.
    <bullet> Prohibits the use of a Social Security number as 
an identifier by persons not already authorized to do so in 
current law.
    <bullet> Businesses that refuse to do business with anyone 
who does not consent to the use of their Social Security number 
will be considered as committing an unfair or deceptive 
business practice.
    <bullet> Prohibits a state department of motor vehicles 
from selling or transferring Social Security numbers and 
photographs.
    <bullet> Prohibits the distribution of a consumer report 
for transactions not initiated by the consumer without the 
consumer's written authorization.
    <bullet> Prohibits the sale or transfer of a consumer's 
transaction or experience information for marketing purposes 
without the express written consent of the consumer.
    <bullet> Provides for civil and criminal prosecution for 
violations of the act.

  Section by Section Analysis of H.R. 1450, the Personal Information 
                              Privacy Act

Section 1.Short Title.

    The title of this Act is the ``Personal Information Privacy 
Act of 1999.''

Section 2. Confidential Treatment of Credit Header Information

    Section 2 would add a sentence to Sec. 603(d) of the Fair 
Credit Reporting Act (FCRA), 15 U.S.C. Sec. 1681a(d), which 
defines the term ``consumer report'' for purposes of the FCRA. 
The term currently means, essentially, any communication of 
information by a consumer reporting agency about a consumer 
that is used or expected to be used as a factor in establishing 
the consumer's eligibility for credit, insurance, employment, 
or for any other legitimate business purpose. Under Sec. 604 of 
the FCRA, 15 U.S.C. Sec. 1681b, a consumer reporting agency may 
not furnish a consumer report except for specified purposes. 
The new sentence that Sec. 2 would add to the definition of 
``consumer report'' provides: ``The term also includes any 
other identifying information of the consumer, except the name, 
address, and telephone number of the consumer if listed in a 
residential telephone directory available in the locality of 
the consumer.'' If this new sentence becomes law, then consumer 
reporting agencies would be prohibited from disclosing such 
identifying information except for a purpose specified in 
Sec. 604.

Section 3. Protecting Privacy by Prohibiting Use of the Social 
Security Number for Commercial Purposes Without Consent.

    This section would add a new section to the general 
administrative provisions of Title 11 of the Social Security 
Act, 42 U.S.C. Sec. 1301 et seq., prohibiting persons from 
buying or selling any information that includes an individual's 
social security account number (``SSN''), without the written 
consent of the individual. In addition, no person may use an 
individual's SSN for identification purposes without the 
written consent of the individual. In order for consent to be 
valid, the person desiring to use an individual's SSN must 
inform the individual of all the purposes for which the SSN 
will be utilized, the persons to whom the number will be known, 
and obtain the individual's consent in writing.
    These new prohibitions would not affect any statutorily 
authorized uses of the SSN under Sec. 205(c)(2) of the Social 
Security Act, 42 U.S.C. Sec. 405(c)(2) (SSN used for Social 
Security wage records, and for various enumerated purposes by 
federal agencies and state and local governments), Sec. 7(a)(2) 
of the Privacy Act of 1974 (5 U.S.C. 552a note) (authorizing 
state and local governments to require disclosure of an 
individual's SSN if required by federal law or if the required 
disclosure was pursuant to a system of records in effect prior 
to January 1, 1975), or 26 U.S.C. Sec. 6109(d) (an individual's 
SSN is used for all identifying purposes specified in the Tax 
Code).
    Individuals are authorized to bring a civil action seeking 
equitable relief and damages in a U.S. District Court for 
violations of this section. Damages may include the greater of 
actual damages or liquidated damages of $25,000, or, in case of 
a willful violation resulting in profit or monetary gain, 
$50,000. The court may assess, against the respondent, 
reasonable attorney's fees and other litigation costs in cases 
where an individual prevails. A statute of limitation of 3 
years is provided. The remedies provided by this section are in 
addition to any other lawful remedies available to an 
individual.
    The Commissioner of Social Security is authorized to assess 
a civil money penalty of not more than $25,000 for each 
violation of this section, or in the case of violations found 
to constitute a general business practice, not more than 
$500,000. The enforcement procedures for civil money penalties 
are the same as set forth in section 1128A of the Social 
Security Act, 42 U.S.C. Sec. 1320a097a(d),(e),(g),(k),(l) and 
the first sentence of (c). These set forth the criteria for 
determining the amount of the civil penalty, the investigation 
and injunction authority of the Commissioner, and courts of 
appeals review of civil money penalty determinations. Also 
applicable are the provisions of section 205(d) and (e) of the 
Social Security Act, 42 U.S.C. Sec. 405(d) and (e), which 
authorize the Commissioner of Social Security to issue 
subpoenas during investigations, and provide for judicial 
enforcement of such subpoenas.
    The Commissioner of Social Security is directed to 
coordinate enforcement of the provisions of this section with 
the Justice Department's enforcement of criminal provisions 
relating to fraudulent identification documents, and with the 
Federal Trade Commission's jurisdiction relating to identity 
theft violations.
    The provisions of this section do not preclude state laws 
relating to protection of privacy that are consistent with this 
section. The effective date of this section would be two years 
after enactment of this bill.
    If a person refuses to do business with an individual 
because the individual will not consent to disclosure of his or 
her SSN, then such refusal will be considered an unfair or 
deceptive act or practice under section 5 of the Federal trade 
Commission Act (15 U.S.C. Sec. 45). The Commission may issue a 
cease and desist order, violation of which is subject to civil 
money penalties of up to $10,000 per violation.

Section 4. Restriction on Use of Social Security Numbers by 
State Departments of Motor Vehicles.

    18 U.S.C. Sec. 2721(b) sets forth permissible uses of 
personal information obtained by a state department of motor 
vehicles. This section provides that, with respect to the SSN 
of an individual, such personal information may only be 
disclosed to a government agency, court or law enforcement 
agency in carrying out its functions to the extent permitted or 
required under section 205(c)(2) of the Social Security Act, 42 
U.S.C. Sec. 405(c)(2), section 7a(2) of the Privacy Act of 
1974, 5 U.S.C. Sec. 552a note, section 6109(d) of the Internal 
Revenue Code, or any other provision of law specifically 
identifying such use. This section would also prohibit the 
disclosure of SSNs by state departments of motor vehicles for 
bulk distributions for surveys, marketing or solicitations 
purposes.

Section 5. Restriction on Use of Photographs by State 
Departments of Motor Vehicles.

    Section 5(a) would add a new subsection to 18 U.S.C. 
Sec. 2721, which currently generally prohibits the release of 
certain personal information from state motor vehicle records. 
This new subsection would prohibit the release of an 
individual's photograph, in any form or format, by a state 
department of motor vehicles without the express written 
consent of the individual. An exception would be permitted for 
disclosure of an individual's photograph to a law enforcement 
agency of any government for a civil or criminal law 
enforcement activity if authorized by law and pursuant to a 
written request.
    Section 5(b) would make technical amendments to 18 U.S.C. 
Sec. 2721(a) and (b) to conform that section to the new 
provisions added by this section. It would also amend 18 U.S.C. 
Sec. 2722(a) to reference the new subsection (e) added by this 
section.

Section 6. Repeal of Certain Provisions Relating to 
Distribution of Consumer Reports in Connection with Certain 
Transactions Not Initiated by the Consumer.

    Section 6(a) would amend Sec. 604(c) of the Fair Credit 
Reporting Act (FCRA), 15 U.S.C. Sec. 1681b(c), which governs 
prescreening to determine a consumer's eligibility for credit 
or insurance. Prescreening is a practice whereby a user of 
consumer reports, such as a lender or insurer, contacts a 
consumer reporting agency without having received an 
application for credit or insurance from a particular consumer. 
The user might submit a list of names and ask the agency to 
identify persons on the list who meet criteria that the user 
specifies. Or it might ask the consumer reporting agency to 
create its own list based on the user's criteria. Section 
604(c) currently prohibits prescreening, except in two 
situations, to determine a consumer's eligibility for credit or 
insurance. It prohibits, in other words, except in two 
situations, a consumer reporting agency from furnishing a 
report on a consumer who has not applied for credit or 
insurance.
    The two situations in which it permits prescreening are 
when: (1) the consumer authorizes the consumer reporting agency 
to provide the report, or (2) the lender or insurer will make a 
firm offer to the consumer if prescreening shows the consumer 
eligible for credit or insurance, and the consumer has not 
previously asked to be excluded from prescreening done by the 
consumer reporting agency. Section 6(a) would, in effect, 
prohibit prescreening in connection with credit and insurance 
except when authorized by the consumer. It would amend 
Sec. 604(c)(1) to provide that a consumer reporting agency 
would be permitted to furnish a consumer report in connection 
with a ``credit or insurance transaction that is not initiated 
by consumer only if the consumer provides express written 
authorization in accordance with paragraph (2) . . . .'' 
``Paragraph (2)'' refers to Sec. 604(c)(2) of the FCRA, which 
would be rewritten by Sec. 6(b) of the bill.
    Section 6(b) would rewrite Sec. 604(c)(2) to provide: ``No 
authorization referred to in paragraph (1) [Sec. 604(c)(1)] 
with respect to any consumer shall be effective unless the 
consumer received a notice before such authorization is 
provided which fully and fairly discloses, in accordance with 
regulations which the Federal Trade Commission and the Board of 
Governors of the Federal Reserve System shall jointly 
prescribe, what specifically is being authorized by the 
consumer and the potential positive and negative effects the 
provision of such authorization will have on the consumer.'' 
The regulations would have to require that the notice be 
prominently displayed on a separate document or, if the notice 
appears on a document with other information, that it be clear 
and conspicuous.
    Section 6(c) would repeal the provision, mentioned above, 
that allows consumers to exclude themselves from prescreening 
lists. The provision would be unnecessary if prescreening were 
prohibited except when a consumer had authorized it.

Section 7. Sale or Transfer of Transaction or Experience 
Information Prohibited.

    Section 7(a) would add a new Sec. 626 to the FCRA. New 
Sec. 626(a) would provide: ``No person doing business with a 
consumer may sell, transfer, or otherwise provide to any other 
person, for the purpose of marketing such information to any 
other person, any transaction or experience information 
relating to the consumer, without the consumer's express 
written consent.'' A consumer's consent would not be required 
for the sale, transfer, or provision of transaction or 
experience information for a purpose other than marketing.
    New Sec. 626(b) would define ``transaction or experience 
information'' as ``any information identifying the content or 
subject of 1 or more transactions between the consumer and a 
person doing business with a consumer . . . .'' Section 626(c) 
would allow six exceptions, where a consumer's consent would 
not be required for the provision of transaction or experience 
information: (1) communications ``solely among persons related 
by common ownership or affiliated by corporate control,'' (2) 
information provided pursuant to court order or federal grand 
jury subpoena, (3) ``[i]nformation provided in connection with 
the licensing or registration by a government agency or 
department, or any transfer of such license or registration, of 
any personal property bought, sold, or transferred by the 
consumer,'' (4) ``[i]nformation required to be provided in 
connection with any transaction in real estate,'' (5) 
``[i]nformation required to be provided in connection with 
perfecting a security interest in personal property,'' and (6) 
``[i]nformation relating to the amount of any transaction or 
any credit extended in connection with a transaction with a 
consumer.''
    Section 7(b) would make a technical amendment to 
Sec. 603(d)(2)(A) of the FCRA to ensure that it does not 
conflict with new Sec. 626, and Sec. 7(c) would make a clerical 
amendment to add a reference to new Sec. 626 to the table of 
sections for the FCRA.
      

                                <F-dash>


    Chairman Shaw. Mr. Markey?

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much, and thank 
you for focusing upon this critically important issue.
    Points that Mr. McDermott and Mr. Kleczka have already made 
are going to, obviously, be further embellished upon by the 
other Members of Congress who are going to testify before you 
today.
    What I would like to do, though, is to just step back here 
for a second and look at why it is so important for us to have 
this conversation.
    We are at the dawn of a new era. It is the Internet era. I 
think that is why so many people are so concerned.
    But put it in context. In the last quarter of 1999, of the 
$875 billion worth of retail sales in the United States, only 
$5 billion of that was on line. So at this point it is only 7/
10ths of 1 percent of all commerce in the United States, all 
retail commerce.
    The concerns which ordinary Americans have are reflected by 
the fact that increasingly on line they are asked to put these 
identifying numbers into the computer, but without any 
guarantees that that information--that Social Security number 
or any other information which they are providing--cannot be 
reused for other purposes. that is why it becomes so much of a 
concern to people.
    Now, I happen to believe that one of the things which the 
online industry is going to have to do is recognize the fact 
that the reason they are only at 5 billion out of 875 billion 
in the last quarter of 1999 is that many Americans just do not 
want to give out all that information without some guarantee 
that it is not going to get compromised.
    Yes, we want the new revolution, but we want the new 
economy with old values. We want the new technologies animated 
by the old values. It is a merger of the old with the new that 
ultimately is going to result in the production of this new 
economy.
    Commerce with a conscience--that is what the American 
people want.
    Now, if an ordinary American goes up to the ATM machine and 
they punch in their little secret number and then they push in 
the number for the $50 they are trying to extract, when out 
comes their receipt, they do not throw it in the bucket that is 
right there because they do not want anyone to know what their 
Social Security number might be or what their bank number might 
be or how much money they took out. But that very same person, 
as a condition of banking with a large financial institution, 
has to basically cede the right to have that information used 
for purposes that they would never have wanted it to be used--
all the information that is on the check about the illnesses of 
your children or your parents or your wife or yourself, or any 
financial transaction that you might have engaged in. You might 
not even have told your spouse, much less everybody else in the 
neighborhood, about one of these transactions.
    So most people are naturally quite protective of their 
privacy and they want rules put in place to ensure that the 
Social Security number does not become a universal identifier 
that allows data miners to be able to, with access of your 
Social Security number and your mother's maiden name or all the 
other clues that you are forced to give up, to be able to go 
and find everything that ever happened to you--in fact, a more-
comprehensive compilation of your life than anyone else in your 
family might know about you, including a lot of stuff you might 
have forgotten, for them to then use this as a product that 
they market to hundreds of companies across the globe, in terms 
of their ability then to bring those products that are of 
interest to them into your home, but using your personal, 
private family secrets.
    So, Mr. Chairman, you cannot have a more important hearing 
than this, because there is a Dickensian quality to this new 
technology. It is the best of wires and the worst of wires 
simultaneously. It has the ability to enable and to ennoble, 
but it also has the power to degrade and to debase.
    I think what is going to happen is that the American public 
is going to demand that their family's privacy be allowed to be 
protected and that this is going to become the number one civil 
rights issue of the next 10 years in the United States, and the 
concern about the issue will rise concomitantly with the rise 
of retail commerce online in our country.
    I think we have a chance to engage in a bit of anticipatory 
democracy, putting in place today the protections which the 
public is going to need in the years ahead to ensure that their 
family's most intimate secrets are not made a product that 
hundreds of marketers use, regardless of the impact it might 
have upon that family's psychological, physical, financial, or 
medical well-being.
    I cannot compliment you enough, because ultimately the key 
to all of this is the Social Security number, because that has 
become the way in which the door is opened so all of the other 
clues to who we are are able to be found.
    I just want to contrast it with the world in which we grew 
up in, very briefly, which is the world in which the nurse or 
the doctor that we went to when we were children had our 
medical record around their neck, and it was just between us, 
our mother and father, and the doctor and the nurse. Or we went 
into the bank, and all it was was the man behind the counter 
who showed us how the miracle of compound interest would help 
us if we kept putting money in each month from our paper route, 
or the money that we earned doing chores at home for our moms 
and our dads.
    Well, today those doctors work for HMOs. Those bankers work 
for some large conglomerate. They do not protect your privacy 
any longer, in the absence of laws being put on the books that 
ensure that the privacy keepers are not replaced by the privacy 
peepers, the data mining reapers who see us all as just sources 
of profit for them rather than individuals with families who 
need the protection of their privacy.
    I thank you, Mr. Chairman, very much, for holding this 
critically important hearing.
    Chairman Shaw. Thank you for a very thoughtful 
presentation.
    [The prepared statement follows:]

Statement of Hon. Edward J. Markey, a Representative in Congress from 
the State of Massachusetts

    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me to testify before you this afternoon.
    What I would like to do is try to put the matter of the 
privacy of a consumer's Social Security Number into the broader 
context of how consumer information is being used by businesses 
as we proceed into the e-commerce era.
    We are told that e-commerce is qualitatively different, 
qualitatively better than bricks & mortar commerce. Right now, 
only $5 Billion of the $860 Billion in annual sales currently 
occur over the Internet. But that figure will continue to grow 
exponentially in the future. So, the question we must ask, is 
how are we going to adjust our laws to deal with that new 
reality? What are we going to do about the laws dealing with 
privacy, fraud, pornography, pharmaceuticals, alcohol, 
gambling, and sales taxes? How do we animate the new economy 
with the old values?
    The problem that we face today isn't Big Brother; it's Big 
Browser. Right now, when it comes to your financial records, 
there are very few protections against a financial services 
firm from disclosing every check you've ever written, every 
credit card charge you've ever made, the medical exam you got 
before you received health insurance. And as you surf the Web, 
there are no rules in place to prevent various web sites from 
collecting information about what sites you are viewing and how 
long you are viewing them. If you buy anything over the 
Internet, that information can be linked up to other personal 
identifiers to create disturbingly detailed digital dossiers 
that can profile your lifestyle, your interests, your hobbies, 
or your habits.
    Clearly, the Social Security number is an important 
identifier that many online and offline businesses wish to 
obtain about consumers. But consumers who value their privacy, 
have a strong interest in not allowing this number to become a 
ubiquitous personal identifier and allows companies to tie 
together bits and pieces of information in various databases 
into an integrated electronic profile of their interests and 
behavior that can be zapped around the world in a nanosecond.
    There are even more sinister possibilities. If you do a 
simple Internet search in which you enter the words ``Social 
Security Numbers,'' you will turn up links to dozens of web 
sites that offer to provide you, for a fee, with social 
security numbers for other citizens, or to link a social 
security number that you might have with a name, address and 
telephone number. Where are the data-mining firms and private 
detective agencies that are offering these services obtaining 
these numbers? In all likelihood, they are accessing 
information held by credit bureaus, financial services or other 
commercial firms.
    If someone actually obtains a Social Security number from 
one of these sites, they have an important piece of information 
that can be used to locate the individual or get access to 
information about the individual's personal finances. For 
example, if you have a social security number, and can also 
obtain access to certain other readily available information 
about an individual, such as the individual's mother's maiden 
name or their date of birth, you can sometimes get a bank to 
provide you with detailed information about the individual's 
personal finances over the phone. Now, that practice, known as 
pretexting, is already against the law. But that does not mean 
that it does not occur, or that unscrupulous individuals are 
not obtaining access to Social Security numbers and then using 
them to perpetrate identity thefts that can destroy the credit 
or reputation of innocent consumers.
    Now, last year's banking bill gave consumers the right to 
``opt out'' of having their personal, nonpublic financial 
information transferred to unaffiliated third parties. The term 
``personal, nonpublic financial information'' would include a 
consumer's Social Security number. This means that a financial 
institution would not be able to provide a social security 
number to a nonaffiliated third party who had opted out. 
However, there are no limits on disclosures to affiliates. 
Furthermore, there's a ``joint marketing agreement'' provision 
that allows disclosures of a customer's information (including 
a Social Security number) to nonaffiliated third parties with 
which the institution has signed a contract. These two 
loopholes render the limited ``opt out'' requirements in the 
bill a pathetic joke. And this week, we have learned that the 
financial regulators have decided to delay full implementation 
of even these minimal privacy protections until July, 2001.
    We need to do more. Right now, under current law, we have 
an ``opt-in'' for a tax preparer transferring your tax return 
to any other party. We have an opt-in before drivers license 
information can be transferred. We have an opt-in for 
information about videocassette rentals. We have an opt-in for 
cable TV viewing habits. We have an opt-in for telephone call 
records. We have an opt in for information about cell phone 
whereabouts. But we do not have an opt-in for sensitive 
financial information and for certain medical information.
    In order to remedy this situation, Representative Joe 
Barton (R09TX) and I have introduced H.R. 3320, the 
``Consumer's Right to Financial Privacy Act,'' which would 
close the affiliate sharing and joint marketing loopholes and 
require an ``opt in'' before a financial institution could 
disclose sensitive financial information -including Social 
Security numbers. Our bill currently has 71 bipartisan 
cosponsors, and has been introduced in the Senate by Senators 
Richard Shelby (R09AL) and Richard Bryan. In addition, I have 
also joined with Representatives John LaFalce (D09NY) and John 
Dingell (D09MI) in introducing the Administration's privacy 
proposal, H.R. 4380, which would establish an ``opt in'' for 
medical information and sensitive information about a 
consumer's spending habits, and an ``opt out'' for the 
disclosure of other nonpublic personal information about the 
consumer.
    I urge the Subcommittee to support these legislative 
reforms, and also the proposal by my colleague, the gentleman 
from Wisconsin (Mr. Kleczka) to prohibit commercial 
distribution or acquisition of Social Security numbers, or 
their use as a personal identifier.
    Thank you, again, Mr. Chairman, for allowing me to testify 
today. I look forward to working with you and other Members of 
the Subcommittee to address the current risks to consumer 
privacy.
      

                                <F-dash>


    Chairman Shaw. Mr. Hostettler?

   STATEMENT OF HON. JOHN N. HOSTETTLER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hostettler. Mr. Chairman, thank you for this 
opportunity to share with you and members of the committee. I 
am pleased to come before you today in support of my bill, H.R. 
2494, the Children Tax ID Alternative Act. This bipartisan 
bill, which currently has 23 cosponsors, would provide a 
religious exemption for those who do not wish to obtain a 
Social Security number for their children. It would remove the 
barriers that exist to those who choose to exercise their 
religious beliefs by not attaching Social Security numbers to 
their children.
    The Children Tax ID Alternative Act would simply provide an 
alternative way of claiming dependent tax credits and 
deductions for these families.
    This subcommittee has been hearing testimony regarding 
expanding use of Social Security numbers and the associated use 
and abuse that accompanies such an expansion. There are, 
however, a significant group of American citizens who are 
resisting this progression because it violates their religious 
beliefs. These are honest, law-abiding citizens who pay their 
taxes and promote the laws and principles of our civil order. 
They are the public school teacher in Oregon, the minister in 
Washington, the professor of a State university, as well as 
State representatives, yet, because they choose to follow the 
dictates of their religion, they pay substantially more income 
tax than do their neighbors.
    The history of the use of Social Security numbers indicates 
that this has not always been a problem and need not be a 
problem any more. It was not until the Tax Reform Act of 1986 
that taxpayers who wished to claim exemptions for dependents 
were required to provide Social Security numbers for all 
dependents ages five and older. This age requirement was 
changed in 1995 to require that any claimed dependent have a 
taxpayer identification number, which, under section 6109 of 
the IRS code, is an individual's Social Security number.
    Finally, in 1996, the IRS was authorized to reject a 
dependency exemption if no taxpayer identification number was 
supplied.
    What are the implications of these laws? As a result of the 
changes made by the Tax Reform Act of 1986, the IRS reported 
that there were approximately 7.5 million fewer dependents 
claimed in 1987 than 1986. Instead of the estimated 77 million 
dependency exemptions, the IRS reported that only 69.7 million 
such exemptions were claimed. This translated into a revenue 
increase of $2.8 billion for the Federal Government in tax year 
1987, alone.
    The IRS has indicated that the significant drop in claimed 
exemptions is, in fact, due to the required use of Social 
Security numbers; however, they believe that the exemptions 
dropped because the use of the numbers eliminated the potential 
for fraud and abuse.
    The IRS is unable to conclusively assert this finding 
because no study or report has been conducted to determine the 
actual reason for this significant drop. Rather, we have every 
indication that this drop was due, at least in some degree, to 
personal religious objections by parents who do not wish to 
attach Social Security numbers to their children.
    While there may be disagreements and varying opinions about 
the levels of causation concerning these statistics, it cannot 
be denied that the drop is due, at some level, to religious 
objections. Simply put, families who hold to such religious 
beliefs are being forced to pay for their right to exercise 
their religion.
    I understand that these laws were implemented in order to 
curb the use of improper dependency exemptions; however, I 
would also like to point out, Mr. Chairman, that my bill does 
not add to the potential for tax fraud and abuse. Under the 
provisions of this bill, parents seeking to receive a deduction 
or credit for children without Social Security numbers would be 
required to submit several forms of official documentation. 
Only by providing: one, an affidavit describing the religious 
belief; two, an affidavit from a knowledgeable third party; 
and, three, documentation such as birth records, medical 
records, school records, or insurance records to verify the 
relationship of the dependent to the taxpayer, would these 
families be able to claim the exemptions.
    Such an exemption is not without precedent. There are 
currently a number of U.S. citizens who are permitted to be 
exempt from participation in Social Security based on their 
religious beliefs. There is also an allowance for certain 
ministers and members of religious orders to be exempt from 
self-employment taxes on income for those who are opposed to 
these insurance programs. However, there are no exemptions for 
those who fail to provide a taxpayer ID number when it is 
required on a tax return. This is precisely what my bill seeks 
to address.
    As our laws stand, many families have voluntarily forfeited 
thousands of dollars worth of legitimate dependent deductions 
rather than violate their religious beliefs. I find it 
unjustifiable that our Government would force its citizens to 
make that choice, yet we persist in doing just that.
    My bill, H.R. 2494, would restore fairness to our tax code 
by doing away with this injustice and protecting the religious 
beliefs of all American taxpayers.
    Thank you, Mr. Chairman, once again for this opportunity.
    Chairman Shaw. Thank you.
    [The prepared statement follows:]

Statement of Hon. John Hostettler, a Representative in Congress from 
the State of Indiana

    Mr. Chairman, I am pleased to come before you today in 
support of my bill HR 2494, the Children Tax ID Alternative 
Act. This bipartisan bill, which currently has 23 cosponsors, 
would provide a religious exemption for those who do not wish 
to obtain a Social Security number for their children. It would 
remove the barriers that exist to those who choose to exercise 
their religious beliefs by not attaching Social Security 
numbers to their children. The Children Tax ID Alternative Act 
would simply provide an alternative way of claiming dependent 
tax credits and deductions to these families.
    This subcommittee has been hearing testimony regarding the 
expanding use of Social Security numbers and the associated use 
and abuse that accompanies such an expansion. There are, 
however, a significant group of United States citizens, who are 
resisting this progression because it violates their religious 
beliefs. These are honest, law-abiding citizens who pay their 
taxes and promote the laws and principles of our civil order. 
They are the public school teacher in Oregon, the minister in 
Washington, the professor of a state university as well as 
state representatives. Yet, because they choose to follow the 
dictates of their religion they pay substantially more income 
tax than their neighbors.
    The history of the use of Social Security numbers indicates 
that this has not always been a problem and need not be a 
problem anymore. It was not until the Tax Reform Act of 1986 
that taxpayers who wished to claim exemptions for dependents 
were required to provide Social Security numbers for all 
dependents age 5 and older. This age requirement was changed in 
1995 to require that any claimed dependent have a taxpayer 
identification number, which under Section 6109 of the Internal 
Revenue Code, is an individual's Social Security number 
Finally, in 1996, the IRS was authorized to reject a dependency 
exemption if no taxpayer identification number was supplied.
    What are the implications of these laws? As a result of the 
changes made by the Tax Reform Act of 1986, the IRS reported 
that there were approximately 7.5 million fewer dependents 
claimed in 1987 than in 1986. Instead of the estimated 77 
million dependency exemptions, the IRS reported that only 69.7 
million such exemptions were claimed. This translated into a 
revenue increase of $2.8 billion for the federal government in 
tax year 1987 alone. The IRS has indicated that the significant 
drop in claimed exemptions is, in fact, due to the required use 
of Social Security numbers. However, they believe that the 
exemptions dropped because the use of the numbers eliminated 
the potential for fraud and abuse. The IRS is unable to 
conclusively assert this finding because no study or report has 
been conducted to determine the reason for this significant 
drop. Rather, we have every indication that this drop was due, 
at least in some degree, to personal religious objections by 
parents who do not wish to attach Social Security numbers to 
their children. While there may be disagreements and varying 
opinions about the levels of causation concerning these 
statistics, it can not be denied that the drop is due at some 
level to the religious objections. Simply put, families who 
hold to such religious beliefs are being forced to pay for 
their right to exercise their religion.
    I understand that these laws were implemented in order to 
curb the use of improper dependency exemptions. However, I 
would also like to point out, Mr. Chairman, that my bill does 
not add to the potential for tax fraud and abuse. Under the 
provisions of this act, parents seeking to receive a deduction 
or credit for children without Social Security numbers would be 
required to submit several forms of official documentation. 
Only by providing 1). an affidavit describing their religious 
belief, 2). an affidavit from a knowledgeable third party and 
3). documentation, such as birth records, medical records, 
school records or insurance records to verify the relationship 
of the dependent to the taxpayer, would these families be able 
to claim the exemptions.
    Such an exemption is not without precedent. There are 
currently a number of U.S. citizens who are permitted to be 
exempt from participation in Social Security based on religious 
belief. There is also an allowance for certain ministers and 
members of religious orders to be exempt from self-employment 
taxes on income for those who are opposed to these insurance 
programs. However, there are no exemptions for those who fail 
to provide a taxpayer identification number when it is required 
on a tax return. This is precisely what my bill seeks to 
address.
    As our laws stand, many families have voluntarily forfeited 
thousands of dollars worth of legitimate dependent deductions 
rather than violate their religious beliefs. I find it 
unjustifiable that our government would force its citizens to 
make that choice. Yet, we persist in doing just that. My bill, 
HR 2494 would restore fairness to our tax code by doing away 
with this injustice and protecting the religious beliefs of all 
American taxpayers.
      

                                <F-dash>


    Chairman Shaw. Mr. Paul?

 STATEMENT OF HON. RON PAUL, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Paul. Thank you, Mr. Chairman.
    I would like permission to insert my printed statement in 
the record.
    Chairman Shaw. Without objection, the full statement of all 
the witnesses will be inserted.
    Mr. Paul. Along with a statement from the Liberty Study 
Committee. Unanimous consent to put that in the record, as 
well.
    Chairman Shaw. I, too, am grateful that you are holding 
these hearings, because I think privacy is a very important 
issue, and we are going to hear more and more of it.
    I think it came to the attention of the public and to many 
in our regulatory bodies when ``know your customer'' 
regulations were proposed a year or so ago, and, with a little 
bit of encouragement, there were over 500,000 comments sent to 
the Federal Reserve and the FDIC because these were regulations 
that were way over-stepping and ignoring the privacy of the 
individual.
    I take a little different approach to the issue of privacy 
than others, but I think that there is a common thread among us 
that the solution is going to be found somewhere in dealing 
with the Social Security number, and for that reason I am 
encouraged.
    In 1974 the Privacy Act was written to combat some of the 
things the Bank Secrecy Act did in 1970. The Privacy Act was 
designed to say you cannot use the Social Security number as an 
identifier. But then, like so often in our legislation, later 
on in the bill it said, ``But Congress can make use of the 
Social Security number any time they want,'' and we certainly 
have been doing that since then. I think that is where the 
serious problem is.
    But where I disagree with some of my friends who will write 
more legislation, I think there is a certain part of privacy 
that should be dealt with in the marketplace. For instance, I 
do not believe that Congress should write a law compelling the 
Sierra Club and the ACLU to deal with their memberships and 
have them fill out a form and get permission before they can 
rent lists or do anything, because the more information they 
collect the more likely it is that information will go to the 
Government and then abused by possibly their political enemies.
    So I am not in favor of more regulations. For instance, the 
bank bill that we passed last year said that the bank would 
have to ask questions about privacy--again, accumulation of 
more material.
    The real problem I see is the Social Security number, the 
universal identifier. It is true, in the old days medical 
privacy was taken care of much better, but now that we have 
government-mandated health care programs and health management, 
yes, it is convenient for government to be more efficient. But 
the question is, do we want to weigh the two? Can you always 
argue the case for efficient government and at the same time 
protect privacy? I think there is a conflict there. But our 
goal should be the privacy. The goal of privacy should override 
the efficiency of government, and I think that sometimes is 
where we slip on this.
    Just providing new rules I think can be very, very damaging 
to us, and we should not just ask the government or ask these 
organizations to provide more forms to fill out, because that 
invites abuse.
    My bill, H.R. 220, addresses this. This is where I am 
hoping more of us can come together. It does more or less state 
what the law in 1974 states, but it has the force of law, that 
you cannot use the Social Security number as a universal 
identifier. It was not intended. We never even used Social 
Security numbers on our tax forms until the early 1960s. There 
is no reason that we cannot pass something like this.
    If we are concerned about identity theft, the best thing we 
can do for those who steal identities is to have all our 
information brought together by the universal identifier.
    So the most important thing that we could do to stop 
identity theft is to make sure that there is a law on the 
books, that we live by it, and that we do not have a universal 
identifier. It will be and is the Social Security number. It is 
universal. I delivered babies in my professional life, and it 
is true, in the last several years we were required--everybody 
was getting Social Security numbers before the baby left the 
hospital. Everybody wants to know everything about everything, 
and the most important way they accumulate this information and 
can find out information on us is the Social Security number.
    So if it makes government a little less efficient, I think 
that might have to come about. I do not believe you can demand 
the efficiency that some people would like on government 
programs at the same time saying that we will protect our 
privacy. There will have to be a choice. Of course, my choice 
is for privacy and my choice, of course, would be to pass H.R. 
220, and there could be no universal identifier for any of our 
programs.
    I thank the chairman.
    Chairman Shaw. Thank you, Mr. Paul.
    [The prepared statement and an attachment follow:]

Statement of Hon. Ron Paul, a Representative in Congress from the State 
of Texas

    Mr. Chairman, thank you for holding a hearing on the 
important issue of the misuse of the Social Security number as 
a uniform standard identifier. For all intents and purposes, 
the Social Security number has been transformed from an 
administrative device used to administer the Social Security 
program into a de facto national ID number. Today, most 
Americans cannot get a job, get married, open a bank account, 
or even get a fishing license without their Social Security 
number. Many hospitals require parents to obtain Social 
Security numbers for their newborns before the hospital will 
discharge the baby. Moreover, many jurisdictions will not issue 
a death certificate without obtaining the deceased's Social 
Security number.
    The Congress that created the Social Security system in no 
way intended to create a national identifier. In fact, Congress 
never directly authorized the creation of the Social Security 
number--they simply authorized the creation of an ``appropriate 
record keeping and identification scheme.'' The Social Security 
number was actually the creation of the Internal Revenue 
Service!
    The Social Security Number did not become a popular 
identifier until the 1960s. In response to concerns about the 
use of the Social Security number, Congress passed the Privacy 
Act of 1974, because ``The Congress finds the opportunities for 
an individual to secure employment, insurance and credit and 
his right to due process and other legal protections are 
endangered by the misuse of certain information systems.''
    The Privacy Act of 1974 states that ``It shall be unlawful 
for any Federal, State or local government agency to deny any 
individual any right, benefit or privilege provided by law 
because of such individual's refusal to disclose his Social 
Security number.'' This is a good and necessary step toward 
protecting individual liberty. Unfortunately, the language of 
the Privacy Act allows Congress to require the use of the 
Social Security number at will. In fact, just two years after 
the passage of the Privacy Act, Congress explicitly allowed 
state governments to use the Social Security number as an 
identifier for tax collection, motor vehicle registration and 
drivers' license identification.
    Since the passage of the Privacy Act, Congress has been all 
too eager to expand the use of the Social Security number as a 
uniform identifier. For example, in 1996, Congress required 
employers to report the Social Security number of employees as 
part of the ``new hires'' database, while in 1998, 210 members 
of Congress voted to allow states to force citizens to produce 
a Social Security number before they could exercise their right 
to vote.
    Mr. Chairman, my legislation, the Freedom and Privacy 
Restoration Act (HR 220) forbids Federal or State governments 
from using the Social Security number for purposes not directly 
related to administering the Social Security system.
    Since I introduced this legislation on the first day of the 
106th Congress, my office has received countless calls, letter, 
faxes, and e-mails from Americans around the country who are 
tired of having to divulge their national ID number in order to 
get a job, open bank account, or go fishing. The strong public 
outrage over the federal banking regulators' ``know your 
customer'' scheme, as well as the attempt to turn state 
drivers' licences into a national ID card, and the Clinton 
Administration's so-called ``medical privacy'' proposals all 
reveal the extent to which the American people oppose the 
``surveillance state.'' These Americans believe that since 
Congress created this problem, Congress must fix it.
    Certain well-meaning members of Congress are focusing on 
the use of the Social Security number by private businesses. 
However, this ignores the fact that the private sector was only 
following the lead of the federal government in using the 
Social Security number as an ID. In many cases, the use of the 
Social Security number by private business is directly mandated 
by the government, for example, banks use Social Security 
numbers as an identifier for their customers because the 
federal government required them to use the Social Security 
number for tax reporting purposes. Once the federal government 
stops using the Social Security number as an identifier, the 
majority of private businesses, whose livelihood depends on 
pleasing consumers, will respond to their customers demands and 
stop using the Social Security number and other standard 
identifiers
    I hope that we in Congress would not once again allow a 
problem Congress created to become an excuse for disregarding 
the constitutional limitations of federal police powers or 
imposing new mandates on businesses in the name of ``protecting 
privacy.'' Federal mandates on private businesses may harm 
consumers by preventing business from offering improved 
services such as the ability to bring new products that 
consumers would be interested in immediately to the consumers' 
attention. These mandates will also further interfere with 
matters that should be resolved by private contracts.
    Furthermore, as we have seen with the administration's so-
called ``medical privacy protection'' proposal, federal 
``privacy protection laws'' can actually undermine privacy by 
granting certain state-favored interests access to one's 
personal information.
    Finally, I would remind my colleagues that no private 
organization has the power to abuse personal liberty on as 
massive a scale as the federal government. After all, consumers 
have the right to refuse to do business with any private entity 
that asks for a Social Security number, whereas citizens cannot 
lawfully refuse to deal with government agencies. Furthermore, 
most of the major invasions of privacy, from the abuse of IRS 
files to the case of the Medicare clerk who sold the names of 
Medicare patients to an HMO, to the abuse of the FBI by 
administrations of both parties have occurred by government 
agents. Therefore Congress should focus on the threat to 
liberty caused by the federal government's use of uniform 
identifiers.
    In conclusion, I once again thank the Subcommittee for 
holding this hearing on the uses and abuses on the Social 
Security number. I hope that this hearing is the first step 
toward Congressional action designed to stop the use of the 
Social Security number as a national ID number.
                                    Liberty Study Committee
                                     Falls Church, VA 22046
                                                       May 11, 2000
    Ludwig von Mises, economist and true champion of liberty, concluded 
that with respect to political and economic systems, one can choose 
either totalitarianism or capitalism--there is no middle ground. Few 
issues demonstrate the justification for his conclusion so clearly as 
does that of privacy protection.
    The premise of Mises' argument was that intervention is necessarily 
begets interventionism as the negative effects of government's initial 
intervention become the justification for each of the subsequent 
interventions. For example, when government establishes a minimum wage 
above the market wage, that class of employees whose marginal product 
is below the artificially established minimum wage become legally 
unemployable, and, hence in ``need'' of governmental support. Of 
course, government's response to then support every unemployed member 
of society at some subsistence level creates yet another incentive for 
more intervention when those actually working to achieve that level of 
subsistence realize it can be achieved without to achieve that level of 
subsistence realize it can be achieved without continuing their 
efforts. Of course, this privacy hearing is not exactly about the 
minimum wage but rather whether government should intervene yet again 
to remedy the negative consequences of its prior, privacy-destructive 
intervention or whether they should properly recognize themselves as 
the source of the malaise and repeal the prior intervention.
    In America's Great Depression, economist Murray Rothbard explains 
how massive federal intervention into the monetary sphere (contrary to 
the usual tripe proffered regarding ``unbridled capitalism'' causing 
the depression) served as the intervention that sent this country into 
the throws of the great depression. Among the subsequent and numerous 
interventions to remedy the negative effects of governmental monetary 
mischief, was the Social Security Act, a bill which after nearly one 
hundred and fifty years of history to the contrary, ``relieved'' 
citizens of the individual responsibility for providing for their own 
financial futures and those of their family members. Of course, as 
Mises understood and explained, these interventions were the natural 
result of the negative consequences triggered by interference in the 
monetary sphere.
    Because individual and private accounts would no longer be the 
means by which most savers provided for their financial futures and as 
though money was actually being placed by government into individual 
accounts for those without the requisite self-discipline to provide for 
their own future financial well-being, every participant in the system 
was ultimately issued a Social Security ``Account Number.'' Although 
the Congress that created the Social Security system in no way intended 
to create a national identifier, a subsequent executive order by 
President Roosevelt authorized the use of the Social Security number as 
a standard federal identifier.
    In the name of ``protecting'' the taxpayer against government 
inefficiency and various forms of fraud, government took subsequent 
steps to further establish the SSN as a uniform identifier. For 
example, where military members once used their military serial number, 
this was replaced by the Social Security number as a standard 
identifier. Additionally, the Bank Secrecy Act of 1970 generated 
regulation requiring the collection of Social Security Numbers by 
banking institutions. When, at a minimum, banks were mandated by 
government to use at least that number and to preserve scarce data 
resources and avoid duplicity of records, financial institutions 
naturally adopted the social security number as their record number of 
choice.
    In response to concerns about the widespread use of the SSN, 
Congress passed the Privacy Act of 1974, but, unfortunately, the 
language of the Privacy Act allow Congress to require the use of the 
Social Security number at will. In fact, just two years after the 
passage of the Privacy Act, Congress explicitly allowed state 
governments to use the Social Security number as an identifier for tax 
collection, motor vehicle registration and drivers' license 
identification. The federal government has also compelled extensive 
disclosure and use of the Social Security number in its labor, medical, 
and education databases.
    Given that government, to accommodate its own prior interventions, 
has not only facilitated but compelled the creation of a massive tool 
for privacy invasion, government is now, of course, presented with the 
question of whether to undo at least some of the prior intervention or 
use the culmination of negative effects of all these prior 
interventions to, yet again, intervene further in the liberty and 
private dealings of individuals.
    The Liberty Study Committee supports what is the only proper 
response to this question: eliminate the proliferation of the 
government-instilled, privacy-destroying tool--the Social Security 
Account Number. While it certainly does not return government to its 
proper role and restore responsibility for saving to individuals, The 
Freedom and Privacy Restoration Act, H.R. 220, introduced by 
Representative Ron Paul, would limit the use of the Social Security 
number to the Social Security system administration, and is an 
important step in the right direction of at least protecting the 
privacy of individuals. Without question, certain inefficiencies will 
necessarily result in limiting the use by government of this number 
but, first and foremost, we must not forget that government's primary 
role must be to preserve individual liberty rather than ``efficiently'' 
run government programs, many of which lack constitutionally legitimacy 
in any case.
    Under no circumstances should the government use their very own 
government-created privacy crisis as a justification to restrict what 
private individuals do or don't do with their private information (even 
to include release of their own Social Security number). As much as 
free speech includes the right to be still, inherent to privacy is the 
right to share or not share private information with those of one's own 
choosing.
    Government has, in essence, turned the notion of privacy protection 
on it's head with proposals to limit information sharing by private 
individuals while compelling disclosure to government by those very 
same individuals. I hope this Congress will recognize and, thus, not 
fall prey to the ``intervention-begets-intervention'' recognized by 
Mises and, as such, not move our nation yet another step further down 
the road to totalitarianism.

                                                Kent Snyder
                                                 Executive Director
      

                                <F-dash>


    Chairman Shaw. I just have a couple of questions that I 
would like to direct, one to Mr. Kleczka and one to Mr. Paul.
    Some of the witnesses on the next panel will testify that 
restricting the commercial use of the Social Security numbers 
will seriously impede their ability to do business. They will 
testify that such restrictions will harm consumers, because 
Social Security number is often used for law enforcement, fraud 
prevention, and to provide services which consumers value.
    How would you respond to these criticisms? And how does 
your bill ensure that consumers are not harmed by Social 
Security number restrictions?
    Mr. Kleczka. Well, Mr. Chairman, first of all, I do not 
believe there is any basis for indicating that this will impede 
anyone's ability to do business.
    We found in a GAO report that credit bureaus make tens of 
million dollars annually by selling credit header information, 
which contains a Social Security number. What it is going to 
harm is their ability to increase the bottom line.
    So my response to that argument would be you can still 
check a consumer or a credit file for accuracy--a name, 
address, phone number, and past addresses. If that matches with 
the request that has just come in for a credit rating, you will 
still sell that information and send it on down.
    By virtue of the fact that you are using it as a national 
ID number, which it was never intended to do, and no one in 
this room or no Member of Congress will agree to that usage, I 
am saying is not something that we should try to maintain for 
their business purposes.
    In fact, the big harm to the consumers, Mr. Chairman, will 
be if Congress fails to do anything.
    Chairman Shaw. Thank you for that.
    My next question is directed to Mr. Paul.
    The American Association of Motor Vehicle Administrators 
will testify later on that your bill, H.R. 220, will negatively 
impact on the ability of States to combat fraud and ensure 
public safety.
    Would you like to respond to that criticism?
    Mr. Paul. Well, I think the opposite would be true. If you 
are interested in stopping the fraud of identity theft, since 
the Social Security number being used as a universal identifier 
enhances the identity theft, I would say we would go a long way 
to stopping that.
    I guess what they are referring to is the possibility of 
putting the Social Security number on our driver's licenses, 
and that has been started, and that, of course, is what the 
individuals who like the national ID card would like.
    Even though I do not happen to believe it would impede the 
ability to combat fraud, because it would stop the identity 
theft, I would be quite willing to say, even if there was the 
slightest benefit, it is still so dangerous to use a universal 
identifier, that our freedoms and our liberties and our 
privacies--I mean, if we had armed guards every place, of 
course, there may be less fraud and less theft, but we would be 
living in a police state, so there is an extreme there.
    So this is just the introduction of the heavy hand of 
government monitoring us, and therefore, even if there can be a 
slight justification, I do not think it should be accepted. I 
do not believe that is the case, because I think it would be a 
tremendous benefit to stop the identity theft.
    Chairman Shaw. Mr. Markey?
    Mr. Markey. Can I very briefly just say that I do agree 
with Representative Paul that we have to be very concerned 
about government misuse of private information within our 
society, but the big problem today is not Big Brother, it is 
Big Browser. It is the ability, not only for the government, 
but for private sector companies, together all this 
information, which would never have been able to be compiled 
before.
    While some industries say, ``Well, you know, you are going 
to interfere with this revolution,'' I think that is the 
greatest fear which we all have. Who would want to be somebody 
that is given responsibility for ending the Internet 
revolution, as though, by animating this revolution with old 
values you are now going to ruin it. My god, just think if 
Internet stocks had to be valued on the same basis as the old 
economy stocks. They might go down a couple thousand points, 
you know. That would be terrible if they had to actually have 
profits and have a cash flow. ``You cannot value stocks that 
way,'' they say. ``You are foolish.''
    Are we going to prohibit fraud on line? Under their 
argument, no, that would actually interfere with their ability 
to get this thing going.
    But right now we have rules that say that you cannot 
transfer, as a tax preparer, somebody's private tax information 
without their permission. You cannot transfer driver license 
information without their permission.
    Because of Judge Bork, it is illegal to transfer any 
information about any video cassettes which you rent at a video 
store. It does not ruin their business, but it allows you to 
protect the information about the movies that you rented.
    No cable company can sell the information about which 
channels you watch and for how long and what time in the middle 
of night you might have flipped to that station and been 
watching that movie while everybody was upstairs asleep. They 
cannot sell that information as to what you were watching to 
anybody.
    People cannot sell your telephone numbers at the phone 
company, even though it would make a lot of money for them.
    The cell phone industry cannot use their cell phone as a 
tracker to sell to people as to where you go. That is illegal.
    Again, it limits these industries, but it gives us some 
additional sense of privacy.
    All we are saying about the Social Security number is that 
it falls into a category which deserves special protection, not 
only from the government but also from any industry, as well, 
that sees us as nothing more than a product.
    Chairman Shaw. If I am reading this panel right, I find Mr. 
Markey and Mr. Paul agreeing with each other.
    Mr. Markey. When the liberal left and the libertarian right 
join up, it does not leave a lot of room in the middle. I think 
we are pretty much in agreement in terms of what has to happen 
in our country.
    Chairman Shaw. Well, we will have to put this down as a 
red-letter day.
    Mr. Tanner?
    Mr. Tanner. Thank you, Mr. Chairman.
    I want to thank you all, all of you, for being here. I 
really believe that this issue is a sleeping giant; that if 
people really stopped to think about the potential 
ramifications of this problem, they would be terrified. And it 
is our job--and I want to thank Chairman Shaw--to not only hold 
these hearings to educate, but also to try to find the answers, 
and you all are here to help us do that, and we very, very much 
appreciate it.
    I think, in listening to you all and the other day, that 
the appeal of the Social Security number is that it tends to 
give absolute assurance that whomever has asked for it that you 
are who you say you are. It is ironic that this very 
attractive, appealing practice could be the very thing that 
gets us in trouble with that and you are not who you say you 
are, because we heard a couple of days ago from Colonel 
Stevens--I do not know if you all who are not on the 
committee--I know Gerry and Jim were here. This was a heart-
wrenching story.
    This retired lieutenant colonel and his wife have had their 
identity stolen. They were looking forward to retirement in 
South Carolina or Florida with their grandchildren and so on, 
and now they cannot leave this area because of recurrent credit 
problems and because, as far as they know, it may still be 
unfolding.
    Now, their lives, if not being ruined physically by 
ravaging illness, have been altered to the extent that their 
lifetime dreams of their golden years have become unreachable 
for them.
    Not having heard them, but knowing of the circumstances 
that they and others find themselves in, I would like to ask 
Mr. Kleczka and Dr. Paul: how does your bill help the situation 
that Colonel Stevens and his wife testified to? Gerry?
    Mr. Kleczka. Well, hopefully, Congressman Tanner, the bill 
would help the next Stevens case, where someone who is trying 
to steal someone's identity would not be permitted to do so 
because they will not have access to the Social Security 
number. So it would help people in that similar situation by 
making it almost impossible to get one's Social Security 
number. I think that is where we have to start with any bill 
that the Ways and Means Committee deals with.
    Again, these numbers are disseminated not only through the 
websites, on the Internet, motor vehicle departments are 
selling them, the credit bureaus are selling them as part of 
the header information, and so a person who is out looking for 
John Tanner's Social Security number can probably, with 
relative ease, find it.
    What we tried to do in my legislation is prohibit the sale, 
the commercial use of the Social Security number. If, in fact, 
your bank has it, fine, but they cannot sell the list, nor do 
they, but we know the lists are being sold by such concerns 
like the motor vehicle department.
    Let me respond at a point to the response from Mr. Paul.
    Mr. Tanner. Does your legislation apply to Eddie Bauer and 
L.L. Bean and those people, too?
    Mr. Kleczka. To who?
    Mr. Tanner. L.L. Bean, Eddie Bauer--people I do business 
with?
    Mr. Kleczka. Right. But they are not the ones selling it. 
Usually, they might be buying information that could be 
contained on those lists.
    But State legislators are also getting the same pressures 
and hearing the same problems that we are, and, as time goes 
by, less and less number of States are using the Social 
Security number as your driver's license number. In fact, if I 
am correct, I believe Virginia just passed legislation or 
stopped the use of that being on your driver's license. As time 
goes on, more and more States are going to be--
    Mr. Tanner. If you will yield, does your bill restrict the 
usage of the Social Security number by the States and local 
jurisdictions?
    Mr. Kleczka. No, it does not. That is a State 
responsibility. My bill provides that they cannot sell that 
information. So if they sell a driver's license file, they 
cannot include on there or leave on there a Social Security 
number.
    Mr. Tanner. Dr. Paul?
    Mr. Paul. And, of course, I think that is very important 
that States not use these numbers for the sale of State 
information.
    But my bill I think would go a long way to stopping this 
kind of a problem, because it says that you cannot use the 
Social Security number for anything other than to identify your 
Social Security account. So it does not deal with the sale so 
much as it deals with trying to prevent the setup.
    So when we talk about commercial interests, it is the fact 
that we have--just like our voting card, I mean, we are 
lackadaisical about it and we accept it. It is the same way 
with corporations. They use it as a convenience. It is 
convenient for corporations. It is convenient for everybody. My 
bill says you cannot use it in any other government agency. We 
cannot universalize it and require it.
    Certainly, we would never be able to write the proposed law 
that says the States will use the Social Security number and 
have it universal as a universal ID card.
    Mr. Tanner. Am I correct in then stating that your bill 
deals more with the gathering of the information and Gerry's 
bill deals more with the dissemination?
    Mr. Paul. I think that would be correct.
    Mr. Kleczka. I think so.
    Mr. Tanner. Is there a way to bring those two together? It 
seems to me both have appeal.
    Mr. Paul. I think his problem would be lessened if my bill 
were passed, in that there would be no accumulation and it 
would be less likely to have information to sell.
    Mr. Tanner. You have got nothing to disseminate. All right.
    Mr. Kleczka. The problem is that those lists and those 
numbers are out there. Today we need his bill, yesterday we 
need mine to stop it.
    Chairman Shaw. Mr. Hayworth?
    Mr. Hayworth. Thank you, Mr. Chairman.
    As the bells have rung with votes, I just have a couple of 
very quick questions, in addition to thanking our colleagues 
for coming down and offering their opinions on this. I would 
concur with my colleagues here on the subcommittee: this is an 
issue of great concern, especially to the people of the 6th 
District of Arizona.
    First, to our friend from Wisconsin, Mr. Kleczka, your bill 
has also been referred to the Committees on Banking and 
Financial Services, and also the Committee on the Judiciary. 
What has been their reaction to your legislation?
    Mr. Kleczka. I have not checked with the chairmen. 
Naturally, they have not had a hearing to date. Clearly, there 
is joint jurisdiction, because for banking we deal with credit 
bureaus. We do have penalties in my bill. So whatever product 
this committee comes up with will have to be meshed with those 
other committees, also.
    Mr. Hayworth. Have you heard anything from either committee 
about the plan of any action?
    Mr. Kleczka. No, I have not. The last we heard Washington, 
on our financial modernization bill, that was the major, major 
issue this time around, but two years ago it was not even 
debated. that is how important this issue has become in a very 
short while.
    Mr. Hayworth. Yes, indeed. I would concur. Thank you.
    Now I turn to my friend, Dr. Paul, from Texas.
    Talking about jurisdiction being shared, your bill has also 
been referred to the Committee on Government Reform, and I 
would ask the same question: have you gotten a reaction from 
the committee? And has there been any action planned or taken 
by the Committee on Government Reform?
    Mr. Paul. I think Government Reform, if I am not mistaken, 
has some hearings scheduled next week on it.
    Mr. Hayworth. Good. All right. Very good.
    I thank you, Mr. Chairman.
    Chairman Shaw. At this point, since Mr. Tanner brought up 
the name of Colonel Stevens, we did ask and the representation 
had been made that this was, in some way, some requirement in 
law for the Social Security number at the base commissaries. We 
made an inquiry to the Pentagon, and I would like to read into 
the record the answer that we got.
    The answers says, ``The Department of Defense directives 
governing commissaries and exchange do not require that the 
Social Security numbers be used for check cashing purposes.'' 
Well, something has been misrepresented. ``The commissary and 
exchange services have adopted operating procedures that use 
the Social Security number for check cashing verification, 
since it identifies the authorized patron. The military ID uses 
a Social Security number as a service number,'' and that we 
determined yesterday by just looking at Mr. Johnson's card. We 
may want to do some more inquiring into that particular area.
    [The following was subsequently received.]

 Statement from the Office of the Deputy Assistant Secretary of Defense

    The DoD Directives governing commissary and exchanges do 
not require that the Social Security Number be used for check 
cashing purposes. The commissary and exchange services have 
adopted operating procedures that use the SSN for check cashing 
verification since it identifies the authorized patron. (The 
military ID card uses the SSN as the ``Service Number''--
according to Sheila Ford in DHRA)
    In requesting the SSN, the resale activities must conform 
with DoD Directive 5400.11 and DoD 5400.11R (DoD Privacy 
Program) and E.O 9397 (dated November 23, 1943).
      

                                <F-dash>


    I have been advised that we have three votes on the floor. 
This panel will be dismissed, and I thank you. Each one of you 
gave some very fine testimony, and I find myself in agreement 
with just about everything that has been said.
    We will recess until the conclusion of that vote, and then 
we will return to hear our second panel.
    Thank you.
    [Recess.]
    Mr. Hayworth [assuming Chair]. The committee will come to 
order.
    The second panel consists of: Stuart Pratt, vice president, 
government relations, Associated Credit Bureaus, Incorporated; 
Edmund Mierzwinski, consumer program director, United States 
Public Interest Research Group; Katherine Burke Moore, chair, 
international board of directors, American Association of Motor 
Vehicle administrators; Marc Rotenberg, executive director, 
Electronic Privacy Information Center; and Robert Meyer, senior 
counsel, American Council of Life Insurers.
    We welcome each of you. You will each have your full 
statement entered into the record, and we will proceed.
    We will start with you, Mr. Pratt.

   STATEMENT OF STUART K. PRATT, VICE PRESIDENT, GOVERNMENT 
           RELATIONS, ASSOCIATED CREDIT BUREAUS, INC.

    Mr. Pratt. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Stuart Pratt, and, for the record, I 
am vice president, government relations, for the Associated 
Credit Bureaus.
    ACB, as we are commonly known, is an international trade 
association representing over 500 consumer information 
companies, and those companies provide fraud prevention and 
risk management products, credit mortgage reports, tenant and 
employment screening services, check fraud and verification 
services, as well as collection services.
    Really, our members are an information infrastructure in 
our society here that contributes to the safety and soundness 
of our banking systems, and does, in fact, escalate the 
efficiencies of our secondary mortgage securities marketplace, 
which saves consumers as much s 200 basis points on the cost of 
mortgage, according to those agencies that administer those 
securities programs.
    We help e-commerce and bricks-and-mortar businesses to 
authenticate applicant data, reducing incidents of fraud, and 
we help State and Federal agencies to reduce entitlement fraud 
of various types, amongst other products that we offer.
    We thank all of you on the committee for choosing to hold 
this hearing on such an important subject, the Social Security 
number, how it is used in our society, and, in fact, to expand 
our understanding and share our thoughts on the circumstances 
surrounding misuses of this number.
    Before I specifically address how we in our industry do use 
the Social Security number, I have always found it helpful in 
this type of testimony to review a little bit about the 
industry we represent, the types of businesses we have, the 
laws that govern us, and this provides a bit of context, I 
think, for some of the testimony you have, in fact, heard up to 
this point.
    Consumer reporting agencies do maintain information on 
individual consumer payment patterns associated with various 
types of credit obligations. Credit histories are derived from 
the voluntary provision of information about consumer payments 
on various types of credit accounts and other debts from 
thousands of data furnishers, such as credit granters, student 
loan guarantee and child support enforcement agencies. A 
consumer's file may also contain public record items, such as 
bankruptcy filings, judgments, or liens.
    For purposes of data accuracy, our members also maintain 
information on a consumer's full name, current and previous 
addresses, Social Security number, and places of employment.
    Perhaps as important as knowing what we have in our files 
is also to often clarify what we do not have in a consumer's 
file. We do not know what consumers have purchased using 
credit. We do not know where they have shopped. We do not know 
which bank cards they have used. We do not have a record of 
when consumers have been approved or when consumers have been 
declined. We do not maintain medical treatment information. No 
bank account information of that sort, such as a balance on a 
checking account, is available in a traditional consumer 
report.
    The law that governs this, the Fair Credit Reporting Act, 
was enacted in 1970 and was most recently amended in the 104th 
Congress with the passage of the Credit Reporting Reform Act. 
In fact, here at the table with us are some of the folks who 
lived through the years and years of debate on that--Ed, in 
particular. We often spent a good amount of time talking about 
that law as we evolved it through the Congress, or I should say 
several Congresses, at this point.
    We believe the FCRA is an effective privacy statute. It 
does protect consumers by narrowly limiting the appropriate 
uses of the consumer report.
    Beyond protecting privacy, the FCRA also accomplishes 
another very elemental goal of good privacy policy, and that is 
to ensure rights of consumers with regard to access, the right 
to dispute, the right to have information corrected in their 
file, the right to have a baseline expectation of accuracy. In 
fact, one of the advances under the FCRA is the fact that 
accuracy is now a responsibility and it is a shared liability 
for both the consumer reporting agency and also for the various 
data furnishers with whom we share information.
    Let me turn to the question of how we use Social Security 
numbers, which is more so the subject matter of our hearing 
today.
    Under the FCRA, one of our liabilities, as I have just 
said, is to employ reasonable procedures to ensure the maximum 
possible accuracy of the consumer report. We must design these 
systems based on exactly the data that has been requested on a 
specific individual, and we must accomplish this dual mission 
of accuracy and data extraction in the context of a highly 
mobile society.
    There are some facts that I think are very important for 
this committee to consider. For example, about 16 percent of 
our Nation's population moves each year, and that generally 
translates to about 42 million consumers a year moving from one 
location to another, thus addresses are changing for principal 
residences.
    About 2.4 million marriages and another 1.2 million 
divorces occur annually. This, too, results in not only 
addresses changing, but also the last names of individuals 
changing, in most cases.
    These data clearly speak to the challenge our Members face, 
where identifying data often changes.
    In light of the mobility of our society, the Social 
Security number does, in fact, play a very significant role in 
ensuring data quality. Where a consumer, for example, has 
changed a last name due to marriage or divorce, has moved to a 
new address--which is also very common in those cases--the 
Social Security number is the most stable identifying element 
we would have in the file.
    It helps us, first, to be able to identify the consumer's 
file with precision during this life transition where this 
consumer is very likely to be applying for new credit, perhaps 
for making new purchases, for this new home that they are 
moving into, seeking approval for utilities--even, in fact, 
seeking approval for the loan that is going to allow them to 
purchase the residence, itself. The consumer expects to have 
that consumer report available, even during this transitional 
period.
    Secondly, the consumer expects his or her file to be 
accurate. The SSN helps us to accomplish this goal of file 
accuracy in the midst of these cycles of change occurring with 
identifying information.
    Beyond the FCRA, we produce a range of other products that 
I think it is important for this committee to consider. The 
Social Security number is a critical element in locator 
services. Our members do produce these types of services, and 
they are used by, for example, child support enforcement 
agencies to locate non-custodial parents, pension funds to 
locate beneficiaries, law enforcement for locating criminals or 
witnesses, health care providers to locate individuals who have 
chosen not to pay their bills.
    Most recently--and this is an advance in the area of 
privacy policy--our members have committed ourselves to another 
organization that they established voluntarily and negotiated 
with the Federal Trade Commission called ``The Individual 
Reference Services Group,'' and this has placed limitations on 
who should have access and in what contexts. This, in fact, 
also applies to the Social Security number therein.
    Yes, the Social Security number plays a role in fraud 
prevention for us, as well. Where a consumer makes application 
for a product or service, it helps businesses to ensure they 
are doing business with the right consumer. These 
authentication or verification tools are other products that we 
do make available.
    I am looking to see if I am out of time. How am I doing?
    Mr. Hayworth. If you could, Mr. Pratt, kind of wind it down 
so we can hear from the other panelists.
    Mr. Pratt. Absolutely. Yes, sir.
    Mr. Hayworth. Thank you. Your full statement will be 
entered into the record.
    Mr. Pratt. Let me just suggest that, in the area of fraud 
prevention, we have taken one additional step that I hope the 
committee will consider, and that is that on March 14th of this 
year we added new voluntary initiatives to our own practices to 
help the very situation of the victims you heard in the last 
round of testimony. Those are in the record for you to review. 
In fact, we have launched new software systems and will bring 
those on line this year to monitor a consumer's files and make 
sure we stay in touch with consumers who have been victimized.
    In conclusion, let me urge a message which I have seen in 
the press releases associated with this committee, and that is: 
it is a question of balance. It is a question of maintaining 
viably the kinds of valued programs that we have that are tied 
with information products, and, at the same time, ensuring the 
appropriate protections for the very sensitive Social Security 
number.
    I thank you for giving us this opportunity to testify.
    Mr. Hayworth. Thank you, sir.
    [The prepared statement and attachment follow:]

Statement of Stuart K. Pratt, Vice President, Government Relations, 
Associated Credit Bureaus, Inc.

    Mr. Chairmen and members of the Subcommittee, my name is 
Stuart Pratt and I am vice president, government relations for 
the Associated Credit Bureaus, headquartered here in 
Washington, D.C. ACB, as we are commonly known, is the 
international trade association representing over 500 consumer 
information companies that provide fraud prevention and risk 
management products, credit and mortgage reports, tenant and 
employment screening services, check fraud and verification 
services, and collection services.
    Our members are the information infrastructure that 
contributes to the safety and soundness of our banking and 
retail credit systems; which:
    <bullet> allows for the efficiencies of a secondary 
mortgage securities market place that saves consumers an 
average of 200 basis points on the cost of a mortgage.
    <bullet> helps e-commerce and bricks-and-mortar businesses 
to authenticate applicant data thus reducing the incidence of 
fraud.
    <bullet> gives child support enforcement agencies the 
information tools necessary to meet their mission.
    <bullet> allows states to reduce many forms of entitlement 
fraud.
    We want to commend you for choosing to hold this hearing on 
the importance of the Social Security Account Number in our 
society and to expand our understanding of the circumstances 
surrounding misuses of this number.
    Before I specifically address how the SSN is used by our 
industry and the importance of this number, I have found it 
helpful to provide a short review of what a consumer reporting 
agency is, what is contained in a consumer report, and the law 
that governs our industry.

Consumer Reporting Agencies and Consumer Reports

    Consumer reporting agencies maintain information on 
individual consumer payment patterns associated with various 
types of credit obligations.\1\ The data compiled by these 
agencies is used by creditors and others permitted under the 
strict prescription of the Fair Credit Reporting Act (15 U.S.C. 
1681 et seq.) to review the consumer's file.
---------------------------------------------------------------------------
    \1\ Our members estimate that there are approximately 180 million 
credit active consumers. Since our members operate in competition with 
each other, these consumers are likely to have more than one credit 
history maintained.
---------------------------------------------------------------------------
    Consumer credit histories are derived from, among other 
sources, the voluntary provision of information about consumer 
payments on various types of credit accounts or other debts 
from thousands of data furnishers such as credit grantors, 
student loan guarantee and child support enforcement agencies. 
A consumer's file may also include public record items such as 
a bankruptcy filing, judgment or lien. Note that these types of 
data sources often contain SSNs, as well.
    For purposes of data accuracy and proper identification, 
generally our members maintain information such as a consumer's 
full name, current and previous addresses, Social Security 
Number (when voluntarily provided by consumers) and places of 
employment. This data is loaded into the system on a regular 
basis to ensure the completeness and accuracy of data.\2\
---------------------------------------------------------------------------
    \2\ Note that there are in fact a number of major credit reporting 
systems in this country. Within ACB's membership the three most often 
recognized systems would be Equifax, Atlanta, GA; Experian, Orange, CA; 
and Trans Union, Chicago, IL. These systems not only manage their own 
data, but provide data processing services for the over 400 local 
independently-owned automated credit bureaus in the Association's 
membership.
---------------------------------------------------------------------------
    It is interesting to note that the vast majority of data in 
our members' systems simply confirms what most of you would 
expect; that consumers pay their bills on time and are 
responsible, good credit risks. This contrasts with the 
majority of systems maintained in other countries, such as 
Japan or Italy, which store only negative data and do not give 
consumers recognition for the responsible management of their 
finances.
    As important as knowing what we have in our files is also 
knowing what types of information our members do not maintain 
in files used to produce consumer reports. Our members do not 
know what consumers have purchased using credit (e.g., a 
refrigerator, clothing, etc.) or where they used a particular 
bank card (e.g., which stores a consumer frequents). They also 
don't have a record of when consumers have been declined for 
credit or another benefit based on the use of a consumer 
report. Medical treatment data isn't a part of the databases 
and no bank account information is available in a consumer 
report.

The Fair Credit Reporting Act (FCRA)

    In addition to our general discussion of the industry, we 
believe it is important for your Subcommittee to have a 
baseline understanding of the law which regulates our industry. 
Enacted in 1970, the Fair Credit Reporting Act was 
significantly amended in the 104th Congress with the passage of 
the Credit Reporting Reform Act.\3\
---------------------------------------------------------------------------
    \3\ Public Law 10409208, Subtitle D, Chapter 1.
---------------------------------------------------------------------------
    Congress, our Association's members, creditors and consumer 
groups spent over six years working through the modernization 
of what was the first privacy law enacted in this country 
(1970). This amendatory process resulted in a complete, current 
and forwarding-looking statute. The FCRA serves as an example 
of successfully balancing the rights of the individual with the 
economic benefits of maintaining a competitive consumer 
reporting system so necessary to a market-oriented economy.
    The FCRA is an effective privacy statute, which protects 
the consumer by narrowly limiting the appropriate uses of a 
consumer report (often we call this a credit report) under 
Section 604 (15 U.S.C. 1681b), entitled ``Permissible Purposes 
of Reports.''
    Some of the more common uses of a consumer's file are in 
the issuance of credit, subsequent account review and 
collection processes. Reports are also, for example, permitted 
to be used by child support enforcement agencies when 
establishing levels of support.
    Beyond protecting the privacy of the information contained 
in consumer reports, the FCRA also provides consumers with 
certain rights such as the right of access; the right to 
dispute any inaccurate information and have it corrected or 
removed; and the right to prosecute any person who accesses 
their information for an impermissible purpose. The law also 
includes a shared liability for data accuracy between consumer 
reporting agencies and furnishers of information to the system.

Social Security Number Uses

    Let me now turn to the question of how our industry uses 
the SSN.
    Under the Fair Credit Reporting Act, our industry has a 
duty to ``. . .employ reasonable procedures to ensure the 
maximum possible accuracy. . .'' of the consumer report. 
Further, we must design systems that accurately allow our 
customers to extract only the data requested on a specific 
individual.
    We must accomplish this dual mission of accuracy both in 
terms of building databases, but also properly identifying 
files in our systems in the context of a highly mobile society. 
Consider the following:
    <bullet> Approximately 16% of the nation's population moves 
each year according to the U.S. Census Bureau, which means many 
addresses change each year. (This equates to approximately 42 
million Americans)
    <bullet> Based on National Center for Health Statistics, it 
is estimated that there are 2.4 million marriages and 1.2 
million divorces annually. This event frequently triggers 
changes in addresses as well as last names.
    <bullet> In 1998 there were 6 million homes in the U.S. 
that are considered vacation or second homes. Consumers often 
switch billing addresses if they stay at such residences for 
long periods of time and in some cases maintain billing 
addresses for both residences with various creditors. (Source: 
U.S. Census Bureau House Vacancy Survey as extrapolated by the 
National Association of Realtors)
    These data clearly speak to the challenge our members face 
where identifying data often changes.
    In light of the mobility of our society, the Social 
Security Number plays a very significant role in ensuring data 
quality. Our members process 2 billion data elements a month. 
These elements are a combination of credit history data and 
identifying information. Consider the following very real 
example.
    Where a consumer has changed a last name due to marriage or 
divorce and has moved to a new address, which is common in 
either case, the SSN is the most stable identifying element in 
the file. First, it helps us to identify the consumer's file 
with precision during this life transition where he or she is 
likely applying for new credit, seeking approval for utilities, 
and seeking to rent or purchase a new residence. The consumer 
expects that the consumer report will be available for all of 
these necessary transactions and the SSN helps our members to 
meet this expectation. Second, the consumer expect his or her 
file to be accurate and the SSN helps us to maintain the file 
accurately even when the consumer is in the midst of updating 
creditors with changes in name and address.
    The SSN is also a critical element in producing information 
products, which are commonly called locator services. Our 
members limit access to these products via voluntary 
initiatives established by our largest members and others under 
an organization called the Individual Reference Services Group. 
These services are made available, for example, to child 
support enforcement agencies for purposes of locating non-
custodial parents; to pension funds which must locate 
beneficiaries; to law enforcement for locating criminals or 
witnesses; to healthcare providers that must locate individuals 
who have chosen not to pay their bills and for other similar 
uses.
    Further, the SSN plays a role in fraud prevention products. 
Where a consumer makes application for a product or service, 
information products that help the business to ensure that they 
are doing business with the right consumer use information 
products to authenticate or verify the application information. 
This is true in both for bricks-and-mortar business and in e-
Commerce. If applicant data doesn't match, then the business 
can take additional steps to verify the consumer's identity and 
thus prevent fraud.

Fraud Prevention and Identity Theft

    In your press release announcing this hearing, you mention 
the potential for misuse of the SSN. Our industry has a history 
of bringing forward initiatives to address fraud. These efforts 
focus on use of new technologies, and better procedures and 
education.
    Consider the following efforts undertaken during this 
decade:
    <bullet> ACB formed a Fraud and Security Task Force in 1993
    <bullet> A ``membership alert form'' was developed to be 
used in notifying other ACB credit bureau members of a 
customer, which was committing fraud through the misuse of 
data. Implemented in 1994.
    <bullet> A ``Universal Fraud Information Form'' was 
developed for use by creditors when communicating the incidence 
of fraud to national consumer reporting systems.
    <bullet> A generic credit reporting industry presentation 
on ACB fraud and security initiatives was developed and 
presented to customer segments during 1995.
    <bullet> Minimum standards for data access equipment and 
software were announced to industry suppliers in March 1995.
    <bullet> ACB members implement company-specific limitations 
on the availability of account numbers, and truncation of 
Social Security Numbers on consumer reports sold to certain 
customer segments.
    <bullet> Experian, Equifax and Trans Union voluntarily 
formed special fraud units with 800 number service and consumer 
relations personnel specially trained to work with fraud 
victims.
    <bullet> A hardware and software certification program is 
created by the industry and administered by a third-party 
certification authority for those access products, which have 
implemented minimum industry security standards.
    <bullet> Over 150,000 copies of a new customer educational 
brochure entitled ``We Need Everyone's Help to Protect Consumer 
Privacy and Reduce Fraud'' have been distributed since its 
first printing in the last Q.1997. An education program was 
also developed for use by ACB members in presenting the 
information found in the brochure. 2nd Q. 1998.
    <bullet> On March 14, 2000, the ACB announced new voluntary 
initiatives to assist consumers who have been victimized by 
identity theft. Following is a description of each initiative 
and also attached is our press release.
    <bullet> Advocate the use and improve the effectiveness of 
security alerts through the use of codes transmitted to 
creditors. These alerts and codes can help creditors avoid 
opening additional fraudulent accounts.
    <bullet> Implement victim-assistance best practices to 
provide a more uniform experience for victims when working with 
personnel from multiple fraud units.
    <bullet> Assist identity theft victims by sending a notice 
to creditors and other report users when the victim does not 
recognize a recent inquiry on the victim's file.
    <bullet> Execute a three-step uniform response for victims 
who call automated telephone systems: automatically adding 
security alerts to files, opting the victim out of prescreened 
credit offers, and sending a copy of his or her file within 
three business days.
    <bullet> Launch new software systems that will monitor the 
victim's corrected file for three months, notify the consumer 
of any activity, and provide fraud unit contact information.
    <bullet> Fund, through ACB, the development of a series of 
consumer education initiatives through ACB to help consumers 
understand how to prevent identity theft and also what steps to 
take if they are victims.

Conclusion

    In conclusion, you can see by our actions that in large 
part our uses of the SSN are governed under the Fair Credit 
Reporting Act, one of the most extensive privacy laws in the 
country. Beyond law, our members have a history of proactively 
limiting how SSNs are used outside of the FCRA. No one 
particular element of information is the key to identity theft. 
The underlying theme in all of this is balance.
    Laws that overreach in attempting to limit use of the SSN 
are likely to merely take fraud prevention tools out of the 
hands of legitimate businesses at the expense of consumers. 
Ironically, to prevent fraud you must be able to crosscheck 
information. To maintain accurate databases, you must be able 
to maintain a range of identifying elements. Absent the 
availability of the SSN, we will be less able to build accurate 
data bases, to accurately identify records and to help prevent 
the very crime through the development of fraud prevention and 
authentication tools.
    Thank you for this opportunity to testify.
    3 Public Law 10409208, Subtitle D, Chapter 1.

NEWS RELEASE

Contact: Norm Magnuson
Vice President of Public Affairs
202/408097406
For Immediate Release
March 14, 2000

Credit Reporting Industry Announces Identity Theft Initiatives

    Associated Credit Bureaus, the international trade 
association for the consumer reporting industry, announced 
today a commitment on behalf of the nation's leading credit 
reporting agencies to voluntarily implement a comprehensive 
series of initiatives to assist victims of identity theft in a 
more timely and effective manner.
    ``While there is no evidence to show that the credit report 
is a source for identity theft, our industry has always taken 
an active role in assisting consumers who are fraud victims. 
Our members have taken this responsibility seriously, and we're 
very proud of these initiatives that help consumers who are 
victims of identity theft or fraud,'' noted D. Barry Connelly, 
president of Associated Credit Bureaus. ``Designing and 
implementing these initiatives is a significant milestone in 
the ongoing efforts of our industry to help address the problem 
of identity theft. As long as there are criminals who prey on 
innocent consumers, we will continue to seek even better ways 
to serve consumers and work with law enforcement and our 
industry's customers to address this threat.''
    Connelly outlined the industry's six-point program to 
improve identity theft victim assistance:
    <bullet> Advocate the use and improve the effectiveness of 
security alerts through the use of codes transmitted to 
creditors. These alerts and codes can help creditors avoid 
opening additional fraudulent accounts.
    <bullet> Implement victim-assistance best practices to 
provide a more uniform experience for victims when working with 
personnel from multiple fraud units.
    <bullet> Assist identity theft victims by sending a notice 
to creditors and other report users when the victim does not 
recognize a recent inquiry on the victim's file.
    <bullet> Execute a three-step uniform response for victims 
who call automated telephone systems: automatically adding 
security alerts to files, opting the victim out of prescreened 
credit offers, and sending a copy of his or her file within 
three business days.
    <bullet> Launch new software systems that will monitor the 
victim's corrected file for three months, notify the consumer 
of any activity, and provide fraud unit contact information.
    <bullet> Fund, through ACB, the development of a series of 
consumer education initiatives through ACB to help consumers 
understand how to prevent identity theft and also what steps to 
take if they are victims.
    ACB's initiatives, to be fully implemented within seven 
months of this announcement, resulted from a task force 
comprising senior executives from the ACB Board of Directors 
and former state Attorney General, M. Jerome Diamond. Diamond 
interviewed consumer victims and law enforcement officials, 
made on-site visits to credit reporting agency fraud units, and 
obtained input from privacy advocates. His counsel was an 
integral part of the decision-making process and influenced the 
final content of the initiatives.
    Connelly said: ``Identity theft is a crime that is deeply 
unsettling for the victims. Our initiatives will make it easier 
for victims to put their financial lives back together.'' 
Connelly stressed, though, that the crime extends beyond 
individuals to creditors and ACB members and added, ``We must 
all work together in the areas of prevention and victim 
assistance. We supported the enactment of the Identity Theft 
Assumption and Deterrence Act of 1998 and have worked with more 
than half of the state legislatures on similar laws. We urge 
law enforcement to vigorously investigate and prosecute the 
criminals.''
    Associated Credit Bureaus, Inc. is an international trade 
association representing 500 consumer information companies 
that provide fraud prevention and risk management products, 
credit and mortgage reports, tenant and employment screening 
services, check fraud and verification services, and collection 
services.
    Source: Associated Credit Bureaus, Inc. Web site: www.acb-
credit.com
      

                                <F-dash>


    Mr. Hayworth. Mr. Mierzwinski?

  STATEMENT OF EDMUND MIERZWINSKI, CONSUMER PROGRAM DIRECTOR, 
          UNITED STATES PUBLIC INTEREST RESEARCH GROUP

    Mr. Mierzwinski. Thank you.
    Mr. Chairman, members of the committee, I am Ed 
Mierzwinski. I am consumer program director with the Public 
Interest Research Groups. The State PIRGs are consumer and 
environmental and good government reform groups active around 
the country. US PIRG serves as their national lobbying office.
    I am pleased to be here today to talk about the critical 
issues of misuse of the Social Security number and how that 
contributes to identity theft. Just last week, the California 
Public Interest Research Group and another organization, the 
Privacy Rights Clearinghouse, two of the leading organizations 
that work with identity theft victims, such as Colonel and Mary 
Elizabeth Stevens, the witnesses from Tuesday's hearing, our 
organizations released a new report based on a survey of 
identity theft victims and the problems they go through.
    We found that the average victim has a basic number of 
losses. I think the Stevens were up over $100,000. The average 
victim is around $18,000 or so and spends 175 hours trying to 
solve their problem, so we think identity theft is a very 
serious problem that the committee and the Congress need to 
continue to work with, and the report, ``Nowhere to Turn,'' 
documents a strong platform for identity theft solutions.
    One of the most important parts of that platform is to 
close something that we called a ``credit header loophole.'' 
Both Congressman Kleczka's bill and a similar piece of 
legislation by Representative Hooley of Oregon would close that 
loophole.
    Who wants access to your credit header, which is a product 
sold by the credit bureaus outside of the protection of the 
Fair Credit Reporting Act?
    First, identity thieves want your credit header, and it is 
easy for them to get it. Just this week, I appeared on a Fox TV 
News broadcast where I assisted the reporter, who actually 
found it was quite easy to do himself, in obtaining the Social 
Security number of his boss, with his boss' permission. He was 
then able to apply for credit in his boss' name. And, by the 
way, he has received credit from at least one bank.
    One person spent about $49 to use a locator service on the 
Internet. He obtained a Social Security number of someone that 
he knew, and he was then able to get credit in their name. That 
is how easy it is. That is how scary it is.
    The other kind of person who wants to get access to you 
through these locator services, through these credit headers--
that include, by the way, your Social Security number and other 
sensitive information--are stalkers. And it has been widely 
reported recently about the tragic death of Amy Boyer in New 
Hampshire. Her stalker, a jilted grammar school acquaintance, 
tracked her down through a locator service on the Internet.
    We believe that in 1993, when the Federal Trade Commission 
said that credit headers which contain your name, address, 
Social Security number, telephone number, and other pieces of 
information that are not actually associated with your credit 
lines, are not part of the credit report, and therefore exempt 
from the protection of the act, that the Federal Trade 
Commission made a serious mistake. That is one of the easiest 
ways for identity thieves to obtain information on the Internet 
about your Social Security number is to use a pretext to obtain 
your credit header.
    So we would urge the committee to take a hard look at Mr. 
Kleczka's bill, which includes, by the way, several other 
important provisions to prevent the misuse of Social Security 
numbers, but I think the most important one is to clear up the 
problem caused when the Federal Trade Commission said that your 
Social Security number, your name, and your address are not 
part of your credit report; therefore, the credit bureaus can 
sell them.
    Now, they sell them to these companies. Many of the 
companies are part of this Industry Self-Regulatory Association 
called the IRSG, as Mr. Pratt described. In our view, the IRSG 
principles do not meet what we call ``fair information 
practices'' designed to protect the uses of information. Even 
the Federal Trade Commission, when it agreed to the IRSG 
experiment, said the IRSG needed to go further than it has.
    The IRSG has not made public its assessments or audits of 
its members' uses of information, and I believe that was one of 
the principles that they promised the Federal Trade Commission 
back when they were founded, so I would encourage the committee 
to look into the IRSG.
    What other actions would protect Social Security numbers 
from misuse? I think there are a number, and I will associate 
myself with the remarks of Mr. Rotenberg, who will go into some 
other details on how to protect the Social Security number.
    In conclusion, I would like to thank the committee for the 
opportunity to talk about this very important problem of the 
misuse of Social Security numbers and again urge you to take 
action to protect identity thieves. It is one of the fastest-
growing crimes out there. There are 500,000 to 700,000 
complaints a year. Probably the most significant step we could 
take is to limit access to Social Security numbers 
indiscriminately.
    Thank you.
    Mr. Hayworth. Thank you.
    [The prepared statement follows:]

Statement of Edmund Mierzwinski, Consumer Program Director, U.S. Public 
Interest Research Group

    May 11, 2000 Chairman Shaw and members of the committee: We 
are pleased to present the views of the U.S. Public Interest 
Research Group on the misuses of Social Security numbers. As 
you know, U.S. PIRG serves as the national lobbying office for 
state Public Interest Research Groups, which are non-profit and 
non-partisan consumer and environmental advocacy groups active 
around the country.

Summary

    U.S. PIRG believes that the widespread availability of the 
social security number contributes to identity theft, which is 
well-documented as one of the nation's fastest growing white-
collar crimes. The 1999 Shelby amendment to the Drivers Privacy 
Protection Act is an excellent start toward protecting Social 
Security Numbers, but more needs to be done.\1\ We recommend 
that the Congress also enact one of several bills that would 
close the so-called ``credit header'' loophole in the Fair 
Credit Reporting Act. The credit header loophole has led to the 
proliferation of information broker websites on the Internet 
that make it easy for identity thieves to obtain Social 
Security Numbers and other bits and pieces of a consumer's 
identity that are used to build a fraudulent identity in the 
victim's name.
---------------------------------------------------------------------------
    \1\ The Shelby amendment expanding consumer privacy rights in 
information held by state motor vehicle departments is scheduled to be 
implemented on 1 June 2000 and would subject social security numbers, 
photographs and health and medical information held by motor vehicle 
departments to more stringent consumer protection.

---------------------------------------------------------------------------
(1) What Does It Mean To Be An Identity Theft Victim?

    Earlier this week the committee heard passionate pleas for 
help from Colonel and Mary Elizabeth Stevens, just two of many 
victims of identity theft. They are not alone. Current 
statistics show that credit bureaus and federal agencies are 
receiving as many as 50009700,000 identity theft complaints 
annually.
    Last week, California PIRG and the Privacy Rights 
Clearinghouse released a report \2\ summarizing the results of 
a survey of victims. We found that identity theft victims had 
labored 2094 years or more to rid themselves of an average of 
$18,000 in fraudulent accounts. However, worse than cleaning up 
the financial mess is the enormous time commitment victims 
spend cleaning up their lives:
---------------------------------------------------------------------------
    \2\ ``Nowhere To Turn,'' Benner, Givens and Mierzwinski, CALPIRG 
and Privacy Rights Clearinghouse, 1 May 2000. See &lt;http://
www.pirg.org/calpirg/consumer/privacy/idtheft2000/&gt;. We have 
released two previous reports on identity theft ``Theft of Identity: 
The Consumer X-Files,'' CALPIRG and US PIRG, 1996 and ``Theft of 
Identity II: Return to the Consumer X-Files,'' CALPIRG and US PIRG, 
1997, as well as four reports on errors by credit reporting agencies 
since 1991, most recently ``Mistakes Do Happen,'' 1998.
---------------------------------------------------------------------------
    Respondents spent an average of 175 hours actively trying 
to resolve problems caused by the theft of their identity. The 
victims reported missing several days or weeks of work to put 
their lives back together, and two people even reported losing 
their jobs due to the time devoted to identity theft 
resolution. A victim from California felt that resolving her 
problem was ``nearly a full-time job.'' Robin, a victim from 
Los Angeles, explains, ``One bill--just ONE BILL--can take 6098 
hours to clear up after calling the 800 numbers, waiting on 
hold, and dealing with ignorant customer representatives.'' She 
concludes, ``The current system is not created for actual 
assistance, it is created to perpetuate the illusion of 
assistance.'' \3\
---------------------------------------------------------------------------
    \3\ See ``Nowhere To Turn,'' <http://www.pirg.org/calpirg/consumer/
privacy/idtheft2000/>

---------------------------------------------------------------------------
(2) Who Wants Your Social Security Number?

    Identity Thieves: Earlier this week, I appeared on Fox TV 
News in a story on identity theft. The piece was designed to 
demonstrate how easy it is easy to use a pretext to obtain 
Social Security Numbers from on-line information broker 
websites, despite supposed limitations on disclosure to 
unauthorized persons claimed by the sites. With the permission 
of his editor, the TV reporter logged onto the Internet and, 
for a fee, was able to obtain his editor's social security 
number. He then applied for, and obtained, at least one credit 
card in the editor's name. To its credit, at least one bank 
suspected fraud and denied the card. He is waiting to hear from 
other banks. While identity thieves can also obtain social 
security numbers from other sources, such as drivers' licenses 
in some states, student IDs, and medical records, why go to the 
trouble when you can log onto the Internet? As the Christian 
Science Monitor and Nando News explained this week:
    So you think your private information is relatively safe? 
Think again. For a mere $49, someone can hop on the Internet, 
give a company your name, wait a few days, and bingo: up pops 
your Social Security number. Want someone's bank account 
balance? That costs $45. An unpublished telephone number? 
$59.\4\
---------------------------------------------------------------------------
    \4\ ``Suit alleges online privacy breach had deadly consequences'' 
By KRIS AXTMAN, The Christian Science Monitor (May 9, 2000 1:34 a.m. 
EDT http://www.nandotimes.com)
---------------------------------------------------------------------------
Stalkers: The reporter in that story wasn't writing about the 
``white-collar'' crime of identity theft, however. Actually, 
the story was about the brutal stalker murder of Amy Boyer in 
New Hampshire. As the story explains:
    Her killer, a man obsessed with her since 10th grade, left 
evidence that he tracked her down through the online personal-
data service Docusearch.com.
    On his own Web site, Liam Youens detailed his plans for 
killing Boyer, including how he found her: ``I found an 
internet site to do that, and to my surprize everything else 
under the Sun. Most importantly: her current employment. It's 
accually obsene what you can find out about a person on the 
internet.'' After shooting Boyer, Youens turned the gun on 
himself.
    Stunned that such information could be purchased by anyone, 
Boyer's parents, Tim and Helen Remsburg, recently filed a suit 
against Docusearch.com. They also testified before a Senate 
subcommittee about the killing.\5\
---------------------------------------------------------------------------
    \5\ ibid.

(3) What Is The Credit Header Loophole That Allows Easy 
---------------------------------------------------------------------------
Availability Of Social Security Numbers?

    As part of a 1994 consent decree with TRW (now Experian) 
that properly prohibited target marketing\6\ from credit 
reports, the Federal Trade Commission (FTC) made a serious 
mistake. It defined certain sensitive personal information 
contained in consumer credit reports as exempt from the 
definition of credit report and therefore exempt from 
regulation under the Fair Credit Reporting Act. Under this 
loophole, the credit bureaus now traffic widely in ``credit 
headers,'' which include the demographic information found in a 
credit report that is not associated with a specific credit 
trade line or public record.
---------------------------------------------------------------------------
    \6\ At the time, Equifax voluntarily agreed to stop target 
marketing from credit reports. Trans Union, on the other hand, refused, 
and has since led the FTC through eight years of litigation, while it 
continues to use credit reports to generate target marketing lists in 
defiance of the FTC. Most recently, on 1 March 2000, the FTC again 
ordered Trans Union to stop, although it then (30 March 2000) agreed to 
stay the ruling while Trans Union appeals yet again. <http://
www.ftc.gov/opa/2000/03/transunion.htm> The Act should also be 
clarified to ban target marketing explicitly to end Trans Union's 
lawsuit.
---------------------------------------------------------------------------
    Credit headers may include names, addresses, dates of 
birth, previous addresses, telephone numbers (including 
unlisted numbers) and Social Security numbers. Credit header 
databases are re-sold by the Big Three credit bureaus in bulk 
and used for a variety of people-finder and related products. 
Many information brokers operate websites that sell credit 
headers, along with other public record information.
    In 1997, the credit bureaus and several of the firms that 
traffic in the credit headers that the credit bureaus sell 
formed a so-called ``self-regulatory'' association known as the 
Individual References Services Group. The organization says its 
``principles impose significant restrictions on the access and 
distribution of non-public information, such as non-financial 
identifying information in a credit report. For example, Social 
Security numbers obtained from non-public sources may not be 
displayed to the general public on the Internet by IRSG 
companies.\7\
---------------------------------------------------------------------------
    \7\ See http://www.irsg.org
---------------------------------------------------------------------------
    Despite this assertion, U.S. PIRG, the Privacy Rights 
Clearinghouse, other advocates, reporters, and identity thieves 
and stalkers have found that SSNs can still be purchased from 
websites. We strongly support closing the credit header 
loophole because, even if the IRSG's voluntary rules were 
effective in halting the sale of SSNs to the general public, it 
is easy to use a ``pretext'' to obtain SSNs from one of the 
many sites on the Internet that purports to only sell it to 
qualified requestors.
    We also support Congressional review of the adequacy of the 
IRSG's self-regulatory system. While the FTC encouraged the 
formation of the IRSG in 1997, it said at the time that the 
IRSG Principles did not meet all Fair Information Practices 
(see below for discussion of the need for these Practices). The 
FTC also said that the IRSG must make public a ``Summary'' of 
the results of ``third-party assessments,'' or audits, of its 
members. To our knowledge, while the IRSG provided the FTC in 
1999 with what we believe to be a highly unsatisfactory letter 
\8\ stating that the assessments were completed, no summaries 
have ever been made public.
---------------------------------------------------------------------------
    \8\ See Letter from IRSG's Ron Plesser to FTC, 28 April 1999, 
&lt;http://www.irsg.org/html/letter--to--the--ftc.htm&gt;

---------------------------------------------------------------------------
(4) How Should We Close The Credit Header Loophole?

    Several federal proposals would close the credit header 
loophole. Among the proposals that we support are the 
following, although there may be others. U.S. Senators Dianne 
Feinstein (D09CA), Charles Grassley (R09IA) and Jon Kyl (R09AZ) 
have proposed'S 2328. Similar companion legislation, HR 4311, 
has been proposed by Rep. Darlene Hooley (D09OR). Rep. Jerry 
Kleczka (D09WI) has a broader proposal, HR 1450, to close the 
credit header loophole and further restrict the use of Social 
Security numbers in other ways.
    Most of the bills re-define the header exception from the 
FCRA so that sensitive information including Social Security 
Numbers is protected by the Act rather than exempt from it. For 
example, HR 1450 would re-define all information held in credit 
files to be protected by the act ``except the name, address, 
and telephone number of the consumer if listed in a residential 
telephone directory available in the locality of the 
consumer.''

(5) What Are Fair Information Practices?

    In our view, the credit header loophole is a gross 
violation of Fair Information Practices. Collecting information 
for one purpose and using it for another without the individual 
data subject's consent violates the Fair Information Practices 
originally proposed in 1973 and incorporated in the Privacy Act 
of 1974. As originally outlined by a Health, Education and 
Welfare (HEW) task force in 1973, then codified in U.S. 
statutory law in the 1974 Privacy Act and articulated 
internationally in the 1980 Organization of Economic 
Cooperation and Development (OECD) Guidelines, information use 
should be subject to Fair Information Practices that provide 
for the following consumer rights: notice, consent, access, 
correction, liability for violations.\9\
---------------------------------------------------------------------------
    \9\ Noted privacy expert Beth Givens of the Privacy Rights 
Clearinghouse has compiled an excellent review of the development of 
FIPs, ``A Review of the Fair Information Principles: The Foundation of 
Privacy Public Policy.'' October 1997. <http://www.privacyrights.org/
AR/fairinfo.html> The document cites the version of FIPs in the 
original HEW guidelines, as well as other versions: Fair Information 
Practices U.S. Dept. of Health, Education and Welfare, 1973 [From The 
Law of Privacy in a Nutshell by Robert Ellis Smith, Privacy Journal, 
1993, pp. 500951.]
    1.Collection limitation. There must be no personal data record 
keeping systems whose very existence is secret.
    2.Disclosure. There must be a way for an individual to find out 
what information about him is in a record and how it is used.
    3.Secondary usage. There must be a way for an individual to prevent 
information about him that was obtained for one purpose from being used 
or made available for other purposes without his consent.
    4.Record correction. There must be a way for an individual to 
correct or amend a record of identifiable information about him.
    5.Security. Any organization creating, maintaining, using, or 
disseminating records of identifiable personal data must assure the 
reliability of the data for their intended use and must take 
precautions to prevent misuse of the data.

(6) What Other Actions Would Protect Social Security Numbers 
---------------------------------------------------------------------------
From Misuse?

    Using the Social Security Number as a medical ID or college 
student ID or motor vehicle ID leads to identity theft or other 
problems. In our strong view, in addition to closing the credit 
header loophole, the other most important thing Congress should 
do to protect Social Security Numbers is not to repeal or 
weaken the 199 Shelby amendment to the Driver's Privacy 
Protection Act. Last year, Congress enacted the Shelby 
amendment expanding consumer privacy rights in information held 
by state motor vehicle departments. It takes effect on 1 June 
2000, as enacted by Congress. Direct marketers are currently 
campaigning to delay or weaken this amendment, which 
substantially strengthens protection of Social Security 
Numbers, driver's license photographs and health and medical 
information held by motor vehicle departments. Their efforts 
should be rejected.

(7) Additional Recommendations To Protect Privacy

    While the U.S. has a strong history of privacy protection, 
our statutory privacy protections are a patchwork--what 
industry prefers to call a ``sector-by-sector'' approach. Yet, 
whatever the merits, if there ever were any, of the industry-
prescribed sector-by-sector approach, it is rapidly obsolescing 
as industry sectors converge. The names of the videos you rent 
are better protected than your not-so-confidential bank account 
balances, credit card records and medical history. U.S. PIRG 
strongly supports enactment of over-arching privacy legislation 
that requires all businesses to protect consumer and customer 
information under laws based on Fair Information Practices and 
gives consumers enforceable rights if their personal 
information is misused. The first step should be enactment of 
the Shelby (S. 1903)-Markey (HR 3320) proposals to protect 
financial privacy by requiring opt-in consent. U.S. PIRG's new 
identity theft report, Nowhere To Turn, makes additional 
recommendations to improve both the accuracy and privacy of 
credit reports.\10\
---------------------------------------------------------------------------
    \10\ See ``Nowhere to Turn.'' <http://www.pirg.org/calpirg/
consumer/privacy/idtheft2000/>

---------------------------------------------------------------------------
Conclusion

    We want to thank you, Mr. Chairman, for the opportunity to 
present our views on the need for strong privacy protections to 
protect Social Security Numbers from misuse. We look forward to 
working with you on this and other matters to guarantee the 
privacy of American citizens. Restricting the widespread 
availability of Social Security Numbers is one of the most 
important solutions to the identity theft epidemic.
      

                                <F-dash>


    Mr. Hayworth. Ms. Moore?

STATEMENT OF KATHERINE BURKE MOORE, INTERNATIONAL CHAIR, BOARD 
      OF DIRECTORS, AMERICAN ASSOCIATION OF MOTOR VEHICLE 
                         ADMINISTRATORS

    Ms. Moore. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Katherine Burke Moore. I serve as the 
chair of the American Association of Motor Vehicle 
Administrators, and as the deputy director in the Department of 
Public Safety for the State of Minnesota.
    AAMVA is a voluntary association representing the motor 
vehicle administrators and chief law enforcement officials in 
North America. Our members administer the laws that govern 
motor vehicle operations, the driver credentialling process, 
and highway safety enforcement.
    I appreciate the opportunity to brief the subcommittee on 
the use of the SSN by our members. The use of the SSN for 
drivers license issuance and motor vehicle registration was 
authorized in 1976 in section 405 of title 42, U.S. Code. This 
authorization was specifically for the purpose of establishing 
the identification of individuals. Congress has consistently 
used this authority to mandate State DMVs to carry out a whole 
host of Federal objectives.
    As you may know, H.R. 220, introduced early in the 106th 
Congress, seeks to repeal this authority. Passage of H.R. 220, 
as currently written, would severely impact the motor vehicle 
and law enforcement communities' ability to combat fraud and 
ensure public safety.
    The other Federal mandates that DMVs currently work under 
would be in direct conflict with H.R. 220. Some of those 
mandates include: the Welfare Reform Act, the Illegal 
Immigration Reform Act, and the Commercial Motor Vehicle Safety 
Act of 1986, or CMVSA. Details of these mandates are included 
in our written testimony.
    When the SSN is obtained in conjunction with name, date of 
birth, and gender, DMVs can positively identify a person on an 
agency's driving record. This helps to minimize the possibility 
that erroneous information, such as accident or convictions, 
would be placed on the wrong person's driving record, or that a 
license will be issued to someone who is not qualified to 
obtain one.
    Today, DMVs maintain the driver history of more than 200 
million vehicle operators in the U.S., alone. AAMVA believes 
that the use of the SSN as a unique identifier is necessary to 
maintain accurate records and to prevent harm to individuals 
and businesses as a result of misuse of official credentials.
    These credentials include not only documents such as 
driver's licenses that are widely used by everyone for personal 
identification, but documents that evidence ownership in other 
property interests in motor vehicles such as registration and 
titles.
    The SSN also is used as a common identifier to facilitate 
electronic data exchange among DMVs and other authorized users. 
Without an effective way to ensure data is correctly applied to 
the right driving record, useful data exchange will be 
compromised.
    The tendency today, particularly with driving record 
information, is to institute an even greater exchange of driver 
history data to enhance public safety.
    The recently-passed Motor Carrier Safety Improvement Act of 
1999 mandates that the courts share commercial driver 
convictions with DMV, regardless of whether the violation 
occurred in a commercial vehicle or passenger vehicle. The 
CMVSA mandated the creation of the commercial driver's license 
information system, or CDLIS, to provide the electronic means 
to share commercial driver histories among States and other 
authorized users.
    The CMVSA also mandates that the SSN be used as a unique 
identifier for commercial driving records in CDLIS. All 51 U.S. 
jurisdictions operate CDLIS. All collect the SSN for commercial 
drivers, as the Federal law requires.
    AAMVA has long supported the one driver/one license 
concept. We encourage Congress to support the establishment of 
the driver record information verification system. This system 
will enable DMVs to verify that a driver does not have more 
than one license.
    Until we are able to query such a system prior to initial 
issuance and renewal of a license, the deceptive practice of 
obtaining multiple licenses to unlawfully distribute citations 
and violations will continue. Without a standardized, unique 
identifier, the ability to electronically transfer driver 
record information will fail.
    To assist States in the ID verification process, AAMVA's 
subsidiary, AAMVAnet, provides an electronic data exchange 
application through the Social Security Online Verification 
system SSOLV. This online support allows a DMV to instantly 
verify an individual's SSN during the driver's license issuance 
or renewal process.
    In recent years, the public's concern about privacy of 
personal information on their driving record has caused many 
jurisdictions to change their policies about displaying the SSN 
on the license. Today, 49 States either do not display the SSN 
or give the public the option of using a State-issued 
identifier; however, the SSN remains an important identifier 
for record-holder verification.
    The Driver Privacy Protection Act also forbids and 
prohibits the sale and disclosure of the SSN that is collected 
by the DMVs.
    In closing, I want to reiterate the importance of using the 
SSN for driver's licensing. The public safety benefits of SSN 
use are numerous and far outweigh any potential disadvantages. 
We urge the Congress to consider these public safety uses and 
not restrict the motor vehicle and law enforcement community 
from utilizing the SSN as a unique identifier for the millions 
of driver records we administer.
    I appreciate the opportunity to testify and will answer 
questions at the appropriate time.
    Mr. Hayworth. Thank you, Ms. Moore.
    [The prepared statement follows:]

Statement of Katherine Burke Moore, International Chair, Board of 
Directors, American Association of Motor Vehicle Administrators

    Good morning Mr. Chairman and esteemed members of the 
Subcommittee. My name is Katherine Burke Moore. I serve as 
Chair of the International Board of Directors of the American 
Association of Motor Vehicle Administrators, and as Deputy 
Director of the Office of Traffic Safety, under the Department 
of Public Safety for the State of Minnesota.
    The American Association of Motor Vehicle Administrators 
(AAMVA) is a voluntary association representing the motor 
vehicle administrators and chief law enforcement officials in 
North America. Our members administer the laws that govern 
motor vehicle operation, the driver credentialing process and 
highway safety enforcement. We appreciate the opportunity to 
brief the Subcommittee on use of the Social Security Number by 
our members.
    The use of the social security account number (SSN) for 
driver's license issuance or motor vehicle registration was 
authorized in 1976, in Section 405(c)(2)(C)(i) of title 42, 
United States Code. This authorization was specifically for the 
purpose of establishing the identification of individuals. 
Congress has consistently used this authority to mandate state 
motor vehicle agencies carry out a whole host of federal 
objectives. At the same time, some members of Congress have 
introduced legislation to prohibit this authority. These 
conflicting congressional objectives have wreaked havoc at the 
state level.
    As you may know, H.R. 220, which was introduced early in 
the 106th Congress and seeks to repeal motor vehicle agencies' 
authority to use the SSN is one of the best examples of this 
congressional conflict.
    Passage of H.R. 220 would severely impact the motor vehicle 
and law enforcement community's ability to combat fraud and to 
ensure public safety. The other federal mandates that DMVs 
currently work under would be in direct conflict with H.R. 220.
    Of particular note, Public Law 10409193, the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996 
requires state motor vehicle agencies to collect the SSN for 
all drivers to help facilitate the collection of child support 
payments. This requirement takes effect on October 1, 2000 and 
mandates states to share this data with their state Office of 
Child Support Enforcement.
    States were also required to collect the SSN under Section 
656(b) of Public Law 10409208, the Illegal Immigration Reform 
and Immigrant Responsibility Act of 1996. AAMVA supported that 
provision because it would have gone a long way in helping to 
enhance the security of the credentials our members issue. The 
Act required the collection of the SSN but did not require 
states to display the SSN on the license.
    The public safety and identity protection benefits were 
ignored as DMVs were accused of creating a national 
identification card. The reality is that because of the 
increased fraudulent use of current security features on 
falsified documents, states thought it important to upgrade the 
minimum security standards of these documents.
    Support for Section 656(b) disappeared because of privacy 
concerns surrounding the use of the SSN, but the AAMVA 
membership has continued the effort to enhance the security of 
driver license credentials. It is unfortunate that the benefits 
of Section 656(b) were lost because of the SSN component.
    When obtained in conjunction with the name, date of birth 
and gender, the SSN enables DMVs to positively identify a 
person on the agency's driving record files. This helps to 
minimize the possibility that erroneous information such as 
accidents or convictions will be placed on the wrong person's 
driving record.
    Today, motor vehicle agencies maintain the driver history 
records of more than 200 million vehicle operators in the 
United States alone. AAMVA believes that the use of the SSN as 
a unique identifier is necessary to maintain accurate records 
and to prevent harm to individuals and businesses as a result 
of misuse of official credentials. These credentials include 
not only documents such as the driver's license that are widely 
used and accepted for personal identification, but documents 
that evidence ownership and other property interests in motor 
vehicles such as registrations and titles.
    The SSN also is used as a common identifier to facilitate 
electronic data exchange among motor vehicle agencies and other 
authorized users. Omitting the social security number as an 
identifier could result in inaccuracies in driver information 
retained and exchanged among states. Without an effective way 
to ensure data is correctly applied to the right driver record, 
useful data exchange will be compromised. The tendency today, 
particularly with driver record information, is to institute an 
even greater exchange of driver history data.
    Case in point, the recently passed Motor Carrier Safety 
Improvement Act of 1999 mandates that the courts begin sharing 
commercial operator conviction data with state motor vehicle 
agencies--regardless of whether the violation occurred in a 
commercial motor vehicle or a passenger vehicle.
    The Commercial Motor Vehicle Safety Act of 1986 (CMVSA) 
mandated the creation of the Commercial Drivers License 
Information System (CDLIS). CDLIS provides the electronic means 
to share commercial driver histories among the states and other 
authorized users. The CMVSA also mandates that the SSN be used 
as the unique identifier for commercial drivers' records on the 
system. All 51 U.S. jurisdictions operate CDLIS. All collect 
the SSN for commercial drivers as the federal law requires.
    AAMVA has long supported the ``one driver--one license'' 
concept. We encourage Congress to support the establishment of 
the Driver Record Information Verification System (DRIVerS) 
that will enable motor vehicle agencies to ensure that a driver 
does not have more than one driver license and to accurately 
post conviction data to the record associated with that 
license. Until we are able to query such a system prior to the 
initial issuance of a driving credential or upon renewal, the 
deceptive practice of obtaining multiple licenses to unlawfully 
distribute traffic citations and violations among them will 
continue.
    Congress provided funding in TEA0921 to undertake an 
assessment of available electronic technologies to improve 
access to and exchange of motor vehicle driving records. One of 
the elements of the assessment is the review of alternative 
unique motor vehicle driver identifiers that would facilitate 
accurate matching of drivers and their records. Some unique 
identifier is necessary for the states to carry out their 
safety mission. The SSN has proved itself to be an effective 
tool in uniquely identifying drivers that pose a safety risk.
    Without a standardized unique identifier, the ability to 
electronically transfer driver record information will fail.
    To assist states in the identification verification process 
for a driver license credential, AAMVA, through its subsidiary 
organization AAMVAnet, provides an electronic data exchange 
application through the Social Security Online Verification 
system (SSOLV). This system allows DMVs to send an individual's 
name, date of birth and SSN to the Social Security 
Administration (SSA) and the SSA, in turn, verifies that 
information against its Master File and reports back to the 
requesting DMV whether or not the DMV information did or did 
not match.
    This on-line support allows a jurisdiction to 
instantaneously verify an individual's SSN during the driver 
license issuance or renewal process while the driver is still 
at the counter. Currently eight jurisdictions are in production 
at this time through a Memorandum of Understanding with the 
SSA.
    In recent years, the public's concern about privacy of the 
personal information stored in their driver's license records 
has caused many motor vehicle agencies to change their policies 
about displaying the SSN on the driver's license. Today, 49 
states either do not display the SSN or give the public the 
option of using a state issued alpha-numeric identifier. 
However, the SSN remains an important identifier for electronic 
driver record exchange and record-holder verification.
    The Driver Privacy Protection Act also forbids and 
prohibits the sale and disclosure of the SSN that is collected 
by the DMVs.
    In closing, I want to reiterate the importance of using the 
SSN for issuance of driver license credentials and other 
property documents. The public safety benefits of SSN use are 
numerous and far outweigh any potential disadvantages.
    We urge the Congress to consider these invaluable uses and 
not restrict the motor vehicle and law enforcement community 
from utilizing the SSN as the unique identifier for the 
millions of driver records we administer.
    I appreciate the opportunity to testify and will respond to 
questions at the appropriate time.
      

                                <F-dash>


    Mr. Hayworth. Mr. Rotenberg?

  STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
 PRIVACY INFORMATION CENTER, AND ADJUNCT PROFESSOR, GEORGETOWN 
                     UNIVERSITY LAW CENTER

    Mr. Rotenberg. Mr. Chairman, Mr. Tanner, members of the 
committee, thank you very much for the opportunity to testify 
this afternoon. I am the director of the Electronic Privacy 
Information Center. I am also an adjunct professor at 
Georgetown. I have taught privacy law for 10 years and was 
involved in two of the leading privacy cases involving the use 
of the Social Security number.
    I want to thank you for holding the hearings this week. I 
think this is an issue, obviously, of great concern to many 
Americans.
    I am here mostly to tell you that I think efforts to 
establish privacy safeguards for the collection and use of the 
Social Security number are completely consistent with the 
tradition of U.S. law, both in Congress and also in the courts.
    As you know, in 1936, when the nine-digit number was 
created, it was solely for the purpose of administering Social 
Security benefits. Now, that purpose was expanded in 1961, when 
the SSN became a taxpayer identification number. But when the 
Government looked closely at the issue of Social Security 
number use in the early 1970s and issued this very important 
report called, ``Records, Computers, and the Rights of 
Citizens''--this was from the Department of Health, Education, 
and Welfare--many of the concerns that you are hearing today 
were described and addressed in that report more than 25 years 
ago--the risk of profiling, of identity theft, the dangers of 
building these big computer databases tied to the Social 
Security number.
    That report specifically recommended a prohibition on the 
use of the Social Security number for promotional or commercial 
purposes.
    Now, Congress, the following year, did not go quite so far 
as to prohibit the use of the SSN for these other purposes, but 
it did establish a very important privacy provision in the 1974 
Privacy Act, and it said that any Federal or State agency that 
was collecting this number had to make clear whether that 
collection was mandatory or voluntary, how the SSN would be 
used, and what the statutory authority was for the collection 
of the Social Security number.
    Congress also said that no person should be denied the 
right or privilege for their decision not to provide a Social 
Security number, and I think it was clearly the intent to do 
everything short of prohibition to limit the use of the SSN as 
much as possible.
    Now, it is certainly the case that, since 1974, there has 
been an expanded use of the Social Security number, both in the 
public sector and in the private sector, and some of those 
benefits have been described for you today. But I would also 
like to describe for you the views of at least two of the 
courts that have looked recently at the Social Security number 
and concluded, as Congress did back in 1974, that this is a 
very important privacy matter.
    For example, Mark Allen Greidinger, who went to register to 
vote in the State of Virginia back in 1992, refused to provide 
his Social Security number when he learned that that number 
would be published in the State voting rolls. Even though the 
district court said that the State had the right to collect the 
SSN and use it in this fashion, the Federal appeals court 
eventually concluded that it was an unreasonable burden on the 
right to vote to collect the Social Security number for that 
purpose, and Mr. Greidinger was free to vote in the State of 
Virginia. The State was required to change its practices 
because of the important privacy issues associated with the 
SSN.
    The Ohio supreme court, even more recently, said that, even 
where you have an open record statute, you cannot compel the 
disclosure of the SSNs of State employees. The benefit is too 
small and the risk to privacy would be too great.
    So I believe there is plenty of support, both on the 
legislative side and the judicial side, to support the 
proposals that were put before the committee today.
    I would also like to suggest to you that, while legislation 
limiting the use of the Social Security number will not solve 
all of the identification problems we face today, I think it 
would certainly put us on the right track going forward, 
particularly with this new technology and with the Internet, 
because, as you may be aware, people using the Internet today, 
both the technical experts and the consumers, are very much 
concerned about the protection of their privacy. And when 
Intel, the world's largest manufacturer of computer chips, 
proposed to put a unique processor serial number in their new 
chips--this number would be just like a Social Security number, 
but literally burned into the microchip--there was such a 
protest that Intel had to back off that plan and announced just 
recently that their new chips would not contain these Social-
Security-number-like numbers for computers.
    So this is a good development, but, at the same time, we 
are going to face new challenges, new forms of identification, 
and new threats to privacy. And so for that reason I think it 
is very important that Congress take this opportunity, when 
there is this public support in place, this clear legislative 
tradition and this clear judicial tradition, to support those 
important safeguards that protect the privacy interests of 
American citizens.
    I thank you again for the chance to testify and would be 
pleased to answer your questions.
    Mr. Hayworth. Thank you.
    [The prepared statement follows:]

Statement of Marc Rotenberg, Executive Director, Electronic Privacy 
Information Center, and Adjunct Professor, Georgetown University Law 
Center

    My name is Marc Rotenberg and I am the executive director 
of the Electronic Privacy Information, a public interest 
research organization based here in Washington. I am also on 
the faculty of the Georgetown University Law Center where I 
have taught the Law of Information Privacy for ten years. I 
wrote briefs in two of the leading cases involving the privacy 
of the Social Security Number, I helped organize the campaign 
against the Intel unique Processor Serial Number, and I have 
worked with many technical experts to encourage the development 
of identification systems that avoid the flaws of the Social 
Security Numbers and other types of Universal Identifiers.
    I appreciate the opportunity to testify this morning. I 
will briefly review the legal status of efforts to regulate the 
use of the SSN, discuss some of the recent problems with 
universal unique identifiers, such as the SSN, and make a few 
brief recommendations. I believe that legislation to limit the 
collection and use of the SSN is appropriate, necessary, and 
fully consistent with US law. I also believe that if Congress 
fails to act, the problems that consumers will face in the next 
few years are likely to increase significantly.

History of the SSN and the Efforts to Regulate

    The Social Security Number (SSN) was created in 1936 as a 
nine-digit account number assigned by the Secretary of Health 
and Human Services for the purpose of administering the Social 
Security laws. SSNs were first intended for use exclusively by 
the federal government as a means of tracking earnings to 
determine the amount of Social Security taxes to credit to each 
worker's account. Over time, however, SSNs were permitted to be 
used for purposes unrelated to the administration of the Social 
Security system. For example, in 1961 Congress authorized the 
Internal Revenue Service to use SSNs as taxpayer identification 
numbers.\1\
---------------------------------------------------------------------------
    \1\ Pub. L. No. 8709397, 75 Stat. 828 (codified as amended at 26 
U.S.C. Sec. Sec. 6113, 6676) cited in Greidinger at 270928.
---------------------------------------------------------------------------
    A major government report on privacy in 1973 outlined many 
of the concerns with the use and misuse of the Social Security 
Number that show a striking resemblance to the problems that 
witnesses have outlined this week. Although the term ``identify 
theft'' was not yet in use, Records Computers and the Rights of 
Citizens described the risks of a ``Standard Universal 
Identifier,'' how the number was promoting invasive profiling, 
and that many of the uses were clearly inconsistent with the 
original purpose of the 1936 Act. The report recommended 
several limitations on the use of the SSN and specifically said 
that legislation should be adopted ``prohibiting use of an SSN, 
or any number represented as an SSN for promotional or 
commercial purposes.\2\
---------------------------------------------------------------------------
    \2\ Records, Computers and the Rights of Citizens at 135.
---------------------------------------------------------------------------
    In response to growing concerns over the accumulation of 
massive amounts of personal information and the recommendations 
contained in the 1973 report, Congress passed the Privacy Act 
of 1974. Among other things, this Act makes it unlawful for a 
governmental agency to deny a right, benefit, or privilege 
merely because the individual refuses to disclose his SSN. This 
is a critical principle to keep in mind today because consumers 
in the commercial sphere often face the choice of giving up 
their privacy, their SSN, to obtain a service or product. The 
drafters of the 1974 law tried to prevent citizens from facing 
such unfair choices, particularly in the context of government 
services. But there is no reason that this principle could not 
apply equally to the private sector, and that was clearly the 
intent of the authors of the 1973 report.
    In addition, Section 7 of the Privacy Act further provides 
that any agency requesting an individual to disclose his SSN 
must ``inform that individual whether that disclosure is 
mandatory or voluntary, by what statutory authority such number 
is solicited, and what uses will be made of it.\3\ At the time 
of its enactment, Congress recognized the dangers of widespread 
use of SSNs as universal identifiers. In its report supporting 
the adoption of this provision, the Senate Committee stated 
that the widespread use of SSNs as universal identifiers in the 
public and private sectors is ``one of the most serious 
manifestations of privacy concerns in the Nation.'' \4\ Short 
of prohibiting the use of the SSN outright, the provision in 
the Privacy Act attempts to limit the use of the number to only 
those purposes where there is clear legal authority to collect 
the SSN. It was hoped that citizens, fully informed where the 
disclosure was not required by law and facing no loss of 
opportunity in failing to provide the SSN, would be unlikely to 
provide an SSN and institutions would not pursue the SSN as a 
form of identification.
---------------------------------------------------------------------------
    \3\ (a)(1) It shall be unlawful for any Federal, State, or local 
government agency to deny any individual any right, benefit or 
privilege provided by law because of such individual's refusal to 
disclose his social security account number. (2) the provisions of 
paragraph (1) of this subsection shall not apply with respect to -(A) 
any disclosure which is required by Federal statute, or (B) the 
disclosure of a social security number to any Federal, State, or local 
agency maintaining a system of records in existence and operating 
before January 1, 1975, if such disclosure was required under statute 
or regulation adopted prior to such date to verify the identity of an 
individual. (b) Any Federal, State, or local government agency which 
requests an individual to disclose his social security account number 
shall inform that individual whether that disclosure is mandatory or 
voluntary, by what statutory or other authority such number is 
solicited, and what uses will be made of it.
    See Pub. L. No. 9309579, 7. This provision of the Privacy Act was 
never codified, but is instead set out as a historical note to 5 
U.S.C.A 552a (West 1996).
    \4\ S.Rep. No. 1183, 93d Cong., 2d Sess., reprinted in 1974 U.S. 
Code Cong. & Admin. News 6916, 6943, cited in Greidinger at 29.
---------------------------------------------------------------------------
    It is certainly true that the use of the SSN has expanded 
significantly since the provision was adopted in 1974. This is 
particularly clear in the financial services sector. In an 
effort to learn and share financial information about 
Americans, companies trading in financial information are the 
largest private-sector users of SSNs, and it is these companies 
that are among the strongest opponents of SSN restrictions. For 
example, credit bureaus maintain over 400 million files, with 
information on almost ninety percent of the American adult 
population. These credit bureau records are keyed to the 
individual SSN. Such information is freely sold and traded, 
virtually without legal limitations.\5\
---------------------------------------------------------------------------
    \5\ Komuves at 557.
---------------------------------------------------------------------------
    But it is also critical to understand that the legal 
protection to limit the collection and use of the SSN is still 
present in the Privacy Act and can be found also in recent 
court decisions which recognize that there is a constitutional 
basis to limit the collection and use of the Social Security 
Number. When a Federal Appeals court was asked to consider 
whether the state of Virginia could compel a voter to disclose 
an SSN that would subsequently be published in the public 
voting rolls, the Court noted the growing concern about the use 
and misuse of the SSN, particularly with regard to financial 
services. The Fourth Circuit said:
    Since the passage of the Privacy Act, an individual's 
concern over his SSN's confidentiality and misuse has become 
significantly more compelling. For example, armed with one's 
SSN, an unscrupulous individual could obtain a person's welfare 
benefits or Social Security benefits, order new checks at a new 
address on that person's checking account, obtain credit cards, 
or even obtain the person's paycheck. . . .  Succinctly stated, 
the harm that can be inflicted from the disclosure of a SSN to 
an unscrupulous individual is alarming and potentially 
financially ruinous.\6\
---------------------------------------------------------------------------
    \6\ Greidinger at 300931.

---------------------------------------------------------------------------
    The Court said that:

    The statutes at issue compel a would-be voter in Virginia 
to consent to the possibility of a profound invasion of privacy 
when exercising the fundamental right to vote. As illustrated 
by the examples of the potential harm that the dissemination of 
an individual's SSN can inflict, Greidinger's decision not to 
provide his SSN is eminently reasonable. In other words, 
Greidinger's fundamental right to vote is substantially 
burdened to the extent the statutes at issue permit the public 
disclosure of his SSN.\7\
---------------------------------------------------------------------------
    \7\ Greidinger at 320933.
---------------------------------------------------------------------------
    The Court concluded that to the extent the Virginia voting 
laws, ``permit the public disclosure of Greidinger's SSN as a 
condition of his right to vote, it creates an intolerable 
burden on that right as protected by the First and Fourteenth 
Amendments.'' \8\
---------------------------------------------------------------------------
    \8\ Greidinger at 36.
---------------------------------------------------------------------------
    In a second case, testing whether a state could be required 
to disclose the SSNs of state employees under a state open 
record law where there was a strong presumption in favor of 
disclosure, the Ohio Supreme Court held that there were privacy 
limitations in the federal Constitution that weighed against 
disclosure of the SSN. The court concluded that:
    We find today that the high potential for fraud and 
victimization caused by the unchecked release of city employee 
SSNs outweighs the minimal information about governmental 
processes gained through the release of the SSNs. Our holding 
is not intended to interfere with meritorious investigations 
conducted by the press, but instead is intended to preserve one 
of the fundamental principles of American constitutional law--
ours is a government of limited power. We conclude that the 
United States Constitution forbids disclosure under the 
circumstances of this case. Therefore, reconciling federal 
constitutional law with Ohio's Public Records Act, we conclude 
that [the provision] does not mandate that the city of Akron 
discloses the SSNs of all of its employees upon demand.\9\
---------------------------------------------------------------------------
    \9\ Beacon Journal at 17.
---------------------------------------------------------------------------
    While it is true that many companies and government 
agencies today use the Social Security Number indiscriminately 
as a form of identification, it is also clear from the 1936 
Act, the 1974 provision, and these two cases -Greidinger v. 
Davis and Beacon Journal v. City of Akron -that there is plenty 
of legislative and judicial support for limitations on the 
collection and use of the SSN. The question is therefore 
squarely presented whether the Congress will at this point in 
time follow in this tradition, respond to growing public 
concern, and establish the safeguards that are necessary to 
ensure that the problems associated with the use of the SSN do 
not increase.

Problems Beyond the SSN

    Efforts to regulate the collection and use of the SSN will 
not stop all the problems associated with the use of 
identifiers but they will address the most pressing current 
problem and could contribute also to future schemes that are 
less privacy intrusive.
    Internet users are particularly concerned about the 
development of ``GUIDs'' or Global Universal Identifiers. Last 
year Internet users launched a campaign against Intel, the 
largest maker of computer chips in the world, when it proposed 
to create a Processor Serial Number, unique for each machine, 
that would make it easier to track and monitor the activities 
of Internet users. Eventually, under heavy pressure, Intel 
agreed to withdraw its plan, and more recently Intel announced 
that it would not include the unique identifier in its next 
generation of computer chips. This is clearly good news.
    But there are also indications that in the absence of 
strong privacy laws and strong limitations on the use of new ID 
systems, new problems will arise. Experian, the large credit 
reporting agency, announced recently a new identification 
scheme that will enable tracking on a global scale. According 
to Helen McMillan, vice president of technology for Experian, 
``Names and addresses are very poor data elements for building 
search and match algorithms or for maintaining data integrity 
and hygiene on customer databases. Our industry leading PIN 
technology delivers the most reliable and accurate consumer 
identifier on the market.'' This may be welcome news for 
marketers who are trying to uniquely track customers and 
potential customers, but I suspect most consumers and users of 
the Internet would object strongly to the assignment of such 
permanent identification numbers.
    Microsoft has raised concerns with the recent news that it 
plans to integrate a biometric identification scheme in the 
next version of the Windows operating system. A biometric 
identifier, such as a fingerprint, can be an effective and 
highly accurate way to establish the identity of an individual, 
but it can also facilitate a much higher degree of tracking and 
profiling than would be appropriate for many transactions. 
Should people who enter federal office buildings, for example, 
be required to provide biometric identifier, such as a 
fingerprint scan? It is not hard to imagine that such a 
practice could develop in the next three to five years. Of 
course, the problems that will arise when biometric identifiers 
are compromised are severe. What will happen at the point that 
your biometric identifiers no longer identify you?
    These are issues that the Congress might also consider as 
it goes forward with legislation to limit the use of the Social 
Security Number. Perhaps the National Research Council or a 
fully formed privacy agency could be asked to look in more 
detail at how best to develop identification schemes that 
enable online commerce and promote security, while at the same 
time reducing threats to privacy and the loss of control over 
identity.

Conclusions

    In conclusion, there is clear authority in both legislation 
and judicial opinion that supports the enactment of further 
laws to limit the collection and use of the Social Security 
Number. It is particularly important that such legislation not 
force consumers to make unfair or unreasonable ``choices'' that 
essentially require trading the privacy interest in the SSN for 
some benefit or opportunity.
    Legislation in this area will not solve all of the problems 
with identity theft or invasive profiling but it will address 
the most pressing problem and it could encourage the 
development of better techniques in the future.
    I am grateful for the opportunity to testify this afternoon 
and would be pleased to answer your questions.

References

    Electronic Privacy Information Center, ``Social Security 
Numbers'' [http://www.epic.org/privacy/ssn/]
    Flavio L. Komuves, ``A Perspective on Privacy, Information 
Technology an the Internet: We've Got Your Number: An Overview 
of Legislation and Decisions to Control the Use of Social 
Security Numbers as Personal Identifiers,'' 16 J. Marshall J. 
Computer & Info. L. 529 (1998)
    Testimony of Marc Rotenberg, Computer Professionals for 
Social Responsibility, ``Use of Social Security Number as a 
National Identifier,'' Before the Subcomm. on Social Security 
of the House Comm. on Ways and Means, 102d Cong., 1st Sess. 71 
(February 27, 1991)
    Greidinger v. Davis, 988 F.2d 1344 (4th Cir. 1993) and 
brief amicus curiae for CPSR (Marc Rotenberg and David Sobel) 
(SSN requirement for voter registration) (lead case on privacy 
of Social Security number)
    Beacon Journal v. City of Akron, 70 Ohio St. 3d 605 (Ohio 
1994) and brief amicus curiae for CPSR (Marc Rotenberg and 
David Sobel) (SSN disclosure of city employees)
    Marc Rotenberg, Privacy Law Sourcebook: United States Law, 
International Law, and Recent Developments (EPIC 1999)
    Department of Health, Education, and Welfare, Records, 
Computers, and the Rights of Citizens 1080935 (MIT 1973) 
(Social Security Number as a Standard Universal Identifier and 
Recommendations Regarding Use of Social Security Number)

STATEMENT OF ROBERTA MEYER, SENIOR COUNSEL, AMERICAN COUNCIL OF 
                         LIFE INSURERS

    Ms. Meyer. Thank you, Mr. Chairman. I am Robbie Meyer, and 
I am pleased to be here today on behalf of the American Council 
of Life Insurers, the ACLI, to testify about the way in which 
life, disability income, and long-term care insurers use 
consumers' personal information, including their Social 
Security numbers, and to tell you about our position relative 
to the maintenance of the confidentiality of that information.
    ACLI member companies are strongly committed to the 
principle that individuals have a legitimate interest in the 
proper collection and handling of their personal information 
and that insurers have an obligation to assure individuals of 
the confidentiality of that information.
    However, our member companies recognize that consumers do 
have special concerns about the confidentiality of medical 
information, so the ACLI board of directors has developed two 
separate policies dealing with confidentiality, one in relation 
to the confidentiality of medical information and the other 
with respect to the confidentiality of non-public personal 
information. Social Security numbers would fall into the 
category of non-public personal information.
    In developing our policy principles in relation to non-
public personal information, which would include Social 
Security numbers, we sought to balance consumers' desire and 
legitimate privacy concerns with their concerns for efficient 
and prompt service and innovative products. Consequently, our 
principles reflect our support for requirements that financial 
institutions, including insurers, develop privacy policies and 
procedures designed to protect the confidentiality, as well as 
the security of consumers' non-public, personal information, 
but at the same time our principles reflect our fundamental 
need to use consumers' personal information, including their 
Social Security numbers, in order to effect, administer, and 
carry out our obligations under our insurance contracts with 
our customers.
    The ACLI strongly supports the privacy protections in title 
five of the recently-enacted financial services modernization 
bill, the Gramm-Leach-Bliley Act. Title five subjects financial 
institutions--again, including all insurers--to one of the most 
extensive laws relating to privacy regulation that has ever 
been enacted in the United States.
    As a result of this law, consumers doing business with 
financial institutions will now have clear, comprehensive, and 
rigorous privacy protections with respect to non-public, 
personal information, again including Social Security numbers.
    This new law also is carefully constructed again to balance 
consumers' needs to have their privacy protected with the 
benefits that they obtain from certain uses of that information 
by financial institutions.
    Insurance companies must use and share customers' personal 
financial information, including, again, their Social Security 
numbers, in order to perform legitimate, essential insurance 
business functions. In other words, they have to use this 
information in order to underwrite applications for coverage, 
to administer and service our existing contracts, and to 
perform related product or service functions.
    I would like to give you a few examples of how insurance 
companies actually use Social Security numbers now. They are 
used by insurers to find missing or lost policy holders so that 
they can pay them death benefits that they are obligated to pay 
under existing contracts. Social Security numbers are used to 
identify policies for policy-holders who may have lost their 
account numbers. Insurers use Social Security numbers in their 
call centers in order to authenticate the individuals who call 
in for information. Social Security numbers are used by 
insurers to help make it possible to transfer assets from one 
financial institution to another upon the request of our 
customers. We use Social Security numbers as PIN numbers so 
that our customers can do business on line. We use them in 
connection with our employee group insurance so that 
individuals can use payroll deduction plans to pay for their 
coverage.
    We are also required to make a number of disclosures to 
State insurance departments for their regulatory oversight of 
insurers, and, as required by the Federal Government, such as 
to the Internal Revenue Service, in order to report certain 
payments to our customers.
    Mr. Chairman, the ACLI would like to thank you for this 
opportunity to testify; thank you for calling this hearing. 
Life, disability, and long-term care insurers have a long 
history of dealing with highly-sensitive, very personal 
information. We are very proud of our history in dealing with 
this information. We, again, recognize, however, that consumers 
have a very legitimate interest in the way in which we handle 
this information, and that we have an obligation to them to 
ensure them of the confidentiality of that information.
    Thank you.
    Chairman Shaw [resuming Chair]. Thank you.
    [The prepared statement follows:]

Statement of Roberta Meyer, Senior Counsel, American Council of Life 
Insurers

                              Introduction

    The American Council of Life Insurers (ACLI) is pleased to 
be here today to testify regarding the ways in which life, 
disability income, and long term care insurers use consumers' 
personal information, including their Social Security Numbers, 
and our position on protection of the confidentiality of that 
information. The ACLI is a national trade association whose 435 
member companies represent approximately 73 percent of the life 
insurance and 87 percent of the long term care insurance in 
force in the United States. They also represent 71 percent of 
the companies that provide disability income insurance.

     Life, Disability Income, and Long Term Care Insurance Policies

    The fundamental purpose of life, disability income and long 
term care insurance is to provide financial security for 
individuals and families. Life insurance provides financial 
protection to beneficiaries in the event of the insured's 
death. Proceeds from a life insurance policy may help a 
surviving spouse pay a mortgage or send children to daycare or 
college. Disability income insurance replaces lost income when 
a person is unable to work due to injury or illness. Long term 
care insurance helps protect individuals and families from the 
financial hardships associated with the costs of services 
required for continuing care, for example, when someone suffers 
a catastrophic or disabling illness.

                          ACLI Policy Position

    ACLI member companies are strongly committed to the 
principle that individuals have a legitimate interest in the 
proper collection and handling of their personal information 
and that insurers have an obligation to assure individuals of 
the confidentiality of that information. We also recognize that 
consumers have special confidentiality concerns in relation to 
medical information. Therefore, the ACLI Board has adopted 
separate policies regarding first, the confidentiality of 
medical information; and second, the confidentiality of other 
nonpublic personal information. Social Security Numbers would 
fall within the second category -nonpublic personal 
information.
    ACLI's Confidentiality of Medical Information Principles of 
Support and Confidentiality of Nonpublic Personal Information 
Principles Support are grounded in the industry's long history 
of dealing with highly sensitive information in a professional 
and appropriate manner. These principles also acknowledge the 
changing horizon of the financial marketplace resulting from 
financial services modernization. Copies of the ACLI 
``Principles of Support'' are attached.
    The ACLI supports strict protections for medical record 
confidentiality, including a prohibition on an insurer sharing 
medical records with a financial company, such as a bank, for 
use in determining eligibility for a loan or other credit -even 
if the insurance company and the financial company are commonly 
owned. We also support a prohibition on the sharing of medical 
information by an insurer for marketing purposes.
    Our principles on nonpublic personal information reflect 
our attempt to balance consumers' legitimate privacy concerns 
with their demands for prompt, efficient service and innovative 
products. Among other things, we support a requirement that 
financial institutions, including insurers, establish and 
maintain policies and practices designed to protect the 
confidentiality and security of nonpublic personal information 
against anticipated hazards and unauthorized access to or use 
of such information. We support a requirement that financial 
institutions provide notice to consumers and customers 
describing these policies and practices. We also support a 
requirement that financial institutions, upon request, provide 
customers with access and correction rights regarding nonpublic 
personal information collected about them in connection with 
applications for life, disability income or long term care 
insurance.
    At the same time, our principles reflect the fact that in 
order for insurers to serve their prospective and existing 
customers, they must use and share nonpublic personal 
information, including Social Security Numbers, in connection 
with the origination, administration, and servicing of 
insurance products and services. For example, an insurer may 
need to use Social Security Numbers to obtain medical 
information, essential to underwriting, from a particular 
doctor or hospital, to authenticate consumer callers using a 
call center, to locate missing policyholders to whom it owes 
death benefits, to investigate fraud, or to report certain 
information to the Internal Revenue Service.

                       The Gramm-Leach-Bliley Act

    In line with these principles, the ACLI strongly supports 
the privacy provisions set forth in Title V of the recently-
enacted financial services modernization legislation, the 
Gramm-Leach-Bliley Act (the Act). Title V of the Act subjects 
financial institutions, including insurers, to one of the most 
extensive regimes of privacy regulation that has ever been 
imposed in the United States. As a result of the Act and other 
federal privacy statutes, including the Fair Credit Reporting 
Act, consumers doing business with financial institutions now 
have clear, comprehensive, and rigorous privacy protections, 
which extend to Social Security Numbers, among many other forms 
of nonpublic personal information.
    Unlike virtually any other types of consumers, financial 
institution consumers must receive detailed annual disclosures 
regarding a financial institution's policies for collecting and 
disclosing their personal information. They must also receive 
prior notice and the opportunity to ``opt-out'' of the 
institution's transfer of their nonpublic personal information 
to nonaffiliated third parties except under certain limited 
circumstances. The confidentiality and security of their 
personal information will be subject to extensive new standards 
that financial regulators are required to impose on financial 
institutions.
    At the same time, these comprehensive new privacy 
protections expressly recognize that consumers benefit from 
financial institutions using consumer information for certain 
purposes. In short, the new federal privacy law is a carefully 
constructed balance between the need to protect the privacy of 
a consumer's nonpublic personal information, which would 
include Social Security Numbers, and the need to protect the 
consumer benefits that result from certain uses of that 
information.
    The very nature of life, disability income and long term 
care insurance involves personal and confidential 
relationships. These insurers must be able to obtain, use, and 
share their customers' personal health and nonpublic personal 
information, including their Social Security Numbers, to 
perform legitimate insurance business functions. These 
functions are essential to insurers' ability to serve and meet 
their contractual obligations to their existing and prospective 
customers. ACLI member companies also believe that the use and 
responsible sharing of information generally increases 
efficiency, reduces costs, and makes it possible to offer 
economies and innovative products and services to consumers 
that otherwise would not be available.

 Industry Fundamentals: Use of Personal Health and Nonpublic Personal 
  Information by Life, Disability Income, and Long Term Care Insurers

    Once a life, disability income, or long term care insurer 
has an individual's personal health and nonpublic personal 
information, the insurer limits who sees it. However, the 
insurer must use and share that information to perform 
legitimate, essential insurance business functions -to 
underwrite the applications of prospective customers, to 
administer and service contracts with existing customers, and 
to perform related product or service functions. Life, 
disability income, and long term care insurers must use and 
disclose personal information in order to comply with various 
regulatory/legal mandates and in furtherance of certain public 
policy goals (such as the detection and deterrence of fraud). 
Activities in connection with ordinary proposed and consummated 
business transactions, such as reinsurance treaties and mergers 
and acquisitions, also necessitate insurers' use and 
responsible sharing of personal information.

Underwriting the Policy

    The price of life, disability income, or long term care 
insurance is generally based on the proposed insured's gender, 
age, present and past state of health, possibly his or her job 
or hobby, and the type and amount of coverage sought. Life, 
disability income, and long term care insurers gather this 
information during the underwriting process. Based on this 
information, the insurer groups insureds into pools in order to 
share the financial risks presented by dying prematurely, 
becoming disabled or needing long term care.
    This system of classifying proposed insureds by level of 
risk is called risk classification. It enables insurers to 
group together people with similar characteristics and to 
calculate a premium based on that group's level of risk. Those 
with similar risks pay the same premiums. The process of risk 
classification provides the fundamental framework for the 
current private insurance system in the United States. It is 
essential to insurers' ability to determine premiums which are 
adequate to pay future claims and fair relative to the risk 
posed by the proposed insured.
    Insurers must be able to obtain, use, and sometimes share 
both medical and nonpublic personal information, including 
Social Security Numbers, in order to underwrite applications 
for coverage. Social Security Numbers are used in a number of 
different ways in connection with this process. Insurers 
sometimes must use proposed insureds' Social Security Numbers 
in order to obtain medical information about them from doctors 
and hospitals which use Social Security Numbers as 
identification numbers. Insurers sometimes use motor vehicle 
record information in underwriting. In some states, insurers 
are required to use Social Security Numbers to obtain this 
information from the motor vehicle department. Insurers 
sometimes use information from credit reporting agencies in 
underwriting. Social Security Numbers are sometimes required to 
obtain information from consumer reporting agencies.

Performance of Essential Insurance Business Functions

    Once an insurance policy is issued, insurers use their 
customers' personal information to perform essential, core 
functions associated with an insurance contract, such as claims 
evaluations and policy administration. In addition, insurers 
also use this information to perform important business 
functions, not necessarily directly related to a particular 
insurance contract, but essential to the administration or 
servicing of insurance policies generally, such as, for 
example, development and maintenance of computer systems. The 
ability to use this information for these purposes is crucial 
to insurers' ability to meet their contractual obligations to 
their customers and to perform important related service and 
administrative functions.
    Many insurers use affiliates or third parties to perform 
these business functions which are necessary to effect, 
administer, or enforce insurance policies or the related 
product or service business of which these policies are a part. 
Often these arrangements with affiliates or unaffiliated third 
parties provide the most efficient and economical way for an 
insurer to serve prospective and existing customers. The 
economies and efficiencies devolving from these relationships 
inure to the benefit of the insurer's customers.
    If an insurer were to be prohibited from using this 
information, or if an individual were to be permitted to 
withhold consent or to ``opt out'' of a life, disability 
income, or long term care insurer's right to use or share his 
or her personal information for purposes of performing 
insurance business functions, it would be extremely difficult, 
if not impossible in some cases, for the insurer to provide 
that consumer with the coverage, service, benefits, or 
economies that otherwise would be available. Insurers need to 
use Social Security Numbers to perform a number of these 
functions. Insurers view Social Security Numbers as unique 
identifiers and use them in a number of ways which enable them 
to better and more efficiently serve their customers and to 
protect their interests.
    For example, Social Security Numbers are used by insurers 
to find missing or lost policyholders to inform them that they 
are entitled to life insurance proceeds. Social Security 
Numbers are used to identify policies owned by an individual 
who does not have the account or policy number available when a 
service request is made. Insurer call centers use Social 
Security Numbers as part of the data requested to authenticate 
customers who call in with requests for service or for product 
or account information or status. Social Security Numbers are 
often needed to transfer assets from one financial institution 
to another, for example, for purposes of transfers between 
mutual funds or annuities and life insurance. (Since one 
financial institution generally does not know the individual's 
account number at the other financial institution, the Social 
Security Number is needed to identify the client's identity for 
the two institutions. This reduces delay, error, and misplaced 
assets in such transfers.) Insurers also use Social Security 
Numbers in connection with the administration of pension plans, 
as identification numbers. They use them as PIN numbers for 
customers' use of on-line services. They use them in reporting 
to employer policyholders under employee group insurance plans 
and in connection with payroll deductions under these plans. 
These activities inure to the benefit of insurers' customers.

Disclosures pursuant to Regulatory/Legal Mandates or to Achieve 
Certain Public Policy Goals

    Life, disability income, and long term care insurers must 
regularly disclose personal health and nonpublic personal 
information to: (1) state insurance departments as a result of 
their general regulatory oversight of insurers, which includes 
regular market conduct and financial examinations of insurers; 
(2) self-regulatory organizations, such as the Insurance 
Marketplace Standards Association (IMSA), which imposes and 
monitors adherence to requirements with respect to member 
insurers' conduct in the marketplace; and (3) state insurance 
guaranty funds, which seek to satisfy policyholder claims in 
the event of impairment or insolvency of an insurer or to 
facilitate rehabilitations or liquidations which typically 
require broad access to policyholder information.
    Any limitation on these disclosures would seem likely to 
operate counter to the underlying public policy reasons for 
which they were originally mandated -to protect consumers.
    Life, disability income, and long term care insurers are 
required to make certain disclosures of information by the 
federal government. They also need to (and, in fact, in some 
states are required to) disclose personal information in order 
to protect against or to prevent actual or potential fraud. 
Such disclosures are made to law enforcement agencies, state 
insurance departments, or the Medical Information Bureau (MIB), 
the primary purpose of which is to reduce the cost of insurance 
by helping insurers detect (and deter) attempts by insurance 
applicants to conceal or misrepresent facts. Any limitation on 
insurers' right to make these disclosures would seem likely to 
undermine the public policy goal of reducing fraud, the costs 
of which are ultimately borne by consumers.
    Social Security Numbers are used or disclosed by insurers 
for a number of these purposes. Life insurers are required to 
use Social Security Numbers to report to the IRS a variety of 
payments including, but not limited to, interest payments, 
certain dividends, and policy withdrawals and surrenders. 
Social Security Numbers are often integral to insurers' fraud 
investigations. Social Security Numbers are sometimes used 
verify identity in connection with inquiries to the MIB. At 
least one state, Rhode Island, requires that insurers match 
``deadbeat'' parents data before making payments on claims. 
Social Security Numbers are required for that matching.

Ordinary Business Transactions

    In the event of a proposed or consummated sale, merger, 
transfer, or exchange of all or a portion of an insurance 
company, it is often essential that the insurer be able to 
disclose company files. Naturally, these files can contain 
personal information, including customers' Social Security 
Numbers. Such disclosures are often necessary to the due 
diligence process which takes place prior to consummation of 
the deal and are clearly necessary once the deal is completed 
when the newly created entity often must use policyholder files 
in order to conduct business.
    Insurers also frequently enter into reinsurance contracts 
in order to, among other things, increase the amount and volume 
of coverage they can provide. These arrangements often 
necessitate the disclosure of personal information, which may 
include Social Security Numbers, by the primary insurer to the 
reinsurer.

                               Conclusion

     Again, the ACLI would like to thank Chairman Shaw for 
calling this hearing and giving us an opportunity to testify. 
Life, disability income, and long-term care insurers have a 
long history of dealing with highly sensitive personal 
information. The industry is proud of its record of protecting 
the confidentiality of medical information and nonpublic 
personal information; the industry is also committed to the 
principles that individuals have a legitimate interest in the 
proper collection and use of individually identifiable 
information and that insurers must continue to handle such 
information in a confidential manner.

                 Confidentiality of Medical Information

Principles of Support

    Life, disability income, and long-term care insurers have a 
long history of dealing with highly sensitive personal 
information, including medical information, in a professional 
and appropriate manner. The life insurance industry is proud of 
its record of protecting the confidentiality of this 
information. The industry believes that individuals have a 
legitimate interest in the proper collection and use of 
individually identifiable medical information about them and 
that insurers must continue to handle such medical information 
in a confidential manner. The industry supports the following 
principles:
     1. Medical information to be collected from third parties 
for underwriting life, disability income and long-term care 
insurance coverages should be collected only with the 
authorization of the individual.
     2. In general, any redisclosure of medical information to 
third parties should only be made with the authorization of the 
individual.
     3. Any redisclosure of medical information made without 
the individual's authorization should only be made in limited 
circumstances, such as when required by law.
     4. Medical information will not be shared for marketing 
purposes.
     5. Under no circumstances will an insurance company share 
an individual's medical information with a financial company, 
such as a bank, in determining eligibility for a loan or other 
credit -even if the insurance company and the financial company 
are commonly owned.
     6. Upon request, individuals should be entitled to learn 
of any redisclosures of medical information pertaining to them 
which may have been made to third parties.
     7. All permissible redisclosures should contain only such 
medical information as was authorized by the individual to be 
disclosed or which was otherwise permitted or required by law 
to be disclosed. Similarly, the recipient of the medical 
information should generally be prohibited from making further 
redisclosures without the authorization of the individual.
     8. Upon request, individuals should be entitled to have 
access and correction rights regarding medical information 
collected about them from third parties in connection with any 
application they make for life, disability income or long-term 
care insurance coverage.
     9. Individuals should be entitled to receive, upon 
request, a notice which describes the insurer's medical 
information confidentiality practices.
     10. Insurance companies providing life, disability income 
and long-term care coverages should document their medical 
information confidentiality policies and adopt internal 
operating procedures to restrict access to medical information 
to only those who are aware of these internal policies and who 
have a legitimate business reason to have access to such 
information.
     11. If an insurer improperly discloses medical information 
about an individual, it could be subject to a civil action for 
actual damages in a court of law.
     12. State legislation seeking to implement these 
principles should be uniform. Any federal legislation to 
implement the foregoing principles should preempt all other 
state requirements.

           Confidentiality of Nonpublic Personal Information

                     Other Than Medical Information

                         Principles of Support

    Life, disability income, and long term care insurers have a 
long and established history of handling their customers' 
nonpublic personal information in a professional and 
confidential manner. Insurers recognize their affirmative and 
continuing obligation to respect their customers' privacy and 
to protect the confidentiality and security of their customers' 
nonpublic personal information.
    Insurers support principles in relation to medical 
information which are described in a separate document. This 
document sets forth principles which insurers support in 
relation to nonpublic personal information other than medical 
information.
    1) Requirements with respect to the confidentiality and 
security of nonpublic personal information should be addressed 
separately from those in relation to medical information in 
order to more fully address the different concerns that arise 
in connection with each type of information.
    2) An insurer shall establish and maintain policies and 
practices designed to protect the confidentiality of nonpublic 
personal information and to protect against unauthorized access 
to or use of such information which could result in substantial 
harm or inconvenience to any customer.
    3) An insurer shall establish and maintain policies and 
practices designed to protect the security of nonpublic 
personal information against anticipated threats or hazards or 
unauthorized access to or use of such information which could 
result in substantial harm or inconvenience to any customer.
    4) An insurer shall provide its customers with a notice of 
the policies it maintains to protect the confidentiality and 
security of nonpublic personal information. This notice shall 
be provided at the time the insurer enters into an insurance 
contract and at least annually thereafter for as long as the 
contract is in force.
    5) In order to serve its prospective and existing 
customers, an insurer may share its customers' nonpublic 
personal information in connection with the origination, 
administration, or servicing of its products or services or to 
engage in other non-marketing business operations. For example, 
an insurer may share nonpublic personal information to provide 
consolidated statements of an individual's different accounts, 
to prevent fraud, or to comply with the law or a civil or 
criminal subpoena or summons.
    6) An insurer shall not share a customer's nonpublic 
personal information within its corporate family for marketing 
products or services unless the insurer's notice says that this 
information may be shared within its corporate family for this 
purpose. An insurer shall not share a customer's nonpublic 
personal information outside its corporate family for marketing 
unless: (a) the insurer's notice says that nonpublic personal 
information may be shared by the insurer outside its corporate 
family for this purpose; and either (b) the customer is given 
the opportunity to direct that it not be shared; or (c) the 
products or services to be marketed are: ((1)) products or 
services of the insurer; or ((2)) offered by the insurer and 
another financial institution (or institutions) pursuant to a 
joint agreement.
    8) An insurer shall not share a customer's nonpublic 
personal information with another person or entity unless such 
party is subject to the same restrictions on disclosure of 
nonpublic personal information to which the insurer is subject.
    9) Upon request, a customer of an insurer is entitled to 
have access and correction rights regarding nonpublic personal 
information about the customer collected from third parties in 
connection with an application for life, disability income, or 
long term care insurance.
    10) In order to provide insurers' customers protection that 
is as uniform as possible, any legislation or regulation 
seeking to impose requirements with respect to the 
confidentiality and security of nonpublic personal information 
shall be applicable in the same manner to all entities which 
collect and maintain such information.
    11) State legislation seeking to implement these principles 
should be uniform. Any federal legislation implementing these 
principles should preempt any state law imposing requirements 
with respect to the confidentiality and security of nonpublic 
personal information.
      

                                <F-dash>


    Chairman Shaw. I have a couple of questions that I would 
like to ask the entire panel.
    We just heard some legislative proposals--and I believe all 
of you were here--that would restrict the use of a Social 
Security number. Some proposals, such as Dr. Paul's bill, would 
restrict the use of Social Security numbers by government 
agencies. Others, like Mr. Kleczka's proposal, would restrict 
commercial use, sale, and exchange of Social Security numbers 
unless the entity has the customer's written consent to support 
these proposals.
    For those of you who oppose the proposals, can you tell us 
specifically what provisions you propose and what improvements 
can be made?
    Mr. Pratt?
    Mr. Pratt. Our concern is a general concern, and let me 
respond in two ways. With Congressman Paul's proposal, if it 
were to remove the use of the Social Security number from, say, 
public records, this means that we would have a more difficult 
time putting a tax lien into a consumer report that would be 
used by credit grantors for safety and soundness or in noting a 
bankruptcy, so I think part of the question is the devil of the 
details. Does this mean the Social Security number is 
completely removed from many different public domains, or is it 
just more controlled or more limited? I have not actually read 
the entirety of the Congressman's proposal to respond more 
specifically than that.
    But Congressman Kleczka's proposal in removing the Social 
Security number from the commercial domain--and he has 
mentioned credit headers several times--one point I would like 
to bring up is that we have mentioned already that, outside of 
the Fair Credit Reporting Act, which certainly governs and 
limits otherwise our use of information, including the Social 
Security number, we have established ourselves through the 
individual reference services group to further limit the 
disclosure of that information called ``header information.'' 
It is identifying information, and that's a way that we have 
attempted to respond to the policy, and to try and restrain and 
balance the benefits that we think are out there societally for 
this type of data, and, at the same time, to acknowledge I 
think what has been said by a number of my co-panelists, and 
that is this is not a number that should be out there in the 
general marketplace for all purposes.
    Chairman Shaw. You, sir?
    Mr. Mierzwinski. Mr. Chairman, US PIRG supports the credit 
header loophole bill, Mr. Kleczka's bill. We also have an 
official position on Mr. Markey's bill on financial privacy to 
close the loopholes in title five of the Gramm-Leach-Bliley 
Act.
    The other three bills, the three specific bills before the 
committee, we support in principle, but our board has not yet 
taken a formal position on them.
    Chairman Shaw. Ms. Moore? If any of you all want me to 
repeat the question, I will be glad to do it.
    Ms. Moore. I think I have it.
    Chairman Shaw. Okay. Go ahead.
    Ms. Moore. H.R. 1450, Congressman Kleczka's bill, does not 
really affect the DMVs, because the Driver Privacy Protection 
Act forbids sale and distribution of the Social Security number 
by DMV, so that makes that issue moot for DMVs.
    H.R. 220 does impact the motor vehicle agencies and we have 
our concerns as far as the SSN has become a unique identifier 
for exchanging information into the CDLIS system, the nine 
million commercial drivers that we track through there.
    The primary concerns would be the inability to 
electronically transfer driver history records between 
jurisdictions, the cost States would have to incur to modify 
the computer systems, and utmost, the increase in fraud or the 
inability to verify our drivers.
    Chairman Shaw. Thank you.
    Mr. Rotenberg. Mr. Chairman, let me say, just as a matter 
of U.S. privacy law, I think it is very consistent with the 
original purpose of the Social Security number, which is that 
it would be used solely to administer the benefits of the 
program, as well as the language in the 1974 privacy act, to 
support the proposals that have been put forward today.
    I should also point out, in a very recent opinion from the 
U.S. Supreme Court, an opinion upholding the Drivers Privacy 
Protection Act, even after it had been challenged in several of 
the States, the court made quite clear that, to the extent that 
personal information has been sold in interstate commerce, then 
it clearly could be regulated by the Congress, so I do not 
think there is any question, particularly where you have 
services that are literally selling a person's Social Security 
number and enabling identity theft and other problems, that 
that would be appropriate legislation and that it would be 
upheld by the courts.
    Chairman Shaw. I believe we had information last Tuesday 
about who owns those numbers, and I think that the testimony 
that we have says that the numbers are, indeed, the property of 
the Federal Government. We have not researched that, 
ourselves--at least I do not believe we have--but those numbers 
are the property of the United States Government and the Social 
Security Administration, and we certainly would have the right 
to regulate how they are used or how they are distributed.
    Ms. Meyer, I think you answered the question--you mentioned 
in your testimony that the Social Security numbers are useful 
in the administration of service of the account. I have great 
doubt about that, except when you got to the point of reporting 
earnings to the Internal Revenue Service. Then that does become 
a point that I think that would be well taken in that area.
    But the other areas that you mention, I have some--I doubt 
that that is actually needed. I mean, we go through the policy 
number and everything else. But I am particularly curious, in 
your situation, if I were to want to buy a life insurance 
policy and I said, ``No, I do not want to give you my Social 
Security number,'' would it be then the salesman would say, 
``Then you are not going to get this life insurance policy?''
    Ms. Meyer. That's a--
    Chairman Shaw. Is that a truthful statement? Can you buy 
life insurance without divulging your Social Security number?
    Ms. Meyer. To my knowledge, Social Security numbers--and I 
would have to check this and see--that information is not 
required information. But I will confirm that. I think the 
concern is that it is so integral, because of the list of 
services or different things that we use it for, it is so 
integral to our ability to provide products and services to our 
customers, that it would be very difficult for us to do lots of 
things for that individual--
    Chairman Shaw. Why?
    Ms. Meyer.--that we could not do otherwise.
    Chairman Shaw. Why?
    Ms. Meyer. Well, for example, I am told by our member 
companies that, in underwriting an application for a life 
insurance policy, for example, it is often very important that 
we obtain medical information in order to determine the rate at 
which we should insure the individual.
    Often, we have to get information from doctors and 
hospitals relative to the individual's medical condition. We 
are told that in some circumstances doctors and hospitals will 
not release that information to us unless we have the 
individual's Social Security number.
    Chairman Shaw. Well, you have to get a consent form signed 
by that individual, anyway, do you not?
    Ms. Meyer. Absolutely. We do get a consent form to get that 
information for purposes of underwriting; however, as I said 
before, there are a number of other purposes that we use the 
Social Security number for in order to administer the contract.
    One problem we have is that there are literally millions of 
contracts out there with Social Security numbers that are part 
of the file, so if individuals revoke our ability to use Social 
Security numbers, then we would literally have to go through 
millions of files to delete the Social Security numbers out of 
the files; so we have problems, both from a practice standpoint 
and for getting information. I understand that there are still 
some States that require use of Social Security numbers to get 
motor vehicle information that we would need to investigate 
applications for coverage, as well. So we would have problems 
getting information, plus I am told that we use these Social 
Security numbers in our call service centers to make sure that 
we are giving out information to the correct individual, you 
know, to help them locate policies that they may have lost.
    So we might need it to get information, as well as to 
perform service functions. Also, I am told that State insurance 
departments use Social Security numbers to help people identify 
coverage that they may not be aware of.
    So I think the use of the numbers as identifiers, to be 
sure that we are getting information to the correct individuals 
and also to help consumers, is built into the system right now.
    Chairman Shaw. Is your industry in any way prohibited from 
selling that information or sharing it with other agencies?
    Ms. Meyer. Right now our industry is now subject to the 
rules of title five of the Gramm-Leach-Bliley Act. That would 
include, in our view, non-public personal information. It would 
include Social Security numbers within the definition of non-
public personal information, which would mean that we could not 
share, which would include selling information with a non-
affiliated third party, without giving the individual the 
opportunity of telling them, giving them notice of what we are 
doing, and also the opportunity to opt out, except if the 
sharing fell within one of the stated exceptions of the Gramm-
Leach-Bliley Act.
    Chairman Shaw. Speaking of that act, you have the ability 
to share, sell, transfer personal information to third parties 
who are not regulated by these laws. How is this information 
protected once it is sold or transferred to third parties?
    Ms. Meyer. Actually, title five does place restrictions on 
third parties who receive information from us. Those third 
parties would be subject to the provisions of title five that 
say that a third party recipient of the information cannot use 
the information in any way in which the financial institution 
could not use it. So a third party recipient would be subject 
to the same constraints as the financial institution, as I 
understand the law.
    Chairman Shaw. Mr. Tanner?
    Mr. Tanner. Thank you very much, Mr. Chairman. I wish we 
had more time. This is a fascinating discussion. In the 
interest of time, I am going to read all of your statements, 
but I want to ask Mr. Pratt--a couple of days ago Colonel 
Stevens testified that, notwithstanding his best efforts to 
notify various credit bureaus that this was fraudulent activity 
going on on his Social Security number, he testified that every 
four to six months it was recycled and reappeared.
    What, if anything, is your organization doing to stop that? 
And do not you feel that there is some obligation to verify the 
information and this repeated publication, knowing it to be 
false, or someone knowing it to be false may be legally 
actionable?
    Mr. Pratt. Congressman, I think part of the response is 
found in the--we agree with you that we need to be doing more 
in the area of helping victims of identity theft, and I think 
that is thematically something you will hear across the board.
    The initiatives that we announced in March were really also 
then announced at the Identity Theft Summit, where we presented 
those, and that was the summit sponsored by the Treasury 
Department, along with other agencies--Secret Service and so 
on.
    One of the areas of response is to acknowledge that very 
problem of information showing back up in the file.
    Part of the answer is found in the Fair Credit Reporting 
Act. Under the 1996 amendments, if data goes back into the 
file, we are obligated to send a letter to the consumer asking 
them to confirm the information if it does go back in, and 
that's part of the accuracy standard that we have to live by.
    Part of the step is a new software product that we are 
going to launch this year, because it is true that when you 
hear a consumer who says, ``I have been a victim of identity 
theft,'' it appears to go on and on and on.
    The way the FCRA is structured, at a point in time we have 
to reinvestigated and take care of the problems on the file, 
and there is a limited time frame in which to do that, but the 
question is: what do you do after that file has been brought 
whole? Is that it? Is the crime over or does it go on?
    In our estimation, we have another responsibility, and 
that's a responsibility we have put into our voluntary 
initiatives. We are going to keep track of that file. We are 
going to look at file activity. We are going to notify 
consumers of unusual activity in that file to make sure that we 
stay in touch with that consumer to keep the information from, 
if you will, polluting the consumer's credit history on a long-
term basis.
    So we think we are tracking in the right direction to try 
to build the right technologies in place and to create a better 
linkage between us and the consumer, not just between us and 
the credit grantor, so that is part of our response.
    Mr. Mierzwinski. Congressman, could I add very briefly to 
that?
    Chairman Shaw. Yes.
    Mr. Mierzwinski. US PIRG believes that some of the steps 
that the credit bureaus are taking are good first steps, but I 
just want to point out that some of the problems are not the 
credit bureaus' fault, and I am not totally agreeing that the 
credit bureaus should not be blamed for part of this, of 
course.
    Mr. Pratt. But I am writing this down that you said that.
    Mr. Mierzwinski. But he is writing this down.
    We feel and other privacy groups feel that part of the 
blame has to be laid at the feet of the banks, department 
stores, and other creditors that, in fact, issue credit without 
adequately verifying that the consumer is the actual consumer, 
and they will often, even though there is perhaps a fraud flag 
on a report, issue credit.
    We think that that is part of the problem that Congress 
needs to look into in strengthening the Identity Theft 
Deterrence Act of 1998.
    So it is the credit bureaus and the creditors who we think 
are both part of the problem.
    Mr. Pratt. Part of our effort, Congressman, was to, in 
fact, launch a better program to make sure our customers, in 
partnership with us, understand the security alert--this alert 
that Mr. Mierzwinski is referencing--and to make sure they know 
where to look for it in the, if you will, data transmission, 
and then how to then respond to it.
    We also have products that have been brought on line which 
notify our customers where there's differences in incoming 
applicant data and the data we have on file.
    As I said in the testimony, there are 42 million consumers 
who move every year. Clearly, some of the address change 
activity on the files is legitimate.
    One of the products we have informs our customers, though, 
that, in fact, there is a difference between what you have sent 
us, to some extent, and what we have on file, and this is 
another way for us to partner with our customers and to cue 
them that something is different about the data, giving them 
that opportunity to investigate it further.
    Mr. Tanner. I have some more questions, but, in the 
interest of time, Mr. Chairman, I have got to go. Thank you. I 
thank all of you.
    Chairman Shaw. I would like to just raise one more question 
with you, Mr. Pratt, and that is the question of what good is 
it or what usefulness is it to have your Social Security number 
put on the back of a check when you are cashing a check? You 
heard Mr. Kleczka say that he gave one to Toys 'R Us and he 
made up a Social Security number because he did not want to put 
it on there. What good is it?
    Mr. Pratt. Well, I can answer that in part because our 
trade association does represent some companies that produce a 
specific type of FCRA governed database generically called a 
``check services database.'' Check fraud is an enormous problem 
in this country. It always has been, for many, many years, and 
it continues to be a problem.
    One way for us to cross check and provide products for a 
retailer or grocery store to make sure that they minimize check 
fraud is to use that number, at least in this case, for a 
matching purpose, to make sure that we are matching back into 
this check database to determine whether or not we have had 
fraudulent--
    Chairman Shaw. At what point is the match made?
    Mr. Pratt. Well, for us the match would be made between the 
point of sale terminal, which is the register, as we used to 
call it, and the system that we have in place, which could be 
anywhere in the country and just a resident database.
    Why it is written on the check versus just simply entered 
in, if you will, to use as a match, I really cannot deal with 
that element of it. I do not know if that is more of a retail 
question that might have to be addressed. But for us it is a 
matching question.
    Chairman Shaw. Well, you mean this matching is done while 
the customer is still standing there at the register?
    Mr. Pratt. Yes, sir.
    Chairman Shaw. And they need the Social Security number in 
order to do that?
    Mr. Pratt. That would be one element of how we are able to 
make sure that we are not, first of all, falsely registering 
and saying this consumer's check should not be processed, if 
you will, so it is a more precise way for us to achieve the 
match, make sure that we deliver accurately.
    One of the standards under the Fair Credit Reporting Act is 
to make sure that we match the request for information with the 
correct record internally. In most cases with a check database 
of this type, the records is going to come back ``no record 
found,'' meaning the majority of citizens are not bouncing 
checks or having a problem with check fraud. So that's one of 
the ways that we reduce the problem of consumers being 
inconvenienced.
    Chairman Shaw. What does a cashier do? How do they transmit 
that number while they are in the checkout line?
    Mr. Pratt. That number is entered in at the register, I 
believe.
    Chairman Shaw. They enter the Social Security number 
instead of the name and bank?
    Mr. Pratt. Well, that might be one way for us to check, but 
there might be other fraudulent accounts that are not listed 
under that bank name, so these databases cross check name and 
information against other accounts to make sure we are not 
opening up or processing an additional check against an account 
which has already been registered as opened fraudulently.
    I do not think I made sense.
    Chairman Shaw. Well, it did not sink in at this end. Go 
ahead.
    Mr. Pratt. In other words, if I were the criminal and I was 
perpetrating bank fraud, if you will, by opening up falsified 
checking accounts, there might be more than one checking 
account in play, and so, as one checking account becomes 
designated as fraudulent and is registered, I might want to try 
to flip, if you will, to the next checking account I have 
opened up in order to perpetrate the crime all over again.
    So, in order to reduce the incidence of that type of check 
fraud, these databases can cross check and say--
    Chairman Shaw. Well, when I open a checking account, they 
will get my Social Security number. But they just ask me to 
give it to them. They do not ask to see a Social Security card 
or any type of identification that has a Social Security number 
on it. So if I wanted to get involved in that, just borrow 
somebody else's Social Security number and put it in there.
    Mr. Pratt. In terms of what the security procedures are 
with the lending institutions, it is harder for me to answer 
that part of the question.
    Chairman Shaw. Do they verify that they got the right 
Social Security number?
    Mr. Pratt. I believe they do, but, again, I think there are 
others who might be better able to respond to that part of the 
question.
    Chairman Shaw. How do they do that? Can I get in touch with 
the Social Security Administration and say, ``Is John Dokes' 
number such and such''?
    Mr. Pratt. I do not think the Social Security 
Administration allows private industry to do that.
    Chairman Shaw. I hope not. So how do they verify that they 
have the right number?
    Mr. Pratt. One way is to access a consumer report to 
determine whether or not it matches against a consumer report.
    Chairman Shaw. So the consumer report has the Social 
Security number on it. Where did the consumer report get the 
number?
    Mr. Pratt. These numbers are added into the system based on 
applicant data coming in and the regular cycle of data 
reporting into the consumer reporting Social Security. Social 
Security number is often an element of the information we 
receive from what are called ``data furnishers.''
    Chairman Shaw. But if that name and Social Security number 
is not in your database, then they put it in the database, and 
all of the sudden they are in there with that number that is 
fraudulent.
    Mr. Pratt. Well, it is certainly one of the problems of 
identity theft is that it can result in inaccurate, fraudulent 
information being loaded into the system. In this case, we do 
not keep checking account information, so that would not be in 
the system.
    It is true--one of our challenges is to keep the fraudulent 
data out and to keep the accurate and correct information in.
    Chairman Shaw. Okay. Well, thank you all for being here. We 
have got our work cut out for us, that's for sure.
    I have two things I am told for the record, two inserts, 
the opening statement of Mr. Matsui, which I had already said 
for all of the Members who have an opening statement, and a 
letter from the Social Security Administration Inspector 
General supporting the Kleczka bill.
    [The information follows:]

                                         James G. Huse, Jr.
The Honorable Jerry Kleczka
House of Representatives
Washington, D.C. 20515

    Dear Mr. Kleczka:

    Social Security number (SSN) misuse is a critical issue that 
impacts greatly on the lives of American citizens. From the beginning, 
our office has taken a proactive stance to work with other Federal 
organizations to reduce the incidents and impact of SSN misuse. 
However, given the current proliferation of the SSN in both 
governmental and private transactions, our task appears to be 
increasing with each passing day.
    As I stated in my May 9, 2000, testimony before the Social Security 
Subcommittee's hearing on SSN misuse, I believe H.R. 1450 is an 
excellent start at legislatively protecting the integrity of the SSN 
and restoring the confidence of the American people in the security of 
their personal identifying information.
    I appreciate your support for the IG community. If I can be of 
further assistance to you or your staff, please do not hesitate to 
contact me at 41009966098385.
            Sincerely,
                                         James G. Huse, Jr.
                               Inspector General of Social Security
      

                                <F-dash>


    Chairman Shaw. Thank you again. We appreciate your 
attendance and your testimony.
    [Questions submitted by Chairman Shaw to Mr. Rotenburg, Mr. 
Huse, Ms. Burke Moore, Mr. Pratt, Ms. Bovbjerg, Mrs. Meyer and 
Mr. Mierzwinski, and their respective answers, follow:]
                                                       May 31, 2000
The Honorable James G. Huse, Jr.
Inspector General
Social Security Administration
6401 Security Boulevard
Suite 300
Baltimore, MD 21235

    Dear Mr. Huse:

     Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1.You mention that a good deal of SSN misuse creates a cost to the 
Social Security program because people fraudulently apply for benefits. 
Has anyone estimated the cost of SSN misuse to the Social Security 
Trust Funds? Has anyone estimated the cost of SSN misuse to private-
sector businesses?
    2. What are the key vulnerabilities in SSA's business processes 
relating to the issuance of SSNs? What recommendations have you made 
and how has the agency responded?
    3. GAO testified before you that there is no federal law that 
regulates the overall use of SSNs. Is such a law needed? Is it feasible 
to enact, administer, and enforce such a law?
    4. GAO testified that many private-sector businesses and government 
agencies have adopted voluntary policies aimed at protecting privacy 
and reducing SSN misuse. Can self-regulation be an effective way to 
reduce SSN misuse?
    5. You note that your office issues a list of the 100 employers 
with the most suspended wage items (i.e., wages that do not match up to 
an SSN.) What are the reasons why these reported wages don't match up 
to an SSN? One of your recommendations to the Social Security 
Administration was to implement a correction action plan for these 
employers. Has SSA acted on this recommendation?
    6. You mention that it costs SSA 50 cents to post a wage item when 
it is originally submitted compared to $300 to correct it later. Why 
are the costs to correct wage items so high?
    7. You mention the Identity Theft Act in your testimony. Are there 
any other laws aimed at protecting privacy and preventing fraud? In 
your opinion, are existing laws enforced effectively or do we need new 
laws to help prevent identity theft and other types of SSN misuses?
    8. Can you please elaborate about the Federal Trade Commission's 
specific role in SSN misuse?
    9. One of your recommendations to combat SSN fraud is to regulate 
the sale of SSNs. How can this be done? What exceptions would the law 
have to include? Would there be any downside for consumers?
    10. The widespread use of the SSN creates a lot of administrative 
headaches for SSA, such as reissuing SSNs for people who have been the 
victims of identity theft. To your knowledge, has SSA ever developed a 
proposal that addresses this issue, especially one that seeks to limit 
how the SSN is used by other government agencies and the private 
sector?
    11. One of your recommendations for reducing fraud is that people 
should show photo ID when conducting business with SSA. That seems like 
a useful suggestion. Still, are there any arguments that some might 
make against it? Do you know what portion of the population do not have 
a photo ID? Wouldn't this cut down on fraud in other areas of SSA 
programs as well?
    12. At the same time, SSA is studying conducting certain services 
online, such as applications for retirement benefits. Obviously, at 
least for now, showing a picture ID won't work in that setting. How can 
the trend toward online applications be reconciled with your suggestion 
of showing a photo ID to receive services?
    13. One of your recommendations is to legislate statutory law 
enforcement authority for your investigators. How would this authority 
for your investigators assist in combating SSN fraud?
    14. You also suggest broadening civil monetary penalty authority 
for the sale or misuse of an SSN. Would you provide more details about 
this recommendation?
    15. You recommend that new technologies and databases be fostered 
to help employers, government, and private industry verify that names 
and/or SSNs are correct to improve the identification process. From a 
practical standpoint, how would this work? Would opening such a 
database to employers and private industry create new opportunities for 
misuse of this information? Who would monitor this process?
    16. For the record, please provide a breakdown of the statistics 
from the SSA/OIG Hotline for the first six months of this fiscal year. 
I would like the total number of allegations received by the Hotline; 
the total number of these allegations related to SSN misuse (of this 
figure, please break this down further into the number related to the 
programs and operations of SSA and the number not so related).
     I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


                                                       May 31, 2000
Ms. Katherine Burke Moore
Chair, International Board of Directors
American Association of Motor Vehicle Administrators
c/o Linda Lewis
4301 Wilson Blvd.
Suite 400
Arlington, VA 22203

    Dear Ms. Burke Moore:

     Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1. Many people are annoyed by the fact that they have to give up 
their SSN for practically any business transaction. How would you feel 
about a proposal that would prohibit businesses from denying services 
to customers who refuse to disclose their SSNs?
    2. The fact that SSNs are so widely used indicates that there is a 
need for a unique personal identifier. If the use of SSNs is 
restricted, do you think another personal identifier will take its 
place?
    3. In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics? Will the debate over the 
privacy and security of SSNs eventually be overtaken by new 
technologies that are more accurate, more personalized, and more secure 
from abuse? Does your industry anticipate and support such 
developments?
    5. Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples? If 
SSN use were restricted, what would be the downside for consumers? If 
the use of SSNs was restricted by Federal law, what impact would it 
have on your members? M
    6. Most states give people the option of displaying their SSN on 
their driver's license or using a different number issued by the DMV. 
Has this option created administrative difficulties for States? Has it 
reduced accuracy or the ability to correctly identify people?
    7. Your testimony indicated that States need to collect SSNs for a 
variety of law enforcement and public safety reasons. What are States 
doing to protect this information once it is collected? How do States 
ensure that the information is correct and not fraudulent? Do States 
collect SSN information solely for law enforcement and public safety 
reasons? Are SSNs used by the States for any other purposes?
    8. Do States transfer, sell, or share SSN data to third parties 
under any circumstances? How many pieces of identifying information do 
States collect (for example, name, gender, age, address, etc.) With so 
many pieces of identifying information, why is the SSN needed to 
positively identify an individual?
    9. You indicated that your members have continued their efforts to 
enhance the security of driver license credentials. Could you describe 
these efforts?
    10. In your testimony you indicated that 49 states allow 
individuals to have a number on their drivers license other than the 
SSN. However, SSNs are used for checking information across state lines 
and with SSA. If you stopped using the SSNs for that purpose, wouldn't 
the DMV-issued numbers that actually appears on the license become in 
effect a new national identifier, putting us back in the same place we 
started? Why do some States (Hawaii and Washington, DC) still require 
the SSN to be displayed on driver's licenses? Why don't they use their 
own internal identifying numbers?
     I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


                                                       May 31, 2000
Mr. Stuart K. Pratt
Vice President, Government Relations
Associated Credit Bureaus, Inc.
1090 Vermont Avenue, N.W.
Suite 200
Washington, DC 20005

    Dear Mr. Pratt:

     Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1. Many people are annoyed by the fact that they have to give up 
their SSN for practically any business transaction. How would you feel 
about a proposal that would prohibit businesses from denying services 
to customers who refuse to disclose their SSNs?
    2. The fact that SSNs are so widely used indicates that there is a 
need for a unique personal identifier. If the use of SSNs is 
restricted, do you think another personal identifier will take its 
place?
    3. In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics?
    4. Will the debate over the privacy and security of SSNs eventually 
be overtaken by new technologies that are more accurate, more 
personalized, and more secure from abuse? Does your industry anticipate 
and support such developments?
    5. Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples? If 
SSN use were restricted, what would be the downside for consumers?
    6. If the use of SSNs was restricted by Federal law, what impact 
would it have on your operations?
    7. On May 9, we heard testimony from a couple (Lt. Col. Stevens and 
Mrs. Stevens) who have had their identities stolen. Their story raised 
several troubling issues.
    First, the Stevens told us that fraudulent accounts were opened 
using their SSNs even though all of the information on the applications 
was incorrect, including their names, addresses and birth dates. The 
SSN was the only piece of information that was correct on the 
applications.
    A second troubling issue is that credit-reporting agencies verified 
this incorrect information. Variations of a name, address, place of 
employment, age, or spouse's name were not questioned -if the SSN 
matched up, the information was verified and the fraudulent application 
was approved.
    --Can you explain how these fraudulent applications could have been 
verified and approved?
    --Why did the credit-reporting system fail in this case?
    --Under current law, are creditors and credit-reporting agencies 
accountable when their negligence contributes to identity theft and 
other SSN misuses? Do you think that creditors and credit-reporting 
agencies should share responsibility in such cases?
    8. One of the disturbing items from the testimony by the Stevens 
was their statement that the collection agencies did not believe them. 
They had to prove they were victims of identity theft. What would you 
say to the Stevens? Should the burden of proof fall on the victims of 
identity theft?
    9. The Stevens explained that they have been prevented from buying 
a home, establishing credit accounts, or making normal purchases 
because their credit was ruined by no fault of their own. How do credit 
reporting agencies assist identity theft victims today?
    10. When someone's credit is ruined because of the identity theft, 
how long does it take to clear the bad credit from the victim's credit 
report? The Stevens complained that bad accounts are recycled through 
the same collection agency or they are turned over to other collection 
agencies so that the same bad debt keeps reappearing on the credit 
report. Can you explain to us how the process works?
    11. You noted in your written testimony that your members collect 
SSNs only when they are voluntarily provided by consumers. But isn't it 
true that in many cases, consumers must provide their SSNs to receive 
credit? For example, can a customer be approved for a mortgage without 
giving his or her SSN? If consumers must provide SSNs to receive 
services, how voluntary is this disclosure?
    12. Your members' use of the SSN is governed by the Fair Credit 
Reporting Act. In addition, you have a long list of voluntary 
initiatives your members have undertaken to combat identity theft and 
SSN misuse. Do all of your members follow these initiatives? What 
happens to them if they don't? Despite these efforts, fraudulent uses 
of SSNs is on the rise. Does this indicate that existing laws are not 
being enforced effectively or perhaps self-regulation is not working? 
What recommendations do you have to reduce SSN misuse?
    13. How does a consumer reporting agency get its information? How 
does it determine what information to place in a record and what 
information not exclude? How is the authenticity of the information 
verified to ensure that incorrect information is not being posted?
     I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


                                                       May 31, 2000
Ms. Barbara D. Bovbjerg
Associate Director
Education, Workforce and Income Security Issues
Health, Education and Human Services Division
U.S. General Accounting Office
441 G Street, N.W.
Washington, DC 20548

    Dear Ms. Bovbjerg:

     Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1. The term ``national identifier'' has a very bad connotation for 
many people. In your opinion, has the Social Security number become a 
national identifier?
    2. In your testimony, you indicated that there is no federal law 
that regulates the overall use of SSNs. In your view, is such a law 
needed? Is it feasible to enact, administer, and enforce such a law?
    3. As you pointed out in your testimony, the Social Security number 
was created as a means of tracking workers' earnings and eligibility 
for Social Security benefits. It was never intended to serve as a 
personal identification document. Only certain information is 
maintained by SSA as part of its Social Security number database. What 
information is available? What proof is required to obtain a Social 
Security number? How have these proof requirements changed over time?
    4. Despite public concerns about sharing personal information in 
today's electronic world, does the public benefit from the widespread 
use of SSNs and the sharing of personal information? Can you provide 
some examples?
    5. If someone refuses to disclose their SSN to a private business, 
can the business, by law, decline to provide the service? For example, 
if someone refuses to provide their SSN on a loan application, can the 
bank deny the loan?
    6. What are the possible effects on businesses of restricting their 
use of SSNs?
    7. You mentioned in your testimony that many businesses and 
agencies are voluntarily restricting the use of SSNs to help protect 
their customers' privacy and reduce SSN misuse. Can you please 
elaborate on some of these self-regulatory policies?
    8. One area not discussed in your written testimony is e-commerce. 
How has the high-tech economy affected SSN use? In general, can people 
conduct business on the internet without providing their SSNs? How 
would restricting the use of SSNs affect e-commerce?
    9. You indicated that ``information brokers'' collect SSNs for the 
sole purpose of selling them. What exactly is an information broker? 
How are consumers served by this industry? What is the downside of 
limiting their activities? Why do information brokers need peoples' 
SSNs?
    10. According to your testimony, the Social Security Act declares 
that SSNs obtained by authorized individuals afer October 1, 1990 are 
confidential and cannot be disclosed. If the Social Security Act 
prohibits the disclosure of SSNs, why is their use so widespread and 
why are businesses allowed to ask for the SSN?
    11. If the use of the SSN were restricted by federal law, is it 
likely that another personal identifier would take its place?
     I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


                                                       May 31, 2000
Mrs. Roberta Meyer
Senior Counsel
American Council of Life Insurers
1001 Pennsylvania Avenue, NW
Washington, DC 20004

    Dear Mrs. Meyer:

     Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1. Are there any legitimate uses of the SSN that you think should 
be allowed (such as law enforcement)?
    2.Many people are annoyed by the fact that they have to give up 
their SSN for practically any business transaction. How would you feel 
about a proposal that would prohibit businesses from denying services 
to customers who refuse to disclose their SSNs?
    3. The fact that SSNs are so widely used indicates that there is a 
need for a unique personal identifier. If the use of SSNs is 
restricted, do you think another personal identifier will take its 
place?
    4. In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics? Will the debate over the 
privacy and security of SSNs eventually be overtaken by new 
technologies that are more accurate, more personalized, and more secure 
from abuse? Does your industry anticipate and support such 
developments?
    5. Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples?
    6. If SSN use were restricted, what would be the downside for 
consumers? If the use of SSNs was restricted by Federal law, what 
impact would it have on your operations?
    7. Your testimony indicates that you often share personal 
information with third parties who administer, serve, or enforce 
insurance policies. Do these third parties, in turn, share or sell the 
information to others? Do you know how these third parties protect the 
information which you give them?
    8. If sharing personal information is necessary in the insurance 
business, do you disclose to your customers who the information is 
shared with and how it is used?
    9. You note that the privacy provisions in the recently enacted 
Gramm-Leach-Bliley Act subject insurers to the most stringent privacy 
regulations ever imposed in the United States. When you share personal 
information with third parties, are these third parties subject to the 
same privacy provisions or do you lose control of what happens to the 
information once it is given to a third party?
    10. You note that prohibiting the use or sharing of SSNs would make 
it almost impossible to provide consumers with certain services. How 
were these services provided before the widespread use of SSNs? Has the 
SSN always been the primary identifier in the insurance industry?
     I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


                                                       May 31, 2000
Mr. Edmund Mierzwinski
Consumer Program Director
U.S. Public Interest Research Group
218 D Street SE
Washington, DC 20003

    Dear Mr. Mierzwinski:

    Thank you for testifying before our Subcommittee regarding the use 
and misuse of the Social Security number (SSN). In order to complete 
our hearing record, I would appreciate your answering the following 
questions:
    1. Are there any legitimate uses of the SSN that you think should 
be allowed (such as law enforcement)?
    2. Many people are annoyed by the fact that they have to give up 
their SSN for practically any business transaction. How would you feel 
about a proposal that would prohibit businesses from denying services 
to customers who refuse to disclose their SSNs?
    3. The fact that SSNs are so widely used indicates that there is a 
need for a unique personal identifier. If the use of SSNs is 
restricted, do you think another personal identifier will take its 
place?
    4. In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics? Will the debate over the 
privacy and security of SSNs eventually be overtaken by new 
technologies that are more accurate, more personalized, and more secure 
from abuse? Does your industry anticipate and support such 
developments?
    5. Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples? If 
SSN use were restricted, what would be the downside for consumers?
    6. Your testimony mentioned the fact that anyone can purchase 
someone else's personal information, including SSNs. Can you tell us 
more about the sale of SSNs? Who is allowed to sell SSN's? Who is 
allowed to buy them? Why is this information sold and bought? Are there 
any laws which currently regulate the sale of SSNs?
    7. The widespread use of SSNs definitely contributes to identity 
theft. However, it can also protect consumers by improving the accuracy 
of record keeping. For example, if John Smith is wanted for child 
support payments, having his SSN may make it easier to find the right 
John Smith. Are you concerned that restricting the use of SSNs may make 
it more difficult to track down the right person for legitimate 
reasons?
    8. If I understood your testimony correctly, credit bureaus often 
collect personal information about consumers. Some of that information 
is then sold to third parties for various reasons. In your opinion, the 
practice of collecting information for one reason and then using it for 
another without the consumer's consent is unfair. Are you proposing 
that credit bureaus obtain the customer's consent before selling 
personal data, or are you opposed to the practice of selling personal 
information altogether?
    9. We all agree that stories of identity theft, such as the 
Stevens' story, are atrocious. However, would you agree that unique 
identifiers do serve a purpose within the business community?
    I thank you for taking the time to answer these questions for the 
record and would appreciate your response by no later than June 23, 
2000. In addition to a hard copy of your response, please submit your 
response on an IBM compatible 3.5-inch diskette in WordPerfect or 
Microsoft Word format. If you have any questions concerning this 
request, please feel free to contact Kim Hildred, Staff Director, 
Subcommittee on Social Security at (202) 225099263.
            Sincerely,
                                          E. Clay Shaw, Jr.
                                                           Chairman
      

                                <F-dash>


  Statement of American Association of Motor Vehicle Administrators

1. Many people are annoyed by the fact that they have to give 
up their SSN for practically any business transaction. How 
would you feel a bout a proposal that would prohibit businesses 
from denying services to customers who refuse to disclose their 
SSNs?

    AAMVA believes that the collection and use of the SSN has 
become widespread and, perhaps, over-used for business 
transactions. However, there are some business transactions 
that require unique identification of individuals with whom 
they do business, i.e., financial services, mortgage lending, 
health care services, law enforcement and motor vehicle 
licensing to name a few. In all of these cases, there is a 
bonafide reason for requiring the collection of this unique 
identifier.
    The driver's license is the primary form of identification 
in the United States. Federal, state, and local governments as 
well as every business establishment in this country rely on 
their motor vehicle agency to conduct the necessary identity 
verification of the individual holding that drivers license 
prior to its receipt.
    Once the license is received, its validity is rarely 
questioned when used as an identification document. It is 
presumed to be a valid, authentic official document, authorized 
by the administering agency.
    If motor vehicle agencies were not permitted to collect the 
Social Security Number for identification purposes, the 
consequence of fraud or identity theft would be more far-
reaching in this country.

2. The fact that SSNs are so widely used indicates that there 
is a need for a unique personal identifier. If the use of SSNs 
is restricted, do you think another personal identifier will 
take its place?

    Yes, if the use of the SSN is restricted, another unique 
identifier will take its place. AAMVA supports the concept of a 
national driver license number as it would increase the ability 
to track repeat DUI offenders and at-risk drivers. It will give 
states greater flexibility when drivers relocate to another 
state, particularly during the time of license renewal. Today, 
the Social Security Number has proven to be the most effective 
unique identifier for enhancing the effectiveness of driver 
control records. Were another identifier established, it would 
have to be national in scope and administered by one 
congressionally authorized body.
    The Association believes it would take between 50910 years 
for states to be able to use such an identifier effectively. 
Requisite computer changes and varied license/registration 
renewal cycles among the states, would result in a lengthy and 
costly implementation period.
    In a sense, it would create a driver's license 
identification number that would remain with the individual for 
a lifetime, regardless of where the individual lived in the 
United States. This process would be similar to the one used to 
identify vehicles through the one-time issuance of a vehicle 
identification number or VIN.

3. In the next 10 to 20 years, what do you think will be used 
to identify people who apply for credit or other commercial 
services? Will it be the SSN? Some other number? Biometrics? 
Will the debate over the privacy and security of SSNs be 
eventually overtaken by new technologies that are more 
accurate, more personalized, and more secure from abuse? Does 
your industry anticipate and support such developments?

    AAMVA and a majority of states support the concept of using 
biometric technology for identification purposes. Biometric 
technology may replace the SSN as a means of identification for 
most business transactions. The private sector is taking the 
lead in this initiative and is continually offering new 
technology. As the public grows more accustomed to credit card 
companies and banks requiring biometric identifiers for their 
transactions, we believe the public will be more likely to 
support government agencies using them as well.
    Unfortunately, we do believe that the underlying privacy 
debate will probably remain the same regardless of how 
accurate, personalized or secure that new technology is.

4. Paragraph missing in original letter.

5. Stories of identity theft and SSN misuse highlight the 
negative consequences of widespread SSN use. However, does the 
widespread use of SSNs benefit consumers in certain ways? Can 
you give us examples? If SSN use were restricted, what would be 
the downside for consumers?

    Yes, the widespread use of the SSN does benefit consumers 
in certain ways. The use of the SSN as an identifier can help 
reduce identity fraud, ensure that driver control records are 
accurate, and helps the law enforcement officer on the road to 
more accurately identifier the driver behind the wheel.
    Many people have the same name and date of birth, but only 
one SSN, according to the federal government. Because of this, 
the SSN, when used as a primary or secondary identifier, 
benefits citizens by restricting the number of licenses issued 
to any one individual. Eliminating the use of the SSN by motor 
vehicle agencies would make it much easier for imposters, 
identity thieves, and scofflaws to obtain fraudulent documents 
and spread motor vehicle violations out among multiple 
licenses.
    Consumers also benefit from the use of the SSN in the area 
of reciprocity. Were states unable to use the SSN to positively 
identify people, traffic violations and/or convictions from a 
nonresident jurisdiction could be misapplied to a driver's 
record.
    The State of Delaware provided an excellent example as 
well. A few years ago, a driver attempted to renew his Delaware 
driver's license. The law enforcement network showed the 
applicant was an escaped prisoner and potentially dangerous. 
The name, date of birth and other identifying features of the 
driver license applicant exactly matched the person who escaped 
from jail. The social security data was not on file. The police 
arrested him. The gentleman spent the next six hours trying to 
clear his name.
    If the SSN were available, the entire matter would not have 
occurred. Unfortunately, similar problems occur daily at motor 
vehicle agencies.

6. Is the use of SSNs was restricted by Federal law, what 
impact would it have on your members?

    As we have mentioned previously, restriction on the use of 
the SSN by motor vehicle agencies would have a profound effect 
on the way our members do business. The SSN is the only cross-
jurisdictional number that allows states to transfer accurate 
data to one another. Without the SSN, multiple matches for 
license holders will occur and make it much more difficult to 
transfer violations and convictions to the correct record 
holder or to get dangerous drivers off the road. This 
restriction would diminish DMVs' ability to fulfill their 
mission as public safety agencies. Without the use of the SSN 
as a primary or secondary unique identifier, the customer wait 
times at DMV counters or other service centers would increase 
dramatically due to the review of additional documentation for 
identification verification purposes.

7. Most states give people the option of displaying their SSN 
on their driver's license or using a different number issued by 
the DMV. Has this option created administrative difficulties 
for States? Has it reduced accuracy or the ability to correctly 
identify people?

    Many states give their residents the option of choosing 
whether to display their SSN on the face of the license or an 
alternate number. It is important to note that the SSN is used 
as a primary or a secondary unique identifier. Even though 
jurisdictions allow individuals to conceal their SSN, the 
number is retained on file to uniquely identify individuals 
when matches arise. Without it, DMV error rates would increase 
dramatically.
    Under federal law, states must use the SSN as the license 
number for all commercial drivers. Congress mandated the use of 
the SSN as a means to enhance oversight of the commercial 
driving public. Prior to use of the SSN, it was easy for 
commercial drivers to get multiple licenses in a number of 
states to spread violations and convictions among them to avoid 
losing driving privileges. AAMVA supports the ``one driver--one 
driver control record'' concept. Using the SSN has proved to be 
very effective in limiting the number of commercial licenses 
issued, thereby ensuring that bad drivers do not continue to 
jeopardize highway safety.

8. Your testimony indicated that states need to collect SSNs 
for a variety of law enforcement and public safety reasons. 
What are states doing to protect this information once it is 
collected? How do states ensure that the information is correct 
and not fraudulent?

    Under the federal Driver's Privacy Protection Act (18 
U.S.C. Sec. 2721092725), states are prohibited from releasing 
SSNs from their records with the exception of law enforcement, 
the courts, CDL employers (also required by federal law), and 
insurance companies for purposes of rate setting. In addition, 
this information is released to the Office of Child Support 
Enforcement, and other state agencies.
    A significant amount of time is spent training document 
examiners in state DMVs with experts from the FBI and 
Immigration and Naturalization Service on document and identity 
fraud. AAMVA has developed a Fraudulent Identification 
Prevention Program (FIPP) in conjunction with the National 
Highway Traffic Safety Administration (NHTSA) aimed at training 
motor vehicle employees on fraud, document examination, 
forgeries, and correct identification of documents presented to 
establish identity. It is important for us to point out that 
motor vehicle agencies stop customers every day for fraudulent 
documents and prosecute offenders to the fullest extent of 
their state laws. AAMVA members are also frequently called to 
serve as expert witnesses at fraud trials based on their 
significant expertise in document examination and fraud 
detection.

9. Do States collect SSN information solely for law enforcement 
and public safety reasons? Are SSNs used by the States for any 
other purposes? Do states transfer, sell, or share SSN data to 
third partied under any circumstances?

    As we mentioned in our answer to the previous question, the 
federal Driver's Privacy Protection Act bars state motor 
vehicle agencies from disclosing, releasing, or selling SSNs to 
anyone. It is permissible to release this data to law 
enforcement agencies, courts, insurance companies, and 
companies seeking to employ commercial drivers. Within the 
state, SSNs are shared with other state agencies, but only for 
the purposes of law enforcement, public safety, and child 
support.

10. How many pieces of identifying information do states 
collect (for example, name, gender, age, address, etc.). With 
so many pieces of identifying information, why is the SSN 
needed to positively identify an individual?

    The number of pieces of identifying information required by 
states varies according to state law. AAMVA has developed a 
policy statement (DLC Policy 05.10, copy attached) that 
outlines acceptable identification documents as a guideline for 
the states, and this policy statement has been adopted by the 
AAMVA membership. This policy statement recommends that at 
least one primary and one secondary document be required from 
the applicant for identity verification. Aside from the 
identifying information you mention, states also collect 
telephone numbers, addresses, height, weight, vision 
restrictions, gender, eye color, hair color, SSN, and 
photograph, etc.
    The SSN is a cross-jurisdictional number that uniquely 
identifies the holder of the number and is used behind the 
scenes to break ties between multiple matches. The image and 
signature have limited usefulness. Signatures and even pictures 
can sometimes uniquely identify individuals, but not those who 
have a close resemblance or similar handwriting. Without the 
ability to use an SSN to uniquely identify an individual, DMV 
databases will retrieve multiple matches on common names and it 
will not be possible to guarantee that the correct record will 
be queried or updated. Commonality in names, particularly in 
the Latino community, makes this problem particularly 
troublesome in states with large populations.

11. You indicated that your members have continued their 
efforts to enhance the security of driver license credentials. 
Could you describe these efforts?

    In addition to the acceptable identification documents 
policy, AAMVA has also developed a policy statement (DLC Policy 
02.7) that defines acceptable physical security features to be 
incorporated on the license or identification card and 
encourages jurisdictions to use at least one overt and covert 
security feature in the design of their license to reduce fraud 
and counterfeiting. A copy of this policy statement is also 
attached.
    The initiative to create driver license standards has been 
underway within the AAMVA community for decades. Since early 
1997, AAMVA has worked with the American National Standards 
Institute (ANSI) to publish a standard for the driver license 
and identification card.
    Due to the overwhelming need for immediate direction in 
this area, effective June 30, AAMVA will electronically publish 
the first AAMVA National Standard for the driver license/
identification card (DL/ID). The Association continues to 
pursue American National Standards Institute approval. The 
standard contains detailed specifications on what a DL/ID 
should contain and how the information would be encoded in 
various machine readable technologies. In addition, the 
Standard also gives guidance in the area of security: physical 
(features like holographics), data (encryption), and personal 
(biometrics like finger imaging).

12. In your testimony you indicated that 49 states allow 
individuals to have a number on their driver's license other 
than the SSN. However, SSNs are used for checking information 
across state lines and with SSA. If you stopped using the SSNs 
for that purpose, wouldn't the DMV-issued number that actually 
appears on the license become in effect a new national 
identifier, putting us back in the same place we started?

    That would be the case only if the drivers license number 
is nationally administered in conjunction with federally 
authorized standards. Currently, each state issues a different 
unique identifier and since there is no uniformity at the state 
level, it would be impossible to consider the state issued 
alternate identifier as a ``national'' identifier. The non-
uniform alternative would create havoc for the many data 
exchange systems such as the Commercial Drivers License 
Information System (CDLIS) or the Problem Driver Pointer System 
(PDPS) mandated by Congress and utilized by DMVs to ensure that 
drivers only hold one license, that bad drivers are taken off 
the road, and that violations and convictions are recorded on 
the correct driving record. The ability to uniquely identify 
individuals is of paramount importance to DMVs and law 
enforcement officers as well. Without a standardized approach, 
AAMVA believes the incidence of identity theft and fraud would 
increase greatly.

13. Why do some states (Hawaii and Washington, D.C.) still 
require the SSN to be displayed on driver's licenses? Why don't 
they use their own internal identifying numbers?

    Following the recent hearing, we updated our information on 
which jurisdictions offer their residents the option to display 
their SSN or an alternate number on the license. We learned 
that the District of Columbia does provide residents with an 
option. So currently, 50 jurisdictions allow citizens to use 
another number as the driver license number. We have also 
learned that the State of Hawaii will plan to make the use of 
the SSN optional as of January 1, 2001, bringing every state on 
board as either prohibiting the SSN from being displayed or 
giving consumers the option. The use of the SSN behind the 
scenes will continue to be an important tool for our members to 
fulfill their missions and to enhance public safety. Our next 
step is to determine what percentage of citizens have opted to 
not use the SSN.

                10. ACCEPTABLE IDENTIFICATION DOCUMENTS

    Any applicant for an original or initial driver license or 
identification card shall be required to submit at least one 
primary document and one secondary document as approved by the 
Driver Licensing and Control Committee. A primary document must 
contain the applicant's full name and date of birth and must be 
verifiable.
    Additional documentation may be required by the licensing 
agency if the documentation provided is questionable.
    Licensing agencies shall publish information which contains 
identification procedures and lists acceptable documents.

                           Primary Documents

    <bullet> U.S. Canadian photo driver license
    <bullet> U.S. or Canadian photo ID card
    <bullet> Microfilm / copy of a driver license or ID card 
certified by the issuing agency
    <bullet> Certificate of birth (U.S. or Canadian issued). 
Must be original or certified copy, have a seal and be issued 
by an authorized government agency such as the Bureau of Vital 
Statistics or State Board of Health. Hospital issued 
certificates and baptismal certificates are not acceptable.
    <bullet> INS documents (must be a valid unexpired document) 
as follows:
    --Certificate of Naturalization (N09550, N09570, or N09578)
    --Certificate of Citizenship (N09560, N09561 or N09645)
    --Northern Mariana Card
    --American Indian Card
    --U.S. Citizen Identification Card (I09179 or I09197)
    --Resident Alien Card (I09551)
    --Temporary Resident Identification Card (I09688)
    --Record of Arrival and Departure (in a valid Foreign 
Passport) (I0994)
    --Valid foreign Passport containing an I09551 stamp
    --U.S. Re-entry Permit (I09327)
    --Refugee Travel Document (I09571)
    --Employment Authorization card (I09688A, I09688B, I09766)
    --Record of Arrival and Departure, stamped ``Refugee'' 
(I0994) (Refugee I'94's will likely not be in a foreign 
passport)
    <bullet> Canadian Immigration Record and Visa or Record of 
Landing (IMM 100)
    <bullet> Active Duty, Retiree or Reservist military ID card
    <bullet> Valid Passport, U.S. or Canadian. If foreign 
passport, appropriate INS document is also required.
    <bullet> U.S. or Canadian issued learner's permit. An out-
of-state or province issued permit is acceptable only if it 
contains a photo.
    <bullet> Canadian Department of Indian Affairs issued ID 
card. Tribal issued card is not acceptable. U.S. issued 
Department of Indian Affairs card is not acceptable.

                          Secondary Documents

    <bullet> All primary documents
    <bullet> Court order. Must contain full name, date of birth 
and court seal. Examples include adoption document, name change 
document, gender change document, etc. Does not include 
abstract of criminal or civil conviction.
    <bullet> INS documents listed above, under Primary 
Documents, which are expired one year or less
    <bullet> Bureau of Indian Affairs Card/Indian Treaty Card. 
Tribal ID card is NOT acceptable. NOTE: Some Tribal ID Cards 
are actually more reliable than the BIA card. Motor vehicle 
agencies should make a determination on whether to accept the 
card based on their own research of what is acceptable.
    <bullet> Employer photo ID card
    <bullet> Foreign birth certificate. Must be translated by 
approved translator.
    <bullet> Health insurance card, i.e., Blue Cross/Blue 
Shield, Kaiser, HMO.
    <bullet> IRS/state tax form. W092 NOT acceptable.
    <bullet> Marriage certificate/license
    <bullet> Medical records from doctor/hospital
    <bullet> Military dependent ID card
    <bullet> Military discharge/separation papers
    <bullet> Parent/guardian affidavit. Parent/guardian must 
appear in person, prove his/her identity and submit a 
certified/notarized affidavit regarding the child's identity. 
Applies only to minors.
    <bullet> Gun permit
    <bullet> Pilots license
    <bullet> School record/transcript. Must be certified.
    <bullet> Social security card. Metal card is NOT 
acceptable.
    <bullet> Social insurance card (for Canadian residents 
only).
    <bullet> Student ID card. Must contain photo.
    <bullet> Vehicle title. Vehicle registration NOT 
acceptable.
    <bullet> Photo public assistance card
    <bullet> Prison release document.
    Additional documentation may be required at the 
jurisdiction's discretion if documentation submitted is 
questionable or if the issuing agency has reason to believe the 
person is not who s/he claims to be.
    In exceptional circumstances where a primary/secondary 
document contained on this list is not available, personnel 
authorized by the licensing agency may accept alternative 
documents to verify a person's identity. [Amended 1997]
      

                                <F-dash>


                                                       July 7, 2000
The Honorable E. Clay Shaw, Jr., Chairman
Subcommittee on Social Security
Committee on Ways and Means
U.S. House of Representatives
Washington, DC 20515

Re: Questions in relation to Social Security Numbers

    Dear Chairman Shaw:

     I am writing on behalf of the American Council of Life Insurers 
(ACLI) in response to your letter of May 31, 2000, posing several 
questions in relation to the use and misuse of Social Security numbers 
(SSNs). The ACLI is pleased to have the opportunity to elaborate on our 
testimony of May 11, 2000. The questions and our responses are as 
follows:

1. Are there any legitimate uses of the SSN that you think should be 
allowed (such as law enforcement)?

     Yes, in fact , the ACLI strongly believes that there are a number 
of legitimate uses of SSN that greatly benefit American insurance 
consumers. As indicated in our testimony before your subcommittee, the 
very nature of life, disability income and long term care insurance 
involves personal and confidential relationships. However, insurers 
which sell these products must be able to obtain, use, and share their 
customers' health and nonpublic personal information, including their 
social security numbers, to perform legitimate insurance business 
functions. These functions are essential to insurers' ability to serve 
and meet their contractual obligations to their existing and 
prospective customers.
     Insurers sometimes must use proposed insureds' SSNs in order to 
obtain medical information, essential to underwriting, from doctors and 
hospitals which use SSNs as identification numbers. Insurers may also 
use SSNs to obtain motor vehicle record information relevant to an 
application for coverage. (Motor vehicle information is sometimes used 
by insurers as one factor in assessing risk.)
     Once an insurance policy is issued, insurers use their customers' 
personal information, including SSNs, to perform essential, core 
functions associated with an insurance contract, such as claims 
evaluations and policy administration. In addition, insurers also use 
this information to perform important business functions, not 
necessarily directly related to a particular insurance contract, but 
essential to the administration or servicing of insurance policies 
generally, such as, for example, development and maintenance of 
computer systems. The ability to use this information for these 
purposes is crucial. Service and administration are fundamental parts 
of insurers' relationship with their customers.
     Insurers use SSNs to verify the identity of policyholders. They 
use them to authenticate the identity of individuals who call into call 
centers in order to get information about a particular policy or 
policies. SSNs are also used to help a customer locate lost policies or 
verify all of the policies they may have with a particular insurer. 
SSNs are used by insurers to locate missing policyholders to whom they 
may owe money. Insurers use SSNs in connection with the administration 
of pension plans, as identification numbers. They use them as PIN 
numbers for customers' use of on-line services. They use them in 
connection with payroll deduction under group insurance coverage 
provided by an employer to its employees.
     Life, disability income, and long term care insurers must 
regularly disclose personal health and financial information, which is 
likely to include SSNs, to: (1) state insurance departments as a result 
of their general regulatory oversight of insurers, which includes 
regular market conduct and financial examinations of insurers; (2) 
self-regulatory organizations, such as the Insurance Marketplace 
Standards Association (IMSA), which imposes and monitors adherence to 
requirements with respect to member insurers' conduct in the 
marketplace; and (3) state insurance guaranty funds, which seek to 
satisfy policyholder claims in the event of impairment or insolvency of 
an insurer or to facilitate rehabilitations or liquidations which 
typically require broad access to policyholder information.
    Life, disability income, and long term care insurers need to (and, 
in fact, in some states are required to) disclose personal information, 
including SSNs, in order to protect against or to prevent actual or 
potential fraud. Such disclosures are made to law enforcement agencies, 
state insurance departments, the Medical Information Bureau (MIB), or 
outside attorneys or investigators, which work for the insurer.
     Insurers are required to use SSNs to report to the IRS a variety 
of payments including, but not limited to, interest payments, certain 
dividends, and policy investigations. At least one state, Rhode Island, 
requires that insurers match ``deadbeat'' parents data before making 
payments on claims. SSNs are required for that matching.
    In the event of a proposed or consummated sale, merger, transfer, 
or exchange of all or a portion of an insurance company, it is often 
essential that the insurer be able to disclose company files. 
Naturally, these files can contain personal information, including 
SSNs. Such disclosures are often necessary to the due diligence process 
which takes place prior to consummation of the deal and are clearly 
necessary once the deal is completed when the newly created entity 
often must use policyholder files in order to conduct business. 
Insurers also frequently enter into reinsurance contracts in order to, 
among other things, increase the amount and volume of coverage they can 
provide. These arrangements, too, necessitate the disclosure of 
personal information, including SSNs, by the primary insurer to the 
reinsurer.

2. Many people are annoyed by the fact that they have to give up their 
SSN for practically any business transaction. How would you feel about 
a proposal that would prohibit businesses from denying services to 
customers who refuse to disclose their SSNs?

    ACLI member companies would be strongly opposed to a proposal that 
would prohibit businesses from denying services to customers who refuse 
to disclose their SSNs. As indicated above, insurers must be able to 
use consumers' personal information, including their SSNs in order to 
perform essential business functions, as described above. If consumers 
were to be permitted to withhold SSNs, it would be
    extremely difficult, if not impossible, for insurers to provide 
consumers with the coverage, service, benefits, and economies that 
otherwise would be available. As also noted above, there are a number 
of disclosures of SSNs which insurers are required to make by law, such 
as disclosures to the IRS and law enforcement agencies.

3. The fact that SSNs are so widely used indicates that there is a need 
for a unique personal identifier. If the use of SSNs is restricted, do 
you think another personal identifier will take its place?

     The ACLI has no policy with respect to use of personal identifiers 
other than SSNs.

4. In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics? Will the debate over the 
privacy and security of SSNs eventually be overtaken by new 
technologies that are more accurate, more personalized, and more secure 
from abuse? Does your industry anticipate and support such 
developments?

     The ACLI is not in a position to anticipate what types of personal 
identifiers will be used in the future and has no policy regarding 
future development of alternative personal identifiers.

5. Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples? If 
SSN use were restricted, what would be the downside for consumer?

     As stated in our response to question #1, insurers use SSNs in a 
multitude of ways to benefit consumers. If insurers' use of SSNs were 
to be restricted, the downside to consumers would include the 
following, among other things: (1) fraud investigations would be 
impaired, the ultimate cost of which would be borne by consumers; (2) 
if insurers were to be prohibited from using SSNs to obtain medical 
information necessary to underwriting, the risk classification process 
would be jeopardized, which, in a nut shell, could jeopardize insurers' 
ability to pay consumer customers' future claims and insurers' ability 
to keep their products widely available at affordable prices, as they 
are now in this country; (3) it would make it difficult, if not 
impossible, for insurers to authenticate and quickly serve customers 
who phone into call-in centers and to locate missing customers to whom 
they may owe monies; (4) it would make it more difficult for insurers 
to administer employee benefit plans, likely to result in increased 
administrative costs which, again, ultimately are likely to be borne by 
consumers; (5) it would jeopardize market oversight activities by state 
insurance departments and insurance self-regulatory organizations, 
jeopardizing the consumer protections devolving from these activities; 
and (6) it would make more difficult the operation of state guaranty 
funds which seek to pay consumer claims in the event of an insurer's 
insolvency or impairment.

6. If the use of SSNs was restricted by Federal law, what impact would 
it have on your operations?

     Our responses to questions #'s 1 and 5 address the importance of 
insurers' use of SSNs to insurers' day to day operations and their 
ability to serve their existing and prospective customers. In general, 
restrictions on insurers' ability to use SSNs would make it much more 
difficult for them to issue new insurance policies, to service and 
fulfill their contractual obligations under existing insurance 
contracts, and to engage in other ordinary business transactions. It 
would make it virtually impossible for insurers to make required 
reports to the IRS and other government agencies, including law 
enforcement agencies and state insurance departments.

7. Your testimony indicates that you often share personal information 
with third parties who administer, serve, or enforce insurance 
policies. Do these third parties, in turn, share or sell the 
information to others? Do you know how these third parties protect the 
information which you give them?

     Third parties to whom insurer financial institutions disclose 
nonpublic personal information, including SSNs, are bound by the Gramm-
Leach-Bliley Act (GLBA)
     Title V privacy provisions. Under Section 502(c) of the GLBA, 
third parties recipients of information from financial institutions may 
only disclose nonpublic personal information to a nonaffiliate of the 
financial institution or the receiving third party the same extent to 
which the GLBA permits the financial institution to disclose the 
information.
     Section 502 of the GLBA provides that, subject to specific, 
limited exceptions, a financial institution may not disclose nonpublic 
personal information, including SSNs, to a nonaffiliated third party 
unless: (a) the financial institution has clearly and conspicuously 
disclosed to the consumer that such information may be disclosed; (b) 
the consumer is given the opportunity, before the information is 
disclosed, to direct that the information not be disclosed; and (c) the 
consumer is given an explanation of how the consumer can exercise that 
nondisclosure (or ``opt-out'') option. (Attachment A -copy of Title V 
of the GLBA)

8. If sharing personal information is necessary in the insurance 
business, do you disclose to your customers who the information is 
shared with and how it is used?

     Insurer financial institutions are subject to the extensive GLBA 
notice requirements. Section 503(a) of the GLBA requires that at the 
time of establishing a customer relationship and not less than annually 
during the continuation of such relationship, a financial institution 
shall provide clear and conspicuous disclosure to such consumer of such 
financial institution's policies and practices with respect to: (a) 
disclosing nonpublic personal information, including SSNs, to 
affiliates and nonaffiliated third parties, including the categories of 
information that may be disclosed; (b) disclosing nonpublic personal 
information of persons who have ceased to be customers of the financial 
institution; and (c) protecting the nonpublic personal information of 
consumers.
     Section 503(b) elaborates on the information that must be included 
in these notices and requires that they also include descriptions of: 
(a) the categories of persons to whom the information is or may be 
disclosed; (b) the categories of nonpublic personal information 
collected by the financial institution; (c) the policies that the 
institution maintains to protect the confidentiality and security of 
the information; and (d) the disclosures required, if any, under the 
Fair Credit Reporting Act.

9. You note that the privacy provisions in the recently enacted Gramm-
Leach-Bliley Act subject insurers to the most stringent privacy 
regulations ever imposed in the United States. When you share personal 
information with third parties, are these third parties subject to the 
same privacy provisions or do you lose control of what happens to the 
information once it is given to a third party?

    Our response to question #7 also addresses this question.

10. You note that prohibiting the use or sharing of SSNs would make it 
almost impossible to provide consumers with certain services. How were 
these services provided before the widespread use of SSNs? Has the SSN 
always been the primary identifier in the insurance industry?

     Given the length of time SSNs have been used by insurers and the 
multitude of ways in which insurers now use them, a prohibition or 
restriction on the use of SSNs would make it almost impossible to 
provide consumers with many of the services currently available. 
Moreover, the many changes in the insurance industry and technology 
over the last few years, make it questionable whether practices that 
worked successfully twenty five or thirty years will work today. Many 
of the purposes for which SSNs are now used did not exist years ago. 
Moreover, a requirement that insurers return to their previous 
practices, whatever they were, would involve extensive and expensive 
changes in current practices.
    We appreciate your continued consideration of our views and would 
be glad to respond to any additional questions that you may have in 
relation to this very important issue.
            Sincerely,
                                           Roberta B. Meyer

                                <F-dash>

                            Associated Credit Bureaus, Inc.
                                  1090 Vermont Avenue, N.W.
                                                  Suite 200
                                 Washington, DC 20005094905
                                                  November 17, 2000

The Honorable Clay Shaw
Committee on Ways and Means
Subcommittee on Social Security
U.S. House of Representatives
Washington, D.C. 20515

    Dear Chairman Shaw:

    I was contacted by George Penn on your staff regarding a letter you 
submitted to the Associated Credit Bureaus in May of this year which 
outlined a series of questions in follow up to our testimony before 
your Committee. Below are answers to your questions.
    Q.1 Many people are annoyed by the fact that they have to give up 
their SSN for practically any business transaction. How would you feel 
about a proposal that would prohibit businesses from denying services 
to customers who refuse to disclose their SSNs?
    A.1 Consistent with our testimony, the SSN plays a vital role in 
both the consumer reporting agency's ability to build accurate data 
bases and to extract data from these data bases.
    Where, as a result of this proposal, data furnishers such as 
creditors are providing data to consumer reporting agencies without an 
SSN, our members will likely not load data with the same degree of 
precision. This is particularly true where a new account has been 
opened and is being added to the consumer's file for the first time. 
Consumer reporting agencies of all types have, under the Fair Credit 
Reporting Act, a duty to maintain reasonable procedures to ensure the 
maximum possible accuracy of the file. The absence of an SSN will 
diminish the ability of the agency to meet this requirement of current 
law.
    Another likely unintended consequence of this proposal would be 
diminished ability to identify the proper file of the consumer where 
he/she has applied for credit. If a consumer reporting agency cannot, 
with precision, identify the proper file of the consumer it returns a 
message to the creditor indicating that no record was found. This 
result would likely lead to far higher credit denials for consumers due 
to the inability of the creditor to review the consumer's credit 
history. Said differently, the Fair Credit Reporting Act certainly does 
not contemplate the consumer reporting agency ``taking a guess'' as to 
which consumer's file must be accessed and thus this current liability 
coupled with the absence of the SSN would seriously impinge on the way 
in which credit is granted in this country today.
    As we stated in our testimony, according to the U.S. Census Bureau, 
42 million consumers move every year. Added to this are millions of 
marriages and divorces. Other traditional items of identifying 
information are not always stable and thus the SSN is extremely 
important to our industry's ability to comply with current law.
    Q.2 The fact that the SSN is so widely used indicates that there is 
a need for a unique personal identifier. If the use of SSNs is 
restricted, do you think another personal identifier will take its 
place.
    A.2 Clearly the market would have to attempt to find alternative 
methods of identification.
    If unique identifiers are not consistent across various systems, 
however, then child support enforcement efforts, for example, will 
diminish. In fact, all systems of location, which are used today to 
locate heirs to estates, stock holders for proxy votes, debtors who 
haven't paid their bills, organ or blood donors, and for other 
purposes, would be greatly diminished in effectiveness. Further, fraud 
prevention systems that are used to reduce the incidence of identity 
theft, or to authenticate consumers in an e-commerce or bricks-and-
mortar context will be rendered less effective, as well.
    Said differently, after having verified that a consumer is 
legitimate, a bank, for example, can then create a unique identifier 
such as a customer or PIN number. But as long as the bank is dependent 
on third-party sources to cross check applicant data, unique 
identifiers must cut across external data sources.
    Q.3 In the next 10 or 20 years, what do you think will be used to 
identify people who apply for credit or other commercial services? Will 
it be the SSN? Some other number? Biometrics? Will the debate over the 
privacy and security of SSNs eventually be overtaken by new 
technologies that are more accurate, more personalized, and more secure 
from abuse? Does your industry anticipate and support such 
developments.
    A.3 Our industry clearly supports and expects the continued 
evolution of technologies that allow for crime-free consumer-to-
business and even business-to-business transactions. It is difficult 
for us to hypothesize about which technologies will be effective and 
acceptable to consumers. Consistent with our answer to question 2, 
there will continue to be a need for systems of identification that cut 
across industries and data bases to assure fraud prevention, location 
and more.
    Q.4 Stories of identity theft and SSN misuse highlight the negative 
consequences of widespread SSN use. However, does the widespread use of 
SSNs benefit consumers in certain ways? Can you give us examples? If 
SSN use were restricted, what would be the downside for consumers?
    A.4 The SSN allows for consistency across various systems and data 
bases. The benefits are manifold for consumers and society in general.
    Child Support--For example, child support enforcement efforts are 
far more effective in accomplishing their mission where the SSN is 
used. One agency reports that they are able to locate fully 80% more 
delinquent non-custodial parents when the SSN is available.
    Locator Services--The SSN increases the effectiveness of all 
locator/skip tracing systems, which are used today to locate heirs to 
estates, stock holders for proxy votes, debtors who haven't paid their 
bills, organ or blood donors, and for other purposes, would be greatly 
diminished in effectiveness. Further a number of states report that use 
of SSNs to match across data bases has greatly reduced entitlement 
fraud.
    Fraud Prevention--The SSN also helps businesses to prevent fraud by 
cross-checking applicant data against various other data sources in 
order to authenticate the consumers identity. Absent the use of an SSN, 
these systems will be far less likely to trigger security protocols, 
which prevent the crime of identity theft.
    Q.5 If the use of SSNs was restricted by Federal law, what impact 
would it have on your operations.
    A.5 In part our answer would have to be predicated on the 
restrictions imposed. In general our answers to the questions above 
provide a good overview of the consequences of a very broad 
restriction.
    Q.6 On May 9, we heard testimony from a couple (Lt. Col. Stevens 
and Mrs. Stevens) who have had their identities stolen. Their story 
raised several troubling issues.
    First, the Stevens told us that fraudulent accounts were opened 
using their SSNs even though all of the information on the applications 
was incorrect, including their names, addresses and birth dates. The 
SSN was the only piece of information that was correct on the 
applications.
    A second troubling issue is that credit reporting agencies verified 
this incorrect information. Variations of a name, address, place of 
employment, age, or spouse's name were not questioned -if the SSN 
matched up, the information was verified and the fraudulent application 
was approved.
    a. Can you explain how these fraudulent applications could have 
been verified and approved?
    A.a This question is best answered by the business that approved 
the application.
    b. Why did the credit reporting system fail in this case?
    A.b Since ACB does not have access to the Stevens' file, nor to the 
particulars of the situation, we cannot provide any answer other than 
to say that our systems are designed to accurately identify a 
consumer's record when correct identifying information is submitted.
    c. Under current law, are creditors and credit reporting agencies 
accountable when their negligence contributes to identity theft and 
other SSN misuses? Do you think that creditors and credit reporting 
agencies should share responsibility in such cases.
    A.c Identity theft is a crime that affects consumers, credits and 
consumer reporting agencies. The consumer reporting industry has 
voluntarily established initiatives to help victims of identity theft. 
Further, the industry is already regulated by extensive law (15 U.S.C. 
1681 et seq.) which creates duties for consumer reporting agencies to 
build accurate files, limit the uses of such data and ensure files are 
properly identified. Criminals who perpetrate this crime should be 
punished and ensure that there is a deterrent for others who might 
otherwise consider perpetrating identity theft.
    Q.7 One of the disturbing items from the testimony by the Stevens 
was their statement that the collection agencies did not believe them. 
They had to prove they were victims of identity theft. What would you 
say to the Stevens? Should the burden of proof fall on the victims of 
identity theft?
    A.7 Under the Fair Debt Collection Practices Act a consumer has the 
right to request that the debt collector validate the account in 
question. We encourage the committee to review the duties and consumer 
protections in this law as you evaluate the Stevens' situation.
    Q.8 The Stevens explained that they have been prevented from buying 
a home, establishing credit accounts, or making normal purchases 
because their credit was ruined by no fault of their own. How do credit 
reporting agencies assist identity theft victims today?
    A.8 In addition to the duties a consumer reporting agency has under 
the Fair Credit Reporting Act, see the attached initiatives which the 
industry announced in March of this year.
    Q.9 When someone's credit is ruined because of the identity theft, 
how long does it take to clear the bad credit from the victim's credit 
report? The Stevens complained that bad accounts are recycled through 
the same collection agency or they are turned over to the other 
collection agencies so that the same bad debt keeps reappearing on the 
credit report. Can you explain to us how the process works?
    A.9 It is difficult to make a general statement about the time 
frame for clearing a file. The Fair Credit Reporting Act requires that 
a reinvestigation of disputed data be resolved within 30 days. The 
extent of the crime is the key factor in clearing a consumer's record. 
We cannot comment on the practices of other industry segments with 
regard to an account being transferred to multiple collection agencies.
    Q.10 You note in your written testimony that your members collect 
SSNs only when they are voluntarily provided by consumers. But isn't it 
true that in many cases, consumers must provide their SSNs to receive 
credit? For example, can a customer be approved for a mortgage without 
giving his or her SSN? If consumers must provide SSNs to receive 
services, how voluntary is this disclosure?
    A.10 It is likely true that many creditors, in order to properly 
identify the consumer, prevent fraud and ultimately approve credit, do 
need the SSN. It would be best to explore this question further with 
the creditor community.
    Q.11 Your members' use of the SSN is governed by the Fair Credit 
Reporting Act. In addition, you have a long list of voluntary 
initiatives your members have undertaken to combat identity theft and 
SSN misuse. Do all of your members follow these initiatives? What 
happens to them if they don't? Despite these efforts, fraudulent uses 
of SSNs is on the rise. Does this indicate that existing laws are not 
being enforced effectively or perhaps self-regulation is not working? 
What recommendations do you have to reduce SSN misues?
    A.11 Our largest members, which operate nationwide consumer 
reporting systems, are implementing the initiatives discussed in our 
testimony. Due to the nature of our industry, the implementation of the 
initiatives by the nationwide systems will effectively extend them to 
our other members as well. We do believe that self-regulatory programs 
are an essential component of the solution to the problem of identity 
theft. We also agree that the laws that are on the books must be 
enforced and in particular the newly enacted Identity Theft Assumption 
and Deterrence Act of 1998 as well as Title V, Subtitle (b) of Gramm-
Leach-Bliley, which prohibits the practice of pretext calling. 
Regarding SSN misuse, we believe consumer education can be an essential 
component of the solution. ACB is working towards consumer education 
efforts that should help consumers make better decisions about 
protecting sensitive information.
    Q.12 How does a consumer reporting agency get its information? How 
does it determine what information to place in a record and what 
information not exclude [sic]? How is the authenticity of the 
information verified to ensure that incorrect information is not being 
posted?
    A.12 Our testimony generally addresses the types of information we 
gather and the sources from which we receive it. Creditors, collection 
agencies and other data sources including the Department of Education 
report data on regular cycles. The market place generally determines 
what information is of value and thus what data is included in a 
consumer report. The definition of a ``consumer report'' under the FCRA 
is purposely broad to ensure that a wide range of information sources 
are in fact governed by the Act and thus consumers are protected in 
terms of rights and an expectation that duties will be fulfilled. In 
terms of authenticity, data furnishers must first be evaluated to 
ensure that they are legitimate businesses, and that they can provide 
accurate information for data is accepted.
    We look forward to working with you to ensure that consumer's 
Social Security Numbers are used responsibly and appreciate the efforts 
of your staff to understand our industry's practices and concerns.
    Sincerely,
                                            Stuart K. Pratt
                                                     Vice President
                                               Government Relations
      

                                <F-dash>


     This hearing is adjourned.
    [Whereupon, at 4:52 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

                          American Target Advertising, Inc.
                                   Manassas, Virginia 20110
                                                       May 10, 2000
The Honorable E. Clay Shaw
Chairman
Subcommittee on Social Security
2408 Rayburn HOB
Washington, D.C. 20515

Re: Hearings on Social Security Number Misuse

    Dear Chairman Shaw:

    I became aware of your hearings on social security number misuse 
only last evening when watching C-Span, so I apologize for not getting 
these comments to you earlier.
    I am President of Operations and General Counsel for American 
Target Advertising, Inc. (``ATA''). ATA is a direct marketing agency 
whose only office is in Manassas, Virginia. ATA's marketing services 
include a variety of fundraising-related activities, including advising 
and counseling clients about the use of direct mail and preparing 
direct mail letters for its clients. ATA's clients include political 
campaigns as well as nonprofit organizations under Internal Revenue 
Code sections 501(c)(3) and 501(c)(4). Recently, ATA began to expand 
its fundraising activities for its various political clients by 
providing a small telemarketing operation to both supplement the direct 
mail fundraising messages and to raise additional funds from active 
supporters.
    When acting in a capacity for its nonprofit clients' direct mail, 
ATA must register as a fundraising counsel (or consultant, as it is 
also called) in a number of states that have what are known as 
charitable solicitation laws. ATA is obligated to register in many 
states before its nonprofit clients may mail letters into those states 
even though ATA does not conduct business in those states.\1\ A growing 
number of counties and cities are enacting similar laws. Pinellas 
County, Florida is one of those counties. As part of its licensing 
application, Pinellas County requires the drivers license number of 
various employees of the applicants for a professional fundraising 
consultant's license. See Attachment A.
---------------------------------------------------------------------------
    \1\ ATA has challenged the constitutionality of such laws under 
First Amendment, Commerce Clause and Due Process grounds, and has 
recently filed a petition with the United States Supreme Court to ask 
the Court to determine whether such licensing laws are constitutional.
---------------------------------------------------------------------------
    I notified the appropriate officials in Pinellas County that the 
Virginia drivers license number is actually the same as one's social 
security number. I informed those officials that under the Federal 
Privacy Act, it is unlawful to require the submission of one's social 
security number as a condition for the issuance of a separate state 
license. I was informed by those officials that they would not heed the 
Federal Privacy Act. ATA refused to provide those numbers in its 
application for a fundraising counsel license, and Pinellas County 
rejected ATA's license application.\2\
---------------------------------------------------------------------------
    \2\ The state of Utah's licensing application also required the 
listing of the social security number of the registered agent of a 
fundraising counsel. However, such part of the application was added at 
the discretion of the Director of the Division of Consumer Affairs. The 
portion of the Utah Charitable Solicitations Act which gave the 
Director such discretion was declared unconstitutional on its face in 
American Target Advertising, Inc. v. Giani, 199 F.3d 1241 (10th Cir. 
2000).
---------------------------------------------------------------------------
    On May 19, 1999, I wrote to the General Counsel of the Social 
Security Administration, noting that Pinellas County required the 
drivers license numbers of employees (and thus their social security 
numbers) on licensing application forms in violation of the Federal 
Privacy Act. I asked for the assistance of the Social Security 
Administration in enforcing the protection of social security numbers 
in light of the Pinellas County application form. See Attachment B. I 
received a reply dated October 18, 1999 from Associate General Counsel 
Michael Hoover noting that the SSA has no authority to enforce the 
Federal Privacy Act. See Attachment C.
    Since then, ATA has reviewed the applications required to register 
to conduct telephone solicitations into various states under various 
charitable solicitation laws. In its review thus far, ATA has found 
that a number of states require either the drivers license numbers or 
social security numbers of ATA's employees as a condition to obtain a 
license to make solicitation calls on behalf of ATA's nonprofit 
clients. Some of those states, their statutes, and the corresponding 
license application forms are as follows: Alabama (Alabama Code section 
13A0990971), Attachment D at item 13; Illinois (Illinois Charitable 
Organization Laws Ch. 23, par. 5108), Attachment E at item 6; 
Mississippi (Regulation of Charitable Solicitations section 
79091109517), Attachment F at item 2; New York (Article 7-A of the 
Executive Law Solicitation and Collection of Funds for Charitable 
Purposes section 173-b), Attachment G at Item 7; South Carolina 
(Solicitations of Charitable Funds Act section 33095609110), Attachment 
H item 3; Tennessee (Tennessee Charitable Solicitations Act section 
480910109507), Attachment I item 5.
    With the concerns that the Subcommittee has with regard to the 
misuse of social security number, I ask that the Subcommittee consider 
the deplorable fact that states and their principal law enforcement 
officials (typically the attorneys general) require the public 
disclosure of individuals' social security number. These license 
applications are made available to the public. See, e.g., South 
Carolina's statute, section 3309560980, which reads in relevant part, 
``Registration statements and applications . . . and information 
required to be filed under this chapter . . . are public records in the 
Office of the Secretary of state and are open to the general public for 
inspection at such time and under such conditions as the Secretary of 
State may prescribe.''
    In other words, states, counties and cities, and their highest 
ranking law enforcement officials are inviting the misuse of social 
security numbers under laws and/or licensing application forms that 
already violate the Federal Privacy Act. This is doubly troubling, and 
in my opinion even more egregious than any misuse of social security 
numbers by private firms that may not be aware of such misuse of social 
security numbers. The ironic part about this whole situation is that 
the states claim that they need these licensing laws to prevent fraud. 
In fact, they open the doors to consumer fraud by requiring these 
numbers for public inspection.
    It is incumbent on government officials to apply the laws 
correctly. As with Pinellas County, which was warned that their 
licensing application form violates the Federal Privacy Act and 
increases the chances of misuse of social security laws, many of the 
state officials to whom I have addressed these facts have not been 
merely complacent, but have been defiant.
    I hope that the Subcommittee will look into this matter. While I am 
aware of these laws as they affect agencies like ATA, which is an 
admittedly small segment of businesses, this is a problem the nature of 
which I am relatively certain is more expansive than just within my 
particular industry.
    I thank you for the opportunity to submit these comments. I 
apologize for their haste in the making, but I would be willing to 
answer more questions at the Subcommittee's request.
            Very truly yours,
                                        Mark J. Fitzgibbons
                                        President of Operations and
                                                    General Counsel

Enclosures
    [Attachments are being retained in the Committee files.]
      

                                <F-dash>


                                                  Mineral, Virginia
                                                       May 11, 2000
Committee On Ways and Means
Subcommittee On Social Security
Hearings of May 9, 2000 and May 11, 2000

    The following is a prepared written testimony to be recorded with 
the hearings on Tuesday May 9 and Thursday May 11, 2000 regarding `` 
Use and Misuse of Social Security Numbers.'' This written testimony is 
submitted by Robert J. Anderson of Mineral Virginia, a private citizen.

                    What Social Security Means to Me

    I am a victim of Social Security number misuse. Last year, 
it was my privilege to testify before the Joint Commerce 
Committee's on April 22, 1999 (Serial 1060916 Cong. Record) 
regarding the issue of the new criminal law HR 4151 (18 U.S.C. 
1028) and Identity Theft. I deeply regret that I was out of 
town when your office called me to testify in person, but 
nonetheless, want to submit this written update to my previous 
Congressional Record testimony.
    In prior testimony, Identity Theft: Is There Another You? 
(April 22, 1999 1060916 Cong. Record pg. 140915) I submitted an 
account of what has occurred over the past several years of my 
life dating back to 1995 regarding SSAN misuse and erroneous 
enumeration, to others, by the Social Security Administration. 
SSA advised me by letter on Dec. 7, 1995 that SSA had issued my 
SSAN five different times to a person in California. That 
person than used the number for credit fraud. I was in constant 
contact with the Social Security Administration Office of 
Inspector General from February 1996 until last year. I got no 
results until I contacted the United States Congress with a 
complaint.
    Following my Congressional testimony on April 22, 1999, I 
received the attached letter from the Social Security 
Administration OIG. I understand that Congressman Shaw was also 
sent a copy of the letter dated April 28, 1999. (Attach. A)
    Basically, SSA/OIG Baltimore, Md. took the position that 
administrative error took place on the part of their SSA 
District Offices in California, and this had caused the severe 
problems I experienced, and that there was no finding of 
criminal wrongdoing on the part of the person in California. Of 
course, this negated any legal or law enforcement action under 
the new Criminal law. Since Civil action is nearly impossible, 
this left the person in California off the hook.
    Subsequently, following a meeting with the local District 
Office here in Virginia, I received a kind letter apologizing 
for the multiple errors of the Administration, and offering to 
issue a new Social Security Number to myself. After checking 
with a number of financial institutions, including a major CRA, 
I found that in today's information world, changing the SSAN 
would not accomplish anything since there are too many cross 
references and they would certainly cross reference the credit 
file to the new SSAN. Pervasive use of the SSAN has resulted in 
a very tangled web. Thus I remain victimized by misfeasance on 
the part of several SSA California District Offices.

               Review of Social Security Earnings Reports

    When credit fraud and other misuse of my SSAN began, strange things 
showed up on my SSA earnings record. During my years as a Federal 
Employee there was no record of SSA tax, being paid, rather I paid 
about 10 % of earnings into the Civil Service Retirement Fund. Thus, 
erroneous SSA earnings reported would have been obvious on my SSA 
earnings record. There were no errors. However, from 1988 thru 1992 
after leaving Civil Service, I posted earnings in excess of the SSA 
taxable limits, and thus, small amounts posted to my account did not 
show. It is impossible for me to tell if the California person had been 
avoiding tax, or reporting on my SSAN. When I finally retired from 
private industry, it became obvious that small earnings were being 
reported to my SSA earnings account by the person in California.
    As I previously testified, all of this activity occurred in a small 
area of California and seemingly should have been easy for the Social 
Security Administration to fix, given the amount of well documented 
evidence I provided, to the SSA/OIG. It is incomprehensible that the 
Federal Government could not fix the problem. Earnings report errors 
still occur. As recently as April, 10, 2000 there are still erroneous 
earnings for 1998 showing up on my report. My local SSA Office has 
quickly and kindly corrected the intrusion, but I still must wait for a 
formal correction from Office of Central Records, (OCRO) in Baltimore 
to verify the error. I have no idea what happened in 1999 as earnings 
are not yes posted. My local SSA office tells me, nothing yet.
    As a retired Civil Service Federal Employee devoting a career to 
the Federal Government,
    I will never see Social Security benefits under current law, even 
though I am a widower (Survivors) and have paid into Social Security 
(Taxable earnings) for 17 years. This is due to the Windfall 
Elimination Provision (WEP)-AND the Government Pension Offset (GPO) 
laws.
    The major questions in my mind are: how could this happen five 
times if the Privacy Act protected systems of records held by Social 
Security are secure ? Why didn't the SSA Offices in California 
positively identify the person ? The name and date of birth were 
different. I don't need apologies for mistakes. I would just like to 
see the system work, even If I shall never benefit. If all this 
happened thru walk in, accidents/mistakes, I shudder to think what 
would occur with increased access and online access.
    Something seems to be broken, and I submit that tightening issuance 
controls, and restricting access to Social Security numbers would go a 
long ways towards fixing the problem.
    You have my sincere thanks for inviting me to submit testimony in 
this hearing and I look forward to reviewing the Record.

            Robert J. Anderson
    [The attachment is being retained in the Committee files.]
      

                                <F-dash>


Statement of Christopher J. Klicka, Esq., The Home School Legal Defense 
Association, Purcellville, Virginia

    My name is Christopher J. Klicka, and I presently serve as 
Senior Counsel of the Home School Legal Defense Association and 
Executive Director of the National Center for Home Education. 
For the last 15 years, I have worked in the area of 
constitutional and education law--in the courts, state 
legislatures, and Congress. I have litigated many cases 
involving the Free Exercise of religion of parents. I have 
drafted state legislation and testified before state 
legislative committees regarding registration, religious 
freedom, and tax issues. I have worked with dozens of state 
boards and departments of education and thousands of local 
school districts to resolve problems over educational issues 
involving the religious convictions of home school families. I 
also assisted in drafting H.R. 2494.
    The Home School Legal Defense Association is a nonprofit 
legal advocacy organization dedicated to protecting religious 
and parental freedom generally and promoting home schooling 
specifically. We have almost 70,000 member families in all 50 
states at present.
    One of the Home School Legal Defense Association's goals is 
to protect the religious freedom and privacy of home schoolers 
throughout the country. Since 1996, innocent families with 
sincerely-held religious convictions against getting a social 
security number for their children are being forced to pay for 
the exercise of those religious convictions. These families are 
being assessed thousands of dollars in taxes even though they 
have dependent children legitimately qualifying them for 
various tax deductions.

    1996 Amendment to IRS Code Punishes Parents with Sincerely-held 
                         Religious Convictions

    Due to a change in federal law in 1996, a parent is 
required to submit a taxpayer identification number (TIN) for 
each minor being claimed for a deduction or a tax credit on his 
federal income taxes. Because the TIN for an individual is a 
social security number (SSN), this law essentially requires all 
parents to obtain a SSN for their newborn children if they want 
to receive the dependent deduction, the child tax credit, or 
other credits.
    Some families have religious convictions against obtaining 
such a government-issued number (TIN) for a dependent.
    Section 1615 (a)(1) of The Small Business Job Protection 
Act of 1996 amended 26 U.S.C. Sec. 151 authorizing the IRS to 
completely deny the dependency exemption if the dependent's TIN 
is not included on the tax return. The relevant language 
states:
    (e) Identifying information required. No exemption shall be 
allowed under this section with respect to any individual 
unless the TIN of such individual is included on the return 
claiming the exemption. [26 U.S.C. Sec. 151 (e) (1998)].
    Before the addition of this section, a taxpayer who failed 
to supply a dependent's TIN was served a deficiency notice, 
which could be appealed. Now, however, a failure to provide a 
correct TIN is treated like a mathematical or clerical error, 
which cannot be appealed. The taxpayer is simply assessed the 
tax and required to pay without appeal.
    Many innocent families are suffering severe financial 
hardship as a result.

 Why Congress Should Enact the Religious Exemption Created by H.R. 2494

    There are several compelling reasons to support 
congressional action to create a religious exemption from 
providing identifying numbers for dependents. These include the 
following:

1. A minority of law-abiding families with sincerely held 
religious beliefs that make them opposed to obtaining a 
government issued number for their minor children, are 
suffering severe financial hardship.

    Many families have voluntarily forfeited thousands of 
dollars worth of legitimate dependent deductions, rather than 
violate their religious beliefs. These families, who have 
children, are not taking the deductions they are entitled to in 
order to be true to their religious convictions. Other families 
are listing their children on their federal income tax form but 
not obtaining social security numbers for them. These families 
are claiming their legitimate deductions but are being assessed 
thousands of dollars as the IRS disallows their deductions.
    Taxpayers with these sincerely-held religious beliefs are 
being forced to pay for their right to exercise their religious 
beliefs. Thus, the current federal law prohibits these families 
from freely exercising their religion--a fundamental right 
protected by the First Amendment.
    One family with sincerely-held religious convictions was 
forced to take out a second mortgage on their home to pay for 
the taxes assessed against them for the last three years simply 
because the IRS has disallowed their deductions and credits for 
their children. See their personal testimony attached in 
Appendix I). Many innocent families are experiencing nightmares 
has as they are hounded by the IRS for not obtaining social 
security numbers. Other families are not listing their children 
on their income tax and forfeiting their legitimate tax 
deductions and credits.
    We have record of over 150 families being penalized by the 
IRS simply because they have sincerely-held religious 
convictions making it impossible for them to get social 
security numbers for their children.
    Here are excerpts from some of their testimonies collected 
by HSLDA in the last few weeks:
    ``Because of no social security numbers for our eight 
dependent children, the IRS assessed additional tax of $3100.''
                                     --Nathan and Lisa Bach
                                                       Marshall, TX

    ``We live in fear continually that the IRS will send us a 
notice at any time that they will be seizing our hard-earned 
property, or that we will end up in a tax court dominated by 
one-sided legal procedures. . . . We expect that our total 
liability claimed by the IRS will shortly be approaching $3500, 
which would be nearly 20% of our total annual familial income. 
. . . We remain committed to following the Lord rather than the 
dictates of man.''
                                     --Stephen Martin North
                                                    Amity, Maine.''

    ``We are deeply troubled that our religious beliefs 
concerning our children receiving Social Security Numbers are 
being violated by the government. We are being forced to 
compromise our beliefs or pay an exorbitant tax bill which 
amounts to over $7,000 a year for our family. We have paid an 
additional $30,000 in taxes thus far to avoid getting Social 
Security numbers for our children. This is certainly an added 
hardship for our family of seven.
    ``We feel strongly that the requirement demanding we obtain 
numbers for our minor children is both unconstitutional and 
discriminatory in a country which has an heritage of religious 
and personal freedoms. We believe, as Christians, our children 
have been entrusted into our care and that God holds us 
personally responsible for their well-being. It is our belief 
that to number our children marks them as government property 
and forces us to register them in a tracking system as minors. 
We, as parents, believe we have a God-given role to oversee our 
children and provide for them. This is not the role nor 
function of government. Our religious freedoms and personal 
freedoms have been disregarded and violated in this coercion.
    ``We would welcome the opportunity to prove the legitimacy 
of our claim for child exemptions by presentation of birth 
certificates or other means. This is clearly not an issue of 
fraud, but rather deeply held convictions which have been 
overlooked by government policies.''
                                   --Gary and Drenda Keesee
                                                      Mt Vernon, OH

    ``We have two adopted children. They were claimed without 
exception in 1994 and 1995 successfully. However, in 1996 and 
1997 our income tax refund was withheld because they did not 
have social security numbers.
    ``The financial hardship we have suffered from this is over 
since we had to relinquish our beliefs and submit to having our 
children receive numbers. Due to an illness that incapacitated 
my husband we had to get numbers for our kids in order to get 
the necessary funds being withheld by the IRS. This was to 
assist us financially due to his inability to work.
    ``At the time of our compromise the IRS was holding 
$3,040.38 and we received it once we submitted to having 
numbers issued to our children.(We don't understand how these 
numbers prove dependency since the other documents we presented 
were of greater proof).''
                                   --Joe and Sharon Tadlock
                                                      Las Vegas, NV

    ``Close to $3500 is at stake for 1998, and we still don't 
know what is going to happen for 1999.''
                                     --Efrain & Gail Rivera
                                                          Bronx, NY

    ``My wife and I have been married 21 years and have been 
blessed by the hand of God with 7 children. . . . Over the past 
four years, it has cost our family over $16,000 in additional 
taxes, not to mention the additional insult of interest 
penalties. For 1999 alone the increased tax impact was nearly 
$6,400 with the projection for year 2000 being even greater. We 
are not independently wealthy and could use this money as we 
raise the children the Lord has given us.''
                                           --Scott Weurding
                                                        Conklin, MI

    ``Because of our religious convictions, we have not applied 
for social security numbers for our eight children. . . . 
Without the deductions, the IRS requires us to pay $15,200 in 
taxes plus $1,400 in penalties and interest. In addition, at 
the end of March, the IRS levied our checking and savings 
accounts for the entire $16,600 they calculate that we owe. We 
did not have nearly that much. The entire balance of our 
checking and savings accounts were seized, leaving us nothing 
with which to pay our mortgage, groceries, and utility bills. 
We have struggled these past two months to rebuild our credit 
and catch up on our bills, pay all our 'non-sufficient funds' 
fees, and repay those checks that bounced.''
                                   --Andrew and Lynne Spear
                                                           Mesa, AZ

    ``We are pleased to be the parents of ten children. Our 
children have been given to us as blessings from God. We have 
willingly accepted these blessings and the responsibilities 
that come with raising them. We have chosen not to get social 
security numbers for our children because this would seem to be 
taking a precious gift given to us by God and transferring it 
to the government.
    ``Although we have experienced various difficulties related 
to our decision to avoid social security numbers, probably the 
harshest punishment is being taxed as if we were childless. 
Since we believe God expects parents, not baby-sitters or day-
care, to raise children, we live on only one income. 
Fortunately we are able to be quite frugal, but the extra taxes 
we must pay are a definite financial liability.
    ``We calculated the amount of money we have lost since 1996 
and found it to be approximately $21,640. This figure does not 
include the extra taxes we have paid on the state level since 
our state bases exemptions solely on the number claimed on our 
federal return. Such a large amount of money would easily 
replace our aging, rusting family van. Or it could go toward 
the college expenses that are rapidly approaching. We would 
appreciate the passage of-H.R. 2494 as that would allow us to 
obey God and also relieve some of our heavy tax burden as we 
seek to provide for our family.''
                               --Mr. and Mrs. Richard Derby
                                                          Flint, MI

    As Roman Catholics we are morally opposed to obtaining a 
universal identification number for our children. Because the 
IRS has denied the dependency exemption for our children we 
have paid in excess of $22,000.00 in additional tax over the 
past four years.
                                   --David and Claudia Drew
                                                           York, PA

    We agonized as a family over this issue for years. The 
filing of our taxes each year brought stress, wondering at the 
repercussions of again challenging the state system. Our 1996 
tax return was changed by the IRS to indicate that we owed an 
additional $2,292.96, because our children were disallowed as 
deductions, simply because they were not numbered. We were put 
in anguish over what to do to resolve our struggle. Some 
anonymous friends left money for us that was used to pay the 
balance.
                                      --Mark and Pam Holden
                                                     Wampsville, NY

    ``Due to the fact that we are taking a faith stand, it has 
cost us approximately $ 3000.00 per year in lost refunds owed 
to us. Over the last 4 years that adds up to $ 12,000.00 lost 
revenue. . . . The government will count our children for 
census purposes, but will not count our children for our 
refunds just because they don't have social security numbers.''
                                     --Craig and Mary Prena
                                                         Attica, MI

    Our additional tax burden amounts to $2000 per year that we 
cannot claim because we have chosen to not have SS numbers and 
have been unable to obtain any alternative form of 
identification.
                              --Michael and Evelyn Williams
                                                          Akron, OH

2. Courts already allow similar religious exemptions for federal aid 
programs.

    Some federal aid programs require recipients to submit the social 
security numbers of dependents in order to receive the aid. However, 
courts have ruled that individuals who otherwise qualify for these 
benefits could not be denied funds solely because they were religiously 
opposed to obtaining social security numbers for their children. See 
Stevens v. Berger, 428 F.Supp. 896 (E.D.N.Y., 1977), and Callahan v. 
Woods, 736 F.2d 1269 (9th Cir., 1984). Congress should all the more 
allow a religious exemption for families filing their income tax 
returns to keep money that they rightfully earned.

3. A religious exemption would not revoke the current fraud protection 
mechanism.

    The religious exemption proposed in H.R. 2494 would not revoke the 
fraud protection mechanism established in 26 U.S.C. Sec. 151 (e). Any 
taxpayer seeking the religious exemption would be required to include 
birth certificates and medical records to prove the existence of his 
children. In addition, he would be required to submit a sworn affidavit 
with his tax return, explaining his sincerely held religious beliefs.
    Here is one religious family's description of their desire to prove 
the identity of their children and abide by the law.
    ``We have always filed our taxes as accurately, honestly and 
quickly as possible (usually by the first week of February). When we 
discovered that the I.R.S. was no longer considering our children 
dependents for tax purposes we tried everything to satisfy them that we 
were not trying to deceive the government about the number of 
dependents in our home. We sent notarized, certified copies of the 
children's birth certificates to the IRS, only to have them mailed back 
to us. We offered to meet with IRS agents anywhere anytime with our 
complete family so that they could interview us and see that our four 
children truly do exist and that they truly have lived with us for each 
of the 12-month periods in question. The IRS has not responded to this 
offer. . . . Despite all our fear and frustration, we believe that the 
'system' can still work.''
                                     --Stephen Martin North
                                                       Amity, Maine

     The Solution: The Children Tax ID Alternative Act (H.R. 2494)

    HSLDA helped draft a bill to correct this problem, the 
Children Tax ID Alternative Act, H.R. 2494 which is sponsored 
by Congressmen John Hostettler (R09IN) and Bill Goodling 
(R09PA). Under this legislation, families with a religious 
objection will no longer be required to obtain a SSN for their 
children in order to claim them as dependents.
    In lieu of a government-issued number, this bill requires a 
religious objector to produce several items:
     1. A sworn affidavit from the parents describing their own 
religious belief;
    2. An affidavit from a non-relative vouching that the 
children being claimed as dependents are indeed the parent's 
children;
    3. Two other articles showing the relationship of the 
dependent to the taxpayer. The article choices include a birth 
certificate, medical records, insurance records or school 
records.

       Other Reasons This Amendment (H.R. 2494) Should Be Enacted

     1. The religious objector retains the burden of proof.
    2. Granting this religious exemption will not cause the 
loss of legitimate government revenue. These families have 
children and are entitled to money that is rightfully theirs--
not the government's.

                               Conclusion

    Families who qualify for a dependent deduction should be 
allowed to take this deduction even though they have an 
objection to the assignment of SSNs to their minor children. 
The policy of the United States should be to grant tax 
deductions on the basis of physical children in a family--not 
on the basis of identifying numbers in a family. The IRS is 
always able to challenge the truthfulness of any deduction. 
Should fraud be found, stiff penalties should be assessed.
    Supporting H.R. 2494 will advance religious freedom and 
provide a minority of families the legitimate tax relief to 
which they are entitled. We need to stop making families pay to 
protect their religious beliefs.

                               APPENDIX A

    It is my conviction that children are the God-given 
responsibility of their parents; that they do not have an 
independent status in relationship to the state; and that an 
identification number assigns control over our children in a 
way that compromises the separation of secular and parental 
authority, causing us to relinquish part of our accountability 
to answer to God for our children. The identification number 
foreshadows intrusive government action, and also echoes the 
horrible history of political regimes of totalitarianism. God 
expects us to protect our children and interpose ourselves for 
them, for example, by mediating the role of government in their 
lives as minor children.
    The hardship of consistency to these convictions is 
extreme. It is very difficult to try to live up to both our 
responsibility of paying taxes in obeying the law, and our 
responsibility to what conscience decrees toward the children. 
The stress that we endure financially is troubling, as well.
    Here is the pertinent financial situation:





1997..............................................................                         Calculated ta$161.00d
                                                                     Adjusted tax bill owed           $2,340.56
1998..............................................................                         Calculated ta$511.00d
                                                                              Adjusted bill           $7,872.49
1999..............................................................                         Calculated ta$720.00
                                                                              Adjusted bill           $7,000.00
                                                                                (estimated)
Total additional tax..............................................  (excluding the refunds,          $17,213.05
                                                                            interest, etc.)


    Last November, we took a second mortgage on our home; one 
of the main reasons was to become current and pay in full our 
1997 and 1998 taxes. Please help us by passing this 
legislation.
                                                Rinnie Lind
            Respectfully Submitted
                                      Christopher J. Klicka
                                                     Senior Counsel
                              Home School Legal Defense Association
                                                        PO Box 3000
                                             Purcellville, VA 20134
      

                                <F-dash>


Statement of Gil Hyatt, Las Vegas, Nevada

    Thank you for this opportunity to present a written 
statement for the record of hearings before the House Ways and 
Means Subcommittee on Social Security on the ``use and misuse 
of social security numbers.'' While there are many aspects to 
this issue and many examples of violations of safeguards to 
protect social security numbers, I would like to highlight for 
the subcommittee a growing and potentially out of control 
problem dealing with State taxing agencies. Across the country 
there is a growing problem with inappropriate disclosure and 
misuse of social security numbers, as well as other private 
information, by State taxing agencies, like the California 
Franchise Tax Board (``FTB'').

 I. State Taxing Agencies are Indiscrimnately Disclosing and Misusing 
                   Taxpayer's Social Security Numbers

    The task of keeping one's social security number private is 
much more difficult in today's world where the number is used 
for a myriad of purposes. As a universal identification number, 
the social security number has taken on a role much greater 
than that for which it was ever intended. While individuals can 
choose whether or not to disclose their social security numbers 
to businesses or other individuals, these same individuals 
cannot control a state taxing agency's use and disclosure of 
their social security number as well as any other Federal tax 
information. In the past, Congress has passed legislation 
intended to ensure that steps be taken to ensure that a 
taxpayer's Federal tax information (most relevantly, a 
taxpayer's social security number) is kept confidential by all 
who receive such information. Under existing law, the IRS can 
share its taxpayer information with state tax agencies and 
others so long as those agencies abide by certain rules that 
protect confidential taxpayer information.
    Even though Congress reformed the IRS with the Internal 
Revenue Service Restructuring and Reform Act of 1998 to protect 
taxpayers' rights and confidentiality, state taxing agencies, 
guilty of similar types of abuses that provoked Congressional 
reform of the IRS, have nevertheless resisted such reform 
measures. Many states use the same type of abusive tactics for 
which their federal counterpart--the IRS--was reprimanded by 
Congress. The state taxing agencies, however, have gone even 
further than the IRS ever dared to go by exacting revenue from 
non-residents using tax assessments that are significantly 
increased by ill-supported penalties. In making such 
assessments, state taxing agencies use Federal tax return 
information (including a taxpayer's social security number) 
without regard for its confidentiality. In a recently published 
study, the Joint Committee on Taxation highlighted the growing 
problem of breaches of confidentiality of Federal tax returns 
and return information by state tax agencies.\1\
---------------------------------------------------------------------------
    \1\ See Joint Committee on Taxation ``Study of Present-Law Taxpayer 
Confidentiality and Disclosure Provisions as required by Section 3802 
of the Internal Revenue Service Restructuring and Reform Act of 1998,'' 
January 28, 2000.
---------------------------------------------------------------------------
    As the Joint Committee on Taxation report clearly shows, 
state and local tax agencies have little if any respect for the 
safeguards put into place by Congress to protect the 
confidentiality of a taxpayer's social security number. No 
state taxing agency is more guilty of wrongful disclosure of a 
taxpayers' social security numbers than the California 
Franchise Tax Board (``FTB'').\2\ Set forth below is a 
description of personal experiences evidencing the misuse of 
social security numbers by the FTB.
---------------------------------------------------------------------------
    \2\ The FTB is the agency that collects income taxes for the state 
of California.
---------------------------------------------------------------------------

II. Examples of Misuse of Confidential Taxpayer information (including 
                  Social Security Numbers) by the FTB

    An independent observation of personal experiences with the 
FTB would suggest that no information, including social 
security numbers, is confidential to the FTB. As an example, 
during the course of a typical state tax residency audit, the 
FTB will promise that the confidentiality of a taxpayer's 
information is protected by California law in order to induce 
taxpayers to disclose such confidential information. Then, the 
FTB later creates reasons why the confidential information is 
no longer confidential. As part of this pattern, the FTB then 
unilaterally declassifies and, without even notifying the 
taxpayer, publicly discloses the confidential information, 
which includes a taxpayer's social security number.
    In one particular case, the FTB was performing a residency 
audit on a wealthy Nevada resident who is well-known for his 
innovations in computer technology. The Nevada resident is 
justly protective of the location of his office and research 
lab in view of the industrial espionage that is rampant in the 
industry marketplace and in view of the established danger from 
stalkers and other predators. He has taken great care to keep 
the address of his home, office, and research lab secret to 
protect against industrial espionage and stalking, including 
purchasing the property through a trust and taking other 
precautions so that his name was not connected with the 
property. He gave the private address to the FTB only after the 
FTB provided assurances that it would keep it strictly 
confidential and that California law made it a crime for the 
FTB to disclose such information.
    Then, without notice to the Nevada resident and with total 
disregard for his privacy, safety, and confidentiality, the 
FTB, within weeks, began indiscriminately broadcasting the 
private address along with the taxpayer's social security 
number to the very entities from whom the Nevada resident 
sought to keep the private address confidential. The FTB sent 
out formal Demands for Information (quasi-subpoenas) to 
newspapers and to other public entities that keep large 
databases of information on citizens which contained the 
individual's private social security number. See attached copy 
of the FTB's Demand for Information (with the confidential 
taxpayer information having been redacted for this copy, but 
which was not redacted in the original).
    These quasi-subpoenas disclosed the Nevada resident's name, 
social security number, and his non-public residence address to 
the very entities from which he sought to be protected. This 
without even noticing, servicing, or informing the Nevada 
resident or his attorney that such quasi-subpoenas were being 
sent out, thereby depriving him of his legal right to take 
legal action to quash these fraudulent quasi-subpoenas. After 
unilaterally declassifying and indiscriminately disclosing to 
the public the Nevada resident's confidential information, 
including his social security number and private residence 
address, the FTB defended its disclosure by stating that it 
needed to disclose the confidential information (even though 
the FTB could have obtained the information it sought from the 
Nevada resident himself).
    When challenged about this disclosure of confidential 
information, the FTB attempted to justify its disclosure of the 
Nevada resident's confidential taxpayer information by alleging 
that the confidential information was not confidential because 
it could be found in the public domain (even though the FTB 
never found the information publicly). The FTB asserts that 
because the Nevada resident's social security number could be 
found in an obscure public court filing, it need not be kept 
confidential. Such a position not only represents a ``crass 
legal fiction'' \3\, but is also contrary to federal ase law--
``a clear privacy interest exists with respect to such 
information as names, addresses, and other identifying 
information even if such information is already available on 
publicly recorded filings.'' \4\ The court cited for support 
the Supreme Court's notation in United States Dept of Defense 
v. Federal Labor Relations Auth. that ``an individual's 
interest in controlling the dissemination of information 
regarding personal matters does not dissolve simply because 
that information may [already] be available to the public in 
some form'' \5\. The court also cited the Supreme Court's 
conclusion in U.S. Dept of Justice v. Reporters Comm. for 
Freedom of the Press that ``the fact that 'an event is not 
wholly private does not mean that an individual has no interest 
in limiting disclosure or dissemination of the information.'' 
\6\
---------------------------------------------------------------------------
    \3\ Briscoe v. Reader's Digest Association, Inc., 4 Cal. 3d 529, 
539 (Cal. 1971) (``It would be a crass legal fiction to assert that a 
matter once public never become private again.'')
    \4\ Abraham & Rose v. U.S., 138 F.3d 1075, 1083 (6th Cir. 1998) 
(footnote omitted).
    \5\ Id. (quoting 510 U.S. 487, 500, 127 L. Ed. 2d 325, 114 S. Ct. 
1006 (1994) (alteration in original)).
    \6\ Id. (quoting 489 U.S. 749, 770, 103 L. Ed. 2d 774, 109 S. Ct. 
1468 (1989).
---------------------------------------------------------------------------
    In the case of the attached Demand for Information form 
letter, the FTB clearly lists the taxpayer's social security 
number in the upper-right hand corner of this form, which 
indicates that the FTB always sends out this form letter with 
the social security number disclosed. There is absolutely no 
reason why the Las Vegas Sun--a widely distributed public 
newspaper--needs to see the taxpayer's social security number 
in order to answer the FTB's queries. If the FTB needs some 
method of keeping track of cases, the agency can easily assign 
each taxpayer under audit a case identification number--this 
would accomplish the FTB's goal of keeping track of a taxpayer 
without unlawfully disclosing the taxpayer's confidential 
social security number to the public.
    In the case of the Nevada resident, the FTB had also made 
specific promises that it would not disclose the taxpayer's 
private address. Nevertheless, the attached Demand for 
Information clearly equates the Nevada resident with the 
address--in direct violation of the FTB's promises of 
confidentiality toward the Nevada resident. The FTB could have 
easily divided its demand letters into two--the first one sent 
to the Las Vegas Sun asking for any and all records regarding 
the taxpayer (without any mentioning of a social security 
number, without stating that it was for an investigation into 
the taxpayer, and without stating a specific address) and the 
second one sent to the Las Vegas Sun asking for any and all 
records regarding newspaper subscriptions at XXX address 
(without any mentioning of a social security number, without 
mentioning the taxpayer's name, and without stating that it was 
for an investigation into the taxpayer). This would accomplish 
the FTB's goal of getting the information it wants (even though 
it could have just as easily received such information from the 
Nevada resident himself) and would also keep the Nevada 
resident's identity as a subject of investigation, his social 
security number, and his address confidential (as the FTB is 
required to do anyway and explicitly agreed to do in the case 
of the Nevada resident).
    The FTB does not just disclose this confidential 
information accidentally or discretely. While the FTB asserts 
that these quasi-subpoenas are intended only to demand 
information from uncooperative third parties, the FTB has 
adopted another use for them--as tools for embarrassing and 
intimidating the taxpayer and disclosing the taxpayer's 
confidential information by indiscriminately sending them out 
in mailings. In fact, the FTB is very direct in using the 
aforementioned intimidating Demands for Information form to 
indiscriminately disclose a taxpayer's confidential information 
and at the same time cast the taxpayer in a bad light and 
getting the recipient's attention due to its formal, criminal-
investigation type format. The Demand clearly states that it is 
``In the Matter of: &lt;insert name here&gt;'' and that the 
information ``will be used by this department for 
investigation, audit or collection purposes pertaining to the 
above-named taxpayer for the years indicated.'' The FTB could 
have easily requested information from the Las Vegas Sun 
without plastering the taxpayer's name all over the Demand. As 
suggested above, cases can be assigned case numbers for 
reference purposes and need not place taxpayers under such 
obvious suspicion by putting their name at the top of the 
Demand. The form would still accomplish its objectives were the 
name not on the Demand. The only purpose served by putting the 
subject's name on the Demand is to raise suspicion in the 
recipient's mind regarding the subject taxpayer.
    Because first requesting information directly from the 
taxpayer (as required by California Civil Code Sec. 1798) would 
not be intimidating or embarrassing enough to accomplish its 
purpose, the FTB instead prefers to break the law and go 
directly to third parties in the most intimidating way for the 
taxpayer. In the case of the Nevada resident, the FTB located a 
check made out to a Dr. Shapiro; but instead of asking the 
Nevada resident for information on this Dr. Shapiro, the FTB 
located six Dr. Shapiros in the telephone book and sent out the 
aforementioned quasi-subpoenas to all of them, thereby 
informing a group of professionals that the Nevada resident was 
under investigation, focusing more attention on him, and 
causing him even greater exposure and embarrassment. This in 
addition to the quasi-subpoenas sent by the FTB to several 
newspapers on a ``fishing expedition'' calculated to cause the 
victim even more exposure and embarrassment while disclosing 
his confidential information. Both of theses examples show how 
the FTB uses confidential taxpayer information (including 
social security numbers) to intimidate taxpayers in order to 
exact improper tax assessments.
    The FTB's official position is that a taxpayer's 
confidential information is protected under California law but 
that the FTB can disclose the confidential information 
(including commingled Federal tax information and social 
security numbers) at its sole discretion without even notifying 
the taxpayer or giving the taxpayer an opportunity to challenge 
the declassification. Hence, confidentiality is all at the 
self-serving discretion of the FTB and the FTB is bent on 
public disclosure of taxpayer information to intimidate 
taxpayers to settle. In the case of the aforementioned Nevada 
resident, the FTB assessed millions of dollars in false 
penalties and made millions of dollars worth of intentional 
errors in income calculations consistent with the FTB's 
established practice of significantly increasing assessments in 
preparation for settlement negotiations. Then, when the Nevada 
resident refused to submit to this practice, the FTB threatened 
that his confidential personal information would become public 
if he didn't settle like other citizens do--taxpayers usually 
settle at the protest stage to keep their private information 
from becoming public. The FTB has been accused of extortion and 
fraud as a result of this methodology.
    The FTB is guilty of regularly revealing confidential 
Federal tax information (and social security numbers) in a 
public forum. In court papers submitted by the FTB to the SBE 
\7\, the FTB routinely attaches its NPAs (Notice of Proposed 
Assessments) to the briefs without redacting the taxpayer's 
social security number (which is predominantly displayed on 
each of the NPAs sent out by the FTB). See the 52 pages of 
Federal tax return information that were attached to the FTB's 
Supplemental Brief.\8\
---------------------------------------------------------------------------
    \7\ The SBE is the California State Board of Equalization, the 
agency that hears the administrative appeals from the decisions of the 
FTB.
    \8\ See, e.g., In the Appeal of Paine/Norton, 98A090741, Case No. 
89002467180, California State Board of Equalization decision at 4 
(October 7, 1999) (emphasis added).
---------------------------------------------------------------------------
    The FTB is so blatant in its disregard for the taxpayer's 
confidential Federal tax information that it, without 
hesitation, discussed specific monetary figures on the 
taxpayer's tax return: ``As a result, appellants [sic] asserted 
that only $127,113 of their total federal adjusted gross income 
of $772,850 for 1990 was California income subject to tax in 
this state.'' \9\ ``Reported on the federal return is Schedule 
C income in the amount of $164,435.00. . . . Also reported on 
the federal return is partnership income in the amount of 
$567,446.00.'' \10\ This material was supplied by the FTB to 
the SBE without any confidentiality statement or motion to seal 
the Federal tax information records and this Federal tax 
information is now available to the public.\11\
---------------------------------------------------------------------------
    \9\ See, e.g., Id. (emphasis added).
    \10\ See, e.g., Id. in the letter from the FTB to Mr. Paine dated 
January 20, 1994 and included as part of the public record available to 
the public from the SBE (emphasis added).
    \11\ The file of the Appeal of Paine/Norton was ordered from the 
SBE and was supplied by the SBE without any form of confidentiality 
notation.
---------------------------------------------------------------------------

 III. Social Security Numbers are the Least of the FTB'S Unscrupulous 
                                Actions

    The FTB is one of many state taxing agencies which relies 
upon IRS information for its taxing activities. But California 
tax law has not been conformed with the Internal Revenue 
Service Restructuring and Reform Act of 1998. Thus, while the 
IRS collects taxes from taxpayers now protected under the 
reformed provisions, the FTB continues to reek havoc on 
unsuspecting taxpayers, held only to its own un-reformed, self-
serving standards. Even worse, the FTB does not even follow its 
own un-reformed standards, blatantly violating California laws 
with impunity.
    The FTB has been violating both Federal law and even 
California law for so long under the guise of assessing and 
collecting taxes that it cannot be expected to comply with the 
new more stringent Federal laws on confidentiality of Federal 
tax information (and social security numbers).\12\
---------------------------------------------------------------------------
    \12\ Federal tax returns and return information (FTI). See OMB No. 
1545090962 at 1.
---------------------------------------------------------------------------
     Also, the FTB is so submerged in a culture of bad faith 
and fraudulent behavior that it cannot be expected to comply 
with laws that are based on good faith relationships with 
taxpayers. Hence, regardless of the lip-service paid by the FTB 
concerning the confidentiality of a taxpayer's information, the 
FTB is incapable of providing the safeguards necessary to 
protect not only shared IRS tax return information (including 
social security numbers) but also the FTB's own taxpayer 
information that it is legally required by statute to keep 
confidential.
    An agency whose actions are based upon bad faith taints all 
who cooperate with it in its deeds. The FTB's record of bad 
faith is reason alone for it to be excluded from receiving IRS 
information and social security numbers. This kind of state tax 
agency cannot be trusted with confidential Federal tax 
information and social security numbers. Before the IRS shares 
information with such a state agency, the law should require 
that the Federal tax information be used only in cases where 
the state agency is acting in good faith and in compliance with 
its own state laws as well as Federal laws. Any evidence that a 
state tax agency is using Federal tax information and social 
security numbers in conjunction with any kind of improper and/
or illegal state tax activities should be grounds for immediate 
suspension of any sharing by the IRS with that state tax 
agency.
    The improper acts of the FTB involve both Federal tax 
information as well as state tax information. The FTB auditors 
are untrained, inexperienced, and unsupervised and do not 
distinguish between different types of information. They 
intermingle tax information and social security numbers of 
different citizens in the same audit file and produce it to 
citizens who do not have a right to access the other taxpayer's 
tax information.
    The FTB auditors indiscriminately disclose confidential tax 
and social security information to associates that do not have 
a need to know. For example, one FTB auditor seeking peer 
approval and attention distributed her narrative, which 
described the confidential issues and details of the Nevada 
resident's audit (the largest in residency-audit history at the 
time) to her associates. This type of disclosure is prohibited 
by both the Taxpayer Browsing Protection Act and by common 
sense.
    This same auditor visited that Nevada resident's private 
residence with her friend out of curiosity, to take ``trophy'' 
photographs of the private residence, to improperly rummage 
through garbage, and to trespass and investigate the private 
property. The auditor was no longer involved in the audit at 
the time, she had no right to continued activities thereon, and 
her friend had not been involved in the audit or had no right 
to be involved.
    The FTB indiscriminately discloses or at times threatens to 
disclose confidential information publicly as a tool in forcing 
taxpayers to give up on or settle tax controversies. In one 
case, knowing of a particularly need for privacy, the FTB made 
a promise to keep information confidential and then, 
immediately after this promise, the FTB disclosed such 
confidential information in order to intimidate the Nevada 
resident to extort him of multi-millions of dollars in taxes, 
interest, and penalties. The FTB was convinced that he was very 
concerned about his privacy and that such public disclosure 
would force him to settle an unjust assessment. The common name 
for this type of tactic is extortion.
    The FTB sends out letters to Federal officials, 
postmasters, to find out the taxpayer's forwarding address. But 
these letters, which were signed by the head of the FTB, made 
false certifications to the Federal officials. These letters 
certified that the FTB had exhausted all other avenues to 
obtain the taxpayer's address information. But the FTB had 
already received this information--from the taxpayer himself. 
More relevant here is the fact that this address that the FTB 
was investigating was the same address that was on the IRS tax 
return information shared with the FTB. The issue is that the 
FTB got information from the IRS that the IRS considers to be 
confidential, yet the FTB comes up with reasons that they 
should not keep it confidential. Accepting taxpayer address 
information (and social security number information) from the 
IRS requires the FTB to comply with Federal laws regarding the 
treatment of such information, otherwise the FTB's hair-
splitting will extend to even more blatant violations of the 
IRS tax return sharing laws.
    In one particular case, the FTB continued to refuse to 
disclose the Nevada resident's tax records to him (which he has 
a right to see under California law) but the FTB 
indiscriminately disclosed other citizens' tax records to the 
taxpayer that he did not at the time have a right to see and 
the FTB indiscriminately discloses the Nevada resident's tax 
records to others that do not have a right to see. The FTB 
habitually uses private and detailed taxpayer information for 
training materials that the FTB makes available to the public. 
The FTB changes the last names to something seemingly innocuous 
(such as to James H. Taxpayer), but the audit information 
provided by the FTB is so specific and so detailed that the 
real name and address of James H. Taxpayer was found within 15 
minutes--it was as simple as ordering and looking through a 
phone book.
    A state tax agency that would is involved with any of the 
aforementioned illegal acts cannot be trusted with confidential 
Federal tax information and social security numbers. Although 
the Federal statutes and guidelines do not expressly require 
any state tax agency to act in good faith on taxpayer matters, 
a state tax agency that acts in bad faith cannot be relied on 
to protect the confidentiality of Federal tax information and 
social security numbers. In fact, the Federal statutes and 
guidelines require competence and imply good faith, but the FTB 
shows neither when it is focused on exacting large assessments 
from former California residents.
    California requires taxpayers to disclose to the FTB the 
Federal tax information (and social security numbers) from 
their Federal income tax return. The FTB then uses this 
information in its audits and publicly discloses it (such as in 
appeals to the SBE). Therefore, regardless of the protections 
that the IRS provides for Federal tax information in order to 
encourage taxpayers to provide the IRS with all tax 
information, taxpayers will be reluctant to provide the IRS 
with such information because states like California require 
taxpayers to provide them that Federal tax information (and 
social security numbers), but do not protect its 
confidentiality as the IRS is required to do. Because the IRS 
promises taxpayers that Federal tax information will be kept 
confidential, it is improper for the FTB to require taxpayers 
to disclose this confidential information without proper legal 
process. State taxing agencies should not be permitted to 
require taxpayers to disclose Federal income tax information 
without legal process, and even then such information should be 
treated with the same respect to confidentiality as does the 
IRS.

       IV. Congress' Role in Reforming Abusive State Tax Agencies

    The FTB has been abusive and aggressive in its state taxing 
activities and the IRS is being made an unwitting party to the 
abuse. An agency that indiscriminately and intentionally uses 
and misuses social security numbers and undertakes other such 
illegal tactics as described above should not be trusted with 
Federal tax information and social security information until 
it has been reformed.
    Instead of acknowledging the abuses and instituting reforms 
after being alerted to them, the FTB continues with the illegal 
activities. These include continuing illegal disclosure of 
confidential information (and social security numbers), 
falsification of official tax records, illegal destruction of 
important litigation-related documents, improper disclosure of 
other taxpayer's information, and much much more. The FTB 
practices the most abusive and often illegal tax collecting 
methods imaginable. Clearly, the FTB cannot be trusted to 
protect the confidentiality of Federal tax information and 
social security numbers.
    Congress has a strong interest in the policies and 
procedures of the state tax agencies because the IRS shares its 
Federal tax information with the state tax agencies. Internal 
Revenue Code Sec. 6103(a) makes it clear that state employees 
with access to Federal tax return information shall keep such 
information confidential and may not disclose it to anyone 
except for those properly authorized to view such information. 
Because Federal tax information is what is being shared, 
Congress must insure that the shared tax information (including 
social security numbers) is protected to the same degree called 
for by Federal law and state tax agencies must be held to the 
same standard to which the IRS is held regarding Federal tax 
information. Congress should also insure that the IRS reforms 
are not tainted by abusive state tax agencies misusing Federal 
tax information and social security numbers. Furthermore, 
Congress should also insure that the IRS is not tainted by 
associations with abusive state tax agencies acting in bad 
faith in exacting improper taxes.
    State tax agency reform can be easily accomplished by 
Congress. All state tax agencies receiving IRS information 
should be required to adopt and abide by the taxpayer 
protection reforms present in the Internal Revenue Service 
Restructuring and Reform Act of 1998 as a prerequisite for 
obtaining Federal tax information from the IRS. Because most 
state tax agencies are dependent on Federal tax information 
obtained from the IRS for administering their own tax programs, 
they will most likely agree to conform to the Federal statutes 
in order to continue to obtain Federal tax information and 
social security number information if mandated by Congress.

V. Conclusion

    State taxing agencies (including California's FTB) have a 
record of misusing confidential taxpayer information (including 
social security numbers) and have been found to violate well-
intended safeguards to protect such information by a study of 
the Joint Committee on Taxation. Accordingly, Congress should 
take action to prevent such abuse, including directing the IRS 
to cease sharing tax return information (and social security 
numbers) with any state tax agency, such as the FTB, that 
abuses such information or violates such safeguards. These 
actions should be mandated until the abuses have been 
rectified, the agencies have taken appropriate measures to 
prevent future abuses, and the state statutes have been 
conformed with the Federal IRS statutes regarding taxpayer's 
rights. Furthermore, a Treasury Department investigation and a 
Congressional investigation by the GAO should be conducted to 
ascertain the scope of the egregious and illegal conduct of 
state agencies, including the FTB, and to determine the degree 
to which confidential Federal tax information and social 
security numbers have been inappropriately and illegally 
misused.
[GRAPHIC] [TIFF OMITTED] T8072.001

      

                                <F-dash>


Statement of Kent Snyder, Executive Director, Liberty Study, Falls 
Church, Virginia

    Ludwig von Mises, economist and true champion of liberty, 
concluded that with respect to political and economic systems, 
one can choose either totalitarianism or capitalism--there is 
no middle ground. Few issues demonstrate the justification for 
his conclusion so clearly as does that of privacy protection.
    The premise of Mises' argument was that interventionism 
necessarily begets interventionism as the negative effects of 
government's initial intervention become the justification for 
each of the subsequent interventions. For example, when 
government establishes a minimum wage above the market wage, 
that class of employees whose marginal product is below the 
artificially established minimum wage become legally 
unemployable, and, hence in ``need'' of governmental support. 
Of course, government's subsequent response to then support 
every unemployed member of society at some subsistence level 
creates yet another incentive for more intervention when those 
actually working to achieve that level of subsistence realize 
it can be achieved without continuing their efforts. Of course, 
this privacy hearing is not exactly about the minimum wage but 
rather whether government should intervene yet again to remedy 
the negative consequences of its prior, privacy-destructive 
intervention or whether they should properly recognize 
themselves as the source of the malaise and repeal the prior 
intervention.
    In America's Great Depression, economist Murray Rothbard 
explains how massive federal intervention into the monetary 
sphere (contrary to the usual tripe proffered regarding 
``unbridled capitalism'' causing the depression) served as the 
intervention that sent this country into the throws of the 
great depression. Among the subsequent and numerous 
interventions to remedy the negative effects of governmental 
monetary mischief, was the Social Security Act, a bill which 
after nearly one hundred and fifty years of history to the 
contrary, ``relieved'' citizens of the individual 
responsibility for providing for their own financial futures 
and those of their family members. Of course, as Mises 
understood and explained, these interventions were the natural 
result of the negative consequences triggered by interference 
in the monetary sphere.
    Because individual and private accounts would no longer be 
the means by which most savers provided for their financial 
futures and as though money was actually being placed by 
government into individual accounts for those without the 
requisite self-discipline to provide for their own future 
financial well-being, every participant in the system was 
ultimately issued a Social Security ``Account Number.'' 
Although the Congress that created the Social Security system 
in no way intended to create a national identifier, a 
subsequent executive order by President Roosevelt authorized 
the use of the Social Security number as a standard federal 
identifier.
    In the name of ``protecting'' the taxpayer against 
government inefficiency and various forms of fraud, government 
took subsequent steps to further establish the SSN as a uniform 
identifier. For example, where military members once used their 
military serial number, this was replaced by the Social 
Security number as a standard identifier. Additionally, the 
Bank Secrecy Act of 1970 generated regulation requiring the 
collection of Social Security Numbers by banking institutions. 
When, at a minimum, banks were mandated by government to use at 
least that number and to preserve scarce data resources and 
avoid duplicity of records, financial institutions naturally 
adopted the social security number as their record number of 
choice.
    In response to concerns about the widespread use of the 
SSN, Congress passed the Privacy Act of 1974, but, 
unfortunately, the language of the Privacy Act allows Congress 
to require the use of the Social Security number at will. In 
fact, just two years after the passage of the Privacy Act, 
Congress explicitly allowed state governments to use the Social 
Security number as an identifier for tax collection, motor 
vehicle registration and drivers' license identification. The 
federal government has also compelled extensive disclosure and 
use of the Social Security number in its labor, medical, and 
education databases.
    Given that government, to accommodate its own prior 
interventions, has not only facilitated but compelled the 
creation of a massive tool for privacy invasion, government is 
now, of course, presented with the question of whether to undo 
at least some of the prior intervention or use the culmination 
of negative effects of all these prior interventions to, yet 
again, intervene further in the liberty and private dealings of 
individuals.
    The Liberty Study Committee supports what is the only 
proper response to this question: eliminate the proliferation 
of the government-instilled, privacy-destroying tool--the 
Social Security Account Number. While it certainly does not 
return government to its proper role and restore responsibility 
for saving to individuals, The Freedom and Privacy Restoration 
Act, H.R. 220, introduced by Representative Ron Paul, would 
limit the use of the Social Security number to the Social 
Security system administration, and is an important step in the 
right direction of at least protecting the privacy of 
individuals. Without question, certain inefficiencies will 
necessarily result in limiting the use by government of this 
number but, first and foremost, we must not forget that 
government's primary role must be to preserve individual 
liberty rather than ``efficiently'' run government programs, 
many of which lack constitutionally legitimacy in any case.
    Under no circumstances should the government use their very 
own government-created privacy crisis as a justification to 
restrict what private individuals do or don't do with their 
private information (even to include release of their own 
Social Security number). As much as free speech includes the 
right to be still, inherent to privacy is the right to share or 
not share private information with those of one's own choosing.
    Government has, in essence, turned the notion of privacy 
protection on it's head with proposals to limit information 
sharing by private individuals while compelling disclosure to 
government by those very same individuals. I hope this Congress 
will recognize and, thus, not fall prey to the ``intervention-
begets-intervention'' recognized by Mises and, as such, not 
move our nation yet another step further down the road to 
totalitarianism.

                                   - 

</pre></body></html>
